APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A En Banc and Dissenting Opinions in
the United States Court of Appeals for
the Ninth Circuit
(January 27, 2020) . . . . . . . . . . . . App. 1
Appendix B Opinion and Dissenting Opinion in the
United States Court of Appeals for the
Ninth Circuit
(September 12, 2018) . . . . . . . . App. 256
Appendix C Amended Findings of Fact and
Conclusions of Law in the United
States District Court for the District of
Arizona
(May 10, 2018). . . . . . . . . . . . . . App. 389
Appendix D Judgment in a Civil Case in the
United States District Court for the
District of Arizona
(May 8, 2018). . . . . . . . . . . . . . . App. 507
Appendix E Order in a Civil Case in the United
States District Court for the District of
Arizona
(May 8, 2018). . . . . . . . . . . . . . . App. 509
Appendix F Constitutional and Statutory
Provisions Involved. . . . . . . . . . App. 541

ii
Appendix G Brief for the United States as Amicus
Curiae in Support of Appellees on
Rehearing En Banc and Supporting
Affirmance in the United States Court
of Appeals for the Ninth Circuit
(February 15, 2019) . . . . . . . . . App. 550
Appendix H Defendant-Appellee Arizona Attorney
General Mark Brnovich’s Motion to
Take Judicial Notice in the United
States Court of Appeals for the Ninth
Circuit
(March 14, 2019) . . . . . . . . . . . . App. 581
Exhibit A to Motion - North Carolina
State Board of Elections’ March 13,
2019 Order in In re Investigation of
Election Regularities Affecting
Counties Within the 9th Congressional
District. . . . . . . . . . . . . . . . . . . . App. 586
Appendix I Excerpts from Arizona Election
Procedures Manual
(June 2014) . . . . . . . . . . . . . . . . App. 631
Appendix J Order in the United States Court of
Appeals for the Ninth Circuit
(February 11, 2020) . . . . . . . . . App. 636
Appendix K Order in the United States Court of
Appeals for the Ninth Circuit
(April 9, 2020) . . . . . . . . . . . . . . App. 638

App. 1

APPENDIX A
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-15845
D.C. No. 2:16-cv-01065-DLR
[Filed January 27, 2020]
___________________________________
)
THE DEMOCRATIC NATIONAL
COMMITTEE; DSCC, AKA Democratic )
Senatorial Campaign Committee;
)
THE ARIZONA DEMOCRATIC PARTY,
)
Plaintiffs-Appellants,
)
)
v.
)
)
KATIE HOBBS, in her official
)
capacity as Secretary of State of
)
Arizona; MARK BRNOVICH, Attorney )
General, in his official capacity as
)
Arizona Attorney General,
)
Defendants-Appellees,
)
)
THE ARIZONA REPUBLICAN PARTY;
)
BILL GATES, Councilman; SUZANNE
)
)
KLAPP, Councilwoman; DEBBIE
LESKO, Sen.; TONY RIVERO, Rep.,
)
Intervenor-Defendants-Appellees. )
___________________________________ )

App. 2
OPINION
Appeal from the United States District Court
for the District of Arizona
Douglas L. Rayes, District Judge, Presiding
Argued and Submitted En Banc March 27, 2019
San Francisco, California
Filed January 27, 2020
Before: Sidney R. Thomas, Chief Judge, and
Diarmuid F. O’Scannlain, William A. Fletcher,
Marsha S. Berzon*, Johnnie B. Rawlinson, Richard R.
Clifton, Jay S. Bybee, Consuelo M. Callahan,
Mary H. Murguia, Paul J. Watford, and
John B. Owens, Circuit Judges.
Opinion by Judge W. Fletcher;
Concurrence by Judge Watford;
Dissent by Judge O’Scannlain;
Dissent by Judge Bybee

*

Judge Berzon was drawn to replace Judge Graber. Judge Berzon
has read the briefs, reviewed the record, and watched the
recording of oral argument held on March 27, 2019.

App. 3
SUMMARY**
Civil Rights
The en banc court reversed the district court’s
judgment following a bench trial in favor of defendants,
the Arizona Secretary of State and Attorney General
in their official capacities, in an action brought by the
Democratic National Committee and others
challenging, first, Arizona’s policy of wholly discarding,
rather than counting or partially counting, ballots cast
in the wrong precinct; and, second, House Bill 2023, a
2016 statute criminalizing the collection and delivery
of another person’s ballot.
Plaintiffs asserted that the out-of-precinct policy
(OOP) and House Bill (H.B.) 2023 violated Section 2 of
the Voting Rights Act of 1965 as amended because they
adversely and disparately affected Arizona’s American
Indian, Hispanic, and African American citizens.
Plaintiffs also asserted that H.B. 2023 violated Section
2 of the Voting Rights Act and the Fifteenth
Amendment to the United States Constitution because
it was enacted with discriminatory intent. Finally,
plaintiffs asserted that the OOP policy and H.B. 2023
violated the First and Fourteenth Amendments
because they unduly burden minorities’ right to vote.
The en banc court held that Arizona’s policy of
wholly discarding, rather than counting or partially
counting, OOP ballots, and H.B. 2023’s criminalization

**

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 4
of the collection of another person’s ballot, have a
discriminatory impact on American Indian, Hispanic,
and African American voters in Arizona, in violation of
the “results test” of Section 2 of the Voting Rights Act.
Specifically, the en banc court determined that
plaintiffs had shown that Arizona’s OOP policy and
H.B. 2023 imposed a significant disparate burden on its
American Indian, Hispanic, and African American
citizens, resulting in the “denial or abridgement of the
right of its citizens to vote on account of race or color.”
52 U.S.C. § 10301(a). Second, plaintiffs had shown
that, under the “totality of circumstances,” the
discriminatory burden imposed by the OOP policy and
H.B. 2023 was in part caused by or linked to “social
and historical conditions” that have or currently
produce “an inequality in the opportunities enjoyed by
[minority] and white voters to elect their preferred
representatives” and to participate in the political
process. Thornburg v. Gingles, 478 U.S. 30, 47 (1986);
52 U.S.C. § 10301(b).
The en banc court held that H.B. 2023’s
criminalization of the collection of another person’s
ballot was enacted with discriminatory intent, in
violation of the “intent test” of Section 2 of the Voting
Rights Act and of the Fifteenth Amendment. The en
banc court held that the totality of the
circumstances—Arizona’s long history of race-based
voting discrimination; the Arizona legislature’s
unsuccessful efforts to enact less restrictive versions of
the same law when preclearance was a threat; the
false, race-based claims of ballot collection fraud used
to convince Arizona legislators to pass H.B. 2023; the
substantial increase in American Indian and Hispanic

App. 5
voting attributable to ballot collection that was
targeted by H.B. 2023; and the degree of racially
polarized voting in Arizona—cumulatively and
unmistakably revealed that racial discrimination was
a motivating factor in enacting H.B. 2023. The en banc
court further held that Arizona had not carried its
burden of showing that H.B. 2023 would have been
enacted without the motivating factor of racial
discrimination. The panel declined to reach DNC’s
First and Fourteenth Amendment claims.
Concurring, Judge Watford joined the court’s
opinion to the extent it invalidated Arizona’s out-ofprecinct policy and H.B. 2023 under the results test.
Judge Watford did not join the opinion’s discussion of
the intent test.
Dissenting, Judge O’Scannlain, joined by Judges
Clifton, Bybee and Callahan, stated that the majority
drew factual inferences that the evidence could not
support and misread precedent along the way. In so
doing, the majority impermissibly struck down
Arizona’s duly enacted policies designed to enforce its
precinct-based election system and to regulate thirdparty collection of early ballots.
Dissenting, Judge Bybee, joined by Judges
O’Scannlain, Clifton and Callahan, wrote separately to
state that in considering the totality of the
circumstances, which took into account long-held,
widely adopted measures, Arizona’s time, place, and
manner rules were well within our American
democratic-republican tradition.

App. 6
COUNSEL
Bruce V. Spiva (argued), Marc E. Elias, Elisabeth C.
Frost, Amanda R. Callais, and Alexander G. Tischenko,
Perkins Coie LLP, Washington, D.C.; Daniel C. Barr
and Sarah R. Gonski, Perkins Coie LLP, Phoenix,
Arizona; Joshua L. Kaul, Perkins Coie LLP, Madison,
Wisconsin; for Plaintiffs-Appellants.
Andrew G. Pappas (argued), Joseph E. La Rue, Karen
J. Hartman-Tellez, and Kara M. Karlson, Assistant
Attorneys General; Dominic E. Draye, Solicitor
General; Mark Brnovich, Attorney General; Office of
the Attorney General, Phoenix, Arizona; for
Defendants-Appellees.
Brett W. Johnson (argued) and Colin P. Ahler, Snell &
Wilmer LLP, Phoenix, Arizona, for IntervenorDefendants-Appellees.
John M. Gore (argued), Principal Deputy Assistant
Attorney General; Thomas E. Chandler and Erin H.
Flynn, Attorneys; Gregory B. Friel, Deputy Assistant
Attorney General; Eric S. Dreiband, Assistant Attorney
General; Department of Justice, CRD–Appellate
Section, Washington, D.C.; for Amicus Curiae United
States.
Kathleen E. Brody, ACLU Foundation of Arizona,
Phoenix, Arizona; Dale Ho, American Civil Liberties
Union Foundation, New York, New York; Davin
Rosborough and Ceridwen Chery, American Civil
Liberties Union Foundation, Washington, D.C.; for
Amici Curiae American Civil Liberties Union &
American Civil Liberties Union of Arizona.

App. 7
OPINION
W. FLETCHER, Circuit Judge:
The right to vote is the foundation of our democracy.
Chief Justice Warren wrote in his autobiography that
the precursor to one person, one vote, Baker v. Carr,
369 U.S. 186 (1962), was the most important case
decided during his tenure as Chief Justice—a tenure
that included Brown v. Board of Education, 347 U.S.
483 (1954). Earl Warren, The Memoirs of Earl Warren
306 (1977). Chief Justice Warren wrote in Reynolds v.
Sims, 377 U.S. 533, 555 (1964): “The right to vote freely
for the candidate of one’s choice is of the essence of a
democratic society, and any restrictions on that right
strike at the heart of representative government.”
Justice Black wrote in Wesberry v. Sanders, 376 U.S. 1,
17 (1964): “No right is more precious in a free country
than that of having a voice in the election of those who
make the laws under which, as good citizens, we must
live. Other rights, even the most basic, are illusory if
the right to vote is undermined.”
For over a century, Arizona has repeatedly targeted
its American Indian, Hispanic, and African American
citizens, limiting or eliminating their ability to vote
and to participate in the political process. In 2016, the
Democratic National Committee and other PlaintiffsAppellants (collectively, “DNC” or “Plaintiffs”) sued
Arizona’s Secretary of State and Attorney General in
their official capacities (collectively, “Arizona”) in
federal district court.
DNC challenged, first, Arizona’s policy of wholly
discarding, rather than counting or partially counting,

App. 8
ballots cast in the wrong precinct (“out-of-precinct” or
“OOP” policy); and, second, House Bill 2023 (“H.B.
2023”), a 2016 statute criminalizing the collection and
delivery of another person’s ballot. DNC contends that
the OOP policy and H.B. 2023 violate Section 2 of the
Voting Rights Act of 1965 as amended (“VRA”) because
they adversely and disparately affect Arizona’s
American Indian, Hispanic, and African American
citizens. DNC also contends that H.B. 2023 violates
Section 2 of the VRA and the Fifteenth Amendment to
the United States Constitution because it was enacted
with discriminatory intent. Finally, DNC contends that
the OOP policy and H.B. 2023 violate the First and
Fourteenth Amendments because they unduly burden
minorities’ right to vote.
Following a ten-day bench trial, the district court
found in favor of Arizona on all claims. Democratic
Nat’l Comm. v. Reagan, 329 F. Supp. 3d 824 (D. Ariz.
2018) (Reagan). DNC appealed, and a divided threejudge panel of our court affirmed. Democratic Nat’l
Comm. v. Reagan, 904 F.3d 686 (9th Cir. 2018) (DNC).
A majority of non-recused active judges voted to rehear
this case en banc, and we vacated the decision of the
three-judge panel. Democratic Nat’l Comm. v. Reagan,
911 F.3d 942 (9th Cir. 2019).
We review the district court’s conclusions of law de
novo and its findings of fact for clear error. Gonzalez v.
Arizona, 677 F.3d 383, 406 (9th Cir. 2012) (en banc).
We may “correct errors of law, including those that
may infect a so-called mixed finding of law and fact, or
a finding of fact that is predicated on a
misunderstanding of the governing rule of law.”

App. 9
Thornburg v. Gingles, 478 U.S. 30, 79 (1986) (internal
quotation marks omitted); see Smith v. Salt River
Project Agric. Improvement & Power Dist., 109 F.3d
586, 591 (9th Cir. 1997) (Salt River). We review for
clear error the district court’s overall finding of vote
dilution or vote denial in violation of the VRA. Gingles,
478 U.S. at 78; Salt River, 109 F.3d at 591.
Reviewing the full record, we conclude that the
district court clearly erred. We reverse the decision of
the district court. We hold that Arizona’s policy of
wholly discarding, rather than counting or partially
counting, out-of-precinct ballots, and H.B. 2023’s
criminalization of the collection of another person’s
ballot, have a discriminatory impact on American
Indian, Hispanic, and African American voters in
Arizona, in violation of the “results test” of Section 2 of
the VRA. We hold, further, that H.B. 2023’s
criminalization of the collection of another person’s
ballot was enacted with discriminatory intent, in
violation of the “intent test” of Section 2 of the VRA and
of the Fifteenth Amendment. We do not reach DNC’s
First and Fourteenth Amendment claims.
I. Out-of-Precinct Policy and H.B. 2023
DNC challenges (1) Arizona’s policy of wholly
discarding, rather than counting or partially counting,
ballots cast out-of-precinct (“OOP”), and (2) H.B. 2023,
a statute that, subject to certain exceptions,
criminalizes the collection of another person’s early
ballot. See Ariz. Rev. Stat. §§ 16-122, -135, -584; H.B.
2023, 52nd Leg., 2d Reg. Sess. (Ariz. 2016), codified as
Ariz. Rev. Stat. § 16-1005(H), (I).

App. 10
Arizona offers two methods of voting: (1) in-person
voting at a precinct or vote center either on election day
or during an early-vote period, or (2) “early voting”
whereby the voter receives the ballot via mail and
either mails back the voted ballot or delivers the ballot
to a designated drop-off location. Arizona’s OOP policy
affects in-person voting. H.B. 2023 affects early voting.
We describe in turn Arizona’s OOP policy and H.B.
2023.
A. Out-of-Precinct Policy
1. Policy of Entirely Discarding OOP Ballots
Arizona law permits each county to choose a votecenter or a precinct-based system for in-person voting.
Reagan, 329 F. Supp. 3d at 840. In counties using the
vote-center system, registered voters may vote at any
polling location in the county. Id. In counties using the
precinct-based system, registered voters may vote only
at the designated polling place in their precinct.
Approximately 90 percent of Arizona’s population lives
in counties using the precinct-based system.
In precinct-based counties, if a voter arrives at a
polling place and does not appear on the voter rolls for
that precinct, that voter may cast a provisional ballot.
Id.; Ariz. Rev. Stat. §§ 16-122, -135, -584. After election
day, county election officials in close elections review
all provisional ballots to determine the voter’s identity
and address. If, after reviewing a provisional ballot,
election officials determine that the voter voted out of
precinct, the county discards the OOP ballot in its
entirety. In some instances, all of the votes cast by the
OOP voter will have been cast for candidates and

App. 11
propositions for which the voter was legally eligible to
vote. In other instances, most of the votes cast by the
OOP voter will have been cast properly, in the sense
that the voter was eligible to vote on those races, but
one or more votes for local candidates or propositions
will have been cast improperly.
In both instances, the county discards the OOP
ballot in its entirety. Reagan, 329 F. Supp. 3d at 840.
That is, the county discards not only the votes of an
OOP voter for the few local candidates and propositions
for which the OOP voter may have been ineligible to
vote. The county also discards the votes for races for
which the OOP voter was eligible to vote, including
U.S. President, U.S. Senator, and (almost always)
Member of the U.S. House of Representatives; all
statewide officers, including Governor, and statewide
propositions; (usually) all countywide officers and
propositions; and (often) local candidates and
propositions.
2. Comparison with Other States
The district court found that Arizona “consistently
is at or near the top of the list of states that collect and
reject the largest number of provisional ballots each
election.” Id. at 856 (emphasis added). The district
court’s finding understates the matter. Arizona is
consistently at the very top of the list by a large
margin.
Dr. Jonathan Rodden, Professor of Political Science
and Senior Fellow at the Hoover Institution at Stanford
University, provided expert reports to the district
court. The court gave “great weight” to Dr. Rodden’s

App. 12
analysis of the “rates and causes of OOP voting” in
Arizona. Id. at 835. Dr. Rodden reported: “Since 2012,
Arizona has clearly become the national leader in both
provisional ballots cast and especially in provisional
ballots rejected among in-person voters.” Jonathan
Rodden, Expert Report (Rodden) at 25.
Dr. Rodden reported that, from 2006 to 2010,
between 9 to 13 percent of all in-person ballots cast in
Arizona were provisional ballots. Id. at 24. In the 2012
general election, more than 22 percent of all in-person
ballots cast were provisional ballots. Id. In Maricopa
County, Arizona’s most populous county, close to one in
three in-person ballots cast in 2012 were provisional
ballots. Id. at 27–28. In the 2014 midterm election, over
18 percent of in-person ballots cast in the State were
provisional ballots. Id. at 25. These numbers place
Arizona at the very top of the list of States in collection
of provisional ballots.
Arizona also rejects a higher percentage of
provisional ballots than any other State. The district
court found:
In 2012 alone “[m]ore than one in every five
[Arizona in-person] voters . . . was asked to cast
a provisional ballot, and over 33,000 of
these—more than 5 percent of all in-person
ballots cast—were rejected. No other state
rejected a larger share of its in-person ballots in
2012.”
Reagan, 329 F. Supp. 3d at 856 (alterations in original)
(quoting Rodden at 24–25).

App. 13
One of the most frequent reasons for rejecting
provisional ballots in Arizona is that they are cast outof-precinct. Id.; see also Rodden at 26–29. From 2008 to
2016, Arizona discarded a total of 38,335 OOP ballots
cast by registered voters—29,834 ballots during
presidential general elections, and 8,501 ballots during
midterm general elections. Reagan, 329 F. Supp. 3d at
856.
As the figure below shows, Arizona is an extreme
outlier in rejecting OOP ballots:

App. 14
Rodden at 26. The percentage of rejected OOP votes in
Arizona is eleven times that in Washington, the State
with the second-highest percentage.
The percentage of OOP ballots in Arizona, compared
to all ballots cast, has declined in recent years. But the
percentage of in-person ballots cast, compared to all
ballots cast, has declined even more. See Jonathan
Rodden, Rebuttal Report (Rodden Rebuttal) at 10. As
a result, as a percentage of in-person ballots between
2008 and 2014, the percentage of OOP ballots has
increased.
3. Reasons for OOP Ballots
Three key factors leading to OOP ballots are
frequent changes in polling locations; confusing
placement of polling locations; and high rates of
residential mobility. These factors disproportionately
affect minority voters. Dr. Rodden summarized:
Voters must invest significant effort in order to
negotiate a dizzying array of precinct and polling
place schemes that change from one month to
the next. Further, Arizona’s population is highly
mobile and residential locations are fluid,
especially for minorities, young people, and poor
voters, which further contributes to confusion
around voting locations.
Rodden at 2; see also Reagan, 329 F. Supp. 3d at
857–58 (discussing these reasons).

App. 15
a. Frequent Changes in Polling Locations
Arizona election officials change voters’ assigned
polling places with unusual frequency. Maricopa
County, which includes Phoenix, is a striking example.
The district court found that between 2006 and 2008,
“at least 43 percent of polling locations” changed.
Reagan, 329 F. Supp. 3d at 858. Between 2010 and
2012, approximately 40 percent of polling place
locations were changed again. Id. These changes
continued in 2016, “when Maricopa County
experimented with 60 vote centers for the presidential
preference election [in March], then reverted to a
precinct-based system with 122 polling locations for the
May special election, and then implemented over 700
assigned polling places [for] the August primary and
November general elections.” Id. The OOP voting rate
was 40 percent higher for voters whose polling places
were changed. Id. As Chief Judge Thomas put it, “the
paths to polling places in the Phoenix area [are] much
like the changing stairways at Hogwarts, constantly
moving and sending everyone to the wrong place.”
DNC, 904 F.3d at 732 (Thomas, C.J., dissenting).
White voters in Maricopa County are more likely
than minority voters to have continuity in their polling
place location. Rodden at 60–61. Dr. Rodden wrote that
between the February and November elections in 2012,
“the rates at which African Americans and Hispanics
experienced stability in their polling places were each
about 30 percent lower than the rate for whites.” Id.

App. 16
b. Confusing Placement of Polling Locations
Some polling places are located so counterintuitively
that voters easily make mistakes. In Maricopa and
Pima Counties, many polling places are located at or
near the edge of precincts. Id. at 50. An example is the
polling place for precinct 222 in Maricopa County
during the 2012 election. Dr. Rodden wrote:
[A] group of 44 voters who were officially
registered to vote in precinct 222, . . . showed up
on Election Day at the Desert Star School, the
polling location for precinct 173. It is easy to
understand how they might have made this
mistake. Polling place 173 is the local
elementary school, and the only polling place in
the vicinity. It is within easy walking distance,
and is the polling place for most of the neighbors
and other parents at the school, yet due to a
bizarre placement of the [polling place at the]
Southern border of precinct 222, these voters
were required to travel 15 minutes by car
(according to [G]oogle maps) to vote in polling
location 222, passing four other polling places
along the way.
Id. at 47–48.

App. 17
This map illustrates Dr. Rodden’s point:

Id. at 47.
In 2012, approximately 25 percent of OOP voters
lived closer to the polling place where they cast their
OOP ballot than to their assigned polling place. Id. at
53. Voters who live more than 1.4 miles from their
assigned polling place are 30 percent more likely to
vote OOP than voters who live within 0.4 miles of their
assigned polling place. Id. at 54. American Indian and
Hispanic voters live farther from their assigned polling
places than white voters. Id. at 60. American Indian
voters are particularly disadvantaged. The district

App. 18
court found: “Navajo voters in Northern Apache County
lack standard addresses, and their precinct
assignments for state and county elections are based
upon guesswork, leading to confusion about the voter’s
correct polling place.” Reagan, 329 F. Supp. 3d at 873;
Rodden Second at 52–53.
c. Renters and Residential Mobility
High percentages of renters and high rates of
residential mobility correlate with high rates of OOP
voting. Reagan, 329 F. Supp. 3d at 857. The district
court found that rates of OOP voting are “higher in
neighborhoods where renters make up a larger share of
householders.” Id. Between 2000 and 2010, almost 70
percent of Arizonans changed their residential address,
the second highest rate of any State. Reagan, 329 F.
Supp. 3d at 857; Rodden at 11–12. The district court
found that “[t]he vast majority of Arizonans who moved
in the last year moved to another address within their
current city of residence.” Reagan, 329 F. Supp. 3d at
857.
The need to locate the proper polling place after
moving—particularly after moving a short distance in
an urban area—leads to a high percentage of OOP
ballots. Dr. Rodden wrote:
An individual who faces a rent increase in one
apartment complex and moves to another less
than a mile away might not be aware that she
has moved into an entirely new precinct—
indeed, in many cases . . . she may still live
closest to her old precinct, but may now be
required to travel further in order to vote in her

App. 19
new assigned precinct. Among groups for whom
residential mobility is common, requirements of
in-precinct-voting—as well as the requirement
that they update their registration with the
state every time that they move even a short
distance within a county—can make it
substantially more burdensome to participate in
elections.
Rodden at 11.
The district court found that minority voters in
Arizona have “disproportionately higher rates of
residential mobility.” Reagan, 329 F. Supp. 3d at 872.
The court found, “OOP voting is concentrated in
relatively dense precincts that are disproportionately
populated with renters and those who move frequently.
These groups, in turn, are disproportionately composed
of minorities.” Id.
4. Disparate Impact on Minority Voters
The district court found that Arizona’s policy of
wholly discarding OOP ballots disproportionately
affects minority voters. Reagan, 329 F. Supp. 3d at 871.
During the general election in 2012 in Pima County,
compared to white voters, the rate of OOP ballots was
123 percent higher for Hispanic voters, 47 percent
higher for American Indian voters, and 37 percent
higher for African American voters. Rodden at 43.
During the 2014 and 2016 general elections in Apache,
Navajo, and Coconino Counties, the vast majority of
OOP ballots were in areas that are almost entirely
American Indian. Rodden Rebuttal at 53–54, 58;
Jonathan Rodden, Second Expert Report (Rodden

App. 20
Second) at 22. In all likelihood, the reported numbers
underestimate the degree of disparity. Dr. Rodden
wrote, “[A]lthough the racial disparities described . . .
are substantial, they should be treated as a
conservative lower bound on the true differences in
rates of out-of-precinct voting across groups.” Rodden
Second at 15 (emphasis in original). The district court
found, “Dr. Rodden credibly explained that the
measurement error for Hispanic probabilities leads
only to the under-estimation of racial disparities.”
Reagan, 329 F. Supp. 3d at 838.
Racial disparities in OOP ballots in 2016 “remained
just as pronounced” as in 2012 and 2014. Rodden
Second at 3. For example, the rates of OOP ballots in
Maricopa County “were twice as high for Hispanics, 86
percent higher for African Americans, and 73 percent
higher for Native Americans than for their nonminority counterparts.” Reagan, 329 F. Supp. 3d at
871–72; Rodden Second at 29. “In Pima County, rates
of OOP voting were 150 percent higher for Hispanics,
80 percent higher for African Americans, and 74
percent higher for Native Americans than for nonminorities.” Reagan, 329 F. Supp. 3d at 872. “[I]n Pima
County the overall rate of OOP voting was higher, and
the racial disparities larger, in 2016 than in 2014.” Id.;
Rodden Second at 33.
The district court found:
Among all counties that reported OOP ballots in
the 2016 general election, a little over 1 in every
100 Hispanic voters, 1 in every 100 AfricanAmerican voters, and 1 in every 100 Native
American voters cast an OOP ballot. For non-

App. 21
minority voters, the figure was around 1 in every
200 voters.
Reagan, 329 F. Supp. 3d at 872. That is, in the 2016
general election, as in the two previous elections,
American Indians, Hispanics, and African Americans
voted OOP at twice the rate of whites.
B. H.B. 2023
1. Early Voting and Ballot Collection
Arizona has permitted early voting for over 25
years. Id. at 839. “In 2007, Arizona implemented
permanent no-excuse early voting by mail, known as
the Permanent Early Voter List (“PEVL”).” Id. Under
PEVL, Arizonans may either (a) request an early voteby-mail ballot on an election-by-election basis, or
(b) request that they be placed on the Permanent Early
Voter List. See id.; Ariz. Rev. Stat. §§ 16-542, -544.
Some counties permit voters to drop their early ballots
in special drop boxes. All counties permit the return of
early ballots by mail, or in person at a polling place,
vote center, or authorized election official’s office. Early
voting is by far “the most popular method of voting [in
Arizona].” Reagan, 329 F. Supp. 3d at 839.
Approximately 80 percent of all ballots cast in the 2016
general election were early ballots. Id. Until the
passage of H.B. 2023, Arizona did not restrict collection
and drop-off of voted ballots by third parties.
The district court heard extensive testimony about
the number of ballots collected and turned in by third
parties. Id. at 845. A Maricopa County Democratic
Party organizer testified that during the course of her
work for the party she personally saw 1,200 to 1,500

App. 22
early ballots collected and turned in by third-party
volunteers. These were only a portion of the total
ballots collected by her organization. The organizer
testified that during the 2010 election the Maricopa
County Democratic Party collected hundreds of ballots
from a heavily Hispanic neighborhood in one state
legislative district alone. A representative of Citizens
for a Better Arizona testified that the organization
collected approximately 9,000 early ballots during the
2012 Maricopa County Sheriff’s election. A member of
the Arizona Democratic Party testified that the party
collected “a couple thousand ballots” in 2014. Id. A
community advocate testified before the Arizona
Senate Elections Committee that in one election he
collected 4,000 early ballots. Id. A Phoenix City
Councilmember testified that she and her volunteers
collected about 1,000 early ballots in an election in
which she received a total of 8,000 votes.
2. Minority Voters’ Reliance on Third-Party
Ballot Collection
The district court found “that prior to H.B. 2023’s
enactment minorities generically were more likely than
non-minorities to return their early ballots with the
assistance of third parties.” Id. at 870. The court
recounted: “Helen Purcell, who served as the Maricopa
County Recorder for 28 years from 1988 to 2016,
observed that ballot collection was disproportionately
used by Hispanic voters.” Id. Individuals who collected
ballots in past elections “observed that minority voters,
especially Hispanics, were more interested in utilizing
their services.” Id. One ballot collector testified about
what she termed a “case study” demonstrating the

App. 23
extent of the disparity. In 2010, she and her fellow
organizers collected “somewhere south of 50 ballots” in
one area. The area was later redistricted before the
next election to add the heavily Hispanic neighborhood
of Sunnyslope. In 2012, the organization “pulled in
hundreds of ballots, [with the] vast majority from that
Sunnyslope area.”
The district court found that, in contrast, the
Republican Party has “not significantly engaged in
ballot collection as a GOTV [Get Out the Vote]
strategy.” Id. The base of the Republican Party in
Arizona is white. Id. Individuals who engaged in ballot
collection in past elections observed that voters in
predominately white areas “were not as interested in
ballot collection services.” Id.
Minority voters rely on third-party ballot collection
for many reasons. Joseph Larios, a community
advocate who has collected ballots in past elections,
testified that “returning early mail ballots presents
special challenges for communities that lack easy
access to outgoing mail services; the elderly,
homebound, and disabled voters; socioeconomically
disadvantaged voters who lack reliable transportation;
voters who have trouble finding time to return mail
because they work multiple jobs or lack childcare
services; and voters who are unfamiliar with the voting
process and therefore do not vote without assistance or
tend to miss critical deadlines.” Id. at 847–48
(summarizing Larios’ testimony). These burdens fall
disproportionately on Arizona’s minority voters.
Arizona’s
communities

American
frequently

Indian and Hispanic
encounter mail-related

App. 24
problems that make returning early ballots difficult. In
urban areas of heavily Hispanic counties, many
apartment buildings lack outgoing mail services. Id. at
869. Only 18 percent of American Indian registered
voters have home mail service. Id. White registered
voters have home mail service at a rate over 350
percent higher than their American Indian
counterparts. Id. Basic mail security is an additional
problem. Several witnesses testified that incoming and
outgoing mail often go missing. Id. The district court
found that especially in low-income communities,
frequent mail theft has led to “distrust” in the mail
service. Id.
A lack of transportation compounds the issue.
“Hispanics, Native Americans, and African Americans
. . . are significantly less likely than non-minorities to
own a vehicle, more likely to rely upon public
transportation, [and] more likely to have inflexible
work schedules[.]” Id. In San Luis—a city that is 98
percent Hispanic—a major highway separates almost
13,000 residents from their nearest post office. Id. The
city has no mass transit, a median income of $22,000,
and many households with no cars. Id. On the Navajo
Reservation, “most people live in remote communities,
many communities have little to no vehicle access, and
there is no home incoming or outgoing mail, only post
office boxes, sometimes shared by multiple families.”
Id. “[R]esidents of sovereign nations often must travel
45 minutes to 2 hours just to get a mailbox.” DNC, 904
F.3d at 751–52 (Thomas, C.J., dissenting). As a result,
voting “requires the active assistance of friends and
neighbors” for many American Indians. Reagan, 329 F.
Supp. 3d at 870 (quoting Rodden Second at 60).

App. 25
The adverse impact on minority communities is
substantial. Without “access to reliable and secure mail
services” and without reliable transportation, many
minority voters “prefer instead to give their ballots to
a volunteer.” Id. at 869. These communities thus end
up relying heavily on third-party collection of mail-in
ballots. Dr. Berman wrote with respect to Hispanic
voters:
[T]he practice of collecting ballots, used
principally in Hispanic areas, ha[s] contributed
to more votes being cast in those places tha[n]
would have been cast without the practice. . . .
That the practice has increased minority turnout
appears to have been agreed upon or assumed by
both sides of the issue[.] Democrats and
Hispanic leaders have seen reason to favor it,
Republicans have not.
Berman, Expert Reply Report at 8–9. Similarly,
LeNora Fulton, a member of the Navajo Nation and
previous Apache County Recorder, testified that it was
“standard practice” in Apache County and the Nation
to vote by relying on non-family members with the
means to travel. Reagan, 329 F. Supp. 3d at 870.
3. History of H.B. 2023
Before the passage of H.B. 2023, Arizona already
criminalized fraud involving possession or collection of
another person’s ballot. The district court wrote:
[B]allot tampering, vote buying, or discarding
someone else’s ballot all were illegal prior to the
passage of H.B. 2023. Arizona law has long
provided that any person who knowingly collects

App. 26
voted or unvoted ballots and does not turn those
ballots in to an elections official is guilty of a
class 5 felony. A.R.S. § 16-1005. Further,
Arizona has long made all of the following class
5 felonies: “knowingly mark[ing] a voted or
unvoted ballot or ballot envelope with the intent
to fix an election;” “receiv[ing] or agree[ing] to
receive any consideration in exchange for a voted
or unvoted ballot;” possessing another’s voted or
unvoted ballot with intent to sell; “knowingly
solicit[ing] the collection of voted or unvoted
ballots by misrepresenting [one’s self] as an
election official or as an official ballot repository
or . . . serv[ing] as a ballot drop off site, other
than those established and staffed by election
officials;” and “knowingly collect[ing] voted or
unvoted ballots and . . . not turn[ing] those
ballots in to an election official . . . or any . . .
entity permitted by law to transmit post.” A.R.S.
§§ 16-1005(a)–(f). The early voting process also
includes a number of other safeguards, such as
tamper evident envelopes and a rigorous voter
signature verification procedure.
Reagan, 329 F. Supp. 3d at 854 (alterations in original)
(internal record citations omitted).
There is no evidence of any fraud in the long history
of third-party ballot collection in Arizona. Despite the
extensive statutory provisions already criminalizing
fraud involving possession or collection of another
person’s ballot, and despite the lack of evidence of any
fraud in connection with third-party ballot collection,
Republican State Senator Don Shooter introduced a bill

App. 27
in February 2011. S.B. 1412, 50th Leg., 1st Reg. Sess.
(introduced) (Ariz. 2011), http://www.azleg.gov/
legtext/50leg/1r/bills/sb1412p.htm.
Senator Shooter’s bill criminalized non-fraudulent
third-party ballot collection. The district court had no
illusions about Senator Shooter’s motivation. It found:
Due to the high degree of racial polarization in
his district, Shooter was in part motivated by a
desire to eliminate what had become an effective
Democratic GOTV strategy. Indeed, Shooter’s
2010 election was close: he won with 53 percent
of the total vote, receiving 83 percent of the nonminority vote but only 20 percent of the
Hispanic vote.
Reagan, 329 F. Supp. 3d at 879–80.
The state legislature amended Senator Shooter’s bill
several times, watering it down significantly. As finally
enacted, the bill—included as part of a series of
election-related changes in Senate Bill 1412 (“S.B.
1412”)—restricted the manner in which unrelated third
parties could collect and turn in more than ten voted
ballots. S.B. 1412, 50th Leg., 1st Reg. Sess. (engrossed),
Sec. 3 at D (Ariz. 2011), https://legiscan.com/AZ/text/
SB1412/id/233492/Arizona-2011-SB1412Engrossed.html. If a third-party ballot collector turned
in more than ten ballots, the collector was required to
provide photo identification. After each election, the
Secretary of State was required to compile a statewide
public report listing ballot collectors’ information. The
bill did not criminalize any violation of its provisions.

App. 28
When S.B. 1412 became law, Arizona was still
subject to preclearance under the Voting Rights Act.
S.B. 1412 therefore could not go into effect until it was
precleared by the U.S. Department of Justice (“DOJ”)
or a three-judge federal district court. On May 18,
2011, the Arizona Attorney General submitted S.B.
1412 to DOJ for preclearance. Arizona Attorney
General Thomas Horne, Effect of Shelby County on
Withdrawn Preclearance Submissions, (August 29,
2013), https://www.azag.gov/opinions/i13-008-r13-013.
On June 27, 2011, DOJ precleared all provisions of S.B.
1412 except the provision regulating third-party ballot
collection. Reagan, 329 F. Supp. 3d at 880.
DOJ sent a letter to Arizona concerning the thirdparty ballot collection provision, stating that the
information provided with the preclearance request
was “insufficient to enable [DOJ] to determine that the
proposed changes have neither the purpose nor will
have the effect of denying or abridging the right to vote
on account of race, color, or membership in a language
minority group.” Id. at 880–81. DOJ requested
additional information and stated that it “may object”
to the proposed change if no response was received
within sixty days. Id. at 881.
Instead of responding with the requested
information, the Arizona Attorney General withdrew
the preclearance request for the third-party ballot
collection provision. Id. The Attorney General did so for
good reason. According to DOJ records, Arizona’s
Elections Director, who had helped draft the provision,
had admitted to DOJ that the provision was “targeted
at voting practices in predominantly Hispanic areas.”

App. 29
The state legislature formally repealed the
provision after receiving the letter from DOJ.
Withdrawing a preclearance request was not common
practice in Arizona. Out of 773 proposals that Arizona
submitted for preclearance over almost forty years, the
ballot collection provision of S.B. 1412 was one of only
six that Arizona withdrew. Id.
Two years later, on June 25, 2013, the United
States Supreme Court decided Shelby County v.
Holder, 570 U.S. 529 (2013). The Court declared
unconstitutional the formula in Section 4(b) of the VRA
for determining “covered jurisdictions,” thereby
eliminating preclearance under Section 5 for any
previously covered jurisdiction, including Arizona. On
June 19, 2013, Arizona’s Governor had signed a new
bill, H.B. 2305, which entirely banned partisan ballot
collection and required non-partisan ballot collectors to
complete an affidavit stating that they had returned
the ballot. Reagan, 329 F. Supp. 3d at 881; H.B. 2305,
51st Leg., 1st Reg. Sess. (engrossed), at Secs. 3 and 5
(Ariz. 2013), https://legiscan.com/AZ/text/
HB2305/id/864002. Violation of H.B. 2305 was a
criminal misdemeanor.
H.B. 2305 “was passed along nearly straight party
lines in the waning hours of the legislative session.”
Reagan, 329 F. Supp. 3d at 881. “Shortly after its
enactment, citizen groups organized a referendum
effort[.]” Id. They “collected more than 140,000
signatures”—significantly more than the required
amount—“to place H.B. 2305 on the ballot for a
straight up-or-down [statewide] vote” in the next
election. Id. Arizona law provided that repeal by

App. 30
referendum prevented the legislature from enacting
future related legislation without a supermajority vote.
Moreover, any such future legislation could only
“further[]”—not undercut—“the purposes” of the
referendum. Ariz. Const. art. IV, pt. 1, § 1(6)(C), (14).
“Rather than face a referendum, Republican legislators
. . . repealed their own legislation along party lines.”
Reagan, 329 F. Supp. 3d at 881. The primary sponsor
of H.B. 2305, then-State Senator Michele Reagan (a
future Secretary of State of Arizona and an original
defendant in this action), “admitted that the
legislature’s goal [in repealing H.B. 2305] was to break
the bill into smaller pieces and reintroduce individual
provisions ‘a la carte.’” Id.
During the 2015 and 2016 legislative sessions,
Republican legislators again sought to criminalize
ballot collection by third parties, culminating in 2016
in the passage of H.B. 2023, the measure challenged in
this suit. The district court found that Republican
legislators had two motivations for passing H.B. 2023.
First, Republican legislators were motivated by the
“unfounded and often farfetched allegations of ballot
collection fraud” made by former State Senator
Shooter—who had introduced the bill to limit thirdparty ballot collection in 2011. Id. at 880 (finding
Shooter’s allegations “demonstrably false”). Second,
Republican legislators were motivated by a “raciallytinged” video known as the “LaFaro Video.” Id.
The video gave proponents of H.B. 2023 their best
and only “evidence” of voter fraud. During legislative
hearings on previous bills criminalizing third-party
collection, the district court wrote, “Republican

App. 31
sponsors and proponents [had] expressed beliefs that
ballot collection fraud regularly was occurring but
struggled with the lack of direct evidence
substantiating those beliefs.” Id. at 876. In 2014,
Republicans’ “perceived ‘evidence’ arrived in the form
of a racially charged video created by Maricopa County
Republican Chair A.J. LaFaro . . . and posted on a
blog.” Id. The court summarized:
The LaFaro Video showed surveillance footage of
a man of apparent Hispanic heritage appearing
to deliver early ballots. It also contained a
narration of “Innuendos of illegality . . . [and]
racially tinged and inaccurate commentary by
. . . LaFaro.” LaFaro’s commentary included
statements that the man was acting to stuff the
ballot box; that LaFaro did not know if the
person was an illegal alien, a dreamer, or
citizen, but knew that he was a thug; and that
LaFaro did not follow him out to the parking lot
to take down his tag number because he feared
for his life.
Id. (alterations in original and internal record citations
omitted). A voice-over on the video described “ballot
parties” where people supposedly “gather en mass[e]
and give their un-voted ballots to operatives of
organizations so they can not only collect them, but
also vote them illegally.” Id. at 876–77.
The district court found, “The LaFaro Video did not
show any obviously illegal activity and there is no
evidence that the allegations in the narration were
true.” Id. at 877. The video “merely shows a man of
apparent Hispanic heritage dropping off ballots and not

App. 32
obviously violating any law.” Id. The video “became
quite prominent in the debates over H.B. 2023.” Id. The
court wrote:
The LaFaro video also was posted on Facebook
and YouTube, shown at Republican district
meetings, and was incorporated into a television
advertisement—entitled “Do You Need Evidence
Terry?”—for Secretary Reagan when she ran for
Secretary of State. In the ad, the LaFaro Video
plays after a clip of then-Arizona Attorney
General Terry Goddard stating he would like to
see evidence that there has been ballot collection
fraud. While the video is playing, Secretary
Reagan’s narration indicates that the LaFaro
Video answers Goddard’s request for evidence of
fraud.
Id. (internal record citations omitted). The court found,
“Although no direct evidence of ballot collection fraud
was presented to the legislature or at trial, Shooter’s
allegations and the LaFaro Video were successful in
convincing H.B. 2023’s proponents that ballot collection
presented opportunities for fraud that did not exist for
in-person voting[.]” Id. at 880.
The district court found that H.B. 2023 is no
harsher than any of the third-party ballot collection
bills previously introduced in the Arizona legislature.
The court found:
[A]lthough Plaintiffs argue that the legislature
made H.B. 2023 harsher than previous ballot
collection bills by imposing felony penalties, they
ignore that H.B. 2023 in other respects is more

App. 33
lenient than its predecessors given its broad
exceptions for family members, household
members, and caregivers.
Id. at 881. In so finding, the district court clearly erred.
Both S.B. 1412 and H.B. 2305 were more lenient than
H.B. 2023.
For example, S.B. 1412, which was presented to
DOJ for preclearance, required a third party collecting
more than ten voted ballots to provide photo
identification. There were no other restrictions on
third-party ballot collection. There were no criminal
penalties. By contrast, under H.B. 2023 a third party
may collect a ballot only if the third party is an official
engaged in official duties, or is a family member,
household member, or caregiver of the voter. Ariz. Rev.
Stat. § 16-1005(H), (I); Reagan, 329 F. Supp. 3d at
839–40. A third party who violates H.B. 2023 commits
a class 5 felony.
In 2011, the relatively permissive third-party ballot
collection provision of S.B. 1412 was withdrawn from
Arizona’s preclearance request when DOJ asked for
more information. In 2016, in the wake of Shelby
County and without fear of preclearance scrutiny,
Arizona enacted H.B. 2023.
II. Section 2 of the VRA
“Congress enacted the Voting Rights Act of 1965 for
the broad remedial purpose of ‘rid[ding] the country of
racial discrimination in voting.’” Chisom v. Roemer, 501
U.S. 380, 403 (1991) (alteration in original) (quoting
South Carolina v. Katzenbach, 383 U.S. 301, 315
(1966)). “The Act create[d] stringent new remedies for

App. 34
voting discrimination where it persists on a pervasive
scale, and . . . strengthen[ed] existing remedies for
pockets of voting discrimination elsewhere in the
country.” Katzenbach, 383 U.S. at 308.
When Section 2 of the Voting Rights Act was
originally enacted in 1965, it read:
SEC. 2. No voting qualification or prerequisite to
voting, or standard, practice, or procedure shall
be imposed or applied by any State or political
subdivision to deny or abridge the right of any
citizen of the United States to vote on account of
race or color.
Chisom, 501 U.S. at 391 (citing 79 Stat. 437). “At the
time of the passage of the Voting Rights Act of 1965,
§ 2, unlike other provisions of the Act, did not provoke
significant debate in Congress because it was viewed
largely as a restatement of the Fifteenth Amendment.”
Id. at 392. The Fifteenth Amendment provides that
“[t]he right of citizens of the United States to vote shall
not be denied or abridged by the United States or by
any State on account of race, color, or previous
condition of servitude,” and it authorizes Congress to
enforce the provision “by appropriate legislation.” U.S.
Const. amend. XV. In City of Mobile v. Bolden, 446 U.S.
55 (1980) (plurality), the Supreme Court held that the
“coverage provided by § 2 was unquestionably
coextensive with the coverage provided by the Fifteenth
Amendment; the provision simply elaborated upon the
Fifteenth Amendment.” Chisom, 501 U.S. at 392. That
is, the Court held that proof of intentional
discrimination was necessary to establish a violation of
Section 2. Id. at 393.

App. 35
Congress responded to Bolden by amending Section
2, striking out “to deny or abridge” and substituting “in
a manner which results in a denial or abridgement of.”
Id. (quoting amended Section 2; emphasis added by the
Court); see also Gingles, 478 U.S. at 35. “Under the
amended statute, proof of intent [to discriminate] is no
longer required to prove a § 2 violation.” Chisom, 501
U.S. at 394. Rather, plaintiffs can now prevail under
Section 2 either by demonstrating proof of intent to
discriminate or “by demonstrating that a challenged
election practice has resulted in the denial or
abridgment of the right to vote based on color or race.”
Id. That is, a Section 2 violation can “be established by
proof of discriminatory results alone.” Chisom, 501 U.S.
at 404. The Supreme Court summarized: “Congress
substantially revised § 2 to make clear that a violation
could be proved by showing discriminatory effect alone
and to establish as the relevant legal standard the
‘results test.’” Gingles, 478 U.S. at 35 (emphasis added).
A violation of Section 2 may now be shown under
either the results test or the intent test. Id. at 35, 44.
In the sections that follow, we analyze Plaintiffs’
challenges under these two tests. First, we analyze
Arizona’s OOP policy and H.B. 2023 under the results
test. Second, we analyze H.B. 2023 under the intent
test.
A. Results Test: OOP Policy and H.B. 2023
1. The Results Test
Section 2 of the VRA “‘prohibits all forms of voting
discrimination’ that lessen opportunity for minority
voters.” League of Women Voters of N.C. v. North

App. 36
Carolina, 769 F.3d 224, 238 (4th Cir. 2014) (quoting
Gingles, 478 U.S. at 45 n.10). As amended in 1982,
Section 2 of the VRA provides:
(a) No voting qualification or prerequisite to
voting or standard, practice, or procedure shall
be imposed or applied by any State or political
subdivision in a manner which results in a
denial or abridgement of the right of any citizen
of the United States to vote on account of race or
color, or in contravention of the guarantees set
forth in section 10303(f)(2) of this title, as
provided in subsection (b).
(b) A violation of subsection (a) is established if,
based on the totality of circumstances, it is
shown that the political processes leading to
nomination or election in the State or political
subdivision are not equally open to participation
by members of a class of citizens protected by
subsection (a) in that its members have less
opportunity than other members of the
electorate to participate in the political process
and to elect representatives of their choice.
52 U.S.C. § 10301 (emphases added).
The results test of Section 2 applies in both vote
dilution and vote denial cases. “Vote dilution claims
involve challenges to methods of electing
representatives—like redistricting or at-large
districts—as having the effect of diminishing
minorities’ voting strength.” Ohio State Conference of
NAACP v. Husted, 768 F.3d 524, 554 (6th Cir. 2014),
vacated on other grounds, 2014 WL 10384647 (6th Cir.

App. 37
2014). A vote denial claim is generally understood to be
“any claim that is not a vote dilution claim.” Id. The
case now before us involves two vote-denial claims.
The jurisprudence of vote-denial claims is relatively
underdeveloped in comparison to vote-dilution claims.
As explained by the Fourth Circuit, “[T]he
predominance of vote dilution in Section 2
jurisprudence likely stems from the effectiveness of the
now-defunct Section 5 preclearance requirements that
stopped would-be vote denial from occurring in covered
jurisdictions[.]” League of Women Voters, 769 F.3d at
239.
In evaluating a vote-denial challenge to a “standard,
practice, or procedure” under the “results test” of
Section 2, most courts, including our own, engage in a
two-step process. We first did so, in abbreviated
fashion, in Smith v. Salt River Project Agricultural
Improvement & Power District, 109 F.3d 586 (9th Cir.
1997). We later did so, at somewhat greater length, in
Gonzalez v. Arizona, 677 F.3d 383 (9th Cir. 2012) (en
banc). Other circuits have subsequently used a version
of the two-step analysis. See Veasey v. Abbott, 830 F.3d
216, 244–45 (5th Cir. 2016); League of Women Voters,
769 F.3d at 240 (4th Cir. 2014); Husted, 768 F.3d at
554 (6th Cir. 2014). Compare Frank v. Walker, 768 F.3d
744, 755 (7th Cir. 2014) (“We are skeptical about the
second of these steps[.]”).
First, we ask whether the challenged standard,
practice or procedure results in a disparate burden on
members of the protected class. That is, we ask
whether, “as a result of the challenged practice or
structure[,] plaintiffs do not have an equal opportunity

App. 38
to participate in the political processes and to elect
candidates of their choice.” Gingles, 478 U.S. at 44. The
mere existence—or “bare statistical showing”—of a
disparate impact on a racial minority, in and of itself,
is not sufficient. See Salt River, 109 F.3d at 595 (“[A]
bare statistical showing of disproportionate impact on
a racial minority does not satisfy the § 2 ‘results’
inquiry.” (emphasis in original)).
Second, if we find at the first step that the
challenged practice imposes a disparate burden, we ask
whether, under the “totality of the circumstances,”
there is a relationship between the challenged
“standard, practice, or procedure,” on the one hand,
and “social and historical conditions” on the other. The
purpose of the second step is to evaluate a disparate
burden in its real-world context rather than in the
abstract. As stated by the Supreme Court, “The essence
of a § 2 claim is that a certain electoral law, practice, or
structure interacts with social and historical conditions
to cause an inequality in the opportunities enjoyed by
[minority] and white voters to elect their preferred
representatives” or to participate in the political
process. Gingles, 478 U.S. at 47; 52 U.S.C. § 10301(b).
To determine at the second step whether there is a
legally significant relationship between the disparate
burden on minority voters and the social and historical
conditions affecting them, we consider, as appropriate,
factors such as those laid out in the Senate Report
accompanying the 1982 amendments to the VRA. Id. at
43 (“The Senate Report which accompanied the 1982
amendments elaborates on the nature of § 2 violations
and on the proof required to establish these
violations.”); Veasey, 830 F.3d at 244–45.

App. 39
The Senate Report provides:
If as a result of the challenged practice or
structure plaintiffs do not have an equal
opportunity to participate in the political
processes and to elect candidates of their choice,
there is a violation of this section. To establish a
violation, plaintiffs could show a variety of
factors, depending on the kind of rule, practice,
or procedure called into question.
Typical factors include:
1. the extent of any history of official
discrimination in the state or political
subdivision that touched the right of the
members of the minority group to
register, to vote, or otherwise to
participate in the democratic process;
2. the extent to which voting in the
elections of the state or political
subdivision is racially polarized;
3. the extent to which the state or
political subdivision has used unusually
large election districts, majority vote
requirements, anti-single shot provisions,
or other voting practices or procedures
that may enhance the opportunity for
discrimination against the minority
group;
4. if there is a candidate slating process,
whether the members of the minority

App. 40
group have been denied access to that
process;
5. the extent to which members of the
minority group in the state or political
subdivision bear the effects of
discrimination in such areas as education,
employment and health, which hinder
their ability to participate effectively in
the political process;
6. whether political campaigns have been
characterized by overt or subtle racial
appeals;
7. the extent to which members of the
minority group have been elected to
public office in the jurisdiction.
Additional factors that in some cases have
had probative value as part of plaintiffs’
evidence to establish a violation are:
[8.] whether there is a significant lack of
responsiveness on the part of elected
officials to the particularized needs of the
members of the minority group.
[9.] whether the policy underlying the
state or political subdivision’s use of such
voting qualification, prerequisite to
voting, or standard, practice or procedure
is tenuous.
S. Rep. No. 97-417 (“S. Rep.”), at 28–29 (1982); see
Gingles, 478 U.S. at 36–37 (quoting the Senate Report).

App. 41
The Senate Committee’s list of “typical factors” is
neither comprehensive nor exclusive. S. Rep. at 29.
“[T]here is no requirement that any particular number
of factors be proved, or that a majority of them point
one way or the other.” Id. “[T]he question whether the
political processes are ‘equally open’ depends on a
searching practical evaluation of the ‘past and present
reality.’” Id. at 30. An evaluation of the totality of
circumstances in a Section 2 results claim, including an
evaluation of appropriate Senate factors, requires “a
blend of history and an intensely local appraisal[.]”
Gingles, 478 U.S. at 78 (quoting White v. Regester, 412
U.S. 755, 769–70 (1973)). The Senate factors are
relevant to both vote-denial and vote-dilution claims.
Gingles, 478 U.S. at 45 (Senate factors will be
“pertinent to certain types of § 2 claims,” including vote
denial claims, but will be “particularly [pertinent] to
vote dilution claims.”).
Our sister circuits have struck down standards,
practices, or procedures in several vote-denial cases
after considering the Senate factors. In Husted, the
Sixth Circuit upheld a district court’s finding that an
Ohio law limiting early voting violated the results test
of Section 2. The court wrote,
We find Senate factors one, three, five, and nine
particularly relevant to a vote denial claim in
that they specifically focus on how historical or
current patterns of discrimination “hinder
[minorities’] ability to participate effectively in
the political process.” Gingles, 478 U.S. at 37
(quoting Senate factor five). All of the factors,
however, can still provide helpful background

App. 42
context to minorities’ overall ability to engage
effectively on an equal basis with other voters in
the political process.
Husted, 768 F.3d at 555. In Veasey, the Fifth Circuit
upheld a district court’s finding that Texas’s
requirement that a photo ID be presented at the time
of voting violated the results test. Veasey, 830 F.3d at
256–64 (considering Senate factors one, two, five, six,
seven, eight, and nine). In League of Women Voters, the
Fourth Circuit held that the district court had clearly
erred in finding that the results test had not been
violated by North Carolina’s elimination of same-day
registration, and by North Carolina’s practice of wholly
discarding out-of-precinct ballots. League of Women
Voters, 769 F.3d at 245–46 (considering Senate factors
one, three, and nine).
2. OOP Policy and the Results Test
Uncontested evidence in the district court
established that minority voters in Arizona cast OOP
ballots at twice the rate of white voters. The question
is whether the district court clearly erred in holding
that Arizona’s policy of entirely discarding OOP ballots
does not violate the “results test” of Section 2.
a. Step One: Disparate Burden
The question at step one is whether Arizona’s policy
of entirely discarding OOP ballots results in a
disparate burden on a protected class. The district
court held that Plaintiffs failed at step one. The district
court clearly erred in so holding.

App. 43
Extensive and uncontradicted evidence in the
district court established that American Indian,
Hispanic, and African American voters are overrepresented among OOP voters by a ratio of two to one.
See Part II(A), supra. The district court wrote,
“Plaintiffs provided quantitative and statistical
evidence of disparities in OOP voting through the
expert testimony of Dr. Rodden . . . . Dr. Rodden’s
analysis is credible and shows that minorities are overrepresented among the small number of voters casting
OOP ballots.” Reagan, 329 F. Supp. 3d at 871. Dr.
Rodden reported that this pattern was consistent over
time and across counties. Based on this evidence, the
court found that during the 2016 general election,
American Indian, Hispanic, and African American
voters were twice as likely as white voters to vote outof-precinct and not have their votes counted. Id. at 872.
Despite these factual findings, the district court
held that Arizona’s policy of entirely discarding OOP
ballots does not impose a disparate burden under the
results test. The court gave two reasons to support its
holding.
First, the district court discounted the disparate
burden on the ground that there were relatively few
OOP ballots cast in relation to the total number of
ballots. Id. at 872. The district court clearly erred in so
doing.
The district court pointed out that the absolute
number of OOP ballots in Arizona fell between 2012
and 2016. It pointed out, further, that as a percentage
of all ballots cast, OOP ballots fell from 0.47 percent to
0.15 percent during that period. Id. The numbers and

App. 44
percentages cited by the district court are accurate.
Standing alone, they may be read to suggest that
locating the correct precinct for in-person voting has
become easier and that OOP ballots, as a percentage of
in-person ballots, have decreased accordingly.
However, the opposite is true. Arizona’s OOP policy
applies only to in-person ballots. The proper baseline to
measure OOP ballots to is thus not all ballots, but all
in-person ballots. The district court failed to point out
that the absolute number of all in-person ballots fell
more than the absolute number of OOP ballots, and
that, as a result, as a percentage of in-person ballots,
OOP ballots increased rather than decreased.
Even putting aside the potentially misleading
numbers and percentages cited by the district court
and focusing only on the decline in the absolute
number of OOP ballots, the court clearly erred. As
indicated above, the vote-denial category encompasses
all cases that are not vote-dilution cases. The number
of minority voters adversely affected, and the
mechanism by which they are affected, may vary
considerably. For example, if a polling place denies an
individual minority voter her right to vote based on her
race or color, Section 2 is violated based on that single
denial. However, a different analysis may be
appropriate when a facially neutral policy adversely
affects a number of minority voters. Arizona’s OOP
policy is an example. We are willing to assume in such
a case that more than a de minimis number of minority
voters must be burdened before a Section 2 violation
based on the results test can be found. Even on that
assumption, however, we conclude that the number of

App. 45
OOP ballots cast in Arizona’s general election in
2016—3,709 ballots—is hardly de minimis.
We find support for our conclusion in several places.
The Department of Justice submitted an amicus brief
to our en banc panel in support of Arizona. Despite its
support for Arizona, DOJ specifically disavowed the
district court’s conclusion that the number of discarded
OOP ballots was too small to be cognizable under the
results test. DOJ wrote:
[T]he district court’s reasoning was not
correct to the extent that it suggested that
plaintiffs’ Section 2 claim would fail solely
because of the small number of voters
affected. . . .
That is not a proper reading of the statute.
Section 2 prohibits any “standard, practice, or
procedure” that “results in a denial or
abridgement of the right of any citizen of the
United States to vote on account of race or
color.” 52 U.S.C. 10301(a) (emphasis added); see
also Frank v. Walker, 819 F.3d 384, 386 (7th Cir.
2016) (Frank II) (“The right to vote is personal
and is not defeated by the fact that 99% of other
people can secure the necessary credentials
easily.”). Section 2 safeguards a personal right to
equal participation opportunities. A poll worker
turning away a single voter because of her race
plainly results in “less opportunity * * * to
participate in the political process and to elect
representatives of [her] choice.” 52 U.S.C.
10301(b).

App. 46
DOJ Amicus Brief at 28–29. DOJ’s brief appears to
treat as equivalent the case of an individually targeted
single minority voter who is denied the right to vote
and the case where a facially neutral policy affects a
single voter. We do not need to go so far. We need only
point out that in the case before us a substantial
number of minority voters are disparately affected by
Arizona’s OOP policy. As long as an adequate disparate
impact is shown, as it has been shown here, and as
long as the other prerequisites for finding a Section 2
violate are met, each individual in the affected group is
protected under Section 2.
Further, in League of Women Voters, “approximately
3,348 out-of-precinct provisional ballots” cast by
African American voters would have been discarded
under the challenged North Carolina law. 769 F.3d at
244 (quoting the district court). The district court had
held that this was a “minimal” number of votes, and
that Section 2 was therefore not violated. The Fourth
Circuit reversed, characterizing the district court’s
ruling as a “grave error.” Id. at 241.
Finally, in the 2000 presidential election, the official
margin of victory for President George W. Bush in
Florida was 537 votes. Federal Election Commission,
2000 Official Presidential General Election Results
(Dec. 2001), available at https://transition.fec.gov/
pubrec/2000presgeresults.htm. If there had been 3,709
additional ballots cast in Florida in 2000, in which
minority voters had outnumbered white voters by a
ratio of two to one, it is possible that a different
President would have been elected.

App. 47
Second, the district court concluded that Arizona’s
policy of rejecting OOP ballots does not impose a
disparate burden on minority voters because Arizona’s
policy of entirely discarding OOP ballots “is not the
cause of the disparities in OOP voting.” Reagan, 329 F.
Supp. 3d at 872. The court wrote that Plaintiffs “have
not shown that Arizona’s policy to not count OOP
ballots causes minorities to show up to vote at the
wrong precinct at rates higher than their non-minority
counterparts.” Id. at 873. Again, the district court
clearly erred.
The district court misunderstood what Plaintiffs
must show. Plaintiffs need not show that Arizona
caused them to vote out of precinct. Rather, they need
only show that the result of entirely discarding OOP
ballots has an adverse disparate impact, by
demonstrating “a causal connection between the
challenged voting practice and a prohibited
discriminatory result.” Salt River, 109 F.3d at 595
(emphasis added). Here, “[t]he challenged practice—not
counting OOP ballots—results in ‘a prohibited
discriminatory result’; a substantially higher
percentage of minority votes than white votes are
discarded.” DNC, 904 F.3d at 736 (Thomas, C.J.,
dissenting).
We hold that the district court clearly erred in
holding that Arizona’s policy of entirely discarding
OOP ballots does not result in a disparate burden on
minority voters. We accordingly hold that Plaintiffs
have succeeded at step one of the results test.

App. 48
b. Step Two: Senate Factors
The question at step two is whether, under the
“totality of circumstances,” the disparate burden on
minority voters is linked to social and historical
conditions in Arizona so as “to cause an inequality in
the opportunities enjoyed by [minority] and white
voters to elect their preferred representatives” or to
participate in the political process. Gingles, 478 U.S. at
47; 52 U.S.C. § 10301(b). The district court wrote that
because in its view Plaintiffs failed at step one,
discussion of step two was unnecessary. Reagan, 329 F.
Supp. 3d at 873. The court nonetheless went on to
discuss step two and, after considering various Senate
factors, to hold that Plaintiffs failed at this step as well.
The district court clearly erred in so holding.
At step two, we consider relevant Senate factors.
Some Senate factors are “more important to” votedenial claims, or to some vote-denial claims, and
others, “[i]f present, . . . are supportive of, but not
essential to” the claim. Gingles, 478 at 48 n.15
(emphasis in original). That is, Senate factors vary in
importance depending on whether a court is dealing
with a vote-dilution or a vote-denial case. The same
factors may also vary in importance from one votedenial case to another.
We emphasize that the relative importance of the
Senate factors varies from case to case. For example, as
we will describe in a moment, Arizona has a long and
unhappy history of official discrimination connected to
voting. Other States may not have such a history, but
depending on the existence of other Senate factors they

App. 49
may nonetheless be found to have violated the results
test of Section 2.
The district court considered seven of the nine
Senate factors: factor one, the history of official
discrimination connected to voting; factor two, racially
polarized voting patterns; factor five, the effects of
discrimination in other areas on minority groups’
access to voting; factor six, racial appeals in political
campaigns; factor seven, the number of minorities in
public office; factor eight, officials’ responsiveness to
the needs of minority groups; and factor nine, the
tenuousness of the justification for the challenged
voting practice.
We analyze below each of these factors, indicating
whether we agree or disagree with the district court’s
analysis as to each. Of the various factors, we regard
Senate factors five (the effects of discrimination in
other areas on minorities access to voting) and nine
(the tenuousness of the justification for the challenged
voting practices) as particularly important. We also
regard factor one (history of official discrimination) as
important, as it bears on the existence of
discrimination generally and strongly supports our
conclusion under factor five. Though “not essential,”
Gingles, 478 U.S. at 48 n.15, the other factors provide
“helpful background context.” Husted, 768 F.3d at 555.
i. Factor One: History of Official Discrimination
Connected to Voting
Arizona has a long history of race-based
discrimination against its American Indian, Hispanic,
and African American citizens. Much of that

App. 50
discrimination is directly relevant to those citizens’
ability “to register, to vote, or otherwise to participate
in the democratic process.” Id. We recount the most
salient aspects of that history.
Dr. David Berman, a Professor Emeritus of Political
Science at Arizona State University, submitted an
expert report and testified in the district court. The
court found Dr. Berman “credible” and gave “great
weight to Dr. Berman’s opinions.” Reagan, 329 F. Supp.
3d at 834. The following narrative is largely drawn
from Dr. Berman’s report and the sources on which he
relied.
(A) Territorial Period
Arizona’s history of discrimination dates back to
1848, when it first became an American political entity
as a United States territory. “Early territorial
politicians acted on the belief that it was the ‘manifest
destiny’ of the Anglos to triumph in Arizona over the
earlier Native American and Hispanic civilizations.”
David Berman, Expert Report (Berman) at 4. Dr.
Berman wrote that from the 1850s through the 1880s
there were “blood thirsty efforts by whites to either
exterminate” Arizona’s existing American Indian
population or “confine them to reservations.” Id. at 5.
In 1871, in the Camp Grant Massacre, white settlers
“brutal[ly] murder[ed] over 100 Apaches, most of whom
were women and children.” Id. Arizona’s white
territorial legislature passed a number of
discriminatory laws, including anti-miscegenation laws
forbidding marriage between whites and Indians. See
James Thomas Tucker et al., Voting Rights in Arizona:
1982–2006, 17 S. Cal. Rev. L. & Soc. Just. 283, 283 n.3

App. 51
(2008) (Tucker et al., Voting Rights). Dr. Berman
wrote: “By the late 1880s and the end of th[e] Indian
wars, the realities of life for Native Americans in
Arizona were confinement to reservations, a continuous
loss of resources (water, land, minerals) to settlers,
poverty, and pressure to abandon their traditional
cultures.” Berman at 5.
White settlers also discriminated against Arizona’s
Hispanic population. Dr. Berman wrote:
Although Hispanics in the territory’s early
period commonly held prominent roles in public
and political life, as migration continued they
were overwhelmed by a flood of Anglo-American
and European immigrants. While a small group
of Hispanics continued to prosper, . . . most
Hispanics toiled as laborers who made less than
Anglos even though they performed the same
work.
Id. (footnote omitted). Hispanics in Arizona “found it
difficult to receive acceptance or fair treatment in a
society that had little tolerance for people of Latin
American extraction, and particularly those whose
racial make-up included Indian or African blood.” Id. at
5–6 (quoting Oscar J. Martinez, Hispanics in Arizona,
in Arizona at Seventy-Five: The Next Twenty-Five
Years 88–89 (Ariz. State Univ. Pub. History Program
& the Ariz. Historical Soc’y, 1987)).
Pursuant to the Treaty of Guadalupe Hidalgo that
ended the Mexican-American War, the United States
conferred citizenship on the approximately 100,000
Hispanics living in Arizona. In 1909, the Arizona

App. 52
territorial legislature passed a statute imposing an
English language literacy test as a prerequisite to voter
registration. Id. at 10. The test was specifically
designed to prevent the territory’s Hispanic
citizens—who had lower English literacy rates than
white citizens—from voting. Id. At the time, Indians
were not citizens and were not eligible to vote.
In 1910, Congress passed a statute authorizing
Arizona, as a prelude to statehood, to draft a state
constitution. Upon approval of its constitution by
Congress, the President, and Arizona voters, Arizona
would become a State. Id. at 11. Members of Congress
viewed Arizona’s literacy test as a deliberate effort to
disenfranchise its Hispanic voters. Id. The authorizing
statute specifically provided that Arizona could not use
its newly adopted literacy test to prevent Arizona
citizens from voting on a proposed constitution. Id.
That same year, Arizona convened a constitutional
convention. Id. at 7. Although Congress had ensured
that Arizona would not use its literacy test to prevent
Hispanic citizens from voting on the constitution,
Hispanics were largely excluded from the drafting
process. With the exception of one Hispanic delegate,
all of the delegates to the convention were white. Id. By
comparison, approximately one-third of the delegates
to the 1910 New Mexico constitutional convention were
Hispanic, and one-sixth of the 48 delegates to the 1849
California constitutional convention were Hispanic. Id.
The influence of Hispanic delegates is evident in
those States’ constitutions. For example, New Mexico’s
constitution provides that the “right of any citizen of
the state to vote, hold office or sit upon juries, shall

App. 53
never be restricted, abridged or impaired on account of
. . . race, language or color, or inability to speak, read
or write the English or Spanish languages.” N.M.
Const. art. VII, § 3 (1910). It also requires the
legislature to provide funds to train teachers in
Spanish instruction. N.M. Const. art. XII, § 8 (1910).
California’s constitution required all state laws to be
published in Spanish as well as English. Cal. Const.
art. XI, § 21 (1849).
By contrast, Arizona’s constitution did not include
such provisions. Indeed, two provisions required
precisely the opposite. The Arizona constitution
provided that public schools “shall always be conducted
in English” and that “[t]he ability to read, write, speak,
and understand the English language sufficiently well
to conduct the duties of the office without the aid of an
interpreter, shall be a necessary qualification for all
State officers and members of the State Legislature.”
Ariz. Const. art. XX, §§ 7, 8 (1910).
(B) Early Statehood
(1) Literacy Test
Arizona became a State in 1912. That same year,
the Arizona legislature passed a statute reimposing an
English literacy test—the test that had been imposed
by the territorial legislature in 1909 and that Congress
had forbidden the State to use for voting on the state
constitution. Berman at 11; see also James Thomas
Tucker, The Battle Over Bilingual Ballots: Language
Minorities and Political Access Under the Voting Rights
Act 20 (Routledge, 2016) (Tucker, Bilingual Ballots).
According to Dr. Berman, the statute was enacted “to

App. 54
limit ‘the ignorant Mexican vote.’” David R. Berman,
Arizona Politics and Government: The Quest for
Autonomy, Democracy, and Development 75 (Univ. of
Neb. Press, 1998) (Berman, Arizona Politics) (quoting
letter between prominent political leaders); Berman at
12.
County registrars in Arizona had considerable
discretion in administering literacy tests. Registrars
used that discretion to excuse white citizens from the
literacy requirement altogether, to give white citizens
easier versions of the test, and to help white citizens
pass the test. See also Katzenbach, 383 U.S. at 312
(describing the same practice with respect to African
American citizens in southern States). In contrast,
Hispanic citizens were often required to pass more
difficult versions of the test, without assistance and
without error. Berman, Arizona Politics at 75; see also
Berman at 12.
The literacy test was used for the next sixty years.
The year it was introduced, Hispanic registration
declined so dramatically that some counties lacked
enough voters to justify primaries. Berman at 12. One
county had recall campaigns because enough Hispanic
voters had been purged from voting rolls to potentially
change the electoral result. Id. Arizona would use its
literacy test not only against Hispanics, but also
against African Americans and, once they became
eligible to vote in 1948, against American Indians. The
test was finally repealed in 1972, two years after an
amendment to the Voting Rights Act banned literacy
tests nationwide. Id.

App. 55
(2) Disenfranchisement of American Indians
In 1912, when Arizona became a State, Indians
were not citizens of Arizona or of the United States. In
1924, Congress passed the Indian Citizenship Act,
declaring all Indians citizens of the United States and,
by extension, of their States of residence. Indian
Citizenship Act of 1924, Pub. L. No. 68-175, 43 Stat.
253 (codified at 8 U.S.C. § 1401(b)).
Indian voting had the potential to change the
existing white political power structure of Arizona. See
Patty Ferguson-Bohnee, The History of Indian Voting
Rights in Arizona: Overcoming Decades of Voter
Suppression, 47 Ariz. St. L.J. 1099, 1103–04 (2015)
(Ferguson-Bohnee). Indians comprised over 14 percent
of the population in Arizona, the second-highest
percentage of Indians in any State. Id. at 1102 n.19,
1104. Potential power shifts were even greater at the
county level. According to the 1910 Census, Indians
comprised over 66 percent of the population of Apache
County, over 50 percent of Navajo County, over 34
percent of Pinal County, and over 34 percent of
Coconino County. Id. at 1104.
Enacted under the Fourteenth and Fifteenth
Amendments, the Indian Citizenship Act should have
given Indians the right to vote in Arizona elections. The
Attorney General of Arizona initially agreed that the
Act conferred the right to vote, and he suggested in
1924 that precinct boundaries should be expanded to
include reservations. Id. at 1105. However, in the years
leading up to the 1928 election, Arizona’s Governor,
county officials, and other politicians sought to prevent
Indians from voting. Id. at 1106–08. The Governor, in

App. 56
particular, was concerned that Indian voter
registration—specifically, registration of approximately
1,500 Navajo voters—would hurt his reelection
chances. Id. at 1107–08. The Governor sought legal
opinions on ways to exclude Indian voters, id., and was
advised to “adopt a systematic course of challenging
Indians at the time of election.” Id. at 1108 (quoting
Letter from Samuel L. Pattee to George W.P. Hunt,
Ariz. Governor (Sept. 22, 1928)). County officials
challenged individual Indian voter registrations. Id. at
1107–08.
Prior to the 1928 election, two Indian residents of
Pima County brought suit challenging the county’s
rejection of their voter registration forms. Id. at 1108.
The Arizona Supreme Court sided with the county. The
Arizona constitution forbade anyone who was “under
guardianship, non compos mentis, or insane” from
voting. Ariz. Const. art. VII, § 2 (1910). The Court held
that Indians were “wards of the nation,” and were
therefore “under guardianship” and not eligible to vote.
Porter v. Hall, 271 P. 411, 417, 419 (Ariz. 1928).
Arizona barred Indians from voting for the next
twenty years. According to the 1940 census, Indians
comprised over 11 percent of Arizona’s population.
Ferguson-Bohnee at 1111. They were the largest
minority group in Arizona. “One-sixth of all Indians in
the country lived in Arizona.” Id.
After World War II, Arizona’s Indian citizens
returned from fighting the Axis powers abroad to fight
for the right to vote at home. Frank Harrison, a World
War II veteran and member of the Fort McDowell
Yavapai Nation, and Harry Austin, another member of

App. 57
the Fort McDowell Yavapai Nation, filed suit against
the State. In 1948, the Arizona Supreme Court
overturned its prior decision in Porter v. Hall. Harrison
v. Laveen, 196 P.2d 456, 463 (Ariz. 1948). Almost a
quarter century after enactment of the Indian
Citizenship Act of 1924, Indian citizens in Arizona had
the legal right to vote.
(C) The 1950s and 1960s
For decades thereafter, however, Arizona’s Indian
citizens often could not exercise that right. The Arizona
Supreme Court’s decision in Harrison v. Laveen did not
result in “a large influx” of new voters because Arizona
continued to deny Indian citizens—as well as Hispanic
and African American citizens—access to the ballot
through other means. Berman at 15.
The biggest obstacle to voter registration was
Arizona’s English literacy test. In 1948, approximately
80 to 90 percent of Indian citizens in Arizona did not
speak or read English. Tucker et al., Voting Rights at
285; see also Berman at 15. In the 1960s, about half the
voting-age population of the Navajo Nation could not
pass the English literacy test. Ferguson-Bohnee at
1112 n.88. For Arizona’s Indian—and Hispanic and
African American—citizens who did speak and read
English, discriminatory administration of the literacy
test by county registrars often prevented them from
registering. See, e.g., Berman, Arizona Politics at 75
(“As recently as the 1960s, registrars applied the test
to reduce the ability of blacks, Indians and Hispanics
to register to vote.”).

App. 58
Voter intimidation during the 1950s and 60s often
prevented from voting those American Indian,
Hispanic, and African American citizens who had
managed to register. According to Dr. Berman:
During the 1960s, it was . . . clear that more
than the elimination of the literacy test in some
areas was going to be needed to protect
minorities. Intimidation of minority-group
members—Hispanics, African Americans, as
well as Native Americans—who wished to vote
was . . . a fact of life in Arizona. Anglos
sometimes challenged minorities at the polls and
asked them to read and explain “literacy” cards
containing quotations from the U.S.
Constitution. These intimidators hoped to
frighten or embarrass minorities and discourage
them from standing in line to vote. Vote
challenges of this nature were undertaken by
Republican workers in 1962 in South Phoenix, a
largely minority Hispanic and African-American
area. . . . [In addition,] [p]eople in the nonNative American community, hoping to keep
Native Americans away from the polls, told
them that involvement could lead to something
detrimental, such as increased taxation, a loss of
reservation lands, and an end to their special
relationship with the federal government.
Berman at 14–15.
Intimidation of minority voters continued
throughout the 1960s. For example, in 1964, Arizona
Republicans undertook voter intimidation efforts
throughout Arizona “as part of a national effort by the

App. 59
Republican Party called ‘Operation Eagle Eye.’” Id. at
14. According to one account:
The approach was simple: to challenge voters,
especially voters of color, at the polls throughout
the country on a variety of specious pretexts. If
the challenge did not work outright—that is, if
the voter was not prevented from casting a
ballot (provisional ballots were not in
widespread use at this time)—the challenge
would still slow down the voting process, create
long lines at the polls, and likely discourage
some voters who could not wait or did not want
to go through the hassle they were seeing other
voters endure.
Id. (quoting Tova Andrea Wang, The Politics of Voter
Suppression: Defending and Expanding Americans’
Right to Vote 44–45 (Cornell Univ. Press, 2012)).
Compounding the effects of the literacy test and
voter intimidation, Arizona “cleansed” its voting rolls.
In 1970, Democrat Raul Castro narrowly lost the
election for Governor. (He would win the governorship
four years later to become Arizona’s first and only
Hispanic Governor.) Castro received 90 percent of the
Hispanic vote, but he lost the election because of low
Hispanic voter turnout. Dr. Berman explained:
[C]ontributing to that low turnout was “a
decision by the Republican-dominated
legislature to cleanse the voting rolls and have
all citizens reregister. This cleansing of the rolls
erased years of registration drives in barrios
across the state. It seems certain that many

App. 60
Chicanos did not understand that they had to
reregister, were confused by this development,
and simply stayed away from the polls.”
Id. at 17 (quoting F. Chris Garcia & Rudolph O. de la
Garza, The Chicano Political Experience 105 (Duxbury
Press, 1977)).
(D) Voting Rights Act and Preclearance under
Section 5
Congress passed the Voting Rights Act in 1965. See
Voting Rights Act of 1965, Pub. L. No. 89-110, 79 Stat.
437–446 (codified as amended at 52 U.S.C.
§§ 10301–10314, 10501–10508, 10701, 10702). Under
Section 4(b) of the Act, a State or political subdivision
qualified as a “covered jurisdiction” if it satisfied two
criteria. Id. § 4(b). The first was that on November 1,
1964—the date of the presidential election—the State
or political subdivision had maintained a “test or
device,” such as a literacy test, restricting the
opportunity to register or vote. The second was either
that (a) on November 1, 1964, less than 50 percent of
the voting-age population in the jurisdiction had been
registered to vote, or (b) less than 50 percent of the
voting-age population had actually voted in the
presidential election of 1964. Seven States qualified as
covered jurisdictions under this formula: Alabama,
Alaska, Georgia, Louisiana, Mississippi, South
Carolina, and Virginia. Determination of the Director
of the Census Pursuant to Section 4(b)(2) of the Voting
Rights Act of 1965, 30 Fed. Reg. 9897-02 (Aug. 7, 1965).
Political subdivisions in four additional States—
Arizona, Hawai‘i, Idaho, and North Carolina—also
qualified as covered jurisdictions. See id.;

App. 61
Determination of the Director of the Census Pursuant
to Section 4(b)(2) of the Voting Rights Act of 1965, 30
Fed. Reg. 14,505-02 (Nov. 19, 1965).
Under Section 4(a) of the VRA, covered jurisdictions
were forbidden for a period of five years from using a
“test or device,” such as a literacy test, as a
prerequisite to register to vote, unless a three-judge
district court of the District of Columbia found that no
such test had been used by the jurisdiction during the
preceding five years for the purpose of denying the
right to vote on account of race or color. Voting Rights
Act of 1965, Pub. L. No. 89-110, § 4(a). Under Section
5, covered jurisdictions were forbidden from changing
“any voting qualification or prerequisite to voting, or
standard, practice, or procedure with respect to voting”
unless the jurisdiction “precleared” that change, by
either obtaining approval (a) from a three-judge district
court of the District of Columbia acknowledging that
the proposed change “neither has the purpose nor will
have the effect of denying or abridging the right to vote
on account of race or color,” or (b) from the Attorney
General if a proposed change has been submitted to
DOJ and the Attorney General has not “interposed an
objection” within sixty days of the submission. Id. § 5.
Three counties in Arizona qualified as “covered
jurisdictions” under the 1965 Act: Apache, Coconino,
and Navajo Counties. See Determination of the
Director of the Census Pursuant to Section 4(b)(2) of
the Voting Rights Act of 1965, 30 Fed. Reg. 9897-02,
14,505-02. Those counties were therefore initially
prohibited from using the literacy test as a prerequisite
to voter registration. All three counties were majority

App. 62
American Indian, and there was a history of high use
of the literacy test and correspondingly low voter
turnout. Berman at 12. However, in 1966, in a suit
brought by the counties against the United States, a
three-judge district court held that there was
insufficient proof that a literacy test had been used by
the counties in a discriminatory fashion during the
immediately preceding five years. See Apache Cty. v.
United States, 256 F. Supp. 903 (D.D.C. 1966). The
Navajo Nation had sought to intervene and present
evidence of discrimination in the district court, but its
motion to intervene had been denied. Id. at 906–13.
Congress renewed and amended the VRA in 1970,
extending it for another five years. Voting Rights Act of
1970, Pub. L. No. 91-285, 84 Stat. 314 (1970). Under
the VRA of 1970, the formula for determining covered
jurisdictions under Section 4(b) was changed to add the
presidential election of 1968 to the percentage-of-voters
criterion. Id. § 4(b). As a result, eight out of fourteen
Arizona counties—including Apache, Navajo, and
Coconino Counties—qualified as covered jurisdictions.
Tucker et al., Voting Rights at 286. Under the 1970
Act, non-covered jurisdictions were forbidden from
using a “test or device,” such as a literacy test, to the
same degree as covered jurisdictions. The 1970 Act
thus effectively imposed a nationwide ban on literacy
tests. Voting Rights Act of 1970, Pub. L. No. 91-285,
§ 201.
Arizona immediately challenged the ban. In Oregon
v. Mitchell, 400 U.S. 112, 132 (1970), the Court
unanimously upheld the ban on literacy tests. Justice
Black wrote,

App. 63
In enacting the literacy test ban . . . [,]
Congress had before it a long history of the
discriminatory use of literacy tests to
disfranchise voters on account of their race. . . .
Congress . . . had evidence to show that voter
registration in areas with large SpanishAmerican populations was consistently below
the state and national averages. In Arizona, for
example, only two counties out of eight with
Spanish surname populations in excess of 15%
showed a voter registration equal to the statewide average. Arizona also has a serious
problem of deficient voter registration among
Indians.
Two years after the Court’s decision, Arizona finally
repealed its literacy test. Tucker, Bilingual Ballots, at
21.
In 1975, Congress again renewed and amended the
VRA. Voting Rights Act of 1975, Pub. L. No. 94-73, 89
Stat. 400 (1975). Under the VRA of 1975, the formula
for determining covered jurisdictions under Section 4(b)
was updated to add the presidential election of 1972.
Id. § 202. In addition, Congress expanded the definition
of “test or device” to address discrimination against
language minority groups. Id. § 203 (Section 4(f)).
Pursuant to this amended formula and definition, any
jurisdiction where a single language minority group
(e.g., Spanish speakers who spoke no other language)
constituted more than 5 percent of eligible voters was
subject to preclearance under Section 5 if (a) the
jurisdiction did not offer bilingual election materials
during the 1972 presidential election, and (b) less than

App. 64
50 percent of the voting-age population was registered
to vote, or less than 50 percent of the voting-age
population actually voted in the 1972 presidential
election. Id. §§ 201–203.
Every jurisdiction in Arizona failed the new test. As
a result, the entire State of Arizona became a covered
jurisdiction. Berman at 20–21.
(E) Continued Obstacles to Voting: The Example of
Apache County
The VRA’s elimination of literacy tests increased
political participation by Arizona’s American Indian,
Hispanic, and African American citizens. However,
state and county officials in Arizona continued to
discriminate against minority voters. Apache County,
which includes a significant part of the Navajo
Reservation, provides numerous examples of which we
recount only one.
In 1976, a school district in Apache County sought
to avoid integration by holding a special bond election
to build a new high school in a non-Indian area of the
county. See Apache Cty. High Sch. Dist. No. 90 v.
United States, No. 77-1815 (D.D.C. June 12, 1980); see
also Tucker et al., Voting Rights at 324–26 (discussing
the same). Less than a month before the election, the
school district, a “covered jurisdiction” under the VRA,
sought preclearance under Section 5 for proposed
changes in election procedures, including closure of
nearly half the polling stations on the Navajo
Reservation. Letter from J. Stanley Pottinger,
Assistant Attorney Gen., Civil Rights Div., Dep’t of
Justice, to Joe Purcell, Gust, Rosenfeld, Divelbess &

App. 65
Henderson (Oct. 4, 1976). DOJ did not complete its
review before the election. The school district
nonetheless held the bond election using the proposed
changes. After the election, DOJ refused to preclear the
proposed changes, finding that they had a
discriminatory purpose or effect. Id. (and subsequent
letters from Assistant Attorney Gen. Drew S. Days III
on May 3, 1977, and June 10, 1977). The school district
brought suit in a three-judge district court, seeking a
declaratory judgment that the election did not violate
the VRA.
The district court found that “[t]he history of
Apache County reveals pervasive and systemic
violations of Indian voting rights.” Apache Cty. High
Sch. Dist. No. 90, No. 77-1815, at 6. The court found
that the school district’s behavior was neither
“random[]” nor “unconscious[].” Id. at 14–15. “Rather,
its campaign behavior served to effectuate the
unwritten but manifest policy of minimizing the effect
of the Navajos’ franchise, while maximizing the Anglo
vote.” Id. at 15.
(F) United States v. Arizona and Preclearance
during the 1980s and 1990s
During the following two decades, DOJ refused to
preclear numerous proposed voting changes in Arizona.
See, e.g., Goddard v. Babbitt, 536 F. Supp. 538, 541,
543 (D. Ariz. 1982) (finding that a state legislative
redistricting plan passed by the Arizona state
legislature “dilut[ed] the San Carlos Apache Tribal
voting strength and divid[ed] the Apache community of
interest”); see also Tucker et al., Voting Rights at
326–28 (discussing additional examples). In 1988, the

App. 66
United States sued Arizona, alleging that the State, as
well as Apache and Navajo Counties, violated the VRA
by employing election standards, practices, and
procedures that denied or abridged the voting rights of
Navajo citizens. See United States v. Arizona, No. 881989 (D. Ariz. May 22, 1989) (later amended Sept. 27,
1993); see also Tucker et al., Voting Rights at 328–30
(discussing the same). A three-judge district court
summarized the complaint:
The challenged practices include alleged
discriminatory voter registration, absentee
ballot, and voter registration cancellation
procedures, and the alleged failure of the
defendants to implement, as required by Section
4(f)(4), effective bilingual election procedures,
including the effective dissemination of election
information in Navajo and providing for a
sufficient number of adequately trained
bilingual persons to serve as translators for
Navajo voters needing assistance at the polls on
election day.
United States v. Arizona, No. 88-1989, at 1–2.
Arizona and the counties settled the suit under a
Consent Decree. Id. at 1–26. The Decree required the
defendants to make extensive changes to their voting
practices, including the creation of a Navajo Language
Election Information Program. See id. at 4–23. More
than a decade later, those changes had not been fully
implemented. See U.S. Gov’t Accountability Office,
Department of Justice’s Activities to Address Past
Election-Related Voting Irregularities 91–92 (2004),
available at http://www.gao.gov/new.items/d04104

App. 67
1r.pdf (identifying significant deficiencies and finding
that implementation of the Navajo Language Election
Information Program by Apache and Navajo Counties
was “inadequate”).
During the 1980s and 1990s, DOJ issued seventeen
Section 5 preclearance objections to proposed changes
in Arizona election procedures, concluding that they
had the purpose or effect of discriminating against
Arizona’s American Indian and/or Hispanic voters. See
U.S. Dep’t of Justice, Voting Determination Letters for
Arizona, https://www.justice.gov/crt/votingdetermination-letters-arizona (last updated Aug. 7,
2015). Three of these objections were for statewide
redistricting plans, one in the 1980s and two in the
1990s. Id. Other objections concerned plans for seven of
Arizona’s fifteen counties. Id. (objections to plans for
Apache, Cochise, Coconino, Graham, La Paz, Navajo,
and Yuma Counties).
(G) Continuation to the Present Day
Arizona’s pattern of discrimination against minority
voters has continued to the present day.
(1) Practices and Policies
We highlight two examples of continued
discriminatory practices and policies. First, as the
district court found, the manner in which Maricopa
County—home to over 60 percent of Arizona’s
population—administers elections has “been of
considerable concern to minorities in recent years.”
Reagan, 329 F. Supp. 3d at 871; Berman at 20. During
the 2016 presidential primary election, Maricopa
County reduced the number of polling places by 70

App. 68
percent, from 200 polling places in 2012 to just 60
polling places in 2016. Berman at 20. The reduction in
number, as well as the locations, of the polling places
had a disparate impact on minority voters. Rodden at
61–68. Hispanic voters were “under-served by polling
places relative to the rest of the metro area,” id. at 62,
and Hispanic and African American voters were forced
to travel greater distances to reach polling places than
white, non-Hispanic voters. Id. at 64–68. The reduction
in the number of polling places “resulted in extremely
long lines of people waiting to vote—some for five
hours—and many people leaving the polls, discouraged
from voting by the long wait.” Berman at 20.
Second, the district court found that Maricopa
County has repeatedly misrepresented or
mistranslated key information in Spanish-language
voter materials. Reagan, 329 F. Supp. 3d at 875 (“Along
with the State’s hostility to bilingual education,
Maricopa County has sometimes failed to send properly
translated education[al] materials to its Spanish
speaking residents, resulting in confusion and distrust
from Hispanic voters.”); Berman at 20. In 2012, the
official Spanish-language pamphlet in Maricopa
County told Spanish-speaking voters that the
November 6 election would be held on November 8.
Berman at 20. The county did not make the same
mistake in its English-language pamphlet. Four years
later, Spanish-language ballots in Maricopa County
provided an incorrect translation of a ballot
proposition. Id.

App. 69
(2) Voter Registration and Turnout
Voter registration of Arizona’s minority citizens lags
behind that of white citizens. In November 2016, close
to 75 percent of white citizens were registered to vote
in Arizona, compared to 57 percent of Hispanic citizens.
See U.S. Census Bureau, Reported Voting and
Registration by Sex, Race, and Hispanic Origin for
November 2016, tbl. 4b.
Arizona has one of the lowest voter turnout rates in
the United States. A 2005 study ranked Arizona fortyseventh out of the fifty States. See Ariz. State Univ.,
Morrison Inst. for Pub. Policy, How Arizona Compares:
Real Numbers and Hot Topics 47 (2005) (relying on
Census data); see also Tucker et al., Voting Rights at
359. In 2012, Arizona ranked forty-fourth in turnout for
that year’s presidential election. Rodden at 19.
The turnout rate for minority voters is substantially
less than that for white voters. In 2002, 59.8 percent of
registered Hispanic voters turned out for the election,
compared to 72.4 percent of total registered voters.
Tucker et al., Voting Rights at 359–60 (relying on
Census data). In the 2012 presidential election, 39
percent of Arizona’s Hispanic voting-age population
and 46 percent of Arizona’s African American votingage population turned out for the election, compared to
62 percent of Arizona’s white population. Rodden at
20–21. The national turnout rate for African Americans
in that election was 66 percent. Id. In the 2000 and
2004 presidential elections, turnout of Arizona’s
American Indian voters was approximately 23
percentage points below the statewide average. Tucker
et al., Voting Rights at 360.

App. 70
(H) District Court’s Assessment of Factor One
The district court recognized Arizona’s history of
discrimination, but minimized its significance. Quoting
Dr. Berman, the court wrote:
In sum, “[d]iscriminatory action has been
more pronounced in some periods of state
history than others . . . [and] each party (not just
one party) has led the charge in discriminating
against minorities over the years.” Sometimes,
however, partisan objectives are the motivating
factor in decisions to take actions detrimental to
the voting rights of minorities. “[M]uch of the
discrimination that has been evidenced may well
have in fact been the unintended consequence of
a political culture that simply ignores the needs
of minorities.” Arizona’s recent history is a
mixed bag of advancements and discriminatory
actions.
Id. at 875–76 (alterations in original).
The fact that each party in Arizona “has led the
charge in discriminating against minorities” does not
diminish the legal significance of that discrimination.
Quite the contrary. That fact indicates that racial
discrimination has long been deeply embedded in
Arizona’s political institutions and that both parties
have discriminated when it has served their purposes.
Further, the “mixed bag of advancements and
discriminatory actions” in “Arizona’s recent history”
does not weigh in Arizona’s favor. As Chief Judge
Thomas wrote: “Rather, despite some advancements,
most of which were mandated by courts or Congress

App. 71
[through Section 5 preclearance], Arizona’s history is
marred by discrimination.” DNC, 904 F.3d at 738
(Thomas, C.J., dissenting). The “history of official
discrimination” in Arizona and its political subdivisions
“touch[ing] the right of the members of the minority
group to register, to vote, or otherwise to participate in
the democratic process” is long, substantial, and
unambiguous. Gingles, 478 U.S. at 36–37 (quoting S.
Rep. at 28–29).
The district court clearly erred in minimizing the
strength of this factor in Plaintiffs’ favor.
ii. Factor Two: Racially Polarized Voting Patterns
Voting in Arizona is racially polarized. The district
court found, “Arizona has a history of racially polarized
voting, which continues today.” Reagan, 329 F. Supp.
3d at 876. In recent years, the base of the Republican
party in Arizona has been white. Putting to one side
“landslide” elections, in statewide general elections
from 2004 to 2014, 59 percent of white Arizonans voted
for Republican candidates, compared with 35 percent
of Hispanic voters. The district court found that in the
2016 general election, exit polls “demonstrate that
voting between non-minorities and Hispanics continues
to be polarized along racial lines.” Id. In the most
recent redistricting cycle, the Arizona Independent
Redistricting Commission “found that at least one
congressional district and five legislative districts
clearly exhibited racially polarized voting.” Id.
Voting is particularly polarized when Hispanic and
white candidates compete for the same office. In twelve
non-landslide district-level elections in 2008 and 2010

App. 72
between a Hispanic Democratic candidate and a white
Republican candidate, an average of 84 percent of
Hispanics, 77 percent of American Indians, and 52
percent of African Americans voted for the Hispanic
candidate compared to an average of only 30 percent of
white voters.
The district court did not clearly err in assessing the
strength of this factor in Plaintiffs’ favor.
iii. Factor Five: Effects of Discrimination
It is undisputed that “members of the minority
group[s]” in Arizona “bear the effects of discrimination
in such areas as education, employment and health,
which hinder their ability to participate effectively in
the political process.” Gingles, 478 U.S. at 37 (quoting
S. Rep. at 28–29). The district court found, “Racial
disparities between minorities and non-minorities in
socioeconomic standing, income, employment,
education, health, housing, transportation, criminal
justice, and electoral representation have persisted in
Arizona.” Reagan, 329 F. Supp. 3d at 876.
The district court made factual findings in four key
areas—education, poverty and employment, home
ownership, and health. The district court concluded in
each area that the effects of discrimination “hinder”
minorities’ ability to participate effectively in the
political process.
First, the district court wrote:
From 1912 until the Supreme Court’s decision in
Brown v. Board of Education, segregated
education was widespread throughout Arizona

App. 73
and sanctioned by both the courts and the state
legislature. In fact, the Tucson Public Schools
only recently reached a consent decree with the
DOJ over its desegregation plan in 2013. The
practice of segregation also extended beyond
schools; it was common place to have segregated
public spaces such as restaurants, swimming
pools, and theaters. Even where schools were
not segregated, Arizona enacted restrictions on
bilingual education. As recently as 2000, Arizona
banned bilingual education with the passage of
Proposition 203.
Arizona has a record of failing to provide
adequate funding to teach its non-English
speaking students. This underfunding has taken
place despite multiple court orders instructing
Arizona to develop an adequate funding formula
for its programs, including a 2005 order in which
Arizona was held in contempt of court for
refusing to provide adequate funding for its
educational programs. “According to the
Education Law Center’s latest National Report
Card that provided data for 2013, Arizona
ranked 47th among the states in per-student
funding for elementary and secondary
education.”
Id. at 874–75 (internal citations omitted).
White Arizonans “remain more likely than
Hispanics, Native Americans, and African Americans
to graduate from high school, and are nearly three
times more likely to have a bachelor’s degree than
Hispanics and Native Americans.” Id. at 868. “[I]n a

App. 74
recent survey, over 22.4 percent of Hispanics and 11.2
percent of Native Americans rated themselves as
speaking English less than ‘very well,’ as compared to
only 1.2 percent of non-minorities.” Id. The district
court found that, due to “lower levels of [English]
literacy and education, minority voters are more likely
to be unaware of certain technical [voting] rules, such
as the requirement that early ballots be received by the
county recorder, rather than merely postmarked, by
7:00 p.m. on Election Day.” Id.
Second, Hispanics and African Americans in
Arizona live in poverty at nearly two times the rate of
whites. American Indians live in poverty at three times
the rate of whites. Id. “Wages and unemployment rates
for Hispanics, African Americans, and Native
Americans consistently have exceeded non-minority
unemployment rates for the period of 2010 to 2015.” Id.
The district court found that minority voters are more
likely to work multiple jobs, less likely to own a car,
and more likely to lack reliable access to
transportation, id. at 869, all of which make it more
difficult to travel to a polling place—or between an
incorrect polling place and a correct polling place.
Third, the district court found that “[i]n Arizona,
68.9 percent of non-minorities own a home, whereas
only 32.3 percent of African Americans, 49 percent of
Hispanics, and 56.1 percent of Native Americans do
so.” Id. at 868. Lower rates of homeownership and
correspondingly higher rates of renting and residential
mobility contribute to higher rates of OOP voting.
Fourth, the district court found that “[a]s of 2015,
Hispanics, Native Americans, and African Americans

App. 75
fared worse than non-minorities on a number of key
health indicators.” Id. at 868–69. “Native Americans in
particular have much higher rates of disability than
non-minorities, and Arizona counties with large Native
American populations have much higher rates of
residents with ambulatory disabilities.” Id. at 869. “For
example, ‘17 percent of Native Americans are disabled
in Apache County, 22 percent in Navajo County, and 30
percent in Coconino County.’” Id. “Further, ‘11 percent
[of individuals] have ambulatory difficulties in Apache
County, 13 percent in Navajo County, and 12 percent
in Coconino County, all of which contain significant
Native American populations and reservations.’” Id.
(alteration in original). Witnesses credibly testified
that ambulatory disabilities—both alone and combined
with Arizona’s transportation disparities—make
traveling to and between polling locations difficult.
The district court did not clearly err in assessing the
strength of this factor in Plaintiffs’ favor.
iv. Factor Six: Racial Appeals in Political Campaigns
Arizona’s “political campaigns have been
characterized by overt [and] subtle racial appeals”
throughout its history. Gingles, 478 U.S. at 37 (quoting
S. Rep. at 28–29). The district court found that
“Arizona’s racially polarized voting has resulted in
racial appeals in campaigns.” Reagan, 329 F. Supp. 3d
at 876.
For example, when Raul Castro, a Hispanic man,
successfully ran for governor in the 1970s, Castro’s
opponent, a white man, urged voters to support him
instead because “he looked like a governor.” Id. “In that

App. 76
same election, a newspaper published a picture of Fidel
Castro with a headline that read ‘Running for governor
of Arizona.’” Id. In his successful 2010 campaign for
State Superintendent of Public Education, John
Huppenthal, a white man running against a Hispanic
candidate, ran an advertisement in which the
announcer said that Huppenthal was “one of us,” was
opposed to bilingual education, and would “stop La
Raza,” an influential Hispanic civil rights organization.
Id. When Maricopa County Attorney Andrew Thomas,
a white man, ran for governor in 2014, he ran an
advertisement describing himself as “the only
candidate who has stopped illegal immigration.” Id.
The advertisement “simultaneously show[ed] a
Mexican flag with a red strikeout line through it
superimposed over the outline of Arizona.” Id. Further,
“racial appeals have been made in the specific context
of legislative efforts to limit ballot collection.” Id. The
district court specifically referred to the “racially
charged” LaFaro Video, falsely depicting a Hispanic
man, characterized as a “thug,” “acting to stuff the
ballot box.” Id.
The district court did not clearly err in assessing the
strength of this factor in Plaintiffs’ favor.
v. Factor Seven: Number of Minorities in
Public Office
The district court recognized that there has been a
racial disparity in elected officials but minimized its
importance. The court wrote, “Notwithstanding racially
polarized voting and racial appeals, the disparity in the
number of minority elected officials in Arizona has
declined.” Id. at 877. Citing an expert report by Dr.

App. 77
Donald Critchlow—an expert whose opinion the court
otherwise afforded “little weight,” id. at 836—the court
wrote, “Arizona has been recognized for improvements
in the number of Hispanics and Native Americans
registering and voting, as well as in the overall
representation of minority elected officials,” id. at 877.
As recounted above, it is undisputed that American
Indian, Hispanic, and African American citizens are
under-represented in public office in Arizona.
Minorities make up 44 percent of Arizona’s total
population, but they hold 25 percent of Arizona’s
elected offices. Id. Minorities hold 22 percent of state
congressional seats and 9 percent of judgeships. No
American Indian or African American has ever been
elected to represent Arizona in the United States
House of Representatives. Only two minorities have
been elected to statewide office in Arizona since the
passage of the VRA. Arizona has never elected an
American Indian candidate to statewide office. No
American Indian, Hispanic, or African American
candidate has ever been elected to serve as a United
States Senator representing Arizona.
Arizona’s practice of entirely discarding OOP ballots
is especially important in statewide and United States
Senate elections. Some votes for local offices may be
improperly cast in an OOP ballot, given that the voter
has cast the ballot in the wrong precinct. But no vote
for statewide office or for the United States Senate is
ever improperly cast in an OOP ballot. Arizona’s
practice of wholly discarding OOP ballots thus has the
effect of disproportionately undercounting minority
votes, by a factor of two to one, precisely where the

App. 78
problem of under-representation in Arizona is most
acute.
The district court clearly erred in minimizing the
strength of this factor in Plaintiffs’ favor.
vi. Factor Eight: Officials’ Responsiveness to the
Needs of Minority Groups
The district court found that “Plaintiffs’ evidence
. . . is insufficient to establish a lack of responsiveness
on the part of elected officials to particularized needs of
minority groups.” Id. In support of its finding, the court
cited the activity of one organization, the Arizona
Citizens Clean Elections Commission, which “engages
in outreach to various communities, including the
Hispanic and Native American communities, to
increase voter participation” and “develops an annual
voter education plan in consultation with elections
officials and stakeholders,” and whose current
Chairman is an enrolled member of the San Carlos
Apache Tribe. Id.
The district court’s finding ignores extensive
undisputed evidence showing that Arizona has
significantly underserved its minority population.
“Arizona was the last state in the nation to join the
Children’s Health Insurance Program, which may
explain, in part, why forty-six states have better health
insurance coverage for children.” DNC, 904 F.3d at 740
(Thomas, C.J., dissenting). Further, “Arizona’s public
schools are drastically underfunded; in fact, in 2016
Arizona ranked 50th among the states and the District
of Columbia in per pupil spending on public elementary
and secondary education.” Id. “Given the well-

App. 79
documented evidence that minorities are likelier to
depend on public services[,] . . . Arizona’s refusal to
provide adequate state services demonstrates its
nonresponsiveness to minority needs.” Id.; cf. Myers v.
United States, 652 F.3d 1021, 1036 (9th Cir. 2011)
(holding that the district court clearly erred when it
ignored evidence contradicting its findings).
Further, the district court’s finding is contradicted
elsewhere in its own opinion. Earlier in its opinion, the
court had written that Arizona has a “political culture
that simply ignores the needs of minorities.” Id. at 876
(citation omitted). Later in its opinion, the court
referred to “Arizona’s history of advancing partisan
objectives with the unintended consequence of ignoring
minority interests.” Id. at 882.
The district court clearly erred in finding that this
factor does not weigh in Plaintiffs’s favor.
vii. Factor Nine: Tenuousness of Justification of the
Policy Underlying the Challenged Restriction
The ninth Senate factor is “whether the policy
underlying the state or political subdivision’s use of
such voting qualification, prerequisite to voting, or
standard, practice or procedure is tenuous.” Gingles,
478 U.S. at 37 (quoting S. Rep. at 28). The district
court found that Arizona’s policy of entirely discarding
OOP ballots is justified by the importance of Arizona’s
precinct-based system of elections. The court held:
Precinct-based voting helps Arizona counties
estimate the number of voters who may be
expected at any particular precinct, allows for
better allocation of resources and personnel,

App. 80
improves orderly administration of elections,
and reduces wait times. The precinct-based
system also ensures that each voter receives a
ballot reflecting only the races for which that
person is entitled to vote, thereby promoting
voting for local candidates and issues and
making ballots less confusing. Arizona’s policy to
not count OOP ballots is one mechanism by
which it strictly enforces this system to ensure
that precinct-based counties maximize the
system’s benefits. This justification is not
tenuous.
Reagan, 329 F. Supp. 3d at 878.
The court misunderstood the nature of Plaintiffs’
challenge. Plaintiffs do not challenge Arizona’s
precinct-based system of voting. Indeed, their challenge
assumes both its importance and its continued
existence. Rather, their challenge is to Arizona’s policy,
within that system, of entirely discarding OOP ballots.
The question before the district court was not the
justification for Arizona’s precinct-based system. The
question, rather, was the justification for Arizona’s
policy of entirely discarding OOP ballots.
There is no finding by the district court that would
justify, on any ground, Arizona’s policy of entirely
discarding OOP ballots. There is no finding that
counting or partially counting OOP ballots would
threaten the integrity of Arizona’s precinct-based
system. Nor is there a finding that Arizona has ever
sought to minimize the number of OOP ballots. The
lack of such findings is not surprising given the
extreme disparity between OOP voting in Arizona and

App. 81
such voting in other states, as well as Arizona’s role in
causing voters to vote OOP by, for example, frequently
changing the location of polling places.
The only plausible justification for Arizona’s OOP
policy would be the delay and expense entailed in
counting OOP ballots, but in its discussion of the
Senate factors, the district court never mentioned this
justification. Indeed, the district court specifically
found that “[c]ounting OOP ballots is administratively
feasible.” Id. at 860.
Twenty States, including Arizona’s neighboring
States of California, Utah, and New Mexico, count OOP
ballots. Id.; Cal. Elec. Code §§ 14310(a)(3), 14310(c)(3),
15350; Utah Code Ann. § 20A-4-107(1)(b)(iii), 2(a)(ii),
2(c); N.M. Stat. Ann § 1-12-25.4(F); N.M. Admin. Code
1.10.22.9(N). The district court wrote: “Elections
administrators in these and other states have
established processes for counting only the offices for
which the OOP voter is eligible to vote.” Reagan, 329 F.
Supp. 3d at 861. “Some states, such as New Mexico, use
a hand tally procedure, whereby a team of elections
workers reviews each OOP ballot, determines the
precinct in which the voter was qualified to vote, and
marks on a tally sheet for that precinct the votes cast
for each eligible office.” Id.; see N.M. Admin Code
1.10.22.9(H)–(N). “Other states, such as California, use
a duplication method, whereby a team of elections
workers reviews each OOP ballot, determines the
precinct in which the voter was qualified to vote,
obtains a new paper ballot for the correct precinct, and
duplicates the votes cast on the OOP ballot onto the
ballot for the correct precinct.” Reagan, 329 F. Supp. 3d

App. 82
at 861. “Only the offices that appear on both the OOP
ballot and the ballot for the correct precinct are copied.
The duplicated ballot then is scanned through the
optical scan voting machine and electronically tallied.”
Id.
Arizona already uses a duplication system, similar
to that used in California, for provisional ballots cast
by voters eligible to vote in federal but not state
elections, as well as for damaged or mismarked ballots
that cannot be read by an optical scanner. Id. The
district court briefly discussed the time that might be
required to count or partially count OOP ballots, but it
did not connect its discussion to its consideration of the
Senate factors. The court cited testimony of a Pima
County election official that the county’s duplication
procedure “takes about twenty minutes per ballot.” Id.
The court did not mention that this same official had
stated in his declaration that the procedure instead
takes fifteen minutes per ballot. The court also did not
mention that a California election official had testified
that it takes a very short time to count or partially
count the valid votes on an OOP ballot. That official
testified that it takes “several minutes” in California to
confirm the voter’s registration—which is done for all
provisional ballots, in Arizona as well as in California.
Once that is done, the official testified, it takes one to
three minutes to duplicate the ballot.
The district court clearly erred in finding that this
factor does not weigh in Plaintiffs’ favor.

App. 83
viii. Assessment of Senate Factors
The district court’s “overall assessment” of the
Senate factors was: “In sum, of the germane Senate
Factors, the Court finds that some are present in
Arizona and others are not.” Id. at 878. Based on this
assessment, the court held that Plaintiffs had not
carried their burden at step two. The district court
clearly erred in so holding. The district court clearly
erred in minimizing the strength in favor of Plaintiffs
of Senate factors one (official history of discrimination)
and seven (number of minorities in public office).
Further, the district court clearly erred in finding that
Senate factors eight (officials’ responsiveness to the
needs of minority groups) and nine (tenuousness of the
justification of the policy underlying the challenged
provision) do not favor Plaintiffs. Plaintiffs have
successfully shown that all of the considered Senate
factors weigh in their favor. Most important, plaintiffs
have shown that the most pertinent factors, five and
nine, weigh very strongly in their favor.
c. Summary
We hold that the district court clearly erred in
holding that Plaintiffs’ challenge to Arizona’s OOP
policy failed under the results test. We hold that
Plaintiffs have carried their burden at both steps one
and two. First, they have shown that Arizona’s OOP
policy imposes a significant disparate burden on its
American Indian, Hispanic, and African American
citizens, resulting in the “denial or abridgement of the
right” of its citizens to vote “on account of race or color.”
52 U.S.C. § 10301(a). Second, they have shown that,
under the “totality of circumstances,” the

App. 84
discriminatory burden imposed by the OOP policy is in
part caused by or linked to “social and historical
conditions” that have or currently produce “an
inequality in the opportunities enjoyed by [minority]
and white voters to elect their preferred
representatives” and to participate in the political
process. Gingles, 478 U.S. at 47; 52 U.S.C. § 10301(b).
We therefore hold that Arizona’s OOP policy
violates the results test of Section 2 of the Voting
Rights Act.
3. H.B. 2023 and the Results Test
Uncontested evidence in the district court
established that, prior to the enactment of H.B. 2023,
a large and disproportionate number of minority voters
relied on third parties to collect and deliver their early
ballots. Uncontested evidence also established that,
beginning in 2011, Arizona Republicans made
sustained efforts to limit or eliminate third-party ballot
collection. The question is whether the district court
clearly erred in holding that H.B. 2023 does not violate
the “results test” of Section 2.
a. Step One: Disparate Burden
The question at step one is whether H.B. 2023
results in a disparate burden on a protected class. The
district court held that Plaintiffs failed at step one. The
district court clearly erred in so holding.
Extensive and uncontradicted evidence established
that prior to the enactment of H.B. 2023, third parties
collected a large and disproportionate number of early
ballots from minority voters. Neither the quantity nor

App. 85
the disproportion was disputed. Numerous witnesses
testified without contradiction to having personally
collected, or to having personally witnessed the
collection of, thousands of early ballots from minority
voters. There is no evidence that white voters relied to
any significant extent on ballot collection by third
parties.
The district court recognized the disparity in thirdparty ballot collection between minority and white
citizens. It wrote that “[t]he Democratic Party and
community advocacy organizations . . . focused their
ballot collection efforts on low-efficacy voters, who
trend disproportionately minority.” Reagan, 329 F.
Supp. 3d at 870. “In contrast,” the court wrote, “the
Republican Party has not significantly engaged in
ballot collection as a GOTV strategy.” Id.
The district court nonetheless held that this
evidence was insufficient to establish a violation at step
one. To justify its holding, the court wrote, “[T]he Court
finds that Plaintiffs’ circumstantial and anecdotal
evidence is insufficient to establish a cognizable
disparity under § 2.” Id. at 868. The court wrote
further:
Considering the vast majority of Arizonans,
minority and non-minority alike, vote without
the assistance of third-parties who would not fall
within H.B. 2023’s exceptions, it is unlikely that
H.B. 2023’s limitations on who may collect an
early ballot cause a meaningful inequality in the

App. 86
electoral opportunities of minorities as compared
to non-minorities.
Id. at 871.
First, the court clearly erred in discounting the
evidence of third-party ballot collection as merely
“circumstantial and anecdotal.” The evidence of thirdparty ballot collection was not “circumstantial.” Rather,
as recounted above, it was direct evidence from
witnesses who had themselves acted as third-party
ballot collectors, had personally supervised third-party
ballot collection, or had personally witnessed thirdparty ballot collection by others. Nor was the evidence
merely “anecdotal.” As recounted above, numerous
witnesses provided consistent and uncontradicted
testimony about third-party ballot collection they had
done, supervised, or witnessed. This evidence
established that many thousands of early ballots were
collected from minority voters by third parties. The
court itself found that white voters did not significantly
rely on third-party ballot collection. No better evidence
was required to establish that large and
disproportionate numbers of early ballots were
collected from minority voters.
Second, the court clearly erred by comparing the
number of early ballots collected from minority voters
to the much greater number of all ballots cast “without
the assistance of third parties,” and then holding that
the relatively smaller number of collected early ballots
did not cause a “meaningful inequality.” Id. at 871. In
so holding, the court repeated the clear error it made in
comparing the number of OOP ballots to the total
number of all ballots cast. Just as for OOP ballots, the

App. 87
number of ballots collected by third parties from
minority voters surpasses any de minimis number.
We hold that H.B. 2023 results in a disparate
burden on minority voters, and that the district court
clearly erred in holding otherwise. We accordingly hold
that Plaintiffs have succeeded at step one of the results
test.
b. Step Two: Senate Factors
The district court did not differentiate between
Arizona’s OOP policy and H.B. 2023 in its discussion of
step two. Much of our analysis of the Senate factors for
Arizona’s OOP policy applies with equal force to the
factors for H.B. 2023. Again, we regard Senate factors
five (the effects of discrimination in other areas on
minorities access to voting) and nine (the tenuousness
of the justification for the challenged voting practices)
as particularly important, given the nature of
Plaintiffs’ challenge to H.B. 2023. We also regard factor
one (history of official discrimination) as important, as
it strongly supports our conclusion under factor five.
Though “not essential,” Gingles, 478 U.S. at 48 n.15,
the other less important factors provide “helpful
background context.” Husted, 768 F.3d at 555.
We do not repeat here the entirety of our analysis of
Arizona’s OOP policy. Rather, we incorporate that
analysis by reference and discuss only the manner in
which the analysis is different for H.B. 2023.

App. 88
i. Factor One: History of Official Discrimination
Connected to Voting
We recounted above Arizona’s long history of racebased discrimination in voting. H.B. 2023 grows
directly out of that history. During the Republicans’
2011 attempt to limit ballot collection by third parties,
Arizona was still subject to preclearance under Section
5. When DOJ asked for more information about
whether the relatively innocuous ballot-collection
provision of S.B. 1412 had the purpose or would have
the effect of denying minorities the right to vote and
requested more information, Arizona withdrew the
preclearance request. It did so because there was
evidence in the record that the provision intentionally
targeted Hispanic voters. In 2013, public opposition
threatened to repeal H.B. 2305 by referendum. If
passed, the referendum would have required that any
future bill on the same topic pass the legislature by a
supermajority. Republicans repealed H.B. 2305 rather
than face a referendum. Finally, after the Supreme
Court’s decision in Shelby County eliminated
preclearance, Arizona enacted H.B. 2023, making
third-party ballot collection a felony. The campaign was
marked by race-based appeals, most prominently in the
LaFaro Video described above.
As it did with respect to OOP voting, the district
court clearly erred in minimizing the strength of this
factor in Plaintiffs’ favor.
ii. Factor Two: Racially Polarized Voting Patterns
H.B. 2023 connects directly to racially polarized
voting patterns in Arizona. The district court found

App. 89
that “H.B. 2023 emerged in the context of racially
polarized voting.” Reagan, 329 F. Supp. 3d at 879.
Senator Shooter, who introduced the bill that became
S.B. 1412—the predecessor to H.B. 2023—was
motivated by the “high degree of racial polarization in
his district” and introduced the bill following a close,
racially polarized election. Id.
The district court did not clearly err in assessing the
strength of this factor in Plaintiffs’ favor.
iii. Factor Five: Effects of Discrimination
H.B. 2023 is closely linked to the effects of
discrimination that “hinder” the ability of American
Indian, Hispanic, and African American voters “to
participate effectively in the political process.” Gingles,
478 U.S. at 37. The district court found that American
Indian, Hispanic, and African American Arizonans “are
significantly less likely than non-minorities to own a
vehicle, more likely to rely upon public transportation,
more likely to have inflexible work schedules, and more
likely to rely on income from hourly wage jobs.”
Reagan, 329 F. Supp. 3d at 869. In addition, “[r]eady
access to reliable and secure mail service is nonexistent
in some minority communities.” Id. Minority voters in
rural communities disproportionately lack access to
outgoing mail, while minority voters in urban
communities frequently encounter unsecure mailboxes
and mail theft. Id. These effects of discrimination
hinder American Indian, Hispanic, and African
American voters’ ability to return early ballots without
the assistance of third-party ballot collection.

App. 90
The district court did not clearly err in assessing the
strength of this factor in Plaintiffs’ favor.
iv. Factor Six: Racial Appeals in Political Campaigns
The enactment of H.B. 2023 was the direct result of
racial appeals in a political campaign. The district
court found that “racial appeals [were] made in the
specific context of legislative efforts to limit ballot
collection.” Id. at 876. Proponents of H.B. 2023 relied
on “overt or subtle racial appeals,” Gingles, 478 U.S. at
37, in advocating for H.B. 2023, including the “racially
tinged” LaFaro Video, Reagan, 329 F. Supp. 3d at
876–77 (characterizing the LaFaro Video as one of the
primary motivators for H.B. 2023). The district court
concluded, “[Senator] Shooter’s allegations and the
LaFaro video were successful in convincing H.B. 2023’s
proponents that ballot collection presented
opportunities for fraud that did not exist for in-person
voting.” Reagan, 329 F. Supp. 3d at 880.
The district court did not clearly err in assessing the
strength of this factor in Plaintiff’s favor.
v. Factor Seven: Number of Minorities
in Public Office
Because Arizona’s OOP policy had a particular
connection to the election of minorities to statewide
office and to the United States Senate, we concluded
that the factor of minorities in public office favored
Plaintiffs. That particular connection to statewide
office does not exist between H.B. 2023 and election of
minorities. However, H.B. 2023 is likely to have a
pronounced effect in rural counties with significant
American Indian and Hispanic populations who

App. 91
disproportionately lack reliable mail and
transportation services, and where a smaller number
of votes can have a significant impact on election
outcomes. In those counties, there is likely to be a
particular connection to election of American Indian
and Hispanic candidates to public office.
As it did with respect to OOP voting, the district
court clearly erred in minimizing the strength of this
factor in Plaintiffs’ favor.
vi. Factor Eight: Officials’ Responsiveness to the
Needs of Minority Groups
The district court found that “Plaintiffs’ evidence
. . . is insufficient to establish a lack of responsiveness
on the part of elected officials to particularized needs of
minority groups.” Id. at 877. As discussed above, this
finding ignores extensive evidence to the contrary and
is contradicted by the court’s statements elsewhere in
its opinion.
The district court clearly erred in finding that this
factor does not weigh in Plaintiffs’ favor.
vii. Factor Nine: Tenuousness of Justification of the
Policy Underlying the Challenged Restriction
The district court relied on two justifications for
H.B. 2023: That H.B. 2023 is aimed at preventing
ballot fraud “by creating a chain of custody for early
ballots and minimizing the opportunities for ballot
tampering, loss, and destruction”; and that H.B. 2023
is aimed at improving and maintaining “public
confidence in election integrity.” Id. at 852. We address
these justifications in turn.

App. 92
First, third-party ballot collection was permitted for
many years in Arizona before the passage of H.B. 2023.
No one has ever found a case of voter fraud connected
to third-party ballot collection in Arizona. This has not
been for want of trying. The district court described the
Republicans’ unsuccessful attempts to find instances of
fraud:
The Republican National Lawyers
Association (“RNLA”) performed a study
dedicated to uncovering cases of voter fraud
between 2000 and 2011. The study found no
evidence of ballot collection or delivery fraud,
nor did a follow-up study through May 2015.
Although the RNLA reported instances of
absentee ballot fraud, none were tied to ballot
collection and delivery. Likewise, the Arizona
Republic conducted a study of voter fraud in
Maricopa County and determined that, out of
millions of ballots cast in Maricopa County from
2005 to 2013, a total of 34 cases of fraud were
prosecuted. Of these, 18 involved a felon voting
without her rights first being restored. Fourteen
involved non-Arizona citizens voting. The study
uncovered no cases of fraud perpetrated through
ballot collection.
Id. at 853 (internal citations omitted).
The district court wrote, “[T]here has never been a
case of voter fraud associated with ballot collection
charged in Arizona.” Id. at 852. “No specific, concrete
example of voter fraud perpetrated through ballot
collection was presented by or to the Arizona
legislature during the debates on H.B. 2023 or its

App. 93
predecessor bills.” Id. at 852–53. “No Arizona county
produced evidence of confirmed ballot collection fraud
in response to subpoenas issued in this case, nor has
the Attorney General’s Office produced such
information.” Id. at 853.
Ballot-collection-related fraud was already
criminalized under Arizona law when H.B. 2023 was
enacted. Collecting and failing to turn in someone else’s
ballot was already a class 5 felony. Ariz. Rev. Stat.
§ 16-1005(F). Marking someone else’s ballot was
already a class 5 felony. Id. § 16-1005(A). Selling one’s
own ballot, possessing someone else’s ballot with the
intent to sell it, knowingly soliciting the collection of
ballots by misrepresenting one’s self as an election
official, and knowingly misrepresenting the location of
a ballot drop-off site were already class 5 felonies. Id.
§ 16-1005(B)–(E). These criminal prohibitions are still
in effect. Arizona also takes measures to ensure the
security of early ballots, such as using “tamper evident
envelopes and a rigorous voter signature verification
procedure.” Reagan, 329 F. Supp. 3d at 854.
The history of H.B. 2023 shows that its proponents
had other aims in mind than combating fraud. H.B.
2023 does not forbid fraudulent third-party ballot
collection. It forbids non-fraudulent third-party ballot
collection. To borrow an understated phrase, the antifraud rationale advanced in support of H.B. 2023
“seems to have been contrived.” Dep’t of Commerce v.
New York, 139 S. Ct. 2551, 2575 (2019).
Second, we recognize the importance of public
confidence in election integrity. We are aware that the
federal bipartisan Commission on Federal Election

App. 94
Reform, charged with building public confidence,
recommended inter alia that States “reduce the risks of
fraud and abuse in absentee voting by prohibiting
‘third-party’ organizations, candidates, and political
party activists from handling absentee ballots.”
Building Confidence in U.S. Elections § 5.2 (Sept.
2005). We are aware of the recent case of voter fraud in
North Carolina involving collection and forgery of
absentee ballots by a political operative hired by a
Republican candidate. And we are aware that
supporters of H.B. 2023 and its predecessor bills sought
to convince Arizona voters, using false allegations and
racial innuendo, that third-party ballot collectors in
Arizona have engaged in fraud.
Without in the least discounting either the common
sense of the bipartisan commission’s recommendation
or the importance of public confidence in the integrity
of elections, we emphasize, first, that the Supreme
Court has instructed us in Section 2 cases to make an
“intensely local appraisal.” Gingles, 478 U.S. at 78. The
third-party ballot collection fraud case in North
Carolina has little bearing on the case before us. We
are concerned with Arizona, where third-party ballot
collection has had a long and honorable history, and
where the acts alleged in the criminal indictment in
North Carolina were illegal under Arizona law before
the passage of H.B. 2023, and would still be illegal if
H.B. 2023 were no longer the law.
We emphasize, further, that if some Arizonans
today distrust third-party ballot collection, it is because
of the fraudulent campaign mounted by proponents of
H.B. 2023. Those proponents made strenuous efforts to

App. 95
persuade Arizonans that third-party ballot collectors
have engaged in election fraud. To the degree that
there has been any fraud, it has been the false and
race-based claims of the proponents of H.B. 2023. It
would be perverse if those proponents, who used false
statements and race-based innuendo to create distrust,
could now use that very distrust to further their aims
in this litigation.
The district court clearly erred in finding that this
factor does not weigh in Plaintiffs’ favor. This factor
either weighs in Plaintiffs’ favor or is, at best, neutral.
viii. Assessment
The district court made the same overall
assessment of the Senate factors in addressing H.B.
2023 as in addressing Arizona’s policy of discarding
OOP ballots. As it did with respect to OOP ballots, the
court concluded that Plaintiffs had not carried their
burden at step two. Here, too, the district court’s
conclusion was clearly erroneous. Contrary to the
court’s conclusion, Plaintiffs have successfully shown
that six of the Senate factors weigh in their favor and
that the remaining factor weighs in their favor or is
neutral.
c. Summary
We hold that the district court clearly erred in
holding that Plaintiffs’ challenge to H.B. 2023 failed
under the results test. We hold that Plaintiffs have
carried their burden at both steps one and two. First,
they have shown that H.B. 2023 imposes a disparate
burden on American Indian, Hispanic, and African
American citizens, resulting in the “denial or

App. 96
abridgement of the right” of its citizens to vote “on
account of race or color.” 52 U.S.C. § 10301(a). Second,
they have shown that, under the “totality of
circumstances,” the discriminatory burden imposed by
H.B. 2023 is in part caused by or linked to “social and
historical conditions” that have or currently produce
“an inequality in the opportunities enjoyed by
[minority] and white voters to elect their preferred
representatives” and to participate in the political
process. Gingles, 478 U.S. at 47; 52 U.S.C. § 10301(b).
We therefore conclude that H.B. 2023 violates the
results test of Section 2 of the Voting Rights Act.
B. Intent Test: H.B. 2023
As indicated above, uncontested evidence in the
district court established that before enactment of H.B.
2023, a large and disproportionate number of minority
voters relied on third parties to collect and deliver their
early ballots. Uncontested evidence also established
that, beginning in 2011, Arizona Republicans made
sustained efforts to outlaw third-party ballot collection.
After a racially charged campaign, they finally
succeeded in passing H.B. 2023. The question is
whether the district court clearly erred in holding that
H.B. 2023 does not violate the “intent test” of Section
2.
1. The Intent Test
Village of Arlington Heights v. Metropolitan
Housing Development Corp., 429 U.S. 252 (1977),
provides the framework for analyzing a claim of
intentional discrimination under Section 2. See, e.g.,
N.C. State Conference of NAACP v. McCrory, 831 F.3d

App. 97
204, 220–21 (4th Cir. 2016). Under Arlington Heights,
Plaintiffs have an initial burden of providing “[p]roof of
racially discriminatory intent or purpose.” Arlington
Heights, 429 U.S. at 265. Plaintiffs need not show that
discriminatory purpose was the “sole[]” or even a
“primary” motive for the legislation. Id. Rather,
Plaintiffs need only show that discriminatory purpose
was “a motivating factor.” Id. at 265–66 (emphasis
added).
“Determining whether invidious discriminatory
purpose was a motivating factor demands a sensitive
inquiry into such circumstantial and direct evidence of
intent as may be available.” Id. at 266.
“[D]iscriminatory purpose may often be inferred from
the totality of the relevant facts, including the fact, if it
is true, that the law bears more heavily on one race
than another.” Washington v. Davis, 426 U.S. 229, 242
(1976). Because “[o]utright admissions of impermissible
racial motivation are infrequent[,] . . . plaintiffs often
must rely upon other evidence,” including the broader
context surrounding passage of the legislation. Hunt v.
Cromartie, 526 U.S. 541, 553 (1999). “In a vote denial
case such as the one here, where the plaintiffs allege
that the legislature imposed barriers to minority
voting, this holistic approach is particularly important,
for ‘[d]iscrimination today is more subtle than the
visible methods used in 1965.’” N.C. State Conference of
NAACP, 831 F.3d at 221 (quoting H.R. Rep. No.
109–478, at 6 (2006)).
Arlington Heights provided a non-exhaustive list of
factors that a court should consider. Arlington Heights,
429 U.S. at 266. The factors include (1) the historical

App. 98
background; (2) the sequence of events leading to
enactment, including any substantive or procedural
departures from the normal legislative process; (3) the
relevant legislative history; and (4) whether the law
has a disparate impact on a particular racial group. Id.
at 266–68.
“Once racial discrimination is shown to have been a
‘substantial’ or ‘motivating’ factor behind enactment of
the law, the burden shifts to the law’s defenders to
demonstrate that the law would have been enacted
without this factor.” Hunter v. Underwood, 471 U.S.
222, 228 (1985). In determining whether a defendant’s
burden has been carried, “courts must scrutinize the
legislature’s actual non-racial motivations to determine
whether they alone can justify the legislature’s
choices.” N.C. State Conference of NAACP, 831 F.3d at
221 (emphases in original) (citing Mt. Healthy City Sch.
Dist. Bd. of Educ. v. Doyle, 429 U.S. 274, 287 (1977);
Miss. Univ. for Women v. Hogan, 458 U.S. 718, 728
(1982)). “In the context of a § 2 discriminatory intent
analysis, one of the critical background facts of which
a court must take notice is whether voting is racially
polarized.” Id. “[I]ntentionally targeting a particular
race’s access to the franchise because its members vote
for a particular party, in a predictable manner,
constitutes discriminatory purpose.” Id. at 222.
2. H.B. 2023 and the Intent Test
a. Arlington Heights Factors and Initial
Burden of Proof
The district court wrote, “Having considered [the
Arlington Heights] factors, the Court finds that H.B.

App. 99
2023 was not enacted with a racially discriminatory
purpose.” Reagan, 329 F. Supp. 3d at 879. The court
then went on to discuss each of the four factors, but did
not attach any particular weight to any of them. In
holding that the Plaintiffs had not shown that
discriminatory purpose was “a motivating factor,” the
district court clearly erred.
We address the Arlington Heights factors in turn.
i. Historical Background
“A historical pattern of laws producing
discriminatory results provides important context for
determining whether the same decisionmaking body
has also enacted a law with discriminatory purpose.”
N.C. State Conference of NAACP, 831 F.3d at 223–24;
see Arlington Heights, 429 U.S. at 267 (“The historical
background of the decision is one evidentiary source,
particularly if it reveals a series of official actions
taken for invidious purposes.”). As recounted above, the
Arizona legislature has a long history of race-based
discrimination, disenfranchisement, and voter
suppression, dating back to Arizona’s territorial days.
Further, the history of H.B. 2023 itself reveals
invidious purposes.
In addressing the “historical background” factor, the
district court mentioned briefly the various legislative
efforts to restrict third-party ballot collection that had
been “spearheaded” by Senator Shooter, described
briefly Senator Shooter’s allegations of third-party
ballot fraud, and alluded to the “racially-tinged”
LaFaro Video. Reagan, 329 F. Supp. 3d at 879–80. But
the district court discounted their importance. We

App. 100
discuss the court’s analysis below, under the third
Arlington Heights factor.
ii. Sequence of Events Leading to Enactment
“The specific sequence of events leading up to the
challenged decision . . . may shed some light on the
decisionmaker’s purposes.” Arlington Heights, 429 U.S.
at 267. We recounted above the sequence of events
leading to the enactment of H.B. 2023. The district
court acknowledged this history but again discounted
its importance. We discuss the court’s analysis below,
under the third Arlington Heights factor.
iii. Relevant Legislative History
“The legislative . . . history may be highly relevant,
especially where there are contemporary statements by
members of the decisionmaking body[.]” Id. at 268. The
district court found that legislators voted for H.B. 2023
in response to the “unfounded and often farfetched
allegations of ballot collection fraud” made by former
Senator Shooter, and the “racially-tinged LaFaro
Video.” Reagan, 329 F. Supp. 3d at 880. As Chief Judge
Thomas wrote: “Because there was ‘no direct evidence
of ballot collection fraud . . . presented to the
legislature or at trial,’ the district court understood
that Shooter’s allegations and the LaFaro Video were
the reasons the bill passed.” DNC, 904 F.3d at 748
(Thomas, C.J., dissenting) (quoting Reagan, 329 F.
Supp. 3d at 880) (emphasis in original).
Senator Shooter was one of the major proponents of
the efforts to limit third-party ballot collection and was
influential in the passage of H.B. 2023. Reagan, 329 F.
Supp. 3d at 879. According to the district court,

App. 101
Senator Shooter made “demonstrably false” allegations
of ballot collection fraud. Id. at 880. Senator Shooter’s
efforts to limit ballot collection were motivated in
substantial part by the “high degree of racial
polarization in his district.” Id. at 879. He was
“motivated by a desire to eliminate” the increasingly
effective efforts to ensure that Hispanic votes in his
district were collected, delivered, and counted. Id.
The LaFaro Video provides even stronger evidence
of racial motivation. Maricopa County Republican
Chair LaFaro produced a video showing “a man of
apparent Hispanic heritage”—a volunteer with a getout-the-vote organization—apparently dropping off
ballots at a polling place. Id. at 876. LaFaro’s voice-over
narration included unfounded statements, id. at 877,
“that the man was acting to stuff the ballot box” and
that LaFaro “knew that he was a thug,” id. at 876. The
video was widely distributed. It was “shown at
Republican district meetings,” “posted on Facebook and
YouTube,” and “incorporated into a television
advertisement.” Id. at 877.
The district court used the same rationale to
discount the importance of all of the first three
Arlington Heights factors. It pointed to the “sincere
belief,” held by some legislators, that fraud in thirdparty ballot collection was a problem that needed to be
addressed. The district court did so even though it
recognized that the belief was based on the false and
race-based allegations of fraud by Senator Shooter and
other proponents of H.B. 2023. The court wrote:
“Shooter’s allegations and the LaFaro Video were
successful in convincing H.B. 2023’s proponents that

App. 102
ballot collection presented opportunities for fraud that
did not exist for in person voting[.]” Id. at 880.
We accept the district court’s conclusion that some
members of the legislature who voted for H.B. 2023 had
a sincere, though mistaken, non-race-based belief that
there had been fraud in third-party ballot collection,
and that the problem needed to be addressed. However,
as the district court found, that sincere belief had been
fraudulently created by Senator Shooter’s false
allegations and the “racially-tinged” LaFaro video.
Even though some legislators did not themselves have
a discriminatory purpose, that purpose may be
attributable to their action under the familiar “cat’s
paw” doctrine. The doctrine is based on the fable, often
attributed to Aesop, in which a clever monkey induces
a cat to use its paws to take chestnuts off of hot coals
for the benefit of the monkey.
For example, we wrote in Mayes v. Winco Holdings,
Inc., 846 F.3d 1274 (9th Cir. 2017):
[T]he animus of a supervisor can affect an
employment decision if the supervisor
“ influenced or participated in t he
decisionmaking process.” Dominguez-Curry [v.
Nev. Transp. Dep’t], 424 F.3d [1027,] 1039–40
[(9th Cir. 2017)]. Even if the supervisor does not
participate in the ultimate termination decision,
a “supervisor’s biased report may remain a
causal factor if the independent investigation
takes it into account without determining that
the adverse action was, apart from the
supervisor’s recommendation, entirely justified.”
Staub v. Proctor Hosp., 562 U.S. 411, 421 (2011).

App. 103
Id. at 1281; see also Poland v. Chertoff , 494 F.3d 1174,
1182 (9th Cir. 2007) (“[I]f a subordinate . . . sets in
motion a proceeding by an independent decisionmaker
that leads to an adverse employment action, the
subordinate’s bias is imputed to the employer if the
plaintiff can prove that the allegedly independent
adverse employment decision was not actually
independent because the biased subordinate influenced
or was involved in the decision or decisionmaking
process.”).
The good-faith belief of these sincere legislators
does not show a lack of discriminatory intent behind
H.B. 2023. Rather, it shows that well meaning
legislators were used as “cat’s paws.” Convinced by the
false and race-based allegations of fraud, they were
used to serve the discriminatory purposes of Senator
Shooter, Republican Chair LaFaro, and their allies.
We hold that the district court clearly erred in
discounting the importance of the first three Arlington
Heights factors. We hold that all three factors weigh in
favor of showing that discriminatory intent was a
motivating factor in enacting H.B. 2023.
iv. Disparate Impact on a Particular Racial Group
“The impact of the official action[,] whether it ‘bears
more heavily on one race than another,’ may provide an
important starting point. Sometimes a clear pattern,
unexplainable on grounds other than race, emerges
from the effect of the state action even when the
governing legislation appears neutral on its face.”
Arlington Heights, 429 U.S. at 266 (internal citation
omitted). As described above, uncontested evidence

App. 104
shows that H.B. 2023 has an adverse and disparate
impact on American Indian, Hispanic, and African
American voters. The district court found that the
legislature “was aware” of the impact of H.B. 2023 on
what the court called “low-efficacy minority
communities.” Reagan, 329 F. Supp. 3d at 881.
It appears that the district court weighed this factor
in favor of showing discriminatory intent as a
motivating factor in enacting H.B. 2023. The court did
not clearly err in so doing.
v. Assessment
We hold that the district court clearly erred in
holding that Plaintiffs failed to carry their initial
burden of proof of showing that racial discrimination
was a motivating factor leading to the enactment of
H.B. 2023. We hold that all four of the Arlington
Heights factors weigh in favor of Plaintiffs. Our holding
does not mean that the majority of the Arizona state
legislature “harbored racial hatred or animosity toward
any minority group.” N.C. State Conference of NAACP,
831 F.3d at 233. “But the totality of the
circumstances”—Arizona’s long history of race-based
voting discrimination; the Arizona legislature’s
unsuccessful efforts to enact less restrictive versions of
the same law when preclearance was a threat; the
false, race-based claims of ballot collection fraud used
to convince Arizona legislators to pass H.B. 2023; the
substantial increase in American Indian and Hispanic
voting attributable to ballot collection that was
targeted by H.B. 2023; and the degree of racially
polarized voting in Arizona—”cumulatively and

App. 105
unmistakably reveal” that racial discrimination was a
motivating factor in enacting H.B. 2023. Id.
b. Would H.B. 2023 Otherwise Have Been Enacted
At the second step of the Arlington Heights analysis,
Arizona has the burden of showing that H.B. 2023
would have been enacted without racial discrimination
as a motivating factor. Because the district court held
that Plaintiffs had not carried their initial burden, it
did not reach the second step of the Arlington Heights
analysis.
Although there is no holding of the district court
directed to Arlington Heights’ second step, the court
made a factual finding that H.B. 2023 would not have
been enacted without racial discrimination as a
motivating factor. The court specifically found that
H.B. 2023 would not have been enacted without
Senator Shooter’s and LaFaro’s false and race-based
allegations of voter fraud. The court wrote, “The
legislature was motivated by a misinformed belief that
ballot collection fraud was occurring, but a sincere
belief that mail-in ballots lacked adequate prophylactic
safeguards as compared to in-person voting.” Reagan,
329 F. Supp. 3d at 882. That is, members of the
legislature, based on the “misinformed belief” created
by Shooter, LaFaro, and their allies and serving as
their “cat’s paws,” voted to enact H.B. 2023. See
Poland, 494 F.3d at 1182. Based on the court’s finding,
we hold that Arizona has not carried its burden of
showing that H.B. 2023 would have been enacted
without the motivating factor of racial discrimination.

App. 106
c. Summary
We hold that the district court clearly erred in
holding that Plaintiffs failed to establish that H.B.
2023 violates the intent test of Section 2 of the VRA. A
holding that H.B. 2023 violates the intent test of
Section 2 necessarily entails a holding that it also
violates the Fifteenth Amendment.
III. Response to Dissents
We respectfully disagree with our dissenting
colleagues. For the most part, our response to their
contentions is contained in the body of our opinion and
needs no elaboration. Several contentions, however,
merit a specific response.
A. Response to the First Dissent
Our first dissenting colleague, Judge O’Scannlain,
makes several mistakes.
First, our colleague contends that H.B. 2023 does
not significantly change Arizona law. Our colleague
writes:
For years, Arizona has restricted who may
handle early ballots. Since 1992, Arizona has
prohibited anyone but the elector himself from
possessing “that elector’s unvoted absentee
ballot.” 1991 Ariz. Legis. Serv. Ch. 310, § 22
(S.B. 1390) (West). In 2016, Arizona enacted a
parallel regulation, H.B. 2023 (the “ballotcollection” policy), concerning the collection of
early ballots.
Diss. Op. at 116–117 (emphases added).

App. 107
Our colleague appends a footnote to the first
sentence in the passage just quoted:
The majority’s effort to deny history can easily
be dismissed. Maj. Op. 104–105. As Judge
Bybee’s dissent ably recounts, not only Arizona
but 21 other states have restricted early
balloting for years. Bybee, J. Diss. Op. 157–158.
Our colleague fails to recognize the distinction
between “unvoted” and “voted” ballots. Contrary to our
colleague’s contention, H.B. 2023 is not “a parallel
regulation” to already existing Arizona law. Under
prior Arizona law, possession of an “unvoted absentee
ballot” was forbidden. Arizona law in no way restricted
non-fraudulent possession of voted absentee ballots
(absentee ballots on which the vote had already been
indicated). Unlike our colleague, the district court
recognized the distinction. It wrote:
Since 1997, it has been the law in Arizona
that “[o]nly the elector may be in possession of
that elector’s unvoted early ballot.” A.R.S. § 16542(D). In 2016, Arizona amended A.R.S. § 161005 by enacting H.B. 2023, which limits who
may collect a voter’s voted or unvoted early
ballot.
Reagan, 329 F. Supp. 3d at 839 (emphases added). H.B.
2023 for the first time forbade non-fraudulent collection
of voted ballots. It was not a “parallel regulation.” It
was a fundamental change in Arizona law.
Second, our colleague repeats the potentially
misleading numbers and percentages of OOP voting
recounted by the district court. Our colleague writes:

App. 108
Only 0.47 percent of all ballots cast in the 2012
general election (10,979 out of 2,323,579) were
not counted because they were cast out of the
voter’s assigned precinct. [Reagan, 329 F. Supp.
3d] at 872. In 2016, this fell to 0.15 percent
(3,970 out of 2,661,497). Id.
Diss. Op. at 122–123. Our colleague, like the district
court, see Reagan, 329 F. Supp. 3d at 872, fails to
mention that, as a percentage of all in-person ballots,
OOP ballots increased between 2012 and 2016.
Third, our colleague quotes from a sentence in a
footnote in the Supreme Court’s opinion in Gingles.
Based on that sentence, he insists that “substantial
difficulty electing representatives of their choice” is the
governing standard for the Section 2 results test in the
case before us. Our colleague writes:
[In Gingles], the Court observed that “[i]t is
obvious that unless minority group members
experience substantial difficulty electing
representatives of their choice, they cannot
prove that a challenged electoral mechanism
impairs their ability ‘to elect.’” Gingles, 478 U.S.
at 48 n.15 (quoting 52 U.S.C. § 10301(b))
(emphasis added).
Diss. Op. at 124 (emphasis in original). He later writes:
Given the lack of any testimony in the record
indicating that the ballot-collection policy would
result in minority voters ‘experienc[ing]
substantial difficulty electing representatives of

App. 109
their choice,’ Gingles, 478 U.S. at 48 n.15, the
district court did not clearly err[.]
Id. at 132 (emphasis added).
Our colleague fails to distinguish between a vote
dilution case and a vote denial case. As we noted above,
a vote dilution case is one in which multimember
electoral districts have been formed, or in which
district lines have been drawn, so as to dilute and
thereby diminish the effectiveness of minority votes.
Vote denial cases are all other cases, including cases in
which voters are prevented from voting or in which
votes are not counted. Gingles was a vote dilution case,
and the case before us is a vote denial case. Our
colleague fails to quote the immediately preceding
sentence in the Gingles footnote, which makes clear
that the Court was addressing vote dilution cases. The
Court wrote, “In recognizing that some Senate Report
factors are more important to multimember district
vote dilution claims than others, the Court effectuates
the intent of Congress.” Gingles, 478 U.S. at 48 n.15
(emphasis added).
The standard in a vote denial case is different, as
recognized by DOJ in its amicus brief in this case, and
in League of Women Voters where the Fourth Circuit
struck down a state statute that would have prevented
the counting of OOP ballots in North Carolina without
inquiring into whether the number of affected ballots
was likely to affect election outcomes. See 769 F.3d at
248–49. As we noted above, there may be a de minimis
number in vote denial cases challenging facially
neutral policies or law, but the 3,709 OOP ballots in
our case is above any such de minimis number.

App. 110
Citing our en banc decision in Gonzalez, our
colleague contends that our case law does not
differentiate between vote denial and vote dilution
cases. But the very language from Gonzalez that he
quotes belies his contention. We wrote in text:
[A] § 2 challenge “based purely on a showing of
some relevant statistical disparity between
minorities and whites,” without any evidence
that the challenged voting qualification causes
that disparity, will be rejected.
Gonzalez, 677 F.3d at 405. We then appended a
footnote, upon which our colleague relies:
This approach applies both to claims of vote
denial and of vote dilution. [Smith v. Salt River
Project Agric. Improvement & Power Dist., 109
F.3d 586,] 596 n.8 [(9th Cir. 1997)].
Id. at 405 n.32. The quoted language makes the obvious
point that in both vote denial and vote dilution cases,
we require evidence of a causal relation between a
challenged voting qualification and any claimed
statistical disparity between minority and white voters.
However, this language does not tell us that the
predicate disparity, and its effect, are the same in vote
denial and vote dilution cases.
B. Response to the Second Dissent
Our second dissenting colleague, Judge Bybee,
writes “to make a simple point: The Arizona rules
challenged here are part of an ‘electoral process that is
necessarily structured to maintain the integrity of the
democratic system.’” Diss. Op. at 142 (quoting Burdick

App. 111
v. Takushi, 504 U.S. 428, 441 (1992)). We respectfully
disagree. There is nothing in Arizona’s policy of
discarding OOP votes or about H.B. 2023 that is
necessary “to maintain the integrity” of Arizona’s
democratic system.
Our colleague writes, further, “Parties of all stripes
should have an equal interest in rules that are both fair
on their face and fairly administered.” Id. at 144. Our
colleague misunderstands the purpose of the VRA’s
results test of Section 2. The results test looks past the
facial fairness of a law to its actual results.
We take these two points in turn.
1. Integrity of Arizona’s Democratic System
First, our colleague uses his “simple point” to justify
Arizona’s OOP policy and H.B. 2023 on the ground that
they are necessary to protect the integrity of Arizona’s
system.
Our colleague argues that eliminating Arizona’s
OOP policy will “lower[] the cost to voters of
determining where they are supposed to vote, but only
as to presidential, U.S. Senate, and statewide races,”
and will have “its own consequences.” Id. at 151, 153.
To illustrate those consequences, our colleague
imagines a voter from Tuscon who votes in Phoenix.
Based on his imagined voter, he posits “two predictable
ways” in which future elections in Arizona will be
“skew[ed]” if OOP votes are counted for the elections in
which the voter is entitled to vote. Id. at 152. Because
his imagined voter cares only about national elections,
that voter “may vote with impunity in the wrong
precinct.” Id. at 152. This will result, first, in

App. 112
“overvalu[ing]” national elections, and, second, in
“undervalu[ing]” local elections. Id.
Our colleague speculates that Arizona’s OOP policy
will result in voters either finding the right precinct, or
voting by mail. He writes:
Under Arizona’s current OOP rule, a voter,
having gone to the trouble of going to a precinct
to vote in person and suffering the indignity of
having to fill out a provisional ballot, is less
likely to make the same mistake next year. A
voter who has had a ballot disqualified is more
likely to figure out the correct precinct next
time—or, better yet, sign up for the convenience
of early voting, a measure that avoids the
conundrum of OOP altogether.
Id. at 155.
Our colleague’s speculation leads him to predict
that Arizona’s OOP policy will lead to increased inprecinct voting. There is nothing in the record that
remotely supports our colleague’s predicted
consequences. Instead, the record clearly shows the
opposite. Arizona’s OOP policy has been in place since
at least 1970. Reagan, 329 F. Supp. 3d at 840. The
record shows that, despite its long-standing policy,
Arizona has consistently had by far the highest rate of
OOP voting of any State—in 2012, eleven times greater
than the second-place State. See Figure 6, supra at 13;
see also Rodden at 26 (describing OOP voting as a
“persistent problem” in Arizona).
Contrary to our colleague’s speculation, OOP voters
are unlikely ever to discover the “indignity” of having

App. 113
their provisional ballots discarded. Our colleague
quotes from an Arizona statute requiring county
recorders to establish a “method” by which a voter
casting a provisional ballot be notified that his or ballot
was not counted, and giving a reason why it was not
counted. Diss. Op. at 155 n.9. However, there is
nothing in the record showing that county recorders
have in fact established, or followed, such a “method.”
Instead, there was uncontradicted testimony in the
district court by OOP voters that they were not
directed to their proper polling place and were never
told that their vote would not be counted if cast out of
precinct. See Reagan, 329 F. Supp. 3d at 858 (finding
that poll workers neither directed OOP voters to the
correct precinct nor told voters that OOP ballots would
be discarded).
The persistence of OOP voting is unsurprising given
the actions of Arizona. Arizona changes polling places
with extraordinary frequency, and often locates them
in inconvenient and misleading places. This produces
a high rate of OOP voting, particularly in urban areas
and particularly for voters with high rates of
residential mobility. The uncontested result is that
minority voters cast OOP votes twice as often as white
voters.
Our colleague further argues that H.B. 2023 is an
appropriate measure to protect against voter fraud. He
begins by pointing out that many States forbid thirdparty ballot collection. Diss. Op. at 158–160. But a
simple numerical comparison with other states fails to
take into account, as the VRA says we must, the
particular geography, ethnic patterns, and long history

App. 114
of third-party ballot collection in Arizona. See Gingles,
478 U.S. at 78 (a Section 2 analysis requires “a blend of
history and an intensely local appraisal”). Evidence in
the record shows that third-party ballot collection has
long had a unique role in Arizona, given the large
numbers of Hispanic and American Indian voters who
have unreliable or non-existent in-home mail service,
who have unreliable means of transportation, who live
long distances from polling places, and who have longstanding cultural traditions of ballot collection.
Evidence in the record shows that Arizona has never,
in its long history of third-party ballot collection, found
a single case of fraud.
Our colleague also argues that Arizona should not
ignore the recommendation of the report of the
bipartisan commission, Building Confidence in U.S.
Elections (2005). Diss. Op. at 161–164. This is a
reasonable argument, but it has limited force when
applied to Arizona. Forbidding third-party ballot
collection protects against potential voter fraud. But
such protection is not necessary, or even appropriate,
when there is a long history of third-party ballot
collection with no evidence, ever, of any fraud and such
fraud is already illegal under existing Arizona law.
Such protection is undesirable, even illegal, when a
statute forbidding third-party ballot collection produces
a discriminatory result or is enacted with
discriminatory intent. The commission was concerned
with maintaining “confidence” in our election system,
as indicated by the title of its report. If there is a lack
of confidence in third-party ballot collection in Arizona,
it is due to the fraudulent, race-based campaign
mounted by the proponents of H.B. 2023.

App. 115
Finally, our colleague points to third-party ballot
collection fraud perpetrated by a Republican political
operative in North Carolina. Id. at 164–166. Our
colleague’s argument ignores the different histories and
political cultures in Arizona and North Carolina, and
puts to one side as irrelevant the long and honorable
history of third-party ballot collection in Arizona. The
argument also ignores the fact that Arizona had long
had statutes prohibiting fraudulent handling of both
unvoted and voted ballots by third parties, even before
the enactment of H.B. 2023. The actions of the North
Carolina Republican operative, if performed in Arizona,
would have been illegal under those statutes. H.B.
2023 does not forbid fraudulent third-party ballot
collection. Such fraud is forbidden by other provisions
of Arizona law. H.B. 2023 forbids non-fraudulent thirdparty ballot collection.
2. Rules that Are Fair on Their Face
Second, our colleague defends Arizona’s OOP policy
and H.B. 2023 as “rules that are . . . fair on their face.”
Id. at 144. The results test of Section 2 of the VRA is
based on the understanding that laws that are “fair on
their face” can, as in this case, produce discriminatory
results. Indeed, Congress added the results test to the
VRA precisely to address laws that were fair on their
face but whose result was unfair discrimination.
Arizona’s OOP policy and H.B. 2023 both fail the
results test. The result of Arizona’s OOP policy is that
twice as many minority ballots as white ballots are
thrown away. Prior to the enactment of H.B. 2023,
third-party ballot collectors, acting in good faith,
collected many thousands of valid ballots cast by

App. 116
minority voters. White voters rarely relied on thirdparty ballot collection. The result of H.B. 2023 is that
many thousands of minority ballots will now not be
collected and counted, while white ballots will be
largely unaffected.
IV. Conclusion
We hold that Arizona’s OOP policy violates the
results test of Section 2. We hold that H.B. 2023
violates both the results test and the intent test of
Section 2. We hold that H.B. 2023 also violates the
Fifteenth Amendment. We do not reach Plaintiffs’ other
constitutional challenges.
We reverse the judgment of the district court and
remand for further proceedings consistent with this
opinion.
REVERSED and REMANDED.

App. 117
WATFORD, Circuit Judge, concurring:
I join the court’s opinion to the extent it invalidates
Arizona’s out-of-precinct policy and H.B. 2023 under
the results test. I do not join the opinion’s discussion of
the intent test.
O’SCANNLAIN, Circuit Judge, with whom CLIFTON,
BYBEE, and CALLAHAN, Circuit Judges, join,
dissenting:
We have been asked to decide whether two current
Arizona election practices violate the Voting Rights Act
or the First, Fourteenth, or Fifteenth Amendments to
the United States Constitution.1 Based on the record
before us and relevant Supreme Court and Ninth
1

Section 2 of the Voting Rights Act prohibits a State from adopting
an election practice that “results in a denial or abridgement of the
right of any citizen of the United States to vote on account of race
or color.” 52 U.S.C. § 10301(a).

The First Amendment to the United States Constitution
provides in relevant part: “Congress shall make no law . . .
abridging . . . the right of the people peaceably to assemble.” U.S.
Const. amend. I.
The Fourteenth Amendment guarantees: “No State shall make
or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any State
deprive any person of life, liberty, or property, without due process
of law; nor deny to any person within its jurisdiction the equal
protection of the laws.” U.S. Const. amend. XIV.
The Fifteenth Amendment ensures that the right “to vote shall
not be denied or abridged by the United States or by any State on
account of race, color, or previous condition of servitude.” U.S.
Const. amend. XV.

App. 118
Circuit precedent, the answer to such question is clear:
they do not. The majority, however, draws factual
inferences that the evidence cannot support and
misreads precedent along the way. In so doing, it
impermissibly strikes down Arizona’s duly enacted
policies designed to enforce its precinct-based election
system and to regulate third-party collection of early
ballots.
I respectfully dissent.
I
Given the abundant discussion by the district court
and the en banc majority, I offer only a brief summary
of the policies at issue here and discuss the district
court’s factual findings as pertinent to the analysis
below.
A
Arizona offers voters several options: early mail
ballot, early in-person voting, and in-person Election
Day voting. Democratic Nat’l Comm. v. Reagan
(“DNC”), 329 F. Supp. 3d 824, 838 (D. Ariz. 2018).
1
Since at least 1970, Arizona has required that inperson voters “cast their ballots in their assigned
precinct and has enforced this system by counting only
those ballots cast in the correct precinct.” Id. at 840. A
voter who arrives at a precinct in which he or she is not
listed on the register may cast a provisional ballot, but
Arizona will not count such ballot if it determines that
the voter does not live in the precinct in which he or

App. 119
she voted. Id. For shorthand, I refer to this rule as
Arizona’s “out-of-precinct” or “OOP” policy.
Most Arizona voters, however, do not vote in person
on Election Day. Id. at 845. Arizona law permits all
registered voters to vote early by mail or in person at
an early voting location in the 27 days before an
election. Ariz. Rev. Stat. §§ 16-121(A), 16-541(A), 16542(D). All Arizona counties operate at least one
location for early in person voting. DNC, 329 F. Supp.
3d at 839. Rather than voting early in person, any voter
may instead request an early ballot to be delivered to
his or her mailbox on an election-by-election or
permanent basis. Id. In 2002, Arizona became the first
state to make available an online voter registration
option, which also permits voters to enroll in
permanent early voting by mail. Id. Voters who so
enroll will be sent an early ballot no later than the first
day of the 27-day early voting period. Id. Voters may
return early ballots in person at any polling place, vote
center, or authorized office without waiting in line or
may return their early ballots by mail at no cost. Id. To
be counted, however, an early ballot must be received
by 7:00 p.m. on Election Day. Id.
2
For years, Arizona has restricted who may handle
early ballots.2 Since 1992, Arizona has prohibited
anyone but the elector himself from possessing “that
2

The majority’s effort to deny history can easily be dismissed. Maj.
Op. 104–105. As Judge Bybee’s dissent ably recounts, not only
Arizona but 21 other states have restricted early balloting for
years. Bybee, J. Diss. Op. 157–158.

App. 120
elector’s unvoted absentee ballot.” 1991 Ariz. Legis.
Serv. Ch. 310, § 22 (S.B. 1390) (West). In 2016, Arizona
enacted a parallel regulation, H.B. 2023 (the “ballotcollection” policy), concerning the collection of early
ballots.3 DNC, 329 F. Supp. 3d at 839. Under the
ballot-collection policy, only a “family member,”
“household member,” “caregiver,” “United States postal
service worker” or other person authorized to transmit
mail, or “election official” may return another voter’s
completed early ballot. Id. at 839–40 (citing Ariz. Rev.
Stat. § 16-1005(H)–(I)).
B
In April 2016, the Democratic National Committee,
the Democratic Senatorial Campaign Committee, and
the Arizona Democratic Party (together, “DNC”) sued
the State of Arizona to challenge the OOP policy and
the ballot-collection policy. The district court denied
DNC’s motions to enjoin preliminarily enforcement of
both polices, and DNC asked our court to issue
injunctions pending appeal of such denials. After
expedited proceedings before three-judge and en banc
panels, our court denied the motion for an injunction
against the OOP policy but granted the parallel motion
against the ballot-collection policy. Feldman v. Ariz.
Sec’y of State’s Office, 840 F.3d 1165 (9th Cir. 2016) (en
banc) (mem.) (per curiam); Feldman v. Ariz. Sec’y of
State’s Office (Feldman III), 843 F.3d 366 (9th Cir.
2016) (en banc). The Supreme Court, however, stayed

3

While the majority refers to the legislation as “H.B. 2023,” I
prefer to call it the ballot-collection policy by which it is commonly
known and will do so throughout the dissent.

App. 121
our injunction against the ballot-collection policy and
the OOP and ballot-collection policies functioned in
usual fashion. Ariz. Sec’y of State’s Office v. Feldman,
137 S. Ct. 446 (2016) (mem.).
In 2017, the district court proceeded to the merits of
DNC’s suit. In May 2018, after a ten-day bench trial,
the district court issued a decision supported by
thorough findings of fact and conclusions of law. DNC,
329 F. Supp. 3d at 832. The district court found that
DNC failed to prove any violation of the Voting Rights
Act or the United States Constitution and issued
judgment in the state’s favor. Id. at 882–83.
DNC timely appealed, and a three-judge panel of
our court affirmed the decision of the district court in
its entirety. Democratic Nat’l Comm. v. Reagan
(“DNC”), 904 F.3d 686 (9th Cir. 2018), vacated by order
granting rehearing en banc, 911 F.3d 942 (9th Cir.
2019) (mem.). But today, the en banc panel majority
reverses the decision of the district court and holds
that the OOP and ballot-collection policies violate § 2 of
the Voting Rights Act and that the ballot-collection
policy was enacted with discriminatory intent in
violation of the Fifteenth Amendment.
II
The first mistake of the en banc majority is
disregarding the critical standard of review. Although
the majority recites the appropriate standard, it does
not actually engage with it.4 Maj. Op. 8–9. The
4

As the majority admits, we review the district court’s “overall
finding of vote dilution” under § 2 of the Voting Rights Act only for

App. 122
standard is not complex. We review de novo the district
court’s conclusions of law, but may review its findings
of fact only for clear error. Navajo Nation v. U.S. Forest
Serv., 535 F.3d 1058, 1067 (9th Cir. 2008) (en banc).
The majority’s disregard of such standard and, thus,
our appellate role, infects its analysis of each of DNC’s
claims. The demanding clear error standard “plainly
does not entitle a reviewing court to reverse the finding
of the trier of fact simply because it is convinced that it
would have decided the case differently.” Anderson v.
City of Bessemer City, 470 U.S. 564, 573 (1985). Rather,
we may reverse a finding only if, “although there is
evidence to support it, [we are] left with the definite
and firm conviction that a mistake has been
committed.” Id. (quoting United States v. U. S. Gypsum
Co., 333 U.S. 364, 395 (1948)). To do otherwise
“oversteps the bounds of [our] duty under [Federal Rule
of Civil Procedure] 52(a)” by “duplicat[ing] the role of
the lower court.” Id. at 573. As explained in Parts III
and IV, I fail to see how on the record before us one
could be “left with a definite and firm conviction” that
the district court erred.
III
DNC first contends that Arizona’s policies violate
§ 2 of the Voting Rights Act. A district court’s
determination of whether a challenged practice violates

clear error. Thornburg v. Gingles, 478 U.S. 30, 79 (1986) (emphasis
added); Maj. Op. 8–9. The majority quotes an elaboration of this
standard by the Supreme Court in Gingles. Maj. Op. 8–9. But the
Court in Gingles actually held that the district court’s ultimate
finding was not clearly erroneous. Gingles, 478 U.S. at 80.

App. 123
§ 2 of the Voting Rights Act is “intensely fact-based”:
the court assesses the “totality of the circumstances”
and conducts “a ‘searching practical evaluation of the
past and present reality.’” Smith v. Salt River Project
Agric. Improvements & Power Dist. (“Salt River”), 109
F.3d 586, 591 (9th Cir. 1997) (quoting Thornburg v.
Gingles, 478 U.S. 30, 79 (1986)). Thus, “[d]eferring to
the district court’s superior fact-finding capabilities, we
review only for clear error its ultimate finding of no § 2
violation.” Id. at 591 (emphasis added).
In relevant part, § 2 provides:
(a) No voting qualification or prerequisite to
voting or standard, practice, or procedure shall
be imposed or applied by any State . . . in a
manner which results in a denial or abridgment
of the right of any citizen of the United States to
vote on account of race or color . . . .
(b) A violation of subsection (a) is established if,
based on the totality of circumstances, it is
shown that the political processes leading to
nomination or election in the State . . . are not
equally open to participation by members of a
class of citizens protected by subsection (a) in
that its members have less opportunity than
other members of the electorate to participate in
the political process and to elect representatives
of their choice.
52 U.S.C. § 10301 (emphasis added). “The essence of a
§ 2 claim is that a certain electoral law, practice, or
structure interacts with social and historical conditions
to cause an inequality in the opportunities enjoyed by

App. 124
black and white voters to elect their preferred
representatives.” Gingles, 478 U.S. at 47. To determine
whether a practice violates § 2, courts employ a twostep analysis. See Ohio Democratic Party v. Husted,
834 F.3d 620, 637 (6th Cir. 2016); Veasey v. Abbott, 830
F.3d 216, 244 (5th Cir. 2016); Frank v. Walker, 768
F.3d 744, 754–55 (7th Cir. 2014); League of Women
Voters of N.C. v. North Carolina, 769 F.3d 224, 240 (4th
Cir. 2014).
The first step is asking whether the practice
provides members of a protected class “less
‘opportunity’ than others ‘to participate in the political
process and to elect representatives of their choice.’”
Chisom v. Roemer, 501 U.S. 380, 397 (1991) (alteration
in original) (quoting 52 U.S.C. § 10301). In other words,
the challenged practice “must impose a discriminatory
burden on members of a protected class.” League of
Women Voters, 769 F.3d at 240 (emphasis added). To
prevail at step one, the plaintiff therefore “must show
a causal connection between the challenged voting
practice and [a] prohibited discriminatory result.” Salt
River, 109 F.3d at 595 (alteration in original) (quoting
Ortiz v. City of Phila. Office of City Comm’rs Voter
Registration Div., 28 F.3d 306, 312 (3d Cir. 1994)); see
also Ohio Democratic Party, 834 F.3d at 638. If a
discriminatory burden is established, then—and only
then—do we consider whether the burden is “caused by
or linked to ‘social and historical conditions’ that have
or currently produce discrimination against members
of the protected class.” League of Women Voters, 769
F.3d at 240 (quoting Gingles, 478 U.S. at 47).

App. 125
The majority agrees that this two-step analysis
controls but mistakenly applies it. According to the
majority, DNC has shown that the OOP policy and the
ballot-collection policy fail at both steps—and,
presumably, that the district court clearly erred in
finding otherwise. Under an appropriately deferential
analysis, however, DNC cannot prevail even at step
one: it has simply failed to show that either policy
erects a discriminatory burden.
A
As to the facially neutral OOP policy, DNC argues,
erroneously, that wholly discarding, rather than
partially counting, ballots that are cast out-of-precinct
violates § 2 of the Voting Rights Act because such
policy imposes a discriminatory burden on minority
voters related to Arizona’s history of discrimination.
The district court, quite properly, found that DNC
failed to carry its burden at step one—that the practice
imposes a discriminatory burden on minority
voters—for two reasons. DNC, 329 F. Supp. 3d at 873.
1
First, the district court determined that DNC failed
to show “that the racial disparities in OOP voting are
practically significant enough to work a meaningful
inequality in the opportunities of minority voters as
compared to non-minority voters.” Id. Thus, it ruled
that DNC failed to show that the precinct-based system
has a “disparate impact on the opportunities of
minority voters to elect their preferred
representatives.” Id. at 872. To the contrary, the
district court made the factual finding that out-of-

App. 126
precinct “ballots represent . . . a small and everdecreasing fraction of the overall votes cast in any
given election.” Id.
Furthermore, the district court determined that
“the burdens imposed by precinct-based voting . . . are
not severe. Precinct-based voting merely requires
voters to locate and travel to their assigned precincts,
which are ordinary burdens traditionally associated
with voting.” Id. at 858. Indeed, the numbers found by
the district court support such conclusion. Only 0.47
percent of all ballots cast in the 2012 general election
(10,979 out of 2,323,579) were not counted because they
were cast out of the voter’s assigned precinct. Id. at
872. In 2016, this fell to 0.15 percent (3,970 out of
2,661,497). Id. And of those casting ballots in-person on
Election Day, approximately 99 percent of minority
voters and 99.5 percent of non-minority voters cast
their ballots in their assigned precincts. Id. Given that
the overwhelming majority of all voters complied with
the precinct-based voting system during the 2016
election, it is difficult to see how the district court’s
finding could be considered clearly erroneous. See also
Crawford v. Marion Cty. Election Bd., 553 U.S. 181,
198 (2008) (plurality opinion) (discussing “the usual
burdens of voting”). And it further ruled that DNC
“offered no evidence of a systemic or pervasive history
of minority voters being given misinformation
regarding the locations of their assigned precincts,
while non-minority voters were given correct
information” to suggest that the burden of voting in
one’s assigned precinct is more significant for minority
voters than for non-minority voters. DNC, 329 F. Supp.
3d at 873.

App. 127
As Judge Ikuta explained in her now-vacated
majority opinion for the three-judge panel:
If a challenged election practice is not
burdensome or the state offers easily accessible
alternative means of voting, a court can
reasonably conclude that the law does not
impair any particular group’s opportunity to
“influence the outcome of an election,” even if
the practice has a disproportionate impact on
minority voters.
DNC, 904 F.3d at 714 (citation omitted) (quoting
Chisom, 501 U.S. at 397 n.24). The “bare statistic[s]”
presented may indeed show a disproportionate impact
on minority voters, but we have held previously that
such showing is not enough. Salt River, 109 F.3d at 595
(“[A] bare statistical showing of disproportionate
impact on a racial minority does not satisfy the § 2
‘results’ inquiry.” (emphasis in original)). A court must
evaluate the burden imposed by the challenged voting
practice—not merely any statistical disparity that may
be shown. The Supreme Court’s interpretation of § 2 in
Gingles suggests the same. There, the Court observed
that “[i]t is obvious that unless minority group
members experience substantial difficulty electing
representatives of their choice, they cannot prove that
a challenged electoral mechanism impairs their ability
‘to elect.’” Gingles, 478 U.S. at 48 n.15 (emphasis
added) (quoting 52 U.S.C. § 10301(b)). Furthermore,
because “[n]o state has exactly equal registration rates,
exactly equal turnout rates, and so on, at every stage of
its voting system,” it cannot be the case that pointing
to a mere statistical disparity related to a challenged

App. 128
voting practice is sufficient to “dismantle” that practice.
Frank, 768 F.3d at 754; see also Salt River, 109 F.3d at
595.
The majority, however, contends that “the district
court discounted the disparate burden on the ground
that there were relatively few OOP ballots cast in
relation to the total number of ballots.” Maj. Op. 43. In
the majority’s view, the district court should have
emphasized that the percentage of in-person ballots
that were cast out-of-precinct increased, thus isolating
the specific impact of the OOP policy amongst inperson voters bound by the precinct-system
requirements.
Contrary to the majority’s assertion, however, the
legal review at hand does not require that we isolate
the specific challenged practice in the manner it
suggests. Rather, at step one of the § 2 inquiry, we only
consider whether minority voters “experience
substantial difficulty electing representatives of their
choice,” Gingles, 478 U.S. at 48 n.15, “based on the
totality of circumstances,” 52 U.S.C. § 10301(b).5
5

The majority correctly asserts that Gingles was a vote dilution
not-vote denial case. However, it incorrectly claims the standard
in a vote denial case is different and, without stating such
standard, it simply concludes that the 3,709 ballots cast out of
precinct in the 2016 general election in Arizona is more than any
“de minimis number” below which there is no Section 2 violation,
without ever revealing what such minimum threshold might be.
Maj. Op. 107. The majority cites League of Women Voters, a vote
denial case, to reach this conclusion. See 769 F.3d at 248–49. Yet,
in that case, the Fourth Circuit relies on Gingles throughout to
determine that the same analysis applies to vote denial and vote
dilution cases. Id. at 238–40. Earlier in its opinion, the majority

App. 129
Although the majority would like us to believe that the
increasing percentage of in-person ballots cast out-ofprecinct demonstrates that minorities are disparately
burdened by the challenged policy, the small number of
voters who chose to vote in-person and the even smaller
number of such voters who fail to do so in the correct
precinct demonstrate that any minimal burden
imposed by the policy does not deprive minority voters
of equal opportunities to elect representatives of their
choice. A conclusion otherwise could not be squared
with our determination that a mere statistical showing
of disproportionate impact on racial minorities does not
satisfy the challenger’s burden. See Salt River, 109
F.3d at 595. If such statistical impact is not sufficient,
it must perforce be the case that the crucial test is the
extent to which the practice burdens minority voters as
opposed to non-minority voters. But the en banc
majority offers no explanation for how or why the
burden of voting in one’s assigned precinct is severe or
beyond that of the burdens traditionally associated
with voting.
The majority argues that there may be a “de
minimis number” below which no § 2 violation has

itself uses Gingles as the standard for analyzing a § 2 violation in
a vote denial case. Maj. Op. 37. The distinction the majority
attempts to draw fails because, contrary to what the majority
implies, “a § 2 challenge based purely on a showing of some
relevant statistical disparity between minorities and whites,
without any evidence that the challenged voting qualification
causes that disparity, will be rejected,” Gonzalez v. Arizona, 677
F.3d 383, 495 (9th Cir. 2012) (internal quotation marks omitted),
and “[t]his approach applies both to claims of vote denial and vote
dilution.” Id. at 495 n. 32.

App. 130
occurred.6 Maj. Op. 44. But we know from our own
precedent that “a bare statistical showing of
disproportionate impact on a racial minority does not
satisfy the § 2 . . . inquiry.” Salt River, 109 F.3d at 595
(emphasis in original). And Chisom makes clear that
§ 2 “claims must allege an abridgment of the
opportunity to participate in the political process and
to elect representatives of one’s choice.” 501 U.S. at 398
(emphasis in original). As such, the inquiry must
require consideration of both the scope of the burden
imposed by the particular policy—not merely how
many voters are impacted by it—and the difficulty of
accessing the political process in its entirety.
Thus, it cannot be true, as the majority suggests,
that simply showing that some number of minority
voters’ ballots were not counted as a result of an
individual policy satisfies step one of the § 2 analysis
for a facially neutral policy.
2
Second, the district court made the factual finding
that “Arizona’s policy to not count OOP ballots is not
the cause of [any identified] disparities in OOP voting.”
DNC, 329 F. Supp. 3d at 872. According to the OOP
policy that is challenged by DNC, a ballot is not
counted if it is cast outside of the voter’s assigned
precinct. And the district court pointed to several
factors that result in higher rates of out-of-precinct
6

As Judge Ikuta explained, “an election rule requiring voters to
identify their correct precinct in order to have their ballots counted
does not constitute a ‘disenfranchisement’ of voters.” DNC, 904
F.3d at 730 n.33; see also id. at 724 n.27.

App. 131
voting among minorities. For example, the district
court found that “high rates of residential mobility are
associated with higher rates of OOP voting,” and
minorities are more likely to move more frequently. Id.
at 857, 872. Similarly, “rates of OOP voting are higher
in neighborhoods where renters make up a larger share
of householders.” Id. at 857. The precinct-system may
also pose special challenges for Native American
voters, because they may “lack standard addresses”
and there may be additional “confusion about the
voter’s correct polling place” where precinct
assignments may differ from assignments for tribal
elections. Id. at 873. “Additionally”, the district court
found, Arizona’s “changes in polling locations from
election to election, inconsistent election regimes used
by and within counties, and placement of polling
locations all tend to increase OOP voting rates.” Id. at
858.
But the burden of complying with the precinctbased system in the face of any such factors is plainly
distinguishable from the consequence imposed should
a voter fail to comply. Indeed, as the district court
found, “there is no evidence that it will be easier for
voters to identify their correct precincts if Arizona
eliminated its prohibition on counting OOP ballots.” Id.
Although “the consequence of voting OOP might make
it more imperative for voters to correctly identify their
precincts,” id., such consequence does not cause voters
to cast their ballots out-of-precinct or make it more
burdensome for voters to cast their ballots in their
assigned precincts.

App. 132
The majority goes astray by failing to recognize the
distinction between the burden of complying and the
consequence of failing to do so. In fact, the majority
undercuts its own claim by citing the same host of
reasons identified by the district court as the reasons
why a minority voter is more likely to vote out-ofprecinct. Maj Op. 14–19. All the factors the majority
seizes upon, however, stem from the general
requirement that a voter cast his or her ballot in the
assigned precinct—not the policy that enforces such
requirement. The importance of such distinction is
made clear by the relief that DNC seeks: DNC does not
request that Arizona be made to end its precinct-based
system or to assign its precincts differently, but instead
requests that Arizona be made to count those ballots
that are not cast in compliance with the OOP policy.7
Removing the enforcement policy, however, would do
nothing to minimize or to extinguish the disparity that
exists in out-of-precinct voting.

7

The majority suggests that DNC challenges only “Arizona’s
policy, within that system, of entirely discarding OOP ballots” as
opposed to counting or partially counting them. Maj. Op. 78. But
this is not a compromise position: there is no difference between
counting and partially counting a ballot cast out-of-precinct.
Counting an OOP ballot would entail evaluating the ballot to
determine on which issues the person would have been qualified
to vote in his or her assigned precinct and discarding the person’s
votes as to issues on which he or she would not have been qualified
to vote. Certainly, the majority isn’t suggesting that a person
would ever be allowed to vote on issues which he or she would not
have been eligible to vote even in the assigned precinct. It is
difficult to discern any other possible meaning for what the
majority refers to as entirely “counting” out-of-precinct ballots.

App. 133
Consider another basic voting requirement: in order
to cast a ballot, a voter must register. If a person fails
to register, his or her vote will not count. Any
discriminatory result from such a policy would need to
be addressed in a challenge to that policy itself. For
example, if minorities are underrepresented as a
segment of registered voters, perhaps they could
challenge some discriminatory aspect of the
registration system. But they surely could not prevail
by challenging simply the state’s enforcement of the
registration policy by refusing to count unregistered
voters’ ballots. Minorities in a jurisdiction may very
well be underrepresented as members of the registered
electorate, but the discrepancy between the protected
class as a segment of the general population and as a
segment of the registered voting population would not
require that a state permit unregistered voters to cast
valid ballots on Election Day.
Similarly, the fact that a ballot cast by a voter
outside of his or her assigned precinct is discarded does
not cause minorities to vote out-of-precinct
disproportionately. But DNC does not challenge the
general requirement that one vote in his or her precinct
or take issue with the assignment of precinct
locations—the very requirements that could lead to a
disproportionate impact. It may indeed be the case in
a precinct-based voting system that a state’s poor
assignment of districts, distribution of inadequate
information about voting requirements, or other factors
have some material effect on election practices such
that minorities have less opportunity to elect
representatives of their choice as a result of the system.
But, in the words of the majority, DNC’s challenge

App. 134
“assumes both [the] importance and [the] continued
existence” of “Arizona’s precinct-based system of
voting.” Maj. Op. 78. Instead, DNC challenges only
Arizona’s enforcement of such system. Thus, even if
there were a recognizable disparity in the opportunities
of minority voters voting out-of-precinct, it would
nonetheless not be the result of the policy at issue
before us.
3
I reject the suggestion implicit in the majority
opinion that any facially neutral policy which may
result in some statistical disparity is necessarily
discriminatory under step one of the § 2 inquiry. We
have already held otherwise. Salt River, 109 F.3d at
595. And the majority itself concedes that “more than
a de minimis number of minority voters must be
burdened before a Section 2 violation based on the
results test can be found.” Maj. Op. 44. Furthermore, I
fail to see how DNC—and the majority—can concede
the importance and continued existence of a precinctbased system, yet argue that the enforcement
mechanism designed to maintain such system is
impermissible.
Because DNC has failed to meet its burden under
step one of the Voting Rights Act § 2 inquiry—that the
district court’s findings were clearly erroneous—our
analysis of its OOP claim should end here.
B
As to the facially neutral ballot-collection policy,
DNC argues, erroneously, that it violates § 2 because
there is “extensive evidence” demonstrating that

App. 135
minority voters are more likely to have used ballotcollection services and that they would therefore be
disproportionately burdened by limitations on such
services. Specifically, DNC relies on anecdotal evidence
that ballot collection has disproportionately occurred in
minority communities, that minority voters were more
likely to be without home mail delivery or access to
transportation, and that ballot-harvesting efforts were
disproportionately undertaken by the Democratic Party
in minority communities. And, DNC claims, such
burden is caused by or linked to Arizona’s history of
discrimination.
The district court, quite properly, rejected such
argument, making the factual finding that DNC failed
to establish at step one that the ballot-collection policy
imposed a discriminatory burden on minority voters.
DNC, 329 F. Supp. 3d at 866, 871. Once again, the
question is whether such finding was clearly erroneous.
Salt River, 109 F.3d at 591.
1
The district court found broadly that the nonquantitative evidence offered by DNC failed to show
that the ballot-collection policy denied minority voters
of “meaningful access to the political process.” DNC,
329 F. Supp. 3d at 871. As Judge Ikuta observed, to
determine whether the challenged policy provides
minority voters “less opportunity to elect
representatives of their choice, [we] must necessarily
consider the severity and breadth of the law’s impacts
on the protected class.” DNC, 904 F.3d at 717.

App. 136
But no evidence of that impact has been offered. “In
fact, no individual voter testified that [the ballotcollection policy’s] limitations on who may collect an
early ballot would make it significantly more difficult
to vote.” DNC, 329 F. Supp. 3d at 871 (emphasis
added). Anecdotal evidence of how voters have chosen
to vote in the past does not establish that voters are
unable to vote in other ways or would be burdened by
having to do so. The district court simply found that
“prior to the [ballot-collection policy’s] enactment
minorities generically were more likely than nonminorities to return their early ballots with the
assistance of third parties,” id. at 870, but, once again,
the disparate impact of a challenged policy on minority
voters is insufficient to establish a § 2 violation, see
Salt River, 109 F.3d at 594–95.
The majority simply does not address the lack of
evidence as to whether minority voters have less
opportunity than non-minority voters now that ballot
collection is more limited. Instead, the majority
answers the wrong question by pointing to minority
voters’ use of ballot collection in the past. The majority
offers no record-factual support for its conclusion that
the anecdotal evidence presented demonstrates that
compliance with the ballot-collection policy imposes a
disparate burden on minority voters—a conclusion that
must be reached in order to satisfy step one of the § 2
inquiry—let alone evidence that the district court’s
contrary finding was “clearly erroneous.”
Given the lack of any testimony in the record
indicating that the ballot-collection policy would result
in minority voters “experienc[ing] substantial difficulty

App. 137
electing representatives of their choice,” Gingles, 478
U.S. at 48 n.15, the district court did not clearly err in
finding that, “for some voters, ballot collection is a
preferred and more convenient method of voting,” but
a limitation on such practice “does not deny minority
voters meaningful access to the political process.” DNC¸
329 F. 3d Supp. at 871.
2
The district court further found that the ballotcollection policy was unlikely to “cause a meaningful
inequality in the electoral opportunities of minorities”
because only “a relatively small number of voters have
used ballot collection services” in the past at all. DNC,
329 F. Supp. 3d at 870–71. And, the district court
noted, DNC “provided no quantitative or statistical
evidence comparing the proportion that is minority
versus non-minority.” Id. at 866. “Without this
information,” the district court explained, “it becomes
difficult to compare the law’s impact on different
demographic populations and to determine whether the
disparities, if any, are meaningful.” Id. at 867. Thus,
from the record, we do not know either the extent to
which voters may be burdened by the ballot-collection
policy or how many minority voters may be so
burdened.
Nonetheless, the district court considered
circumstantial and anecdotal evidence offered by DNC
and determined that “the vast majority of Arizonans,
minority and non-minority alike, vote without the
assistance of third-parties who would not fall within
[the ballot-collection policy’s] exceptions.” Id. at 871.
DNC—and the majority—argue that such finding is not

App. 138
supported by the record, but, given the lack of
quantitative or statistical evidence before us, it is
difficult to conclude that such finding is clearly
erroneous. The district court itself noted that it could
not “speak in more specific or precise terms” given the
sparsity of the record. Id. at 870. Drawing from
anecdotal testimony, the district court estimated that
fewer than 10,000 voters used ballot-collection services
in any election. Id. at 845. Drawing even “the
unjustified inference that 100,000 early mail ballots
were collected” during the 2012 general election, the
district court found that such higher total would
nonetheless be “relatively few early voters” as
compared to the 1.4 million early mail ballots returned
or 2.3 million total votes cast. Id. at 845. The majority
further argues that the district court erred in
“discounting the evidence of third-party ballot
collection as merely ‘circumstantial and anecdotal’”
Maj. Op. 83. But the district court did nothing of the
sort. To the contrary, the district court considered
whether the ballot-collection policy violated § 2 by
making these estimates—and even generous
estimates—from the anecdotal evidence offered. And
the district court’s subsequent conclusion that the
limitation of third-party ballot collection would impact
only a “relatively small number of voters,” id. at 870, is
clearly plausible on this record, see Bessemer City, 470
U.S. at 573.
The majority also argues that the total number of
votes affected is not the relevant inquiry; the proper
test is whether the number of ballots collected by third
parties surpasses any de minimis number. Maj. Op. 84.
But we already know “that a bare statistical showing”

App. 139
that an election practice has a “disproportionate impact
on a racial minority does not satisfy” step one of the § 2
inquiry. Salt River, 109 F.3d at 595 (emphasis in
original). And, even if such impact were sufficient, the
record offers no evidence from which the district court
could determine the extent of the discrepancy between
minority voters as a proportion of the entire electorate
versus minority voters as a proportion of those who
have voted using ballot-collection services in the past.
DNC, 329 F. Supp. 3d at 866–67.
3
As Judge Bybee keenly observed in a previous
iteration of this case (and indeed in his dissent in this
case), “[t]here is no constitutional or federal statutory
right to vote by absentee ballot.” Feldman III, 843 F.3d
at 414 (Bybee, J., dissenting) (citing McDonald v. Bd.
of Election Comm’rs of Chi., 394 U.S. 802, 807–08
(1969)); accord Bybee, J. Diss. Op. 156. Both today and
in the past, Arizona has chosen to provide a wide range
of options to voters. But Arizona’s previous decision to
permit a particular mechanism of voting does not
preclude Arizona from modifying its election system to
limit such mechanism in the future so long as such
modification is made in a constitutional manner. And,
in fact, Arizona’s modification here was made in
compliance with “the recommendation of the bipartisan
Commission on Federal Election Reform.” DNC, 329 F.
Supp. 3d at 855. Without any evidence in the record of
the severity and breadth of the burden imposed by this
change to the ballot-collection policy, we cannot be “left
with the definite and firm conviction” that the district
court erred in finding that DNC failed to show that the

App. 140
policy violated § 2. See Bessemer City, 470 U.S. at 573;
see also Salt River, 109 F.3d at 591.
C
Because I disagree with the majority’s conclusion
that DNC has satisfied its burden at step one of the § 2
Voting Rights Act inquiry, I would not reach step two.
I therefore do not address the majority’s consideration
of the so-called “Senate Factors” in determining
whether the burden is “in part caused by or linked to
‘social and historical conditions’ that have or currently
produce discrimination against members of the
protected class.” League of Women Voters, 769 F.3d at
240 (quoting Gingles, 478 U.S. at 47). These
factors—and the majority’s lengthy history lesson on
past election abuses in Arizona—simply have no
bearing on this case. Indeed, pages 47 to 81 of the
majority’s opinion may properly be ignored as
irrelevant.
IV
DNC also contends that the ballot-collection policy
violates the Fifteenth Amendment to the United States
Constitution.8 To succeed on a claim of discriminatory
intent under the Fifteenth Amendment, the challenger
must demonstrate that the state legislature “selected
or reaffirmed a particular course of action at least in

8

The Fifteenth Amendment authorizes Congress to enforce its
guarantee that the right “to vote shall not be denied or abridged
. . . by appropriate legislation.” U.S. Const. amend. XV. Section 2
of the Voting Rights Act is such legislation. Shelby Cty. v. Holder,
570 U.S. 529, 536 (2013).

App. 141
part ‘because of,’ not merely ‘in spite of,’ its adverse
effects upon an identifiable group.” Pers. Adm’r of
Mass. v. Feeney, 442 U.S. 256, 279 (1979). Because
discriminatory intent “is a pure question of fact,” we
again review only for clear error. Pullman-Standard v.
Swint, 456 U.S. 273, 287–88 (1982). “Determining
whether invidious discriminatory purpose was a
motivating factor demands a sensitive inquiry into
such circumstantial and direct evidence of intent as
may be available.” Vill. of Arlington Heights v. Metro.
Hous. Dev. Corp., 429 U.S. 252, 266 (1977).
The district court concluded that the ballotcollection policy did not violate the Fifteenth
Amendment because it made the factual finding that
the legislature “was not motivated by a desire to
suppress minority voters,” although “some individual
legislators and proponents of limitations on ballot
collection harbored partisan motives” that “did not
permeate the entire legislative process.” DNC, 329 F.
Supp. 3d at 879, 882 (emphasis added). Instead, “[t]he
legislature was motivated by . . . a sincere belief that
mail-in ballots lacked adequate prophylactic safeguards
as compared to in-person voting.” Id. at 882. In
analyzing DNC’s appeal from such finding, the
majority, once again, completely ignores our
demanding standard of review and instead conducts its
own de novo review. Maj. Op. 93. Our duty is only to
consider whether the district court clearly erred in its
finding that the ballot-collection policy was not enacted
with discriminatory intent. See Bessemer City, 470 U.S.
at 573. And “to be clearly erroneous, a decision must
. . . strike [a court] as wrong with the force of a fiveweek old, unrefrigerated dead fish.” Ocean Garden, Inc.

App. 142
v. Marktrade Co., Inc., 953 F.2d 500, 502 (9th Cir.
1991) (quoting Parts & Elec. Motors, Inc. v. Sterling
Elec., Inc., 866 F.2d 228, 233 (7th Cir. 1988)).
The majority therefore fails to offer any basis—let
alone a convincing one—for the conclusion that it must
reach in order to reverse the decision of the district
court: that the district court committed clear error in
its factual findings. Given the failure of the majority to
conduct its review in the proper manner, I see no
reason to engage in a line-by-line debate with its
flawed analysis. Rather, it is enough to note two critical
errors made by the majority in ignoring the district
court’s determinations that while some legislators were
motivated by partisan concerns, the legislature as a
body was motivated by a desire to enact prophylactic
measures to prevent voter fraud.
A
First, the majority fails to distinguish between
racial motives and partisan motives. Even when “racial
identification is highly correlated with political
affiliation,” a party challenging a legislative action
nonetheless must show that racial motives were a
motivating factor behind the challenged policy. Cooper
v. Harris, 137 S. Ct. 1455, 1473 (2017) (quoting Easley
v. Cromartie, 532 U.S. 234, 243 (2001)). Nonetheless,
the majority suggests that a legislator motivated by
partisan interest to enact a law that disproportionately
impacts minorities must necessarily have acted with
racially discriminatory intent as well. For example, the
district court noted that Arizona State Senator Don
Shooter was, “in part motivated by a desire to
eliminate what had become an effective Democratic

App. 143
[Get Out The Vote] strategy.” DNC, 329 F. Supp. 3d at
879. The majority simply concludes that such finding
shows racially discriminatory intent as a motivating
factor. But the majority’s unsupported inference does
not satisfy the required showing. And the majority fails
to cite any evidence demonstrating that the district
court’s finding to the contrary was not “plausible in
light of the record viewed in its entirety.” Bessemer
City, 470 U.S. at 574.
B
Second, in defiance of Supreme Court precedent to
the contrary, the majority assumes that a legislature’s
stated desire to prevent voter fraud must be pretextual
when there is no direct evidence of voter fraud in the
legislative record. In Crawford, the Court rejected the
argument that actual evidence of voter fraud was
needed to justify the State’s decision to enact
prophylactic measures to prevent such fraud.
Crawford, 553 U.S. at 195–96 . There, the Court upheld
an Indiana statute requiring in-person voters to
present government-issued photo identification in the
face of a constitutional challenge. Id. at 185. Although
“[t]he record contain[ed] no evidence of [voter] fraud
actually occurring in Indiana at any time in its
history,” the Supreme Court nonetheless determined
that the State had a legitimate and important interest
“in counting only the votes of eligible voters.” Id. at
194, 196; see also id. at 195 nn.11–13 (citing “fragrant
examples of” voter fraud throughout history and in
recent years). Given its interest in addressing its valid
concerns of voter fraud, Arizona was free to enact
prophylactic measures even though no evidence of

App. 144
actual voter fraud was before the legislature. Yet the
majority does not even mention Crawford, let alone
grapple with its consequences on this case.
And because no evidence of actual voter fraud is
required to justify an anti-fraud prophylactic measure,
the majority’s reasoning quickly collapses. The majority
cites Senator Shooter’s “false and race-based
allegations” and the “LaFaro video,” which the district
court explained “showed surveillance footage of a man
of apparent Hispanic heritage appearing to deliver
early ballots” and “contained a narration of [i]nnuendos
of illegality . . . [and] racially tinged and inaccurate
commentary by . . . LaFaro.” DNC, 329 F. Supp. 3d at
876 (second, third, and fourth alterations in original).
The majority contends that although “some members of
the legislature who voted for H.B. 2023 had a sincere,
though mistaken, non-race-based belief that there had
been fraud in third-party ballot collection, and that the
problem needed to be addressed,” a discriminatory
purpose may be attributable to all of them as a matter
of law because any sincere belief was “created by
Senator Shooter’s false allegations and the ‘racially
tinged’ LaFaro video.” Maj. Op. 99. The majority claims
that these legislators were used as “cat’s paws” to
“serve the discriminatory purposes of Senator Shooter,
Republican Chair LaFaro, and their allies.” Maj. Op.
100. Yet, the majority’s reliance on such employment
discrimination doctrine is misplaced because, unlike
employers whose decision may be tainted by the
discriminatory motives of a supervisor, each legislator
is an independent actor, and bias of some cannot be
attributed to all members. The very fact that some
members had a sincere belief that voter fraud needed

App. 145
to be addressed is enough to rebut the majority’s
conclusion. To the contrary, the underlying allegations
of voter fraud did not need to be true in order to justify
the “legitimacy or importance of the State’s interest in
counting only the votes of eligible voters.” Crawford,
553 U.S. at 196. And the majority provides no support
for its inference of pretext where there is a sincere and
legitimate interest in addressing a valid concern. Maj.
Op. at 97–100. Instead, the majority accepts the district
court’s finding that some legislators “had a sincere,
non-race-based belief that there was fraud” that needed
to be addressed. Nevertheless, unable to locate any
discriminatory purpose, it simply attributes one to
them using the inapplicable “cat’s paw doctrine.” Maj.
Op. 99. Such argument demonstrates the extraordinary
leap in logic the majority must make in order to justify
its conclusion.
Let me restate the obvious: we may reverse the
district court’s intensely factual determination as to
discriminatory intent only if we determine that such
finding was clearly erroneous. Thus, even if the
majority disagrees with the district court’s finding, it
must demonstrate that the evidence was not “plausible
in light of the record viewed in its entirety.” Bessemer
City, 470 U.S. at 574. Perhaps if the majority had
reminded itself of our appellate standard, it would not
have simply re-weighed the same evidence considered
by the district court to arrive at its own findings on
appeal.
V
The district court properly determined that neither
Arizona’s out-of-precinct policy nor its ballot-collection

App. 146
policy violates § 2 of the Voting Rights Act and the
Fifteenth Amendment to the Constitution.9 In
concluding otherwise, the majority misperceives the
inquiry before us and fails to narrow the scope of its
review, instead insisting on acting as a de novo trial
court. That, of course, is not our role.
I would therefore affirm the judgment of the district
court and must respectfully dissent from the majority
opinion.
BYBEE, Circuit Judge, with whom O’SCANNLAIN,
CLIFTON, and CALLAHAN, Circuit Judges, join,
dissenting:
The right to vote is the most fundamental of our
political rights and the basis for our representative
democracy. “No right is more precious” because it is a
meta-right: it is the means by which we select “those
who make the laws under which, as good citizens, we
must live.” Wesberry v. Sanders, 376 U.S. 1, 17 (1964).
“Other rights, even the most basic, are illusory if the
right to vote is undermined.” Id. Almost as
fundamental as the right to vote is the need for the

9

Because the majority concludes that the OOP policy and the
ballot-collection policy violate § 2 of the Voting Rights Act and the
Fifteenth Amendment to the United States Constitution, it does
not reach DNC’s claim that such policies also violate the First and
Fourteenth Amendments to the United States Constitution. I will
not belabor such claims here; for these purposes, it is sufficient to
say that—for many of the reasons and based on much of the
evidence cited above—I would also conclude that neither practice
violates the First and Fourteenth Amendments.

App. 147
electorate to have confidence in the rules by which
elections are conducted.
I write separately to make a simple point: The
Arizona rules challenged here are part of an “electoral
process that is necessarily structured to maintain the
integrity of the democratic system.” Burdick v.
Takushi, 504 U.S. 428, 441 (1992).1 The Constitution
entrusts the “Times, Places and Manner of holding
Elections” to state legislatures, subject to laws enacted
by Congress to “make or alter such Regulations.” U.S.
Const. art. I, § 4, cl. 1. “‘Times, Places, and Manner,’
. . . are ‘comprehensive words,’ which ‘embrace
authority to provide a complete code for . . . elections.’”
Arizona v. Inter Tribal Council of Ariz., Inc., 570 U.S.
1, 8–9 (2013) (quoting Smiley v. Holm, 285 U.S. 355,
366 (1932)); see Rucho v. Common Cause, 139 S. Ct.
2484, 2495 (2019).
“[A]s a practical matter, there must be a
substantial regulation of elections if they are to
be fair and honest and if some sort of order,
rather than chaos, is to accompany the
democratic processes.” To achieve these
necessary objectives, States have enacted
comprehensive and sometimes complex election
codes. Each provision of these schemes, whether
it governs the registration and qualifications of
voters, the selection and eligibility of candidates,
or the voting process itself, inevitably affects—at

1

I join in full Judge O’Scannlain’s dissent. I write separately to
place the majority’s decision today in context of the American
democratic tradition.

App. 148
least in some degree—the individual’s right to
vote and his right to associate with others for
political ends. Nevertheless, the State’s
important regulatory interests are generally
sufficient to justify reasonable,
nondiscriminatory restrictions.
Anderson v. Celebrezze, 460 U.S. 780, 788 (1983)
(citation omitted) (quoting Storer v. Brown, 415 U.S.
724, 730 (1974)).
Time, place, and manner restrictions are
fundamentally differently from provisions that affect
the “Qualifications requisite for Electors,” U.S. Const.
art. I, § 2, cl. 1, and state apportionments “according to
their respective Numbers,” id. art. I, § 2, cl. 3. The
Constitution restricts with exactness the qualifications
states may require of their voters. See id. amend. XV,
§ 1 (“race, color, or previous condition of servitude”);
amend. XIX (sex); amend. XXIV (“failure to pay any
poll tax or other tax”); amend. XXVI (those “eighteen
years of age or older, . . . on account of age”); Kramer v.
Union Free Sch. Dist. No. 15, 395 U.S. 621 (1969)
(property ownership). Similarly, the constitutional
imperative for one person, one vote demands that
apportionment be subject to precision approaching
“absolute population equality,” Karcher v. Daggett, 462
U.S. 725, 732 (1983), “as nearly as practicable,”
Kirkpatrick v. Preisler, 394 U.S. 526, 531 (1969).
Time, place, and manner restrictions stand on
different footing from status-based restraints on vote
qualifications and legislative malapportionment. State
requirements respecting when and where we vote and
how ballots will be counted are “generally-applicable

App. 149
and evenhanded restrictions that protect the integrity
and reliability of the electoral process itself.” Anderson,
460 U.S. at 788 n.9. By contrast, for example,
“redistricting differs from other kinds of state
decisionmaking in that the legislature always is aware
of race when it draws district lines, just as it is aware
of age, economic status, religions and political
persuasion, and a variety of other demographic
factors.” Shaw v. Reno, 509 U.S. 630, 646 (1993). Time,
place, and manner restrictions are the rules of the
game, announced in advance, so that all voters will
know what they must do. Parties of all stripes should
have an equal interest in rules that are both fair on
their face and fairly administered.
Two such rules are challenged here: the rule about
how Arizona will count out-of-precinct votes (OOP) and
the rule about who may file another person’s absentee
ballot (H.B. 2023). As rules of general applicability,
they apply to all voters, without “account of race or
color.” 52 U.S.C. § 10301(a).2 Rather than simply
recognizing that Arizona has enacted neutral, colorblind rules, the majority has embraced the premise
that § 2 of the VRA is violated when any minority voter

2

In relevant part, § 2 of the Voting Rights Act provides that “[n]o
voting qualification or prerequisite to voting or standard, practice,
or procedure shall be imposed or applied by any State . . . in a
manner which results in a denial or abridgement of the right of
any citizen of the United States to vote on account of race or color.”
52 U.S.C. § 10301(a). A violation of § 2(a) may be shown “based on
the totality of the circumstances . . . [if] the political processes
leading to nomination or election in the State . . . are not equally
open to participation by members of a class of citizens [on account
of race or color].” Id. § 10301(b).

App. 150
appears to be adversely affected by Arizona’s election
laws. Although the majority abjures this premise for
now, claiming that it does “not need to go so far” as
equating “the case of an individually targeted single
minority voter who is denied the right to vote and the
case where a facially neutral policy affects a single
voter,” Maj. Op. at 45, its analysis necessarily rests on
that premise. The majority has no limiting principle for
identifying a de minimis effect in a facially neutral
time, place, or manner rule. The premise finds its
clearest expression in the Fourth Circuit’s opinion in
League of Women Voters of N.C. v. North Carolina, 769
F.3d 224, 244 (4th Cir. 2014) (emphasis added):
“[W]hat matters for purposes of Section 2 is not how
many minority voters are being denied equal electoral
opportunities but simply that ‘any’ minority voter is
being denied equal electoral opportunities.” See Maj.
Op. at 41–42, 45–46, 107 (relying on League of Women
Voters). Such a premise insists on a precision that we
have never demanded before.
By contrast, the Supreme Court explained that
following City of Mobile v. Bolden, 446 U.S. 55 (1980),
“Congress substantially revised § 2 to make clear that
a violation could be proved by showing discriminatory
effect alone and to establish as the relevant legal
standard the ‘results test,’ applied . . . in White v.
Regester, 412 U.S. 755 (1973).” Thornburg v. Gingles,
478 U.S. 30, 35 (1986). Yet in White, the Court made
clear that it “did not hold . . . that any deviations from
absolute equality, however small, must be justified to
the satisfaction of the judiciary to avoid invalidation
under the Equal Protection Clause.” 412 U.S. at
763–64. Rather, the Court recognized that any rule in

App. 151
an election scheme might suffer “relatively minor
population deviations . . . . ‘based on legitimate
considerations incident to the effectuation of a rational
state policy.’” Id. at 764 (quoting Reynolds v. Sims, 377
U.S. 533, 579 (1964)).
A “rational state policy” surely includes the need for
a consistent, neutral set of time, place, and manner
rules. The majority’s reading of the Voting Rights Act
turns § 2 into a “one-minority-vote-veto rule” that may
undo any number of time, place, and manner rules. It
is entirely results-bound, so much so that under the
majority’s reading of the Voting Rights Act, the same
rules the majority strikes down in Arizona may be
perfectly valid in every other state, even states within
our circuit. It all depends on the numbers. Indeed, so
diaphonous is the majority’s holding, that it may be a
temporary rule for Arizona. If Arizona were to reenact
these provisions again in, say, 2024, the numbers
might come out differently and the OOP and ballot
collection rules would be lawful once again.
The two Arizona rules at issue here—OOP and H.B.
2023—are rules of general applicability, just like the
rules governing voting on the day of the election,
registering with the Secretary of State, and bringing
identification with you. Such “‘evenhanded restrictions
that protect the integrity and reliability of the electoral
process itself’ are not invidious.” Crawford v. Marion
Cty. Election Bd., 553 U.S. 181, 189–90 (2008)
(plurality opinion) (quoting Anderson, 460 U.S. at 788
n.9). Both rules the majority strikes down today have
widely-held, well-recognized—even distinguished—
pedigrees. As I show in Part I, the OOP is a long-

App. 152
standing rule that remains in place in a majority of
American jurisdictions. The rule the majority prefers is
a minority rule in the United States and, more
importantly, disregards Arizona’s interest in
encouraging voting in local elections and, in
application, may actually disadvantage minority voters.
In Part II, I demonstrate that, although H.B. 2023 is of
more recent vintage, similar rules are in place in other
American jurisdictions, and H.R. 2023 follows carefully
the recommendation of a bi-partisan commission on the
integrity of American elections.
I
It has long been a feature of American democracy
that, on election day, voters must vote in person at an
assigned polling venue—an election precinct.
[I]t is the well established practice in nearly
every state to divide the county or city into a
number of geographical districts for the purpose
of holding elections. Each elector is required to
vote at the polling place of his own precinct,
which by custom is ordinarily located within the
precinct, and, in cities, within a few blocks of his
residence.
Joseph P. Harris, Election Administration in the United
States 206–07 (1934). Like most American
jurisdictions, Arizona’s election rules require a nonabsentee voter’s personal presence at the polling place.
Ariz. Rev. Stat. § 16-411(A) (“The broad of supervisors
of each county . . . shall establish a convenient number
of election precincts in the county and define the

App. 153
boundaries of the precincts.”). The reasons for such a
venue rule are
significant and numerous: it caps the number of
voters attempting to vote in the same place on
election day; it allows each precinct ballot to list
all of the votes a citizen may cast for all
pertinent federal, state, and local elections,
referenda, initiatives, and levies; it allows each
precinct ballot to list only those votes a citizen
may cast, making ballots less confusing; it
makes it easier for election officials to monitor
votes and prevent election fraud; and generally
puts polling places in closer proximity to voter
residences.
Sandusky Cty. Democratic Party v. Blackwell, 387 F.3d
565, 569 (6th Cir. 2004).3 Precincts help to secure the

3

“One of the major voting innovations in certain states was the
increase in the number of polling places.” Robert J. Dinkin, Voting
in Revolutionary America: A Study of Elections in the Original
Thirteen States, 1776–1789, at 96 (1982). Among the states, New
York led the way, “enacting a law in 1778 which stated that all
future elections should be held ‘not by counties but by boroughs,
towns, manors, districts, and precincts.’” Id. at 97 (quoting Laws
of New York, sess. 1, chap. 16 (1778)). In early America, polling
places were located where the people were:
voting . . . in barns, private homes, country stores, and
churches—almost anything that could separate voters
from the election officials and the ballot boxes they tended.
On the frontier, where buildings were even harder to find,
votes were sometimes cast in sodhouse saloons, sutler
stores near army forts, the front porches of adobe houses,
and temporary lean-tos thrown together at desolate desert
crossroads. In the larger cities, fire stations, warehouses,

App. 154
orderly administration of elections, which then assures
all voters of the integrity of the election.
A
Arizona’s out of precinct rule (OOP) is a standard
feature of American democracy. Under Arizona’s
election code, “[n]o person shall be permitted to vote
unless such person’s name appears as a qualified
elector in both the general county register and in the
precinct register.” Ariz. Rev. Stat. § 16-122. The
election code provides extensive instructions for
electors who have changed their residence or whose
name does not appear on the precinct register; if there
is any question of the elector’s eligibility to vote in that
precinct, Arizona authorizes the filing of a provisional
ballot. See, e.g., Ariz. Rev. Stat. §§ 16-135, 16-583, 16584, 16-592.
There is nothing unusual about Arizona’s OOP
rule.4 Although there are variations in the way the rule

and livery stables were commonly used. One of the most
common venues was liquor establishments. . . . Such an
arrangement made an election noisy and, sometimes,
violent.
Richard Franklin Bensel, The American Ballot Box in the MidNineteenth Century 9 (2004).
4

For many years, a voter was not even permitted to cast a
provisional ballot in a precinct other than her own. See Harris,
Election Administration in the United States, at 287–88. The Help
America Vote Act (HAVA) now requires states to permit voters to
cast a provisional ballot. 52 U.S.C. § 21082(a). HAVA, however,
does not affect a state’s rules about how to process a provisional
ballot. It does provide that states must create a toll-free number

App. 155
is formulated, by my count, twenty-six states, the
District of Columbia, and three U.S. territories
disqualify ballots cast in the wrong precinct.5 These
states represent every region of the country: The
Northeast (Connecticut, Vermont), the mid-Atlantic
(Delaware, District of Columbia, West Virginia), the
South (Alabama, Florida, Kentucky, Mississippi, South
Carolina, Tennessee, Virginia, Virgin Islands), the midWest (Illinois, Indiana, Iowa, Michigan, Missouri,
Nebraska, South Dakota, Wisconsin), the Southwest
(Arizona, Oklahoma, Texas), the Mountain States
(Montana, Wyoming), and the West (American Samoa,
Hawaii, Nevada, Northern Mariana Islands). Twenty
states and two territories will count out of precinct
ballots, although the states are not uniform in what
they will count.6 They also represent a broad spectrum
of the country: The Northeast (Maine, Massachusetts,

that “any individual who casts a provisional ballot may access to
discover whether the vote of that individual was counted, and, if
the vote was not counted, the reasons that the vote was not
counted.” 52 U.S.C. § 21082(a)(5)(B); see Blackwell, 387 F.3d at 576
(“HAVA is quintessentially about being able to cast a provisional
ballot. . . . [B]ut the ultimate legality of the vote cast provisionally
is generally a matter of state law.”).
5

I have listed all fifty states, the District of Columbia, and U.S.
territories, with relevant citations to their treatment of out of
precinct votes, in Appendix A. In Appendix B, I have categorized
the jurisdictions by rule.

6

For example, five states will count an out-of-precinct vote, but
only if the ballot is filed in the voter’s county (Kansas, New Mexico,
Pennsylvania, Utah) or town (Massachusetts). Louisiana and
Rhode Island will only count votes for federal office. Puerto Rico
will count only votes for Governor and Resident Commissioner.

App. 156
New York, Rhode Island), the mid-Atlantic (Maryland,
New Jersey, Pennsylvania), the South (Arkansas,
Louisiana, North Carolina, Georgia, Puerto Rico), the
mid-West (Ohio, Kansas), the Southwest (New Mexico),
the Mountain States (Colorado, Utah), and the West
(Alaska, California, Guam, Oregon, Washington).7
Nowhere in its discussion of the “totality of the
circumstances” has the majority considered that
Arizona’s OOP provision is a widely held time, place, or
manner rule. It is not a redistricting plan, see Cooper v.
Harris, 137 S. Ct. 1455 (2017); League of United Latin
Am. Citizens v. Perry, 548 U.S. 399 (2006); Shaw v.
Reno, 509 U.S. 630 (1993); a multimember district, see
Chisom v. Roemer, 501 U.S. 380 (1991); Gingles, 478
U.S. 30; or an at-large system, see Rogers v. Lodge, 458
U.S. 613 (1982). Those “circumstances” are as unique
as a fingerprint, subject to manipulation, and require
“an intensely local appraisal” of the state’s plan.
Gingles, 478 U.S. at 78 (internal quotation marks and
citation omitted). Arizona’s OOP applies statewide; it
is not a unique rule, but a traditional rule, common to
the majority of American states. The OOP rule, as a
rule of general applicability, is part of a “political
process[] . . . equally open to participation” by all
Arizona voters. 52 U.S.C. § 10301(b).
B
The majority asserts that “counting or partially
counting OOP ballots would [not] threaten the integrity
7

Four states (Idaho, Minnesota, New Hampshire, North Dakota)
are not accounted for in either list because they allow same-day
registration and do not use provisional ballots.

App. 157
of Arizona’s precinct-based system.” Maj. Op. at 78.
Effectively, the majority holds that Arizona must
abandon its traditional polling venue rules and accept
the ballots of voters who cast their ballot in the wrong
precinct, at least for national and state-wide offices. Id.
at 76–78 (citing the rules of California, Utah, and New
Mexico as an example of states partially counting OOP
ballots). Under the majority’s preferred scheme,
Arizona must count all votes for offices that are not
precinct dependent. As to the remainder of the ballot,
Arizona may—in accordance with its traditional
rule—disqualify the ballot for all offices for which the
political geography of the precinct matters. The
majority has failed to take into account that the rule it
prefers has its own consequences, including adverse
consequences for minority voters.
Let’s review an example to consider the unintended
consequences of the majority’s haste. Under Arizona’s
traditional rules, the state would disqualify the ballot
of a voter from Tucson who votes in any precinct other
than his assigned precinct. Under the majority’s new
rule, a voter from Tucson may cross precinct lines and
vote in any precinct in Arizona—for instance, in
Phoenix. His cross-precinct ballot will be counted for
those offices which are common to ballots in his
precinct-in-law in Tucson and his new precinct-in-fact
in Phoenix—such offices would include the presidency,
the U.S. Senate, and any statewide offices. His ballot
will be disqualified, however, for all state and local
offices defined by geographic boundaries that are not
common to the two precincts—for example, the U.S.
House of Representatives, the state legislature, and

App. 158
municipal offices such as mayor, city council, and
school board.
The majority’s rule will skew future elections in
Arizona in two predictable ways. First, it overvalues
national elections. Ballots for the presidency, the U.S.
Senate, and any state offices that would otherwise be
disqualified must be counted. Voters—whether
intentionally or carelessly—may vote with impunity in
the wrong precinct, knowing that their vote will count
for the national and statewide offices.
Second, it undervalues local elections. Those same
ballots will not be counted toward those federal, state,
and local offices that are defined by geographic
boundaries and for which the voters from the outside
precinct are not eligible. Non-conscientious
voters—voters who care more about a national or a
statewide race than the local races—are permitted to
vote wherever they please, while conscientious
voters—those concerned with all the offices on the
ballot—are burdened by the requirement that they find
their way to their proper precinct. And if the
conscientious voter can’t get to the polling place on
time, he will have cast no ballot for any office, national,
state, or local.
The net result is that the majority has lowered the
cost to voters of determining where they are supposed
to vote, but only as to presidential, U.S. Senate, and
statewide races. As the majority no doubt intends,
persons who didn’t know or were confused about their
polling place will have their vote counted, but only in
select races. But as the majority may not have thought
through, anyone in Arizona, including people who know

App. 159
where they are supposed to vote in an election (but for
one reason or another would not have otherwise voted
because it was inconvenient or impossible to vote at
their home precinct), will also be able to vote—but
again, only in select races. Arizona can thus expect
more votes in the presidential, senatorial, and state
races than would be cast under its traditional rules. I
suppose that in theory that’s a good thing. What the
majority has not counted on is the effect its order will
have on the races that depend on geographic
boundaries within Arizona: congressional, statelegislative, and local offices. When voters do not go to
their local precincts to vote, they cannot vote in those
races. Voters who do not take the time to determine
their appropriate precinct—for whatever reason—and
vote out of precinct have disenfranchised themselves
with respect to the local races. That’s a bad thing.
Arizona’s longstanding, neutral rule gives voters an
incentive to figure out where their polling place is,
which, in turn, encourages voters to cast ballots in
national, state, and local elections. In effect, Arizona
has stapled national and statewide elections to other
state and local elections. The opportunity to vote in any
one race is the opportunity to vote in all races. It’s
strong medicine, but Arizona’s rule is a self-protective
rule; it helps encourage voting and, presumably,
interest in local elections. The majority’s preferred rule
gives voters an incentive to vote wherever it is
convenient for them which increases the likelihood they
will vote in certain national and statewide races, but
decreases the likelihood they will vote in other state
and local races. It places a burden on voters who wish
to exercise their right to vote on all matters to which

App. 160
they are entitled, a burden that simply would not exist
for the less-engaged voter. The majority’s rule
contradicts our most basic principles of federalism by
deeming elections for national and statewide offices
more important than those for lesser offices.
The majority’s concern is based on the fact that
voters who vote in the wrong precinct are more likely
to be minorities. Maj. Op. at 42–44. If that fact holds
true in the future—and it may not because, as I have
explained, any voter in Arizona (including those who
know where to vote) may take advantage of the
majority’s new rule—then minority ballots will be
underrepresented in the local races. Under the
majority’s preferred scheme, it is thus likely that more
minorities will fail to vote in local elections—elections
that most directly affect the daily lives of ordinary
citizens, and often provide the first platform by which
citizen-candidates, not endowed with personal wealth
or name recognition, seek on the path to obtaining
higher office. In any event, the court has just put a big
thumb on the scale of the Arizona elections—national,
state, and local—with unclear results.
These concerns are magnified when we consider the
relatively small number of OOP ballots. See Democratic
Nat’l Comm. v. Reagan, 329 F. Supp. 3d 824, 873 (D.
Ariz. 2018). It is more likely that these ballots would
make a difference in a local election than in a national
or statewide election. Arizona’s rule encourages its
OOP voters—white, African-American, Hispanic, or
other—to vote in the correct precinct. Under Arizona’s
current OOP rule, a voter, having gone to the trouble of
going to a precinct to vote in person and suffering the

App. 161
indignity of having to fill out a provisional ballot, is less
likely to make the same mistake the next year.8 A voter
who has had a ballot disqualified is more likely to
figure out the correct precinct next time—or, better yet,
sign up for the convenience of early voting, a measure
that avoids the conundrum of OOP altogether.9 The

8

The Majority dismisses this point by highlighting how Arizona
has frequently changed polling places in some localities. Maj. Op.
at 111 (referring to Arizona’s high rate of OOP voting). But there
is no evidence in the record that the same voters’s ballots are
excluded as OOP year after year. My point is that a voter who has
had her ballot excluded as OOP is more likely to exercise greater
care in finding the right polling location next time.

9

The Majority worries that OOP voters may never come to know
that their votes were in fact rejected and, hence, will never learn
from the situation. Maj. Op. at 110. Whatever the cause for the
Majority’s concern, Arizona’s statutory law is not to blame. Arizona
law specifically requires county recorders to establish “a method
of notifying the provisional ballot voter at no cost to the voter
whether the voter’s ballot was verified and counted and, if not
counted, the reason for not counting the ballot.” Ariz. Rev. Stat.
Ann. § 16-584(F) (2019). Thus, voters should have the opportunity
to find out whether their vote was counted.
Further, to the extent that voters inadvertently vote in the
wrong precinct, that is not a failing of Arizona law. Instead, the
law requires that voters’ names be checked on the precinct
register. If a voter’s name does not appear on the register, then the
address is checked to confirm that the voter resides within that
jurisdiction. Id. § 16-584(B). Once the address is confirmed to be in
the precinct or the voter affirms in writing that the voter is eligible
to vote in that jurisdiction, the voter “shall be allowed to vote a
provisional ballot.” Id. Accordingly, under Arizona law, no voter
should inadvertently vote at the wrong precinct without some
indication that something is amiss.

App. 162
voter who only votes where it is convenient has
disenfranchised himself from local elections.
States such as California, Utah, and New Mexico
have made the same choice the majority forces on
Arizona. Those states may or may not have made the
calculus I have set out here and they may or may not
have measured the costs and benefits of their new rule;
it’s theirs to experiment with. They may conclude that
the new rule is the right one; they may not. And if any
of those states decides that the count-the-ballotspartially rule is not the best rule, those states will be
free to adopt a different rule, including the OOP rule
the majority strikes down today. After today’s decision,
Arizona has no such recourse.
II
H.B. 2023 presents a different set of considerations.
There is no constitutional or federal statutory right to
vote by absentee ballot. See McDonald v. Bd. of
Election Comm’rs of Chi., 394 U.S. 802, 807–08 (1969)
(“It is thus not the right to vote that is at stake here
but a claimed right to receive absentee ballots. . . .
[T]he absentee statutes, which are designed to make
voting more available to some groups who cannot easily
get to the polls, do not themselves deny . . . the exercise
of the franchise . . . .”); see also Crawford, 553 U.S. at
209 (Scalia, J., concurring in the judgment) (“That the
State accommodates some voters by permitting (not
requiring) the casting of absentee or provisional ballots,
is an indulgence—not a constitutional imperative that
falls short of what is required.”); Griffin v. Roupas, 385
F.3d 1128, 1130 (7th Cir. 2004) (rejecting the claim
that there is “a blanket right of registered voters to

App. 163
vote by absentee ballot” because “it is obvious that a
federal court is not going to decree weekend voting,
multi-day voting, all-mail voting, or Internet voting”).10
Nevertheless, if a state is going to offer absentee
ballots, it must do so on an equal basis. Arizona’s
absentee ballot rule, like its OOP rule, is a neutral
time, place, or manner provision to help ensure the
integrity of the absentee voting process. In fact, what
is at issue here is not the right of Arizona voters to
obtain and return an absentee ballot, but the question
of who can physically return the ballot.
A
H.B. 2023 provides that “[a] person who knowingly
collects voted or unvoted early ballots from another
person is guilty of a class 6 felony.” Ariz. Rev. Stat.
Ann. § 16-1005(H) (codifying H.B. 2023). The law does

10

“The exercise of a public franchise by proxy was illegal at
common law.” Cortlandt F. Bishop, History of Elections in the
American Colonies 129 (1893). The Colonies experimented with
proxy votes, with varying degrees of success. Proxy voting was not
a success in at least one colony. A 1683 letter to the Governor of
South Carolina warned:
Wee are informed that there are many undue practices in
the choyce of members of Parlmt, and that men are
admitted to bring papers for others and put in their votes
for them, wh is utterly illegal & contrary to the custome of
Parliaments & will in time, if suffered, be very
mischeevious: you are therefore to take care that such
practices be not suffered for the future, but every man
must deliver his own vote & noe man suffered to bring the
votes of another . . . .
Id. at 139 (spelling in original) (citation omitted).

App. 164
not apply to three classes of persons: (1) “[a]n election
official,” (2) “a United States postal service worker or
any other person who is allowed by law to transmit
United States mail,” and (3) “[a] family member,
household member or caregiver of the voter.” Id. § 161005(H)–(I)(2).
The Arizona provision is substantially similar to the
laws in effect in many other states. In Indiana, for
example, it is a felony for anyone to collect a voter’s
absentee ballot, with exceptions for members of the
voter’s household, the voter’s designated attorney in
fact, certain election officials, and mail carriers. Ind.
Code § 3-14-2-16(4). Connecticut also restricts ballot
collection, permitting only the voter, a designee of an ill
or disabled voter, or the voter’s immediate family
members to mail or return an absentee ballot. Conn.
Gen. Stat. § 9-140b(a). New Mexico likewise permits
only the voter, a member of the voter’s immediate
family, or the voter’s caregiver to mail or return an
absentee ballot. N.M. Stat. Ann. § 1-6-10.1. At least
seven other states (Georgia, Missouri, Nevada, North
Carolina, Oklahoma, Ohio, and Texas) similarly
restrict who can personally deliver an absentee ballot
to a voting location. Ga. Code Ann. § 21-2-385(a)
(limiting who may personally deliver an absentee ballot
to designees of ill or disabled voters or family
members); Mo. Rev. Stat. § 115.291(2) (restricting who
can personally deliver an absentee ballot); Nev. Rev.
Stat. Ann. § 293.330(4) (making it a felony for anyone
other than the voter or the voter’s family member to
return an absentee ballot); Okla. Stat. tit. 26, § 14108(C) (voter delivering a ballot must provide proof of
identity); Ohio Rev. Code Ann. § 3509.05(A) (limiting

App. 165
who may personally deliver an absent voter’s ballot);
Tex. Elec. Code Ann. § 86.006(a) (permitting only the
voter to personally deliver the ballot).11
Other states are somewhat less restrictive than
Arizona because they permit a broader range of people
to collect early ballots from voters but restrict how
many ballots any one person can collect and return.
Colorado forbids anyone from collecting more than ten
ballots. Colo. Rev. Stat. § 1-7.5-107(4)(b). North Dakota
prohibits anyone from collecting more than four ballots,
N.D. Cent. Code § 16.1-07-08(1); New Jersey, N.J. Stat.
Ann. § 19:63-4(a), and Minnesota, Minn. Stat. Ann.
§ 203B.08 sbd. 1, three; Arkansas, Ark. Code Ann. § 75-403(a)(1), Nebraska, Neb. Rev. Stat. § 32-943(2), and
West Virginia, W. Va. Code § 3-3-5(k), two. South
Dakota prohibits anyone from collecting more than one
ballot without notifying “the person in charge of the
election of all voters for whom he is a messenger.” S.D.
Codified Laws § 12-19-2.2.
Still other states have adopted slightly different
restrictions on who may collect early ballots. California,
Maine, and North Dakota, for example, make it illegal
11

Until recently, two other states had similar provisions on the
books. California formerly limited who could return mail ballots to
the voter’s family or those living in the same household. Compare
Cal. Elec. Code § 3017(a)(2) (West 2019), with Cal. Elec. Code
§ 3017(a) (West 2015). It only amended its law in 2016. 2016 Cal.
Legis. Serv. ch. 820 (West). Illinois also used to make it a felony for
anyone but the voter, his or her family, or certain licensed delivery
companies to mail or deliver an absentee ballot. 10 Ill. Comp. Stat.
Ann. 5/19-6 (1996); 10 Ill. Comp. Stat. 5/29-20(4). Illinois amended
that provision in 2015 to let voters authorize others to mail or
deliver their ballots. 10 Ill. Comp. Stat. Ann. 5/19-6 (2015).

App. 166
to collect an absentee ballot for compensation. Cal.
Elec. Code § 3017(e)(1); Me. Rev. Stat. Ann. tit. 21-A,
§ 791(2)(A) (making it a crime to receive compensation
for collecting absentee ballots); N.D. Cent. Code § 16.107-08(1) (prohibiting a person from receiving
compensation for acting as an agent for an elector).
Florida and Texas make it a crime to receive
compensation for collecting certain numbers of ballots.
Fla. Stat. Ann. § 104.0616(2) (making it a misdemeanor
to receive compensation for collecting more than two
vote-by-mail ballots); Tex. Elec. Code Ann.
§ 86.0052(a)(1) (criminalizing compensation schemes
based on the number of ballots collected for mailing).
Some of these laws are stated as a restriction on
how the early voter may return a ballot. In those
states, the voter risks having his vote disqualified. See,
e.g., Wrinn v. Dunleavy, 440 A.2d 261, 272 (Conn. 1982)
(disqualifying ballots and ordering a new primary
election when an unauthorized individual mailed
absentee ballots). In other states, as in Arizona, the
statute penalizes the person collecting the ballot. See
Ind. Code Ann. § 3-14-2-16 (making it a felony
knowingly to receive a ballot from a voter); Nev. Rev.
Stat. Ann. § 293.330(4) (making it a felony for
unauthorized persons to return an absentee ballot);
Tex. Elec. Code Ann. § 86.006(f)–(g) (making it a crime
for an unauthorized person to possess an official
ballot); see also Murphy v. State, 837 N.E.2d 591,
594–96 (Ind. Ct. App. 2005) (affirming a denial of a
motion to dismiss a charge for unauthorized receipt of
a ballot from an absentee voter); People v. Deganutti,
810 N.E.2d 191, 198 (Ill. App. Ct. 2004) (affirming
conviction for absentee ballot violation). In those states,

App. 167
the ballot, even if collected improperly, may be valid.
See In re Election of Member of Rock Hill Bd. of Educ.,
669 N.E.2d 1116, 1122–23 (Ohio 1996) (holding that a
ballot will not be disqualified for a technical error).
In sum, although states have adopted a variety of
rules, Arizona’s ballot collection rule is fully consonant
with the broad range of rules throughout the United
States.12
B
Even more striking than the number of other states
with similar provision is that H.B. 2023 follows
precisely the recommendation of the bi-partisan
Carter-Baker Commission on Federal Election
Reform.13 The Carter-Baker Commission found:
Absentee ballots remain the largest source of
potential voter fraud. . . . Absentee balloting is
vulnerable to abuse in several ways: . . . Citizens
who vote at home, at nursing homes, at the
workplace, or in church are more susceptible to
pressure, overt and subtle, or to intimidation.

12

For context, Appendix C provides the relevant provisions of the
laws from all fifty states, the District of Columbia, and the U.S.
territories regarding the collection and mailing of absentee ballots.
13

The Commission on Federal Election Reform was organized by
American University’s Center for Democracy and Election
Management and supported by the Carnegie Corporation of New
York, The Ford Foundation, the John S. and James L. Knight
Foundation, and the Omidyar Network. It was co-chaired by
former President Jimmy Carter and former Secretary of State
James Baker.

App. 168
Vote buying schemes are far more difficult to
detect when citizens vote by mail. States
therefore should reduce the risks of fraud and
abuse in absentee voting by prohibiting “thirdparty” organizations, candidates, and political
party activists from handling absentee ballots.
Comm’n on Fed. Elections Reform, Building Confidence
in U.S. Elections 46 (2005) (“Building Confidence”)
(footnote omitted). The Carter-Baker Commission
recommended that “States . . . should reduce the risks
of fraud and abuse in absentee voting by prohibiting
‘third-party’ organizations, candidates, and political
party activists from handling absentee ballots.” Id. It
made a formal recommendation:
State and local jurisdictions should prohibit
a person from handling absentee ballots other
than the voter, an acknowledged family member,
the U.S. Postal Service or other legitimate
shipper, or election officials. The practice in
some states of allowing candidates or party
workers to pick up and deliver absentee ballots
should be eliminated.
Id. at 47 (Recommendation 5.2.1).
The Carter-Baker Commission recommended that
states limit the persons, other than the voter, who
handle or collect absentee ballots to three classes of
persons: (1) family members, (2) employees of the U.S.
Postal Service or another recognized shipper, and
(3) election officials. H.B. 2013 allows two classes of
persons to collect absentee ballots: (1) election officials
and (2) employees of the U.S. Postal Service “or any

App. 169
other person who is allowed by law to transmit United
States mail.” Ariz. Rev. Stat. § 16-1005(H). H.B. 2023
also provides that the prior restriction on collection of
ballots does not apply to “[a] family member, household
member or caregiver of the voter.” Id. § 16-1005(I)(2).
With respect to election officials and mail delivery
workers, Arizona tracks exactly the recommendation
from the Commission. With respect to family, however,
Arizona’s provision is more generous than the CarterBaker Commission’s recommendation. Whereas the
Commission recommended that only family members
be permitted to handled a voter’s absentee ballot,
Arizona expanded the class of absentee ballot handlers
to “household member[s]” and “caregiver[s].”
I don’t see how Arizona can be said to have violated
the VRA when it followed bipartisan recommendations
for election reform in an area the Carter-Baker
Commission found to be fraught with the risk of voter
fraud. Nothing could be more damaging to confidence
in our elections than fraud at the ballot box. And there
is evidence that there is voter fraud in the collecting of
absentee ballots. As the Seventh Circuit described it:
“Voting fraud is a serious problem in U.S. elections
generally . . . and it is facilitated by absentee
voting. . . . [A]bsentee voting is to voting in person as a
take-home exam is to a proctored one.” Griffin, 385
F.3d at 1130–31; see also Wrinn, 440 A.2d at 270
(“[T]here is considerable room for fraud in absentee
voting and . . . a failure to comply with the regulatory
provision governing absentee voting increases the
opportunity for fraud.” (citation omitted));
Qualkinbush v. Skubisz, 826 N.E.2d 1181, 1197 (Ill.
App. Ct. 2004) (“[T]he integrity of a vote is even more

App. 170
susceptible to influence and manipulation when done
by absentee ballot.”); Adam Liptak, Error and Fraud at
Issue as Absentee Voting Rises, N.Y. Times (Oct. 6,
2012), http://nyti.ms/QUbcrg (discussing a variety of
problems in states).14
Organized absentee ballot fraud of sufficient scope
to corrupt an election is no doomsday hypothetical: it
happened as recently as 2018 in North Carolina. In the
state’s Ninth Congressional District, over 282,000
voters cast ballots, either in person or absentee. See
Brief of Dan McCready at 7, In re Investigation of
Election Irregularities Affecting Ctys. Within the 9th
Cong. Dist. (N.C. State Bd. of Elections Feb. 12, 2019)
[hereinafter McCready Br.]. North Carolina permits
“[a]ny qualified voter” in the state to vote by absentee
ballot. N.C. Gen. Stat. § 163A-1295. However, like
Arizona, the state adheres to the Commission’s
recommendations and restricts the categories of
persons who may collect a voter’s absentee ballot. It is
a Class I felony in North Carolina for “any person
except the voter’s near relative or the voter’s verifiable
legal guardian to assist the voter to vote an absentee
ballot.” Id. § 163A-1298.

14

Pressure on absentee voters has long been noted. See Harris,
Election Administration in the United States, at 302 (“The amount
of intimidation now exercised by the precinct captain in many
sections of large cities is very great; with mail voting it would be
enormously increased. The overbearing and dominant precinct
captain would insist upon seeing how each voter under obligation
to him had marked his ballot, and the voter would have no
protection against such tactics.”).

App. 171
In last year’s election in the Ninth Congressional
District, evidence suggested that a political activist
hired by the Republican nominee paid employees to
collect absentee ballots—possibly more than
1,000—from voters in violation of § 163A-1298. See
Indictment, State v. Dowless, No. 19CRS001934 (N.C.
Super. Ct. July 30, 2019); McCready Br. at app. 2–3.
An employee of the suspected activist testified that she
personally collected about three dozen ballots. See
Transcript of Evidentiary Hearing at 150, In re
Investigation of Election Irregularities Affecting Ctys.
Within the 9th Cong. Dist. (N.C. State Bd. of Elections
Feb. 18, 2019). She also helped fill in about five or ten
incomplete, unsealed ballots in favor of Republican
candidates. Id. at 67, 99, 152–53. The ballots were kept
at the activist’s home and office for days or longer
before they were turned in. Id. at 69. A voter testified
that she turned over her blank ballot to the activist’s
employees in an unsealed envelope, trusting that the
activist would make a good decision for her. Id. at
207–08, 214–15.
This coordinated ballot fraud led the state Board of
Elections to invalidate the results of the election, which
had been decided by only 905 votes—fewer than the
amount of suspected fraudulent ballots. Order at 10,
44–45, In re Investigation of Election Irregularities
Affecting Ctys. Within the 9th Cong. Dist. (N.C. State
Bd. of Elections Mar. 13, 2019). The residents of the
district—some 778,447 Americans—were thus
unrepresented in the House of Representatives for the
better part of a year. Perhaps the more devastating
injury will be the damage this episode does to North
Carolinians’ confidence in their election system.

App. 172
The majority acknowledges that the Democratic
Party disproportionately benefits from get-out-the-vote
efforts by collecting mail-in ballots. See, e.g., Maj. Op.
at 83 (quoting Reagan, 329 F. Supp. 3d at 870).
Further, the majority acknowledges that Democratic
activists have often led such collection efforts. Id. Yet
the experience of North Carolina with Republican
activists shows starkly the inherent danger to allowing
political operatives to conduct collections of mail-in
ballots. Arizona is well within its right to look at the
perils endured by its sister states and enact
prophylactic measures to curtail any similar schemes.
By prohibiting overtly political operatives and activists
from playing a role in the ballot-collection process,
Arizona mitigates this risk. And the State’s wellacknowledged past sins should not prevent it from
using every available avenue to keep safe the public’s
trust in the integrity of electoral outcomes.
Indeed, Arizona does not have to wait until it has
proof positive that its elections have been tainted by
absentee ballot fraud before it may enact neutral rules.
“Legislatures . . . should be permitted to respond to
potential deficiencies in the electoral process with
foresight rather than reactively.” Munro v. Socialist
Workers Party, 479 U.S. 189, 195 (1986). In Crawford,
the Supreme Court quoted with approval the CarterBaker Commission:
There is no evidence of extensive fraud in U.S.
elections or of multiple voting, but both occur,
and it could affect the outcome of a close
election. The electoral system cannot inspire
public confidence if no safeguards exist to deter

App. 173
or detect fraud or to confirm the identity of
voters.
Crawford, 553 U.S. at 194 (quoting Building
Confidence at 18) (footnote omitted).
The majority today holds that, as a matter of federal
law, Arizona may not enforce a neutrally drawn statute
recommended by a bi-partisan commission
criminalizing the very conduct that produced a
fraudulent outcome in a race for Congress less than a
year ago. When the Voting Rights Act requires courts
to consider the “totality of the circumstances,” it is a
poor understanding of the Act that would strike
common time, place, and manner restrictions designed
to build confidence in the very voting system that it
now leaves vulnerable.
III
As citizens of a democratic republic, we understand
intuitively that we have a legal right and a moral duty
to cast a ballot in free elections. The states have long
had the power to fashion the rules by which its citizens
vote for their national, state, and local officials. Once
we consider that “totality of the circumstances” must
take account of long-held, widely adopted measures, we
must conclude that Arizona’s time, place, and manner
rules are well within our American democraticrepublican tradition. Nothing in the Voting Rights Act
makes “‘evenhanded restrictions that protect the
integrity and reliability of the electoral process’ . . .
invidious.” Crawford, 553 U.S. at 189–90 (quoting
Anderson, 460 U.S. at 788 n.9).

App. 174
I would affirm the judgment of the district court,
and I respectfully dissent.

App. 175
Appendix A
State and Territory Laws Regarding Treatment
of Out-of-Precinct Provisional Ballots
Jurisdiction

Citation

Alabama

Ala. Code § 17-9-10 (2019)
(providing that voters must vote in
their “county and voting place” of
domicile); see also Davis v.
Bennett, 154 So. 3d 114, 131 (Ala.
2014) (affirming that Alabama law
requires voters to cast ballots at
the correct voting place).

Alaska

Alaska Stat. Ann. § 15.20.207(b)
(West 2019) (failing to list out-ofprecinct voting as grounds for
rejecting a ballot); Alaska Stat.
Ann. § 15.20.211(a) (West 2019)
(providing that a voter may cast a
vote in another house district for
statewide and federal offices); see
also Hammond v. Hickel, 588 P.2d
256, 264 (Alaska 1978) (“There is
no constitutional requirement of
precinct residency, and there is
clear statutory authorization for
persons claiming to be registered
voters to vote a questioned ballot if
there is no evidence of registration
in the precinct in which the voter
seeks to vote.”).

App. 176
American Samoa A m .
Samoa
Code Ann.
§ 6.0223(b)–(c) (providing that a
voter’s right to vote may be
challenged if the voter “is not
entitled to vote in that district”
and, if true, the ballot will be
rejected).
Arizona

Ariz. Rev. Stat. Ann. § 16584(D)–(E) (2018) (requiring
confirmation that the voter resided
in the precinct).

Arkansas

Ark. Code Ann. § 7-5-308(f) (West
2017) (requiring only that voters
be registered to vote in the state).

California

Cal. Elec. Code § 14310(c)(3) (West
2019) (“The provisional ballot of a
voter who is otherwise entitled to
vote shall not be rejected because
the voter did not cast his or her
ballot in the precinct to which he
or she was assigned by the
elections official.”).

Colorado

8 Colo. Code Regs. § 1505-1:17.2.9
(2019) (providing that if an elector
used the wrong ballot, then “only
races and issues for which the
elector [was] qualified to vote may
be counted”).

Connecticut

Conn. Gen. Stat. Ann. §§ 9-232, 9232n (West 2019) (requiring that
only provisional ballots by

App. 177
applicants eligible to vote in a
given town may be counted).
Delaware

Del. Code Ann. tit. 15,
§ 4948(h)(7)–(8) (West 2015)
(explaining that provisional ballots
may not be counted if cast by
voters outside of their election
districts).

District of
Columbia

D.C. Code Ann. § 1-1001.09(b)(3)
(West 2017) (providing that, aside
from those requiring accessible
entrances, “[n]o registered
qualified elector of the District
may cast a vote in a precinct that
does not serve his or her current
residence”); D.C. Mun. Regs. tit. 3,
§ 807 (2019) (stating that a
provisional ballot may be
tabulated if, inter alia, “the voter
cast the Special Ballot at the
precinct in which the voter
maintains residence or at an early
voting center designated by the
Board”).

Florida

Fla. Stat. Ann. § 101.048(2)(a)
(West 2019) (“The county
canvassing board shall examine
each Provisional Ballot Voter’s
Certificate and Affirmation to
determine if the person voting that

App. 178
ballot was entitled to vote at the
precinct where the person cast a
vote in the election . . . .”).
Georgia

Ga. Code Ann. § 21-2-419(c)(2)
(West 2019) (stating that if a voter
voted in the wrong precinct, then
races for which the voter was
entitled to vote shall be counted).

Guam

3 Guam Code Ann. § 14105(a)
(2016) (“When a provisional voter
casts a provisional ballot in the
incorrect precinct, election officials
shall count the votes on that ballot
in every race for which the voter
would be entitled to vote if he or
she had been in the correct
precinct.”).

Hawai‘i

Haw. Code R. § 3-172-140(c)(3)
(2017) (“If [the] county clerk
determines the individual is not
eligible to vote in the precinct
where the provisional ballot was
cast, the provisional ballot shall
not be counted.”).

Idaho

Does not use provisional ballots
because the state allows for
election-day registration. See
Idaho Code Ann. § 34-408A (West
2019).

Illinois

10 Ill. Comp. Stat. Ann. 5/18A15(b)(1) (West 2015) (explaining

App. 179
that a provisional ballot is valid if,
inter alia, “the provisional voter
cast the provisional ballot in the
correct precinct”).
Indiana

Ind. Code Ann. § 3-11.7-5-3(a)
(West 2019) (providing that a
ballot is invalid and may not be
counted if “the provisional voter is
not a qualified voter of the
precinct”).

Iowa

Iowa Code Ann. § 49.9 (West 2019)
(explaining that “a person shall
not vote in any precinct but that of
the person’s residence”).

Kansas

Kan. Stat. Ann. § 25-3002(b)(3)
(West 2019) (explaining that if a
voter cast a ballot for the wrong
precinct, but was still within the
same county, then votes for which
the voter was eligible will be
counted).

Kentucky

31 Ky. Admin. Regs. 6:020(14)
(2019) (“If the county board of
elections determines the
individual is ineligible to vote in
the precinct in the election, the
vote shall not be counted . . . .”).

Louisiana

La. Stat. Ann. § 18:556.2(F)
(3)(a)–(b) (2017) (stating that a
provisional ballot may be counted
if the voter was a registered voter

App. 180
in the parish and was eligible to
vote for the federal offices cast).
Maine

Me. Stat. tit. 11, § 50 (2019)
(providing that all ballots cast in
Maine will be counted so long as
“challenged ballots are insufficient
in number to affect the result of
the election”).

Maryland

Md. Code Ann., Elec. Law § 11303(e)(2) (West 2019) (stating that
if the voter voted out of precinct,
“only the votes cast by the voter
for each candidate or question
applicable to the precinct in which
the voter resides” will get
counted).

Massachusetts

Mass. Gen. Laws Ann. ch. 54,
§ 76C(d) (West 2004) (“A
provisional ballot cast by a person
whose name is not on the voting
list for the city or town in which
they are claiming the right to vote,
but whom the city or town clerk
determines to be eligible to vote in
another precinct of the same city
or town, shall be counted in the
precinct in which the person cast
the provisional ballot for all offices
for which the person is eligible to
vote.”).

Michigan

M i c h . C o m p . Law s Ann.
§ 168.813(1) (West 2018) (stating

App. 181
that provisional ballots may only
be counted “if the identity and
residence of the elector is
established”).
Minnesota

Does not use provisional ballots
because the state allows for
election-day registration. See
Minn. Stat. Ann. § 201.061 subd.
3(a) (West 2017).

Mississippi

1 Miss. Admin. Code Pt. 10, Exh. A
(2019) (“Poll managers shall
advise an affidavit voter his/her
ballot will not count if he/she is
voting at the wrong polling
place.”).

Missouri

Mo. Ann. Stat. § 115.430(2)(1)
(West 2019) (explaining that
ballots voted in a polling place
where the voter was not eligible to
vote will not be counted).

Montana

Mont. Code Ann. § 13-15-107
(West 2019) (stating that a ballot
must be rejected if the voter’s
identity and eligibility cannot be
verified).

Nebraska

Neb. Rev. Stat. Ann. § 321002(5)(e) (West 2019) (providing
that a provisional ballot shall not
be counted if “[t]he residence
address provided on the
registration application completed

App. 182
. . . is in a different county or in a
different precinct than the county
or precinct in which the voter
voted”).
Nevada

Nev. Rev. Stat. Ann. § 293.3085
(West 2019) (“A provisional ballot
must not be counted if the county
or city clerk determines that the
person who cast the provisional
ballot cast the wrong ballot for the
address at which the person
resides.”).

New Hampshire

Does not use provisional ballots
because the state allows for
election-day registration. See N.H.
Rev. Stat. Ann. § 654:7-a (2017).

New Jersey

N.J. Stat. Ann. § 19:53C-17 (West
2019) (“If, for any reason, a
provisional ballot voter votes a
ballot other than the ballot for the
district in which the voter is
qualified to vote, the votes for
those offices and questions for
which the voter would be
otherwise qualified to vote shall be
counted. All other votes shall be
void.”).

New Mexico

N.M. Stat. Ann. § 1-12-25.4(F)
(West 2019) (“If the voter is a
registered voter in the county but
has voted on a provisional paper
ballot other than the ballot of the

App. 183
voter’s correct precinct, the county
canvassing board shall ensure that
only those votes for the positions
or measures for which the voter
was eligible to vote are counted.”).
New York

N.Y. Elec. Law § 9-209(2)(a)(iii)
(McKinney 2019) (“If the board of
elections determines that a person
was entitled to vote at such
election, the board shall cast and
canvass such ballot if such board
finds that the voter appeared at
the correct polling place,
regardless of the fact that the
voter may have appeared in the
incorrect election district.”).

North Carolina

N.C. Gen. Stat. Ann. § 163A1169(a)(4) (West 2019) (“If the
county board of elections finds that
an individual voting a provisional
official ballot (i) was registered in
the county as provided in G.S.
163A-1166, (ii) voted in the proper
precinct under G.S. 163A-841 and
G.S. 163A-842, and (iii) was
otherwise eligible to vote, the
provisional official ballots shall be
counted by the county board of
elections before the canvass.
Except as provided in G.S. 163A1184(e), if the county board finds
that an individual voting a

App. 184
provisional official ballot (i) did not
vote in the proper precinct under
G.S. 163A-841 and G.S. 163A-842,
(ii) is not registered in the county
as provided in G.S. 163A-860, or
(iii) is otherwise not eligible to
vote, the ballot shall not be
counted. If a voter was properly
registered to vote in the election by
the county board, no mistake of an
election official in giving the voter
a ballot or in failing to comply with
G.S. 163A-1184 or G.S. 163A-1142
shall serve to prevent the counting
of the vote on any ballot item the
voter was eligible by registration
and qualified by residency to
vote.”).
North Dakota

North Dakota does not require
voters to be registered and does
not utilize provisional ballots. See
N.D. Cent. Code Ann. § 16.1-01-04
(West 2019).

Northern
Mariana Islands

1 N. Mar. I. Code § 6215(b)–(c)
(2014) (providing that a voter’s
right to vote may be challenged if
the voter “is not entitled to vote in
that election district” and, if true,
the ballot will be rejected).

Ohio

Ohio
Rev.
Code Ann.
§ 3505.183(D) (West 2019) (stating
that under certain circumstances,

App. 185
if a voter cast a ballot in the wrong
precinct due to poll-worker error,
then the votes for which the voter
would have been eligible to cast
are counted).
Oklahoma

Okla. Stat. Ann. tit. 26, § 7116.1(C) (West 2019) (“A
provisional ballot shall be counted
only if it is cast in the precinct of
the voter’s residence . . . .”).

Oregon

Or. Rev. Stat. Ann. § 254.408(6)
(West 2018) (explaining that
provisional votes will be counted
according to whether “the elector
is qualified to vote for the
particular office or on the
measure”).

Pennsylvania

25 Pa. Stat. and Cons. Stat. Ann.
§ 3050(a.4)(7) (West 2012)
(providing that so long as a ballot
is cast within the voter’s county, if
it is cast in the wrong election
district, then only votes which the
voter was entitled to make will be
counted).

Puerto Rico

P.R. Laws Ann. tit. 16, § 4062
(2011) (“If a voter votes in a
precinct other than the one where
he/she is registered, only the vote
cast for the offices of Governor and
Resident Commissioner shall be

App. 186
adjudicated during the general
canvass.”).
Rhode Island

410 R.I. Code R. § 20-0013.7(C)(1)(b) (2012) (stating that
when a voter who cast a
provisional ballot lives outside of
the precinct, the ballot shall be
marked “Federal Offices Only” and
only votes for federal officials for
whom the voter was eligible to
vote shall be counted).

South Carolina

S.C. Code Ann. § 7-13-830 (2019)
(“If the board certifies the person
challenged is not a qualified
elector of the precinct, this
certification is considered an
administrative challenge and is
clear and convincing evidence for
the meeting authority to disallow
the ballot.”).

South Dakota

S.D. Codified Laws § 12-20-5.1
(2019) (“Prior to the official
canvass, the person in charge of
the election shall determine if the
person voting by provisional ballot
was legally qualified to vote in the
precinct in which the provisional
ballot was cast.”).

Tennessee

Tenn. Code Ann. § 2-7112(a)(3)(B)(v) (West 2018)
(explaining that a ballot shall be
rejected if it is determined that the

App. 187
voter should not have cast the
ballot in the precinct).
Texas

Tex. Elec. Code Ann. § 65.054(b)(1)
(West 2012) (stating that a
provisional ballot shall be accepted
only if the voter was qualified to
cast it); see also Morales v. Segura,
No. 04-15-365, 2015 WL 8985802,
at *4 (Tex. App. Dec. 16, 2015)
(upholding the rejection of a ballot
voted in the wrong precinct).

Utah

Utah Code Ann. § 20A-4-107(a)–(c)
(West 2019) (explaining that a
ballot voted in the wrong precinct
but the right county is able to have
any votes counted for which the
voter was eligible to vote).

Vermont

Vt. Stat. Ann. tit. 17, § 2121(a)
(West 2019) (explaining that a
voter is qualified to “register to
vote in the town of his or her
residence”); see also id. § 2557(a)
(stating that a provisional ballot
may be accepted once the town
clerk “determine[s] whether the
applicant meets all of the
registration eligibility requirements”).

Virgin Islands

V.I. Code Ann. tit. 18, §§ 581(a),
587 (2019) (providing that voters
must reside in their election
districts and that poll workers

App. 188
must challenge an individual that
they believe does not reside within
the district).
Virginia

Va. Code Ann. § 24.2-653(B) (West
2015) (“The electoral board shall
. . . determine whether each
person having submitted such a
provisional vote was entitled to do
so as a qualified voter in the
precinct in which he offered the
provisional vote.”).

Washington

Wash. Admin. Code § 434-262-032
(2019) (listing situations where a
ballot must be struck and failing
to provide out-of-precinct voting as
reason for disqualifying a ballot).

West Virginia

W. Va. Code Ann. § 3-1-41(d)
(West 2016) (stating that poll
clerks must warn “that if the voter
is casting a ballot in the incorrect
precinct, the ballot cast may not be
counted for that election”).

Wisconsin

Wis. Stat. Ann. § 6.97(4) (West
2018) (providing that there must
be a determination of whether the
“individual who has voted under
this section is qualified to vote in
the ward or election district where
the individual’s ballot is cast”).

App. 189
Wyoming

Wyo. Stat. Ann. § 22-15-105(b)
(West 2019) (requiring voters to
swear that they are entitled to
vote in the given precinct).

App. 190
Appendix B
State and Territory Treatment of Out-ofPrecinct Provisional Ballots15
Do Not Tabulate Outof-Precinct Ballots

Tabulate Out-ofPrecinct Ballots

Alabama

Alaska

American Samoa

Arkansas

Arizona

California

Connecticut

Colorado

Delaware

Georgia

District of Columbia

Guam

Florida

Kansas*

Hawai‘i

Louisiana†

Illinois

Maine

Indiana

Maryland

Iowa

Massachusetts*

Kentucky

New Jersey

Michigan

New Mexico*

Mississippi

New York

Missouri

North Carolina‡

Montana

Ohio††

15

Idaho, Minnesota, New Hampshire, and North Dakota are not
included because they do not use provisional ballots. See supra
Appendix A.

App. 191
Nebraska

Oregon

Nevada

Pennsylvania*

Northern Mariana
Islands

Puerto Rico**

Oklahoma

Rhode Island†

South Carolina

Utah*

South Dakota

Washington

Tennessee
Texas
Vermont
Virgin Islands
Virginia
West Virginia
Wisconsin
Wyoming
* Requires the voter to be in the correct county, city,
or town.
† Tabulates votes for federal offices only.
‡ There is some divergence among secondary
sources regarding whether North Carolina counts OOP
ballots. Compare Provisional Ballots, Nat’l Conf. of St.
Legislatures (Oct. 15, 2018), http://www.ncsl.org/
research/elections-and-campaigns/provisionalballots.aspx, with What Is Provisional Voting?
Explained, democracy N.C., https://democracy
nc.org/resources/what-is-provisional-voting-explained

App. 192
(last visited Oct. 15, 2019). North Carolina law
generally disfavors counting only provisional ballots
cast within the correct precinct. See N.C. Gen. Stat.
Ann. § 163A-1169(a)(4) (West 2019) (“[I]f the county
board finds that an individual voting a provisional
official ballot (i) did not vote in the proper precinct . . .
the ballot shall not be counted.”); see also James v.
Bartlett, 607 S.E.2d 638, 642 (N.C. 2005) (“[V]oters
must cast ballots on election day in their precincts of
residence.”). Nevertheless, North Carolina law appears
to allow an OOP vote to be tabulated in very narrow
exceptions—such as election-official error. See N.C.
Gen. Stat. Ann. § 163A-1169(a)(4) (“If a voter was
properly registered to vote in the election by the county
board, no mistake of an election official in giving the
voter a ballot or in failing to comply with G.S. 163A1184 or G.S. 163A-1142 shall serve to prevent the
counting of the vote on any ballot item the voter was
eligible by registration and qualified by residency to
vote.”). This dissent resolves doubt in favor of listing
North Carolina as a state that counts OOP
ballots—even though its current law and practice are
not entirely clear.
†† The ballot may be counted if, among other things,
the casting of the wrong ballot was a result of pollworker error. Only offices for which the voter would
have been eligible to vote will be counted.
** Only the votes for Governor and Resident
Commissioner will be canvassed.

App. 193
Appendix C
State and Territory Laws Regarding the
Collection of Absentee Ballots
Jurisdiction
Alabama

Citation
Ala. Code § 17-11-4 (2019):
An application for a voter who
requires emergency treatment by
a licensed physician within five
days before an election pursuant
to Section 17-11-3 may be
forwarded to the absentee election
manager by the applicant or his or
her designee.

Alaska

Alaska Stat. Ann. § 15.20.072
(West 2019) (providing a method a
personal representative to handle
and deliver ballots for a special
needs voter).

American
Samoa

Am. Samoa Code Ann. 6.1104(a):
The reply envelope shall bear
upon the face thereof the name,
official title, and post office
address of the Chief Election
Officer and the words “Absentee
Ballot Enclosed”. The back of the
reply envelope shall contain a
statement to be subscribed to by
the qualified elector which affirms

App. 194
the fact that he is the person
voting.
Arizona

Ariz. Rev. Stat.
1005(H)–(I) (2016):

Ann.

§ 16-

H. A person who knowingly
collects voted or unvoted early
ballots from another person is
guilty of a class 6 felony. An
election official, a United States
postal service worker or any other
person who is allowed by law to
transmit United States mail is
deemed not to have collected an
early ballot if the official, worker
or other person is engaged in
official duties.
I. Subsection H of this section does
not apply to:
1. An election held by a special
taxing district formed pursuant to
title 481 for the purpose of
protecting or providing services to
agricultural lands or crops and
that is authorized to conduct
elections pursuant to title 48.
2. A family member, household
member or caregiver of the voter.

App. 195
For the purposes
paragraph:

of

this

(a) “Caregiver” means a person
who provides medical or health
care assistance to the voter in a
residence, nursing care
institution, hospice facility,
assisted living center, assisted
living facility, assisted living
home, residential care institution,
adult day health care facility or
adult foster care home.
(b) “Collects” means to gain
possession or control of an early
ballot.
(c) “Family member” means a
person who is related to the voter
by blood, marriage, adoption or
legal guardianship.
(d) “Household member” means a
person who resides at the same
residence as the voter.
Arkansas

Ark. Code Ann. § 7-5-403(a) (West
2019):
(1) A designated bearer may
obtain absentee ballots for no

App. 196
more than two (2) voters per
election.
(2)(A) A designated bearer shall
not have more than two (2)
absentee ballots in his or her
possession at any time.
(B) If the county clerk knows or
reasonably suspects that a
designated bearer has more than
two (2) absentee ballots in his or
her possession, the county clerk
shall notify the prosecuting
attorney.
(3)(A) A designated bearer
receiving an absentee ballot from
the county clerk for a voter shall
obtain the absentee ballot directly
from the county clerk and deliver
the absentee ballot directly to the
voter.
(B) A designated bearer receiving
an absentee ballot from a voter
shall obtain the absentee ballot
directly from the voter and deliver
the absentee ballot directly to the
county clerk.
(4)(A) A designated bearer may
deliver to the county clerk the

App. 197
absentee ballots for not more than
two (2) voters.
(B) The designated bearer shall be
named on the voter statement
accompanying the absentee ballot.
California

Cal. Elec. Code § 3017(a)(2) (West
2019):
A vote by mail voter who is unable
to return the ballot may designate
another person to return the ballot
to the elections official who issued
the ballot, to the precinct board at
a polling place or vote center
within the state, or to a vote by
mail ballot dropoff location within
the state that is provided
pursuant to Section 3025 or 4005.
The person designated shall
return the ballot in person, or put
the ballot in the mail, no later
than three days after receiving it
from the voter or before the close
of the polls on election day,
whichever time period is shorter.
Notwithstanding subdivision (d), a
ballot shall not be disqualified
from being counted solely because
it was returned or mailed more
than three days after the
designated person received it from

App. 198
the voter, provided that the ballot
is returned by the designated
person before the close of polls on
election day.
Colorado

Colo. Rev. Stat. Ann. § 1-7.5107(4)(b)(I) (West 2019)
The eligible elector may:
(A) Return the marked ballot to
the county clerk and recorder or
designated election official by
United States mail or by
depositing the ballot at the office
of the county clerk and recorder or
designated election official or at
any voter service and polling
center, drop box, or drop-off
location designated by the county
clerk and recorder or designated
election official as specified in the
election plan filed with the
secretary of state. The ballot must
be returned in the return
envelope.
(B) Deliver the ballot to any
person of the elector’s own choice
or to any duly authorized agent of
the county clerk and recorder or
designated election official for
mailing or personal delivery;

App. 199
except that no person other than a
duly authorized agent of the
county clerk and recorder or
designated election official may
receive more than ten mail ballots
in any election for mailing or
delivery; or
(C) Cast his or her vote in person
at the voter service and polling
center.
Connecticut

Conn. Gen. Stat. Ann. § 9-140b(a)
(West 2019):
An absentee ballot shall be cast at
a primary, election or referendum
only if: (1) It is mailed by (A) the
ballot applicant, (B) a designee of
a person who applies for an
absentee ballot because of illness
or physical disability, or (C) a
member of the immediate family
of an applicant who is a student,
so that it is received by the clerk
of the municipality in which the
applicant is qualified to vote not
later than the close of the polls;
(2) it is returned by the applicant
in person to the clerk by the day
before a regular election, special
election or primary or prior to the
opening of the polls on the day of a

App. 200
referendum; (3) it is returned by a
designee of an ill or physically
disabled ballot applicant, in
person, to said clerk not later than
the close of the polls on the day of
the election, primary or
referendum; (4) it is returned by a
member of the immediate family
of the absentee voter, in person, to
said clerk not later than the close
of the polls on the day of the
election, primary or referendum;
(5) in the case of a presidential or
overseas ballot, it is mailed or
otherwise returned pursuant to
the provisions of section 9-158g; or
(6) it is returned with the proper
identification as required by the
Help America Vote Act, P.L. 107252,1 as amended from time to
time, if applicable, inserted in the
outer envelope so such
identification can be viewed
without opening the inner
envelope. A person returning an
absentee ballot to the municipal
clerk pursuant to subdivision
(3) or (4) of this subsection shall
present identification and, on the
outer envelope of the absentee
ballot, sign his name in the
presence of the municipal clerk,
and indicate his address, his

App. 201
relationship to the voter or his
position, and the date and time of
such return. As used in this
section, “immediate family” means
a dependent relative who resides
in the individual’s household or
any spouse, child or parent of the
individual.
Delaware

Del. Code Ann. tit. 15, § 5507(4)
(West 2018):
The elector shall return the sealed
ballot envelope to the Department
by:
a. Depositing it in a United States
postal mailbox, thereby mailing it
to the Department; or
b. Delivering it, or causing it to be
delivered, to the Department
before the polls close on the day of
the election.

District of
Columbia

D.C. Mun. Regs. tit. 3, § 722.2
(2019):
A duly registered voter shall apply
to vote by emergency absentee
ballot according to the following
procedure:

App. 202
(a) The registered voter shall, by
signed affidavit on a form
provided by the Board, set forth:
(1) The reason why he or she is
unable to be present at the polls
on the day of the election; and
(2) Designate a duly registered
voter to serve as agent for the
purpose of delivering the absentee
ballot to the voter, except than an
officer of the court in charge of a
jury sequestered on election day
may act as agent for any
registered voter sequestered
regardless of whether the officer is
a registered voter in the District.
(b) Upon receipt of the application,
the Executive Director, or his or
her designee, if satisfied that the
person cannot, in fact, be present
at the polling place on the day of
the election shall issue to the
voter, through the voter’s duly
authorized agent, an absentee
ballot which shall be marked by
the voter, placed in a sealed
envelope and returned to the
Board before the close of the polls
on election day.

App. 203
(c) The person designated as agent
shall, by signed affidavit on a form
prescribed by the Board, state the
following:
(1) That the ballot will be
delivered by the voter who
submitted the application for the
ballot; and
(2) That the ballot shall be marked
by the voter and placed in a sealed
envelope in the agent’s presence,
and returned, under seal to the
Board by the agent.
Florida

Fla. Stat. Ann. § 104.0616 (West
2016):
(1) For purposes of this section,
the term “immediate family”
means a person’s spouse or the
parent, child, grandparent, or
sibling of the person or the
person’s spouse.
(2) Any person who provides or
offers to provide, and any person
who accepts, a pecuniary or other
benefit in exchange for
distributing, ordering, requesting,
collecting, delivering, or otherwise
physically possessing more than

App. 204
two vote-by-mail ballots per
election in addition to his or her
own ballot or a ballot belonging to
an immediate family member,
except as provided in ss.
101.6105–101.694, commits a
misdemeanor of the first degree,
punishable as provided in s.
775.082, s. 775.083, or s. 775.084.
Georgia

Ga. Code Ann. § 21-2-385 (West
2019):
(a) . . . Such envelope shall then be
securely sealed and the elector
shall then personally mail or
personally deliver same to the
board of registrars or absentee
ballot clerk, provided that mailing
or delivery may be made by the
elector’s mother, father,
grandparent, aunt, uncle, brother,
sister, spouse, son, daughter,
niece, nephew, grandchild, son-inlaw, daughter-in-law, mother-inlaw, father-in-law, brother-in-law,
sister-in-law, or an individual
residing in the household of such
elector. The absentee ballot of a
disabled elector may be mailed or
delivered by the caregiver of such
disabled elector, regardless of
whether such caregiver resides in

App. 205
such disabled elector’s household.
The absentee ballot of an elector
who is in custody in a jail or other
detention facility may be mailed or
delivered by any employee of such
jail or facility having custody of
such elector. An elector who is
confined to a hospital on a
primary or election day to whom
an absentee ballot is delivered by
the registrar or absentee ballot
clerk shall then and there vote the
ballot, seal it properly, and return
it to the registrar or absentee
ballot clerk. . . .
(b) A physically disabled or
illiterate elector may receive
assistance in preparing his or her
ballot from any person of the
elector’s choice other than such
elector’s employer or the agent of
such employer or an officer or
agent of such elector’s union;
provided, however, that no person
whose name appears on the ballot
as a candidate at a particular
primary, election, or runoff nor
[specified relatives of a candidate]
to any elector who is not related to
such candidate. . . . The person
rendering assistance to the elector
in preparing the ballot shall sign

App. 206
the oath printed on the same
envelope as the oath to be signed
by the elector. Any person who
willfully violates this subsection
shall be guilty of a felony and,
upon conviction thereof, shall be
sentenced to imprisonment for not
less than one nor more than ten
years or to pay a fine not to exceed
$100,000.00, or both, for each such
violation.
Guam

3 Guam Code Ann. § 10107 (2016):
The Commission shall deliver a
ballot to any qualified elector
applying in person at the office of
said Commission; provided,
however, that such applicant shall
complete and subscribe the
application heretofore prescribed
by this Chapter; provided further,
that said application shall be
made not more than thirty (30)
days nor less than one (1) day
before the date of the election for
which the vote is being cast. It is
provided further, that said ballot
shall be immediately marked,
enclosed in the ballot envelope,
placed in the return envelope with
the proper affidavit enclosed, and

App. 207
immediately returned
Commission.
Hawai‘i

to

the

Haw. Rev. Stat. Ann. § 15-9 (West
2019):
(a) The return envelope shall be:
(1) Mailed and must be received
by the clerk issuing the absentee
ballot no later than the closing
hour on election day in accordance
with section 11-131; or
(2) Delivered other than by mail to
the clerk issuing the absentee
ballot, or to a voter service center
no later than the closing hour on
election day in accordance with
section 11-131.
(b) Upon receipt of the return
envelope from any person voting
under this chapter, the clerk may
prepare the ballots for counting
pursuant to this section and
section 15-10.
(c) Before opening the return and
ballot envelopes and counting the
ballots, the return envelopes shall
be checked for the following:

App. 208
(1) Signature on the affirmation
statement;
(2) Whether the signature
corresponds with the absentee
request or register as prescribed
in the rules adopted by the chief
election officer; and
(3) Whether the person is a
registered voter and has complied
with the requirements of sections
11-15 and 11-16.
(d) If any requirement listed in
subsection (c) is not met or if the
return or ballot envelope appears
to be tampered with, the clerk or
the absentee ballot team official
shall mark across the face of the
envelope “invalid” and it shall be
kept in the custody of the clerk
and disposed of as prescribed for
ballots in section 11-154.
Idaho

Idaho Code Ann. § 34-1005 (West
2019):
The return envelope shall be
mailed or delivered to the officer
who issued the same; provided,
that an absentee ballot must be
received by the issuing officer by

App. 209
8:00 p.m. on the day of election
before such ballot may be counted.
Illinois

10 Ill. Comp. Stat. Ann. § 5/19-6
(West 2015):
It shall be unlawful for any person
not the voter or a person
authorized by the voter to take the
ballot and ballot envelope of a
voter for deposit into the mail
unless the ballot has been issued
pursuant to application by a
physically incapacitated elector
under Section 3-3 or a hospitalized
voter under Section 19-13, in
which case any employee or
person under the direction of the
facility in which the elector or
voter is located may deposit the
ballot and ballot envelope into the
mail. If the voter authorized a
person to deliver the ballot to the
election authority, the voter and
the person authorized to deliver
the ballot shall complete the
authorization printed on the
exterior envelope supplied by an
election authority for the return of
the vote by mail ballot.

App. 210
Indiana

Ind. Code Ann. § 3-14-2-16(4)
(West 2019):
A person who knowingly does any
of the following commits a Level 6
felony: . . .
(4) Receives from a voter a ballot
prepared by the voter for voting,
except:
(A) the inspector;
(B) a member of the precinct
election board temporarily acting
for the inspector;
(C) a member or an employee of a
county election board (acting
under the authority of the board
and state law) or an absentee
voter board member acting under
IC 3-11-10; or
(D) a member of the voter’s
household, an individual
designated as attorney in fact for
the voter, or an employee of:
(i) the United
Service; or

States

Postal

(ii) a bonded courier company;

App. 211
(acting in the individual’s capacity
as an employee of the United
States Postal Service or a bonded
courier company) when delivering
an envelope containing an
absentee ballot under IC 3-11-101.
Iowa

Iowa Code Ann. § 53.17(1) (West
2019):
a. The sealed return envelope may
be delivered by the registered
voter, by the voter’s designee, or
by the special precinct election
officials designated pursuant to
section 53.22, subsection 2, to the
commissioner’s office no later than
the time the polls are closed on
election day. However, if delivered
by the voter’s designee, the
envelope shall be delivered within
seventy-two hours of retrieving it
from the voter or before the
closing of the polls on election day,
whichever is earlier.
b. The sealed return envelope may
be mailed to the commissioner by
the registered voter or by the
voter’s designee. If mailed by the
voter’s designee, the envelope
must be mailed within seventy-

App. 212
two hours of retrieving it from the
voter or within time to be
postmarked or, if applicable, to
have the postal service barcode
traced to a date of entry into the
federal mail system not later than
the day before the election, as
provided in section 53.17A,
whichever is earlier.
Kansas

Kan. Stat. Ann. § 25-1221 (West
2019):
After such voter has marked the
official federal services absentee
ballot, he or she shall place it in
the official ballot envelope and
secretly seal the same. Such voter
shall then fill out in full the form
printed upon the official ballot
envelope and sign the same. Such
ballot envelope shall then be
placed in the envelope provided for
such purpose and mailed by the
voter to the county election officer
of the county of the voter’s
residence.
Kan. Stat. Ann. § 25-1124(d)
(West 2019):
Any voted ballot may be
transmitted to the county election

App. 213
officer by the voter or by another
person designated in writing by
the voter, except if the voter has a
disability preventing the voter
from writing and signing a
statement, the written and signed
statement required by subsection
(e) shall be sufficient.
Kentucky

Ky. Rev. Stat. Ann. § 117.086(1)
(West 2019):
The voter returning his absentee
ballot by mail shall mark his
ballot, seal it in the inner envelope
and then in the outer envelope,
and mail it to the county clerk as
shall be provided by this chapter.
The voter shall sign the
detachable flap and the outer
envelope in order to validate the
ballot. A person having power of
attorney for the voter and who
signs the detachable flap and
outer envelope for the voter shall
complete the voter assistance form
as required by KRS 117.255. The
signatures of two (2) witnesses are
required if the voter signs the
form with the use of a mark
instead of the voter’s signature. A
resident of Kentucky who is a
covered voter as defined in KRS

App. 214
117A.010 who has received an
absentee ballot transmitted by
facsimile machine or by means of
the electronic transmission system
established under KRS
117A.030(4) shall transmit the
voted ballot to the county clerk by
mail only, conforming with ballot
security requirements that may be
promulgated by the state board by
administrative regulation. In
order to be counted, the ballots
shall be received by the clerk by at
least the time established by the
election laws generally for the
closing of the polls, which time
shall not include the extra hour
during which those voters may
vote who were waiting in line to
vote at the scheduled poll closing
time.
Louisiana

La. Stat. Ann. § 18:1308(B) (2017):
The ballot shall be marked as
provided in R.S. 18:1310 and
returned to the registrar by the
United States Postal Service, a
commercial courier, or hand
delivery. If delivered by other than
the voter, a commercial courier, or
the United States Postal Service,
the registrar shall require that the

App. 215
person making such delivery sign
a statement, prepared by the
secretary of state, certifying that
he has the authorization and
consent of the voter to hand
deliver the marked ballot. For
purposes of this Subsection,
“commercial courier” shall have
the same meaning as provided in
R.S. 13:3204(D). No person except
the immediate family of the voter,
as defined in this Code, shall hand
deliver more than one marked
ballot to the registrar.
Maine

Me. Rev. Stat. Ann. tit. 21-A,
§ 791(2)(A) (2009):
A person commits a Class D crime
if that person [d]elivers, receives,
accepts, notarizes or witnesses an
absentee ballot for any
compensation. This paragraph
does not apply to a governmental
employee handling ballots in the
course of that employee’s official
duties or a person who handles
absentee ballots before the
unvoted ballots are delivered to
the municipality or after the voted
ballots are returned to the clerk.

Maryland

Md. Code Ann., Elec. Law § 9-307
(West 2019):

App. 216
(a) A qualified applicant may
designate a duly authorized agent
to pick up and deliver an absentee
ballot under this subtitle.
(b) An agent of the voter under
this section:
(1) must be at least 18 years old;
(2) may not be a candidate on that
ballot;
(3) shall be designated in a writing
signed by the voter under penalty
of perjury; and
(4) shall execute an affidavit
under penalty of perjury that the
ballot was:
(i) delivered to the voter who
submitted the application;
(ii) marked and
envelope by the
assistance as
regulation, in
presence; and

placed in an
voter, or with
allowed by
the agent’s

(iii) returned to the local board by
the agent.

App. 217
Massachusetts

Mass. Gen. Laws Ann. ch. 54,
§ 92(a) (West 2019):
A voter who receives the ballot by
mail, as provided in subsection (a)
of section ninety-one B, may
return it by mail to the city or
town clerk in the envelope
provided pursuant to subsection
(d) of section eighty-seven, or such
voter or a family member may
deliver it in person to the office of
the city or town clerk. A voter to
whom a ballot was delivered in
person at the office of the clerk as
provided in said subsection (a) of
said section ninety-one B shall
return it without removing the
ballot from such office.

Michigan

Mich. Comp. Laws Ann.
§ 168.764a (West 2019):
Step 5. Deliver the return
envelope by 1 of the following
methods:
(a) Place the necessary postage
upon the return envelope and
deposit it in the United States
mail or with another public postal
service, express mail service,

App. 218
parcel post service, or common
carrier.
(b) Deliver the envelope personally
to the office of the clerk, to the
clerk, or to an authorized
assistant of the clerk.
(c) In either (a) or (b), a member of
the immediate family of the voter
including a father-in-law, motherin-law, brother-in- law, sister-inlaw, son-in-law, daughter-in-law,
grandparent, or grandchild or a
person residing in the voter’s
household may mail or deliver a
ballot to the clerk for the voter.
(d) You may request by telephone
that the clerk who issued the
ballot provide assistance in
returning the ballot. The clerk is
required to provide assistance if
you are unable to return your
absent voter ballot as specified in
(a), (b), or (c) above, if it is before 5
p.m. on the Friday immediately
preceding the election, and if you
are asking the clerk to pickup the
absent voter ballot within the
jurisdictional limits of the city,
township, or village in which you
are registered. Your absent voter

App. 219
ballot will then be picked up by
the clerk or an election assistant
sent by the clerk. All persons
authorized to pick up absent voter
ballots are required to carry
credentials issued by the clerk. If
using this absent voter ballot
return method, do not give your
ballot to anyone until you have
checked their credentials. . . .
All of the following actions are
violations of the Michigan election
law and are illegal in this state:
....
(4) For a person other than those
listed in these instructions to
return, offer to return, agree to
return, or solicit to return an
absent voter ballot to the clerk.
Minnesota

Minn. Stat. Ann. § 203B.08 subd.
1 (West 2015):
The voter may designate an agent
to deliver in person the sealed
absentee ballot return envelope to
the county auditor or municipal
clerk or to deposit the return
envelope in the mail. An agent
may deliver or mail the return
envelopes of not more than three

App. 220
voters in any election. Any person
designated as an agent who
tampers with either the return
envelope or the voted ballots or
does not immediately mail or
deliver the return envelope to the
county auditor or municipal clerk
is guilty of a misdemeanor.
Mississippi

Miss. Code Ann. § 23-15-631(f)
(West 2019):
Any voter casting an absentee
ballot who declares that he or she
requires assistance to vote by
reason of blindness, temporary or
permanent physical disability or
inability to read or write, shall be
entitled to receive assistance in
the marking of his or her absentee
ballot and in completing the
affidavit on the absentee ballot
envelope. The voter may be given
assistance by anyone of the voter’s
choice other than a candidate
whose name appears on the
absentee ballot being marked, the
spouse, parent or child of a
candidate whose name appears on
the absentee ballot being marked
or the voter’s employer, an agent
of that employer or a union
representative; however, a

App. 221
candidate whose name is on the
ballot or the spouse, parent or
child of such candidate may
provide assistance upon request to
any voter who is related within
the first degree. In order to ensure
the integrity of the ballot, any
person who provides assistance to
an absentee voter shall be
required to sign and complete the
“Certificate of Person Providing
Voter Assistance” on the absentee
ballot envelope.
Missouri

Mo. Ann. Stat. § 115.291(2) (West
2018):
Except as provided in subsection 4
of this section, each absentee
ballot that is not cast by the voter
in person in the office of the
election authority shall be
returned to the election authority
in the ballot envelope and shall
only be returned by the voter in
person, or in person by a relative
of the voter who is within the
second degree of consanguinity or
affinity, by mail or registered
carrier or by a team of deputy
election authorities; except that
covered voters, when sent from a
location determined by the

App. 222
secretary of state to be
inaccessible on election day, shall
be allowed to return their
absentee ballots cast by use of
facsimile transmission or under a
program approved by the
Department of Defense for
electronic transmission of election
materials.
Montana

Mont. Code Ann. § 13-13-201
(West 2019):
(1) A legally registered elector or
provisionally registered elector is
entitled to vote by absentee ballot
as provided for in this part.
(2) The elector may vote absentee
by:
(a) marking the ballot in the
manner specified;
(b) placing the marked ballot in
the secrecy envelope, free of any
identifying marks;
(c) placing the secrecy envelope
containing one ballot for each
election being held in the
signature envelope;

App. 223
(d) executing the affirmation
printed on the signature envelope;
and
(e) returning the signature
envelope with all appropriate
enclosures by regular mail,
postage paid, or by delivering it to:
(i) the election office;
(ii) a polling place within the
elector’s county;
(iii) pursuant to 13-13-229, the
absentee election board or an
authorized election official; or
(iv) in a mail ballot election held
pursuant to Title 13, chapter 19, a
designated place of deposit within
the elector’s county.
(3) Except as provided in 13-21206 and 13-21-226, in order for the
ballot to be counted, each elector
shall return it in a manner that
ensures the ballot is received prior
to 8 p.m. on election day.

App. 224
Nebraska

Neb. Rev. Stat. § 32-943(2) (West
2019):
A candidate for office at such
election and any person serving on
a campaign committee for such a
candidate shall not act as an agent
for any registered voter requesting
a ballot pursuant to this section
unless such person is a member of
the registered voter’s family. No
person shall act as agent for more
than two registered voters in any
election.

Nevada

Nev. Rev. Stat. Ann. § 293.330(4)
(West 2017):
[I]t is unlawful for any person to
return an absent ballot other than
the voter who requested the
absent ballot or, at the request of
the voter, a member of the voter’s
family. A person who returns an
absent ballot and who is a member
of the family of the voter who
requested the absent ballot shall,
under penalty of perjury, indicate
on a form prescribed by the county
clerk that the person is a member
of the family of the voter who
requested the absent ballot and
that the voter requested that the

App. 225
person return the absent ballot. A
person who violates the provisions
of this subsection is guilty of a
category E felony . . . .
New
Hampshire

New Hampshire recently enacted
legislation adding greater
specificity to is provision
governing the delivery of absentee
ballots—N.H. Rev. Stat. Ann.
§ 657:17. The new statute will
read:
I. . . . . The voter or the person
assisting a blind voter or voter
with a disability shall then
endorse on the outer envelope the
voter’s name, address, and voting
place. The absentee ballot shall be
delivered to the city or town clerk
from whom it was received in one
of the following ways:
(a) The voter or the voter’s
delivery agent may personally
deliver the envelope; or
(b) The voter or the person
assisting the blind voter or voter
with a disability may mail the
envelope to the city or town clerk,
with postage affixed.

App. 226
II. As used in this section,
“delivery agent” means:
(a) The voter’s spouse, parent,
sibling, child, grandchild, fatherin-law, mother-in-law, son-in-law,
daughter-in-law, stepparent,
stepchild; or
(b) If the voter is a resident of a
nursing home as defined in RSA
151–A:1, IV, the nursing home
administrator, licensed pursuant
to RSA 151–A:2, or a nursing
home staff member designated in
writing by the administrator to
deliver ballots; or
(c) If the voter is a resident of a
residential care facility licensed
pursuant to RSA 151:2, I(e) and
described in RSA 151:9, VII(a)(1)
and (2), the residential care
facility administrator, or a
residential care facility staff
member designated in writing by
the administrator to deliver
ballots; or
(d) A person assisting a blind voter
or a voter with a disability who
has signed a statement on the

App. 227
affidavit envelope acknowledging
the assistance.
III. The city or town clerk, or ward
clerk on election day at the polls,
shall not accept an absentee ballot
from a delivery agent unless the
delivery agent completes a form
provided by the secretary of state,
which shall be maintained by the
city or town clerk, and the delivery
agent presents a governmentissued photo identification or has
his or her identity verified by the
city or town clerk. Absentee
ballots delivered through the mail
or by the voter’s delivery agent
shall be received by the town, city,
or ward clerk no later than 5:00
p.m. on the day of the election. A
delivery agent who is assisting a
voter who is blind or who has a
disability pursuant to this section
may not personally deliver more
than 4 absentee ballots in any
election, unless the delivery agent
is a nursing home or residential
care facility administrator, an
administrator designee, or a
family member, each as
authorized by this section.

App. 228
New Jersey

N.J. Stat. Ann. § 19:63-4(a) (West
2015):
A qualified voter is entitled to
apply for and obtain a mail-in
ballot by authorized messenger,
who shall be so designated over
the signature of the voter and
whose printed name and address
shall appear on the application in
the space provided. The
authorized messenger shall be a
family member or a registered
voter of the county in which the
application is made and shall
place his or her signature on the
application in the space so
provided in the presence of the
county clerk or the designee
thereof. No person shall serve as
an authorized messenger or as a
bearer for more than three
qualified voters in an election. No
person who is a candidate in the
election for which the voter
requests a mail-in ballot shall be
permitted to serve as an
authorized messenger or bearer.
The authorized messenger shall
show a photo identification card to
the county clerk, or the designee
thereof, at the time the messenger
submits the application form. The

App. 229
county clerk or the designee
thereof shall authenticate the
signature of the authorized
messenger in the event such a
person is other than a family
member, by comparing it with the
signature of the person appearing
on a State of New Jersey driver’s
license, or other identification
issued or recognized as official by
the federal government, the State,
or any of its political subdivisions,
providing the identification carries
the full address and signature of
the person. After the
authentication of the signature on
the application, the county clerk
or the designee thereof is
authorized to deliver to the
authorized messenger a ballot to
be delivered to the qualified voter.
New Mexico

N.M. Stat. Ann. § 1-6-10.1 (West
2019):
A. A voter, caregiver to that voter
or member of that voter’s
immediate family may deliver that
voter’s absentee ballot to the
county clerk in person or by mail;
provided that the voter has
subscribed the official mailing
envelope of the absentee ballot.

App. 230
B. As used in this section,
“immediate family” means the
spouse, children, parents or
siblings of a voter.
New York

N.Y. Elec. Law § 8-410 (McKinney
2019):
The absentee voter shall mark an
absentee ballot as provided for
paper ballots or ballots prepared
for counting by ballot counting
machines. He shall make no mark
or writing whatsoever upon the
ballot, except as above prescribed,
and shall see that it bears no such
mark or writing. He shall make no
mark or writing whatsoever on the
outside of the ballot. After
marking the ballot or ballots he
shall fold each such ballot and
enclose them in the envelope and
seal the envelope. He shall then
take and subscribe the oath on the
envelope, with blanks properly
filled in. The envelope, containing
the ballot or ballots, shall then be
mailed or delivered to the board of
elections of the county or city of
his residence.

App. 231
North Carolina

N.C. Gen. Stat. Ann. § 163A1310(b)(1) (West 2018):
All ballots issued under the
provisions of this Part and Part 2
of Article 21 of this Chapter shall
be transmitted by mail or by
commercial courier service, at the
voter’s expense, or delivered in
person, or by the voter’s near
relative or verifiable legal
guardian and received by the
county board not later than 5:00
p.m. on the day of the statewide
primary or general election or
county bond election. Ballots
issued under the provisions of
Part 2 of Article 21 of this Chapter
may also be electronically
transmitted.

North Dakota

N.D. Cent. Code Ann. § 16.1-0708(1) (West 2019):
Upon receipt of an application for
an official ballot properly filled out
and duly signed, or as soon
thereafter as the official ballot for
the precinct in which the applicant
resides has been prepared, the
county auditor, city auditor, or
business manager of the school
district, as the case may be, shall

App. 232
send to the absent voter by mail,
at the expense of the political
subdivision conducting the
election, one official ballot, or
personally deliver the ballot to the
applicant or the applicant’s agent,
which agent may not, at that time,
be a candidate for any office to be
voted upon by the absent voter.
The agent shall sign the agent’s
name before receiving the ballot
and deposit with the auditor or
business manager of the school
district, as the case may be,
authorization in writing from the
applicant to receive the ballot or
according to requirements set
forth for signature by mark. The
auditor or business manager of the
school district, as the case may be,
may not provide an absent voter’s
ballot to a person acting as an
agent who cannot provide a
signed, written authorization from
an applicant. No person may
receive compensation, including
money, goods, or services, for
acting as an agent for an elector,
nor may a person act as an agent
for more than four electors in any
one election. A voter voting by
absentee ballot may not require
the political subdivision providing

App. 233
the ballot to bear the expense of
the return postage for an absentee
ballot.
Northern
Mariana
Islands

1 N. Mar. I. Code § 6212(a) (2010):
The Commission shall provide to
any registered voter entitled to
vote by absentee ballot and who
applied for one, an official ballot, a
ballot envelope, an affidavit
prescribed by the Commission,
and a reply envelope. The
absentee voter shall mark the
ballot in the usual manner
provided by law and in a manner
such that no other person can
know how the ballot is marked.
The absentee voter shall then
deposit the ballot in the ballot
envelope and securely seal it. The
absentee voter shall then complete
and execute the affidavit. The
ballot envelope and the affidavit
shall then be enclosed and sealed
in the covering reply envelope and
mailed via standard U.S. First
Class Mail only or sent by
commercial courier service to the
commission at the expense of the
voter. Such ballots and affidavits
will not be counted by the
Commission unless mailed. For

App. 234
the purpose of this part, the word
“mailed” includes ballots and
affidavits sent through the postal
or courier services.
Ohio

Ohio Rev. Code Ann. § 3509.05(A)
(West 2016):
The elector shall mail the
identification envelope to the
director from whom it was
received in the return envelope,
postage prepaid, or the elector
may personally deliver it to the
director, or the spouse of the
elector, the father, mother, fatherin-law,
mother-in-law,
grandfather, grandmother,
brother, or sister of the whole or
half blood, or the son, daughter,
adopting parent, adopted child,
stepparent, stepchild, uncle, aunt,
nephew, or niece of the elector
may deliver it to the director.

Oklahoma

Okla. Stat. Ann. tit. 26, § 14108(C) (West 2019):
Any voter who hand delivers his or
her ballot as provided in
subsection A of this section shall
provide proof of identity to the
county election board and shall
hand deliver the ballot no later

App. 235
than the end of regular business
hours on the day prior to the date
of the election. For purposes of
this section, “proof of identity”
shall have the same meaning as
used in subsection A of Section 7114 of this title.
Oregon

Or. Rev. Stat. Ann. § 254.470(6)
(West 2018):
(6)(a) Upon receipt of any ballot
described in this section, the
elector shall mark the ballot, sign
the return identification envelope
supplied with the ballot and
comply with the instructions
provided with the ballot.
(b) The elector may return the
marked ballot to the county clerk
by United States mail or by
depositing the ballot at the office
of the county clerk, at any place of
deposit designated by the county
clerk or at any location described
in ORS 254.472 or 254.474.
(c) The ballot must be returned in
the return identification envelope.
If the elector returns the ballot by
mail, the elector must provide the
postage.

App. 236
(d) Subject to paragraph (e) of this
subsection, if a person returns a
ballot for an elector, the person
shall deposit the ballot in a
manner described in paragraph (b)
of this subsection not later than
two days after receiving the ballot.
Pennsylvania

25 Pa. Stat. and Cons. Stat. Ann.
§ 3146.6(a)(1) (West 2019)
(footnote omitted):
Any elector who submits an
Emergency Application and
receives an absentee ballot in
accordance with section
1302.1(a.2) or (c) shall mark the
ballot on or before eight o’clock
P.M. on the day of the primary or
election. This envelope shall then
be placed in the second one, on
which is printed the form of
declaration of the elector, and the
address of the elector’s county
board of election and the local
election district of the elector. The
elector shall then fill out, date and
sign the declaration printed on
such envelope. Such envelope
shall then be securely sealed and
the elector shall send same by
mail, postage prepaid, except
where franked, or deliver it in

App. 237
person to said county board of
election.
Puerto Rico

P. R. Laws Ann. tit. 16, § 4177
(2010):
Any voter entitled to vote as an
absentee voter in a specific
election, as established in § 4176
of this title, shall cast his/her vote
in accordance with the procedure
provided by the Commission
through regulations. Only those
absentee ballots sent on or before
an election, and received on or
before the last day of general
canvass for that election, shall be
considered validly cast pursuant
to this Section. The Commission
shall establish through
regulations the manner in which
the mailing date of absentee
ballots shall be validated.

Rhode Island

17 R.I. Gen. Laws Ann. § 17-202.1(d) (West 2019):
In addition to those requirements
set forth elsewhere in this
chapter, a mail ballot, in order to
be valid, must have been cast in
conformance with the following
procedures:

App. 238
(1) All mail ballots issued
pursuant to subdivision 17-20-2(1)
shall be mailed to the elector at
the Rhode Island address provided
by the elector on the application.
In order to be valid, the signature
on all certifying envelopes
containing a voted ballot must be
made before a notary public or
before two (2) witnesses who shall
set forth their addresses on the
form.
(2) All applications for mail ballots
pursuant to § 17-20-2(2) must
state under oath the name and
location of the hospital,
convalescent home, nursing home,
or similar institution where the
elector is confined. All mail ballots
issued pursuant to subdivision 1720-2(2) shall be delivered to the
elector at the hospital,
convalescent home, nursing home,
or similar institution where the
elector is confined; and the ballots
shall be voted and witnessed in
conformance with the provisions of
§ 17-20-14.
(3) All mail ballots issued
pursuant to subdivision 17-20-2(3)
shall be mailed to the address

App. 239
provided by the elector on the
application or sent to the board of
canvassers in the city or town
where the elector maintains his or
her voting residence. In order to
be valid, the signature of the
elector on the certifying envelope
containing voted ballots does not
need to be notarized or witnessed.
Any voter qualified to receive a
mail ballot pursuant to
subdivision 17-20-2(3) shall also
be entitled to cast a ballot
pursuant to the provisions of
United States Public Law 99-410
(“UOCAVA Act”).
(4) All mail ballots issued
pursuant to subdivision 17-20-2(4)
may be mailed to the elector at the
address within the United States
provided by the elector on the
application or sent to the board of
canvassers in the city or town
where the elector maintains his or
her voting residence. In order to
be valid, the signature on all
certifying envelopes containing a
voted ballot must be made before
a notary public, or other person
authorized by law to administer
oaths where signed, or where the
elector voted, or before two (2)

App. 240
witnesses who shall set forth their
addresses on the form. In order to
be valid, all ballots sent to the
elector at the board of canvassers
must be voted in conformance
with the provisions of § 17-2014.2.
South Carolina

S.C. Code Ann. § 7-15-385 (2019):
Upon receipt of the ballot or
ballots, the absentee ballot
applicant must mark each ballot
on which he wishes to vote and
place each ballot in the single
envelope marked “Ballot Herein”
which in turn must be placed in
the return-addressed envelope.
The applicant must then return
the return-addressed envelope to
the board of voter registration and
elections by mail, by personal
delivery, or by authorizing another
person to return the envelope for
him. The authorization must be
given in writing on a form
prescribed by the State Election
Commission and must be turned
in to the board of voter
registration and elections at the
time the envelope is returned. The
voter must sign the form, or in the
event the voter cannot write

App. 241
because of a physical handicap or
illiteracy, the voter must make his
mark and have the mark
witnessed by someone designated
by the voter. The authorization
must be preserved as part of the
record of the election, and the
board of voter registration and
e l ec t i o n s m u s t n o t e t h e
authorization and the name of the
authorized returnee in the record
book required by Section 7-15-330.
A candidate or a member of a
candidate’s paid campaign staff
including volunteers reimbursed
for time expended on campaign
activity is not permitted to serve
as an authorized returnee for any
person unless the person is a
member of the voter’s immediate
family as defined in Section 7-15310. The oath set forth in Section
7-15-380 must be signed and
witnessed on each returned
envelope. The board of voter
registration and elections must
record in the record book required
by Section 7-15-330 the date the
return-addressed envelope with
witnessed oath and enclosed ballot
or ballots is received by the board.
The board must securely store the
envelopes in a locked box within

App. 242
the office of the board of voter
registration and elections.
South Dakota

S.D. Codified Laws § 12-19-2.2
(2019):
If a person is an authorized
messenger for more than one
voter, he must notify the person in
charge of the election of all voters
for whom he is a messenger.

Tennessee

Tenn. Code Ann. § 2-6-202(e)
(West 2017):
After receiving the absentee
voting supplies and completing the
ballot, the voter shall sign the
appropriate affidavit under
penalty of perjury. The effect of
the signature is to verify the
information as true and correct
and that the voter is eligible to
vote in the election. The voter
shall then mail the ballot.

Texas

Tex. Elec. Code Ann. § 86.006(f)
(West 2017) (footnote omitted):
A person commits an offense if the
person knowingly possesses an
official ballot or official carrier
envelope provided under this code
to another. Unless the person

App. 243
possessed the ballot or carrier
envelope with intent to defraud
the voter or the election authority,
this subsection does not apply to a
person who, on the date of the
offense, was:
(1) related to the voter within the
second degree by affinity or the
third degree by consanguinity, as
determined under Subchapter B,
Chapter 573, Government Code;
(2) physically living in the same
dwelling as the voter;
(3) an early voting clerk or a
deputy early voting clerk;
(4) a person who possesses a ballot
or carrier envelope solely for the
purpose of lawfully assisting a
voter who was eligible for
assistance under Section 86.010
and complied fully with:
(A) Section 86.010; and
(B) Section 86.0051, if assistance
was provided in order to deposit
the envelope in the mail or with a
common or contract carrier;

App. 244
(5) an employee of the United
States Postal Service working in
the normal course of the
employee’s authorized duties; or
(6) a common or contract carrier
working in the normal course of
the carrier’s authorized duties if
the official ballot is sealed in an
official carrier envelope that is
accompanied by an individual
delivery receipt for that particular
carrier envelope.
Texas

Tex. Elec. Code Ann.
§ 86.0052(a)(1) (West 2013)
(making it a crime if a person
“compensates another person for
depositing the carrier envelope in
the mail or with a common or
contract carrier as provided by
Section 86.0051(b), as part of any
performance-based compensation
scheme based on the number of
ballots deposited or in which
another person is presented with a
quota of ballots to deposit”).

Utah

Utah Code Ann. § 20A-3-306
(West 2019):
(1)(a) Except as provided by
Section 20A-1-308, to vote a mailin absentee ballot, the absentee

App. 245
voter shall:
(i) complete and sign the affidavit
on the envelope;
(ii) mark the votes on the absentee
ballot;
(iii) place the voted absentee ballot
in the envelope;
(iv) securely seal the envelope; and
(v) attach postage, unless voting in
accordance with Section 20A-3302, and deposit the envelope in
the mail or deliver it in person to
the election officer from whom the
ballot was obtained.
(b) Except as provided by Section
20A-1-308, to vote an absentee
ballot in person at the office of the
election officer, the absent voter
shall:
(i) complete and sign the affidavit
on the envelope;
(ii) mark the votes on the absentvoter ballot;
(iii) place the voted absent-voter

App. 246
ballot in the envelope;
(iv) securely seal the envelope; and
(v) give the ballot and envelope to
the election officer.
(2) Except as provided by Section
20A-1-308, an absentee ballot is
not valid unless:
(a) in the case of an absentee
ballot that is voted in person, the
ballot is:
(i) applied for and cast in person
at the office of the appropriate
election officer before 5 p.m. no
later than the Tuesday before
election day; or
(ii) submitted on election day at a
polling location in the political
subdivision where the absentee
voter resides;
(b) in the case of an absentee
ballot that is submitted by mail,
the ballot is:
(i) clearly postmarked before
election day, or otherwise clearly
marked by the post office as

App. 247
received by the post office before
election day; and
(ii) received in the office of the
election officer before noon on the
day of the official canvass
following the election; or
(c) in the case of a militaryoverseas ballot, the ballot is
submitted in accordance with
Section 20A-16-404.
(3) An absentee voter may submit
a completed absentee ballot at a
polling location in a political
subdivision holding the election, if
the absentee voter resides in the
political subdivision.
(4) An absentee voter may submit
an incomplete absentee ballot at a
polling location for the voting
precinct where the voter resides,
request that the ballot be declared
spoiled, and vote in person.
Vermont

Vt. Stat. Ann. tit. 17, § 2543 (West
2019):
(a) After marking the ballots and
signing the certificate on the
envelope, the early or absentee

App. 248
voter to whom the same are
addressed shall return the ballots
to the clerk of the town in which
he or she is a voter, in the manner
prescribed, except that in the case
of a voter to whom ballots are
delivered by justices, the ballots
shall be returned to the justices
calling upon him or her, and they
shall deliver them to the town
clerk.
(b) Once an early voter absentee
ballot has been returned to the
clerk in the envelope with the
signed certificate, it shall be
stored in a secure place and shall
not be returned to the voter for
any reason.
(c) If a ballot includes more than
one page, the early or absentee
voter need only return the page
upon which the voter has marked
his or her vote.
(d)(1) All early voter absentee
ballots returned as follows shall be
counted:
(A) by any means, to the town
clerk’s office before the close of

App. 249
business on the day preceding the
election;
(B) by mail, to the town clerk’s
office before the close of the polls
on the day of the election; and
(C) by hand delivery to the
presiding officer at the voter’s
polling place.
(2) An early voter absentee ballot
returned in a manner other than
those set forth in subdivision (1) of
this subsection shall not be
counted.
Virgin Islands

V.I. Code Ann. tit. 18, § 665
(2018):
(a) An absentee who has received
an absentee ballot may vote by
mailing or causing to be delivered
to the board of elections for the
proper election district such ballot
marked and sworn to, as follows:
After marking the ballot, the voter
shall enclose and seal it in the
envelope provided for that
purpose. He shall then swear and
subscribe to a self-administered
oath which shall be provided to

App. 250
the absentee on a printed form
along with the absentee ballot and
he shall further execute the
affidavit on such envelope and
shall enclose and seal the envelope
containing the ballot in the return
mailing envelope printed, as
provided in paragraph 3 of
subsection (a) of section 663 of this
title, with the name and address
of the board of elections for the
election district in which he
desires to vote, endorse thereon
his name and return address, and
shall then mail the envelope, or
cause it to be delivered, to the
board of elections; provided that
such envelope must be received by
the board no later than ten days
after the day of election for the
absentee vote to be counted.
Absentee ballots received from
overseas in franked envelopes, or
from persons who are members of
the Uniformed Services of the
United States or a spouse of any
member of the Uniformed Services
of the United States, shall be
counted if they are received by the
board no later than ten (10) days
after the day of the election. In the
case of a recount authorized by the
board, any ballot received by the

App. 251
board no later than 5 p.m. the day
before the recount shall be
counted.
(b) Any envelope containing an
absentee ballot mistakenly mailed
by the absentee voter to the
Supervisor of Elections contrary to
the provisions of this section shall
be mailed or delivered by the
Supervisor of Elections to the
proper board of elections if it can
be so mailed or delivered by him
before the time for the closing of
the polls on the day of election,
and if the proper board can be
determined without breaking open
the inner envelope containing the
ballot.
(c) All mailing envelopes
containing absentee ballots
received by a board of elections
under this section, whether
received in sufficient time for the
ballots to be counted as provided
in this chapter, or not, shall be
stamped or endorsed by a member
of the board or the clerk with the
date of their receipt in the board’s
office, and, if received on the day
of election, with the actual time of

App. 252
day received, and such record
shall be signed or initialed by the
board member or clerk making it.
Virginia

Va. Code Ann. § 24.2-707(A) (West
2019):
After the voter has marked his
absentee ballot, he shall (a)
enclose the ballot in the envelope
provided for that purpose, (b) seal
the envelope, (c) fill in and sign
the statement printed on the back
of the envelope in the presence of
a witness, who shall sign the same
envelope, (d) enclose the ballot
envelope and any required
assistance form within the
envelope directed to the general
registrar, and (e) seal that
envelope and mail it to the office
of the general registrar or deliver
it personally to the general
registrar. A voter’s failure to
provide in the statement on the
back of the envelope his full
middle name or his middle initial
shall not be a material omission,
rendering his ballot void, unless
the voter failed to provide in the
statement on the back of the
envelope his full first and last
name. A voter’s failure to provide

App. 253
the date, or any part of the date,
including the year, on which he
signed the statement printed on
the back of the envelope shall not
be considered a material omission
and shall not render his ballot
void. For purposes of this chapter,
“mail” shall include delivery by a
commercial delivery service, but
shall not include delivery by a
personal courier service or another
individual except as provided by
§§ 24.2-703.2 and 24.2-705.
Washington

Wa s h . R e v . C o d e A n n .
§ 29A.40.091(4) (West 2019):
The voter must be instructed to
either return the ballot to the
county auditor no later than 8:00
p.m. the day of the election or
primary, or mail the ballot to the
county auditor with a postmark no
later than the day of the election
or primary. Return envelopes for
all election ballots must include
prepaid postage. Service and
overseas voters must be provided
with instructions and a privacy
sheet for returning the ballot and
signed declaration by fax or email.
A voted ballot and signed
declaration returned by fax or

App. 254
email must be received by 8:00
p.m. on the day of the election or
primary.
West Virginia

W. Va. Code Ann. § 3-3-5(k) (West
2010):
Absentee ballots which are hand
delivered are to be accepted if they
are received by the official
designated to supervise and
conduct absentee voting no later
than the day preceding the
election: Provided, That no person
may hand deliver more than two
absentee ballots in any election
and any person hand delivering an
absentee ballot is required to
certify that he or she has not
examined or altered the ballot.
Any person who makes a false
certification violates the
provisions of article nine of this
chapter and is subject to those
provisions.

Wisconsin

Wis. Stat. Ann. § 6.87(4)(b) (West
2019):
The envelope shall be mailed by
the elector, or delivered in person,
to the municipal clerk issuing the
ballot or ballots.

App. 255
Wyoming

Wyo. Stat. Ann. § 22-9-113 (West
2019):
Upon receipt, a qualified elector
shall mark the ballot and sign the
affidavit. The ballot shall then be
sealed in the inner ballot envelope
and mailed or delivered to the
clerk.

App. 256

APPENDIX B
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-15845
D.C. No. 2:16-cv-01065-DLR
[Filed September 12, 2018]
___________________________________
)
THE DEMOCRATIC NATIONAL
COMMITTEE; DSCC, AKA Democratic )
Senatorial Campaign Committee;
)
THE ARIZONA DEMOCRATIC PARTY,
)
Plaintiffs-Appellants,
)
)
v.
)
)
MICHELE REAGAN, in her official
)
capacity as Secretary of State of
)
Arizona; MARK BRNOVICH, Attorney )
General, in his official capacity as
)
Arizona Attorney General,
)
Defendants-Appellees,
)
)
THE ARIZONA REPUBLICAN PARTY;
)
BILL GATES, Councilman; SUZANNE
)
)
KLAPP, Councilwoman; DEBBIE
LESKO, Sen.; TONY RIVERO, Rep.,
)
Intervenor-Defendants-Appellees. )
___________________________________ )

App. 257
OPINION
Appeal from the United States District Court
for the District of Arizona
Douglas L. Rayes, District Judge, Presiding
Argued and Submitted July 20, 2018
San Francisco, California
Filed September 12, 2018
Before: Sidney R. Thomas, Chief Judge, and Carlos
T. Bea and Sandra S. Ikuta, Circuit Judges.
Opinion by Judge Ikuta;
Dissent by Chief Judge Thomas
SUMMARY*
Civil Rights
The panel affirmed the district court’s judgment,
entered following a bench trial, in an action challenging
under the First, Fourteenth and Fifteenth
Amendments, and § 2 of the Voting Rights Act, two
state of Arizona election practices: (1) Arizona’s
requirement that in-person voters cast their ballots in
their assigned precinct, which Arizona enforces by not
counting ballots cast in the wrong precinct; and
(2) House Bill 2023, which makes it a felony for third
parties to collect early ballots from voters, unless the
collector falls into one of several exceptions.
*

This summary constitutes no part of the opinion of the court. It
has been prepared by court staff for the convenience of the reader.

App. 258
The panel held that the district court did not err in
holding that H.B. 2023 and the out of precinct policy
did not violate the First and Fourteenth Amendments
because the provisions imposed only a minimal burden
on voters and were adequately designed to serve
Arizona’s important regulatory interests. The panel
also concluded that the district court did not err in
holding that H.B. 2023 and the out of precinct policy
did not violate § 2 of the Voting Rights Act. The panel
held that given the minimal burden imposed by these
election practices, plaintiffs failed to show that
minority voters were deprived of an equal opportunity
to participate in the political process and elect
candidates of their choice. Finally, the panel concluded
that that the district court did not err in holding that
H.B. 2023 did not violate the Fifteenth Amendment
because plaintiffs failed to carry their burden of
showing that H.B. 2023 was enacted with
discriminatory intent.
Dissenting, Chief Judge Thomas stated that
Arizona’s policy of wholly discarding—rather than
partially counting—votes cast out-of-precinct had a
disproportionate effect on racial and ethnic minority
groups. He stated that the policy violated § 2 of the
Voting Rights Act, and it unconstitutionally burdened
the right to vote guaranteed by the First Amendment
and incorporated against the states under the
Fourteenth Amendment. He further wrote that H.B.
2023, which criminalizes most ballot collection, served
no purpose aside from making voting more difficult,
and keeping more African American, Hispanic, and
Native American voters from the polls than white
voters.

App. 259
COUNSEL
Bruce V. Spiva (argued), Alexander G. Tischenko,
Amanda R. Callais, Elisabeth C. Frost, and Marc E.
Elias, Perkins Coie LLP, Washington, D.C.; Sarah R.
Gonski and Daniel C. Barr, Perkins Coie LLP, Phoenix,
Arizona; Joshua L. Kaul, Perkins Coie LLP, Madison,
Wisconsin; for Plaintiffs-Appellants.
Dominic E. Draye (argued), Joseph E. La Rue, Karen J.
Hartman-Tellez, Kara M. Karlson, and Andrew G.
Pappas, Office of the Attorney General, Phoenix,
Arizona, for Defendants-Appellees.
Brett W. Johnson (argued) and Colin P. Ahler, Snell &
Wilmer LLP, Phoenix, Arizona, for IntervenorDefendants-Appellees.
OPINION
IKUTA, Circuit Judge:
The Democratic National Committee (DNC) and
other appellants1 sued the state of Arizona,2 raising
1

The appellants here (plaintiffs below) are the Democratic
National Committee, the Democratic Senatorial Campaign
Committee, and the Arizona Democratic Party. For convenience,
we refer to the appellants as “DNC.”

2

The appellees here (defendants below) are Arizona Secretary of
State Michele Reagan, in her official capacity, and Arizona
Attorney General Mark Brnovich, in his official capacity. The
intervenor-defendants/appellees are the Arizona Republican Party;
Debbie Lesko, an Arizona member of the U.S. House of
Representatives; Tony Rivero, a member of the Arizona House of
Representatives; Bill Gates, a member of the Maricopa County

App. 260
several challenges under the First, Fourteenth and
Fifteenth Amendments, and § 2 of the Voting Rights
Act of 1965 (VRA), 52 U.S.C. § 10301, against two state
election practices: (1) Arizona’s longstanding
requirement that in-person voters cast their ballots in
their assigned precinct, which Arizona enforces by not
counting ballots cast in the wrong precinct (referred to
by DNC as the out-of-precinct or OOP policy), and
(2) H.B. 2023, a recent legislative enactment which
precludes most third parties from collecting early
ballots from voters. After a lengthy trial involving the
testimony of 51 witnesses and over 230 evidentiary
exhibits, the district court rejected each of DNC’s
claims. Democratic Nat’l Comm. v. Reagan, —,
F.Supp.3d —, No. CV-16-01065-PHX-DLR, 2018 WL
2191664 (D. Ariz. May 10, 2018).
In deciding this case, the district court was tasked
with making primarily factual determinations. For
instance, a First and Fourteenth Amendment challenge
to an election rule involves the “intense[ly] factual
inquiry” of whether a plaintiff has carried the burden
of showing that challenged election laws impose a
severe burden on Arizona voters, or a subgroup thereof.
Gonzalez v. Arizona, 485 F.3d 1041, 1050 (9th Cir.
2007). A Fifteenth Amendment claim involves the
“pure question of fact” of whether the plaintiff has
carried the burden of showing that the state legislature
enacted the challenged law with a discriminatory
intent. Pullman-Standard v. Swint, 456 U.S. 273,
Board of Supervisors; and Suzanne Klapp, a City of Scottsdale
Councilwoman and Precinct Committeewoman. For convenience,
we refer to the appellees as “Arizona.”

App. 261
287–88 (1982). And in a VRA challenge, we defer to
“the district court’s superior factfinding capabilities,”
Smith v. Salt River Project Agric. Improvements &
Power Dist., 109 F.3d 586, 591 (9th Cir. 1997),
regarding whether the plaintiff has carried the burden
of showing that an election practice offers minorities
less opportunity “to participate in the political process
and to elect representatives of their choice.” 52 U.S.C.
§ 10301(b); see also Chisom v. Roemer, 501 U.S. 380,
397 (1991). We must affirm these factual findings
unless they are “clearly erroneous.” Anderson v.
Bessemer City, 470 U.S. 564, 573 (1985).
In its detailed 83-page opinion, the district court
found that DNC failed to meet its burden on these
critical factual questions. Its analysis on these factual
inquiries was thorough and evenhanded, with findings
well-supported by the record. Given the district court’s
extensive factual findings, much of DNC’s appeal
amounts to a request that we reweigh and reevaluate
the evidence in the record. But we may not “duplicate
the role of the lower court” or reject factual findings
that, as here, are not clearly erroneous. Id. at 573. Nor
did the district court err in identifying and applying
the correct legal standard to each of DNC’s claims.
Accordingly, we conclude that the district court did
not err in holding that H.B. 2023 and the OOP policy
did not violate the First and Fourteenth Amendments
because they imposed only a minimal burden on voters
and were adequately designed to serve Arizona’s
important regulatory interests. We also conclude that
the district court did not err in holding that H.B. 2023
and the OOP policy did not violate § 2 of the VRA.

App. 262
Given the minimal burden imposed by these election
practices, DNC failed to show that minority voters
were deprived of an equal opportunity to participate in
the political process and elect candidates of their
choice. Finally, we conclude that the district court did
not err in holding that H.B. 2023 did not violate the
Fifteenth Amendment, because DNC failed to carry its
burden of showing that H.B. 2023 was enacted with
discriminatory intent. We reject DNC’s urging to toss
out the district court’s findings, reweigh the facts and
reach opposite conclusions. As such, we affirm the
district court.
I
The district court’s order denying DNC’s claims sets
forth the facts in detail, Reagan, 2018 WL 2191664, at
*1–9, so we provide only a brief factual and procedural
summary here. The district court’s factual findings are
discussed in detail as they become relevant to our
analysis.
A
We begin by reviewing Arizona’s election system.
Arizona permits voters to vote either in person on
Election Day or by early mail ballot. Id. at *7, *12. The
vast majority of Arizonans vote by early ballot. For
instance, only about 20 percent of the votes in the 2016
general election were cast in person. Id. at *12.
Most Arizona counties conduct in-person voting
through a precinct-based system. Arizona gives each
county the responsibility to “establish a convenient
number of election precincts in the county and define
the boundaries of [those] precincts.” Ariz. Rev. Stat.

App. 263
§ 16-411(A). Before an election, the County Board of
Supervisors (the County’s legislative unit) must
designate at least one polling place per precinct. Id.
§ 16-411(B). Arizona law provides some flexibility for
counties to combine precincts if each county’s board of
supervisors makes specific findings. See id. § 16411(B)(2).
Arizona has long required in-person voters to cast
their ballots in their assigned precinct and has enforced
this system, since at least 1970, by counting only votes
cast in the correct precinct. See Ariz. Rev. Stat. §§ 16122, 16-135, 16-584 (codified in 1979); 1970 Ariz. Sess.
Laws, ch. 151, § 64 (amending Ariz. Rev. Stat. § 16895); Ariz. Rev. Stat. § 16-102 (1974). If an Arizona
voter’s name does not appear on the voting register at
the polling place on Election Day (either because the
voter recently moved or due to inaccuracies in the
official records), the voter may vote only by provisional
ballot. Ariz. Rev. Stat. §§ 16-122, 16-135, 16-584. Later,
the state reviews all provisional ballots and counts
those votes cast by voters confirmed to be eligible to
vote. Id. §§ 16-135(D), 16-584(D). A provisional ballot
cast outside of the voter’s correct precinct is not
counted. Id. (As mentioned above, DNC refers to
Arizona’s rejection of improperly cast ballots as
Arizona’s OOP policy.)
Recently, Arizona has permitted counties to choose
between the traditional precinct model and “voting
centers,” wherein voters from multiple precincts can
vote at a single location. Id. § 16-411(B)(4). Each voting
center must be equipped to print a specific ballot,
correlated to each voter’s particular district, that

App. 264
includes all races in which the voter is eligible to vote.
Reagan, 2018 WL 2191664, at *9. Six rural and
sparsely populated counties—Graham, Greenlee,
Cochise, Navajo, Yavapai, and Yuma—have adopted
the voting center model. Id.
As noted above, most Arizona voters (roughly 80
percent in the 2016 general election) do not vote in
person. Arizona law permits “[a]ny qualified elector” to
“vote by early ballot.” Ariz. Rev. Stat. § 16-541(A).3
Early voting can occur by mail or in person at an onsite early voting location in the 27 days before an
election. See id. § 16-542(D). All Arizona counties
operate at least one on-site early voting location.
Reagan, 2018 WL 2191664, at *7. Voters may also
return their ballots in person at any polling place
without waiting in line, and several counties
additionally provide special drop boxes for early ballot
submission. Id. Moreover, voters can vote early by
mail, either for an individual election or by having
their names added to a permanent early voting list. Id.
An early ballot is mailed to every person on that list as
a matter of course no later than the first day of the
early voting period. Ariz. Rev. Stat. § 16-544(F). Voters
may return their early ballot by mail at no cost, id.
§ 16-542(C), but it must be received by 7:00 p.m. on
Election Day, id. § 16-548(A).
Since 1992, Arizona has prohibited any person other
than the voter from having “possession of that elector’s

3

A “qualified elector” is any person at least eighteen years of age
on or before the date of the election “who is properly registered to
vote.” Ariz. Rev. Stat. § 16-121(A).

App. 265
unvoted absentee ballot.” See 1991 Ariz. Legis. Serv.
Ch. 310, § 22 (S.B. 1390) (West). In 1997, the Arizona
legislature expanded that prohibition to prevent any
person other than the voter from having possession of
any type of unvoted early ballot. See 1997 Ariz. Legis.
Serv. Ch. 5, § 18 (S.B. 1003) (West) (codified at Ariz.
Rev. Stat. § 16-542(D)). As explained by the Supreme
Court of Arizona, regulations on the distribution of
absentee and early ballots advance Arizona’s
constitutional interest in secret voting, see Ariz. Const.
art. VII, § 1, “by setting forth procedural safeguards to
prevent undue influence, fraud, ballot tampering, and
voter intimidation,” Miller v. Picacho Elementary Sch.
Dist. No. 33, 179 Ariz. 178, 180 (1994) (en banc).
Arizona has long supplemented its protection of the
early voting process through the use of penal
provisions, as set forth in section 16-1005 of Arizona’s
statutes. For example, since 1999, “[a]ny person who
knowingly marks a voted or unvoted ballot or ballot
envelope with the intent to fix an election for that
person’s own benefit . . . is guilty of a class 5 felony.”
1999 Ariz. Legis. Serv. Ch. 32, § 12 (S.B. 1227) (codified
as amended at Ariz. Rev. Stat. § 16-1005(A)). And in
2011, Arizona made offering or providing any
consideration to acquire a voted or unvoted early ballot
a class 5 felony. See 2011 Ariz. Legis. Serv. Ch. 105, § 3
(S.B. 1412) (codified at Ariz. Rev. Stat. § 16-1005(B)).
Since at least 2002, individuals and groups in
Arizona have collected early ballots from voters. While
distribution of early ballots had been strictly regulated
for decades, see 1997 Ariz. Legis. Serv. Ch. 5, § 18 (S.B.
1003) (West) (codified at Ariz. Rev. Stat. § 16-542(D)),

App. 266
ballot collection by third parties was not. This changed
in 2016, when Arizona revised its early voting process,
as defined in section 16-1005, by enacting H.B. 2023 to
regulate the collection of early ballots. This law added
the following provisions to the existing penalties for
persons abusing the early voting process:
H. A person who knowingly collects voted or
unvoted early ballots from another person is
guilty of a class 6 felony. An election official, a
United States postal service worker or any other
person who is allowed by law to transmit United
States mail is deemed not to have collected an
early ballot if the official, worker or other person
is engaged in official duties.
I. Subsection H of this section does not apply to:
1. An election held by a special taxing district
formed pursuant to title 48 for the purpose of
protecting or providing services to
agricultural lands or crops and that is
authorized to conduct elections pursuant to
title 48.
2. A family member, household member or
caregiver of the voter. For the purposes of
this paragraph:
(a) “Caregiver” means a person who
provides medical or health care assistance
to the voter in a residence, nursing care
institution, hospice facility, assisted living
center, assisted living facility, assisted
living home, residential care institution,

App. 267
adult day health care facility or adult
foster care home.
(b) “Collects” means to gain possession or
control of an early ballot.
(c) “Family member” means a person who
is related to the voter by blood, marriage,
adoption or legal guardianship.
(d) “Household member” means a person
who resides at the same residence as the
voter.
Ariz. Rev. Stat. § 16-1005(H)–(I).
This amendment to section 16-1005 makes it a
felony for third parties to collect early ballots from
voters unless the collector falls into one of several
exceptions. See id. The prohibition does not apply to
election officials acting as such, mail carriers acting as
such, any family members, any persons who reside at
the same residence as the voter, or caregivers, defined
as any person who provides medical or health care
assistance to voters in a range of adult residences and
facilities. Id. § 16-1005(I)(2). H.B. 2023 does not
provide that ballots collected in violation of this statute
are disqualified or disregarded in the final election
tally.
B
We next turn to the history of this case. In April
2016, DNC and other appellants sued the state of
Arizona, challenging H.B. 2023 and Arizona’s OOP
policy.

App. 268
In separate motions, DNC sought preliminary
injunctions against H.B. 2023 and the OOP policy,
respectively. On September 23, 2016, the district court
denied the motion to preliminarily enjoin enforcement
of H.B. 2023. The district court subsequently denied
DNC’s motion for a preliminary injunction pending
appeal. On October 11, 2016, the district court likewise
declined to issue a preliminary injunction with respect
to the OOP policy.
DNC appealed both denials. A motions panel denied
DNC’s request to issue an injunction pending appeal of
the district court’s ruling on the challenge to H.B. 2023,
but the two appeals were expedited and calendared for
arguments before a three-judge panel on October 19
and 26, 2016, respectively. The expedited appeals
proceeded at a rapid pace. On October 28, 2016, a
divided panel affirmed the district court’s denial of a
preliminary injunction as to H.B. 2023. See Feldman v.
Ariz. Sec’y of State’s Office (Feldman I), 840 F.3d 1057
(9th Cir. 2016). The case was called en banc the same
day, and on November 2, 2016—after a highly
compressed five-day memo exchange and voting
period—a majority of the active judges on this court
voted to hear the appeal of the district court’s denial of
a preliminary injunction against H.B. 2023 en banc.
Two days later, the en banc panel reconsidered the
motions panel’s earlier denial of an injunction pending
appeal and granted DNC’s motion for an injunction
pending a resolution of the preliminary injunction
appeal. See Feldman v. Ariz. Sec’y of State’s Office
(Feldman III), 843 F.3d 366 (9th Cir. 2016) (en banc).
In so doing, the six-judge majority stated that “we
grant the motion for a preliminary injunction pending

App. 269
appeal essentially for the reasons provided in the
dissent in [Feldman I].” Id. at 367 (citing Feldman I,
840 F.3d at 1085–98). The Supreme Court summarily
stayed this injunction pending appeal the next day. See
Ariz. Sec’y of State’s Office v. Feldman, 137 S. Ct. 446,
446 (2016) (mem.) (“The injunction issued by the
United States Court of Appeals for the Ninth Circuit on
November 4, 2016, in case No. 16-16698, is stayed
pending final disposition of the appeal by that court.”).4
The appeal of the district court’s denial of a
preliminary injunction as to the OOP policy also
proceeded apace. On November 2, 2016, a divided panel
affirmed the district court. See Feldman v. Ariz. Sec’y
of State’s Office (Feldman II), 842 F.3d 613 (9th Cir.
2016). Two days later a majority of active judges voted
to hear the OOP policy appeal en banc, and the en banc
panel denied DNC’s motion for an injunction pending

4

Although Feldman III referenced the dissent in Feldman I, it did
not incorporate it nor adopt any specific reasoning from the
dissenting opinion, Because Feldman III did not provide a “fully
considered appellate ruling on an issue of law,” we are guided by
our general rule that “decisions at the preliminary injunction
phase do not constitute the law of the case.” Ranchers Cattlemen
Action Legal Fund United Stockgrowers of Am. v. U.S. Dept. of
Agric., 499 F.3d 1108, 1114 (9th Cir. 2007) (first quoting 18
Charles Alan Wright & Arthur R. Miller Federal Practice and
Procedure § 4478.5 (2002); then citing S. Or. Barter Fair v.
Jackson County, 372 F.3d 1128, 1136 (9th Cir. 2004)). Moreover,
the Supreme Court’s immediate stay of Feldman III’s injunction
pending appeal “undercut[s] [Feldman III’s] theory or reasoning”
to a significant extent. Miller v. Gammie, 335 F.3d 889, 900 (9th
Cir. 2003) (en banc). Therefore, we conclude that Feldman III’s
reference to the dissent in Feldman I does not make that dissent
law of the case or of the circuit.

App. 270
resolution of the appeal. See Feldman v. Ariz. Sec’y of
State’s Office, 840 F.3d 1165 (9th Cir. 2016) (mem.) (per
curiam) (en banc). As a result of these proceedings,
both H.B. 2023 and the OOP policy remained in effect
for the November 2016 election. The en banc panel did
not reach the merits of DNC’s appeal of the district
court’s denial of the preliminary injunctions against
H.B. 2023 and the OOP policy.5
DNC’s challenge proceeded in district court. DNC
argued that H.B. 2023 imposed undue burdens on the
right to vote, in violation of the First and Fourteenth
Amendments. DNC also claimed that H.B. 2023
violated § 2 of the VRA because it resulted in a
discriminatory burden on voting rights prohibited by
that section. Finally, DNC claimed that H.B. 2023 was
enacted with discriminatory intent, in violation of the
Fifteenth Amendment. DNC raised similar claims that
the OOP policy imposed an unconstitutional burden on
the right to vote and violated § 2 of the VRA, but did
not claim that the OOP policy had a discriminatory
purpose.
The district court developed an extensive factual
record on all five claims. Over the course of a ten-day
bench trial in October 2017, the parties presented live
testimony from 7 expert witnesses and 33 lay
witnesses, in addition to the testimony of 11 witnesses
by deposition. Reagan, 2018 WL 2191664, at *2–7. The

5

After the district court rendered its decision on the merits and
final judgment, the en banc panel dismissed the interlocutory
appeals of the denied preliminary injunctions as moot.

App. 271
district court also considered over 230 exhibits
admitted into evidence.
Seven months later, on May 10, 2018, the district
court issued its amended 83-page findings of fact and
conclusions of law, holding that DNC had failed to
prove its constitutional and VRA claims. Reagan, 2018
WL 2191664.
DNC timely appealed that same day. Fed. R. App.
P. 4(a)(1)(B). It also moved for an injunction pending
resolution of its appeal. The en banc panel voted not to
exercise jurisdiction over the appeal, and the case was
assigned to the original three-judge panel. We granted
DNC’s motion to expedite the appeal in light of the
upcoming 2018 election.6
II
The district court exercised jurisdiction under 28
U.S.C. § 1331, and we have jurisdiction pursuant to 28
U.S.C. § 1291.
Following a bench trial, we review de novo the
district court’s conclusions of law and review its
findings of fact for clear error. Navajo Nation v. U.S.
Forest Serv., 535 F.3d 1058, 1067 (9th Cir. 2008) (en
banc). “The clear error standard is significantly
deferential.” Cohen v. U.S. Dist. Court, 586 F.3d 703,
708 (9th Cir. 2009). “[T]o be clearly erroneous, a
decision must . . . strike [a court] as wrong with the
force of a five-week old, unrefrigerated dead fish.”
6

We deferred consideration of DNC’s motion for an injunction
pending appeal. Because we affirm the district court, we now
DENY that motion as moot.

App. 272
Ocean Garden, Inc. v. Marktrade Co., Inc., 953 F.2d
500, 502 (9th Cir. 1991) (quoting Parts and Elec.
Motors, Inc. v. Sterling Elec., Inc., 866 F.2d 228, 233
(7th Cir. 1988)). “This standard plainly does not entitle
a reviewing court to reverse the finding of the trier of
fact simply because it is convinced that it would have
decided the case differently.” Bessemer City, 470 U.S.
at 573. “If the district court’s account of the evidence is
plausible in light of the record viewed in its entirety,
the court of appeals may not reverse it even though
convinced that had it been sitting as the trier of fact, it
would have weighed the evidence differently.” Id. at
573–74. That is, “[w]here there are two permissible
views of the evidence, the factfinder’s choice between
them cannot be clearly erroneous.” Id. at 574.
III
We first address DNC’s challenges to H.B. 2023.
DNC argues that (1) H.B. 2023 unduly burdens the
right to vote, in violation of the First and Fourteenth
Amendments; (2) H.B. 2023 disproportionately impacts
minority voters in a manner that violates § 2 of the
VRA; and (3) H.B. 2023 was enacted with
discriminatory intent, in violation of the Fifteenth
Amendment.7 We address each claim in turn.

7

DNC does not “specifically and distinctly” argue that H.B. 2023
was enacted with a discriminatory purpose in violation of § 2 of the
VRA, and therefore we do not consider this issue. Greenwood v.
FAA, 28 F.3d 971, 977 (9th Cir. 1994).

App. 273
A
We begin with DNC’s claim that H.B. 2023 violates
Arizona voters’ First and Fourteenth Amendment
rights.
1
The Constitution vests the States with a “broad
power to prescribe the ‘Times, Places and Manner of
holding Elections for Senators and Representatives.’”
Clingman v. Beaver, 544 U.S. 581, 586 (2005) (quoting
U.S. Const., art. 1, § 4, cl. 1). This power under the
Elections Clause to regulate elections for federal offices
“is matched by state control over the election process
for state offices.” Id. “Governments necessarily ‘must
play an active role in structuring elections,’” Pub.
Integrity All., Inc. v. City of Tucson, 836 F.3d 1019,
1024 (9th Cir. 2016) (en banc) (quoting Burdick v.
Takushi, 504 U.S. 428, 433 (1992)), and “as a practical
matter, there must be a substantial regulation of
elections if they are to be fair and honest and if some
sort of order, rather than chaos, is to accompany the
democratic processes,” Storer v. Brown, 415 U.S. 724,
730 (1974). However, when a state exercises its power
and discharges its obligation “[t]o achieve these
necessary objectives,” the resulting laws “inevitably
affect[]—at least to some degree—the individual’s right
to vote and his right to associate with others for
political ends.” Anderson v. Celebrezze, 460 U.S. 780,
788 (1983).
Because a state has the authority and obligation to
manage the election process, “not all election laws
impose constitutionally suspect burdens on that right.”

App. 274
Short v. Brown, 893 F.3d 671, 676 (9th Cir. 2018).
There is no “‘litmus-paper test’ that will separate valid
from invalid restrictions.” Anderson, 460 U.S. at 789
(quoting Storer, 415 U.S. at 730). Rather, “a more
flexible standard applies.” Burdick, 504 U.S. at 434. “A
court considering a challenge to a state election law
must weigh [1] ‘the character and magnitude of the
asserted injury to the rights protected by the First and
Fourteenth Amendments that the plaintiff seeks to
vindicate’ against [2] ‘the precise interests put forward
by the State as justifications for the burden imposed by
its rule,’ taking into consideration [3] ‘the extent to
which those interests make it necessary to burden the
plaintiff’s rights.’” Id. (quoting Anderson, 460 U.S. at
789). This framework is generally referred to as the
Anderson/Burdick balancing test.
The first prong of this test, the magnitude of the
burden imposed on voters by the election law, “is a
factual question on which the plaintiff bears the
burden of proof.” Democratic Party of Haw. v. Nago,
833 F.3d 1119, 1122–24 (9th Cir. 2016) (citing Cal.
Democratic Party v. Jones, 530 U.S. 567 (2000));
Gonzalez, 485 F.3d at 1050 (noting that whether an
election law imposes a severe burden is an “intense[ly]
factual inquiry”). In addition to considering the burden
on the electorate as a whole, courts may also consider
whether the law has a heavier impact on subgroups,
Pub. Integrity All., 836 F.3d at 1025 n.2, but only if the
plaintiff adduces evidence sufficient to show the size of
the subgroup and quantify how the subgroup’s special
characteristics makes the election law more
burdensome. Thus, Crawford v. Marion County
Election Board acknowledged the argument that a

App. 275
voter photo identification (ID) requirement might
impose a heavier burden on “homeless persons[,]
persons with a religious objection to being
photographed,” and those “who may have difficulty
obtaining a birth certificate,” but declined to undertake
a subgroup analysis because the evidence was
insufficient to show the size of such subgroups or to
quantify the additional burden on those voters. 553
U.S. 181, 199, 200–03 (2008). Accordingly, it is an error
to consider “the burden that the challenged provisions
uniquely place” on a subgroup of voters in the absence
of “quantifiable evidence from which an arbiter could
gauge the frequency with which this narrow class of
voters has been or will become disenfranchised as a
result of [those provisions].” Ne. Ohio Coal. for the
Homeless v. Husted, 837 F.3d 612, 631 (6th Cir. 2016).
After determining the severity of the burden, the
court must then identify the state’s justifications for
the law, and consider whether those interests make it
“necessary to burden the plaintiff’s rights.” Anderson,
460 U.S. at 789. As we have emphasized, this inquiry
does not necessarily mean that the state is “required to
show that its system is narrowly tailored—that is, is
the one best tailored to achieve its purposes.” Dudum
v. Arntz, 640 F.3d 1098, 1114 (9th Cir. 2011). Rather,
this step involves a “balancing and means-end fit
framework.” Ariz. Green Party v. Reagan, 838 F.3d 983,
988 (9th Cir. 2016) (quoting Pub. Integrity All., 836
F.3d at 1024). The severity of the burden dictates the
closeness of the fit required, and the more severe the
burden, the “more compelling the state’s interest must
be.” Id.

App. 276
By contrast, “when a state election law provision
imposes only ‘reasonable, nondiscriminatory
restrictions’ upon the First and Fourteenth
Amendment rights of voters, ‘the State’s important
regulatory interests are generally sufficient to justify’
the restrictions.” Burdick, 504 U.S. at 434 (quoting
Anderson, 460 U.S. at 788); see also Ariz. Green Party,
838 F.3d at 988. In conducting this analysis, we are
particularly deferential when “the challenge is to an
electoral system, as opposed to a discrete election rule.”
Dudum, 640 F.3d at 1114.
2
Applying the Anderson/Burdick framework, the
district court found that H.B. 2023 did not
unconstitutionally burden the right to vote. First, the
court found that H.B. 2023 posed only a minimal
burden on Arizona voters as a whole. Twenty percent
of Arizonans voted in person in the prior 2016 general
election, and so were wholly unaffected. Reagan, 2018
WL 2191664, at *12. As to the 80 percent of Arizonans
who voted by mail, the district court noted that there
were no records of the number of voters who returned
their ballots with the assistance of third parties. Id.
After presenting various witnesses on this issue, DNC’s
counsel’s “best estimate of the number of voters
affected by H.B. 2023 based on the evidence at trial”
was “thousands . . . but I don’t have a precise number
of that.” Id. The court found that the evidence
suggested that “possibly fewer than 10,000 voters are
impacted” out of over 2.3 million voters. Id. Therefore,
the vast majority of Arizona voters were unaffected by
the law. Id.

App. 277
Second, the district court found that H.B. 2023
imposed a minimal burden on even the small number
of voters who had previously returned ballots with the
assistance of third parties. Because “[e]arly voters may
return their own ballots, either in person or by mail, or
they may entrust a family member, household member,
or caregiver to do the same,” the burden imposed by
H.B. 2023 “is the burden of traveling to a mail box, post
office, early ballot drop box, any polling place or vote
center (without waiting in line), or an authorized
election official’s office, either personally or with the
assistance of a statutorily authorized proxy, during a
27-day early voting period.” Id. Therefore, the court
found that H.B. 2023 “does not increase the ordinary
burdens traditionally associated with voting.” Id.
The district court then considered whether DNC
had shown that H.B. 2023 had a more severe impact on
particular subgroups of Arizona voters who have some
common circumstance that would cause them to face
special difficulties in voting without ballot collection
services, such as “communities that lack easy access to
outgoing mail services; the elderly, homebound, and
disabled voters; socioeconomically disadvantaged
voters who lack reliable transportation; [and] voters
who have trouble finding time to return mail because
they work multiple jobs or lack childcare services.”8 Id.

8

DNC also identified as a potential subgroup “voters who are
unfamiliar with the voting process and therefore do not vote
without assistance or tend to miss critical deadlines.” Reagan,
2018 WL 2191664, at *14. The district court found that
remembering relevant deadlines was not a burden on the right to
vote, and therefore not a basis for finding a special burden. Id.

App. 278
at *14. The court determined that the plaintiffs had not
made such a showing, because there was “insufficient
evidence from which to measure the burdens on
discrete subsets of voters” or to “quantify with any
degree of certainty” how many voters had previously
used ballot collection services. Id. Moreover, the district
court could not determine the number of those voters
who used those services merely “out of convenience or
personal preference, as opposed to meaningful
hardship,” and therefore could not evaluate whether
any of them would face a substantial burden in relying
on other means of voting offered by Arizona. Id.
Having identified these major gaps in DNC’s
evidence, the district court evaluated the evidence
presented. According to the district court, “the evidence
available largely shows that voters who have used
ballot collection services in the past have done so out of
convenience or personal preference.” Id. The court
discussed five voters who testified, Nellie Ruiz, Carolyn
Glover, Daniel Magos, Carmen Arias, and Marva
Gilbreath, explained their individual circumstances
and noted that each had successfully returned their
ballot except for Gilbreath, who simply forgot to timely
mail her ballot.9 Id. at *15. The district court also found
that Arizona provides accommodations to subgroups of
voters whose special characteristics might lead them to

9

The district court expressed “concerns about the credibility” of
the deposition testimony of a deceased witness, Victor Vasquez.
Reagan, 2018 WL 2191664, at *16. “When findings are based on
determinations regarding the credibility of witnesses, Rule 52(a)
demands even greater deference to the trial court’s findings.”
Bessemer City, 470 U.S. at 575.

App. 279
place a greater reliance on ballot collection. Id. at *14.
Specifically, for voters with mobility issues, Arizona
requires counties to provide special election boards,
which, upon timely request, will deliver a ballot to an
ill or disabled voter. Id. While finding that “relatively
few voters are aware of this service,” the district court
pointed out that DNC could educate voters as to its
availability. Id. Further, Arizona permits polling places
to offer curbside voting, allowing voters to pull up to
the curb by a polling place and have an election official
assist them at their car. Id. Arizona law also requires
employers to give their employees time off to vote in
person if an employee is scheduled for an Election Day
shift without at least a three-hour window to vote. Id.
at *15. Finally, the district court noted the many
exceptions in H.B. 2023, allowing voters to give their
early ballots to family members, household members,
caregivers, or election officials. Id.
Because the court found that H.B. 2023 imposed
only a minimal burden on Arizonans’ First and
Fourteenth Amendment rights, it held that defendants
had to show only that H.B. 2023 served important
regulatory interests. As summarized by the district
court, Arizona advanced two regulatory interests:
(1) “that H.B. 2023 is a prophylactic measure intended
to prevent absentee voter fraud by creating a chain of
custody for early ballots and minimizing the
opportunities for ballot tampering, loss, and
destruction”; and (2) “that H.B. 2023 improves and
maintains public confidence in election integrity.” Id. at
*18. The court found that these interests were
important. Id. at *19.

App. 280
Turning to a means-end fit, the court found that
given the de minimis nature of the burden imposed by
H.B. 2023, it did not need to be “the most narrowly
tailored provision,” so long as it reasonably advanced
the state’s interests. Id. at *20. Finding that it did so,
the court held that H.B. 2023 did not violate the First
and Fourteenth Amendments. Id. at *18–20.
3
We conclude that the district court did not err in its
Anderson/Burdick analysis. First, the district court’s
determination that H.B. 2023 imposes only a de
minimis burden on Arizona voters was not clearly
erroneous. See Crawford, 553 U.S. at 198 (holding that
“the inconvenience” of the process of going to the state
Bureau of Motor Vehicles to obtain an ID “does not
qualify as a substantial burden on the right to vote, or
even represent a significant increase over the usual
burdens of voting”). DNC does not directly dispute this
conclusion.
Rather, DNC argues that H.B. 2023 imposes severe
burdens on subgroups of voters unable to vote without
the third-party ballot collection services prohibited by
H.B. 2023. This argument fails. The district court did
not clearly err in finding that there was “insufficient
evidence from which to measure the burdens on
discrete subsets of voters,” Reagan, 2018 WL 2191664,
at *14, which is a threshold requirement to conducting
a subgroup analysis. See Crawford, 553 U.S. at 200–03.
The record shows that DNC’s witnesses could not
specify how many voters would have been unable to
vote without ballot collection services. For instance, a
Maricopa County Democratic Party organizer, Leah

App. 281
Gillespie, testified that some voters who used ballot
collection services told her that they had no other
means of voting, but her only example was of a friend
whose husband was supposed to deliver her ballot but
forgot it at home.10 Similarly, Arizona State Senator
Martin Quezada stated that his campaign received
ballot collection requests after H.B. 2023 took effect
and had been unable to provide rides to the polling
place or other assistance to all such voters. But he did
not know “how many of those people had family
members who could have turned in their ballot,” and
could only give his sense “that several of them lacked
anybody” who could do so. Moreover, DNC failed “to
produce a single voter to testify that H.B. 2023’s
limitations on who may collect an early mail ballot
would make voting significantly more difficult for her.”
Only one voter (Marva Gilbreath) testified that she did
not vote in the 2016 general election, because she “was
in the process of moving,” had no mailbox key due to
“misunderstandings with the realtor and things like
that,” and “didn’t know where the voting place was.”
This witness’s highly idiosyncratic circumstances do
not indicate that H.B. 2023 imposes a severe burden on
an identifiable subgroup of voters. Rather, burdens
“arising from life’s vagaries are neither so serious nor
so frequent as to raise any question about the
constitutionality of [the challenged law].” Id. at 197.
In sum, DNC’s evidence falls far short of the
necessary “quantifiable evidence from which an arbiter
10

Of course, had the husband not forgot, but had delivered the
vote, there would have been no violation of H.B. 2023, which
exempts family members. Ariz. Rev. Stat. § 16-1005(H)–(I).

App. 282
could gauge the frequency with which this narrow class
of voters has been or will become disenfranchised as a
result of [H.B. 2023].” Ne. Ohio Coal., 837 F.3d at 631;
cf. Crawford, 553 U.S. at 201–02 (declining to conduct
a subgroup analysis despite evidence of one indigent
voter who could not (or would not) pay for a birth
certificate and one homeless woman who was denied a
photo ID card because she lacked an address.).
The dissent disagrees, but its disagreement
here—as with the district court’s opinion generally—is
based on throwing out the district court’s factual
findings, reweighing the evidence, and reaching its own
factual conclusions. This approach is not only contrary
to the most basic principles of appellate review, but is
an approach that the Supreme Court has frequently
warned us to avoid. See Bessemer City, 470 U.S. at
574–75 (holding that the rationale for deference to the
trial court’s finding of fact is based not only on “the
superiority of the trial judge’s position to make
determinations of credibility,” but also on the judge’s
expertise in determination of fact, and ensuring that
“the trial on the merits should be ‘the main event . . .
rather than a tryout on the road’”) (quoting Wainwright
v. Sykes, 433 U.S. 72, 90 (1977)).
Here, for instance, the dissent seeks to revisit the
district court’s conclusion that DNC failed to carry its
burden of showing that H.B. 2023 imposed a heavy
burden on Native Americans. Dissent at 121–22.
Conducting its own factual evaluation, the dissent
claims that H.B. 2023 imposes a heavy burden on
Native Americans because a majority of them lack
home mail service. Dissent at 121. The dissent then

App. 283
speculates that many Native Americans may have
trouble getting to post offices, and may have different
family relationships than are indicated in H.B. 2023.
Dissent at 121–22. Of course, the dissent’s
determination that “it would have decided the case
differently” does not make the district court’s findings
clearly erroneous. Bessemer City, 470 U.S. at 573.
Indeed, even evidence that third-party ballot collection
is more useful to Native Americans than to other voters
does not compel the conclusion that H.B. 2023 imposes
a heavy burden on Native Americans’ ability to vote.
Most tellingly, the dissent does not meaningfully
address the district court’s most notable factual
finding: that not a single voter testified at trial that
H.B. 2023’s limitations would make voting significantly
more difficult. Although the dissent insists that there
was evidence to this effect, Dissent at 122, it cites only
to the testimony of a third-party ballot collector who
conceded that his organization had not attempted to
determine whether the voters they served could have
returned their ballots some other way. There is thus no
basis for holding that the district court’s findings were
clearly erroneous, and the dissent errs in arguing
otherwise.
The dissent also faults the district court’s decision
not to conduct a subgroup analysis because it “could
not determine a precise number of voters that had
relied on ballot collection in the past or predict a likely
number in the future.” Dissent at 122. According to the
dissent, this decision was based on a misunderstanding
of Crawford, and therefore constitutes legal error. We
disagree. The district court correctly relied on
Crawford in concluding that “on the basis of the

App. 284
evidence in the record it [was] not possible to quantify
either the magnitude of the burden on this narrow
class of voters or the portion of the burden imposed on
them that [was] fully justified.” Reagan, 2018 WL
2191664, at *14 (quoting Crawford, 553 U.S. at 200).
Accordingly, the court properly held that DNC did not
carry its burden of showing the existence of a relevant
subgroup.
Nor did the district court clearly err in finding that
any burden imposed by H.B. 2023 was further
minimized by Arizona’s many accommodations
available for those subgroups of voters that DNC
claims are burdened by H.B. 2023.11 Reagan, 2018 WL
2191664, at *14. For instance, the district court
reasonably found that the subgroup of voters who are
“confined as the result of a continuing illness or
physical disability,” Ariz. Rev. Stat. § 16-549(C), could
request ballots from special election boards, and the
burden of doing so was minimal, see Short, 893 F.3d at
677 (“To the extent that having to register to receive a
mailed ballot could be viewed as a burden, it is an
extremely small one, and certainly not one that
demands serious constitutional scrutiny.”). The district
court did not clearly err in finding that it was
irrelevant whether voters were widely aware of this
alternative, as nothing prevented DNC from informing

11

Given that DNC did not meet its burden of showing how large
the subgroup of specially burdened voters might be, see Democratic
Party of Haw., 833 F.3d at 1122–24, its unsupported claims that
Arizona’s many accommodations cannot adequately serve an
unquantified number of voters are unpersuasive.

App. 285
voters of and facilitating this procedure. Reagan, 2018
WL 2191664, at *14.
We conclude that the district court did not clearly
err in finding that DNC had failed both to quantify the
subgroups purportedly burdened by H.B. 2023 and to
show that Arizona’s alternatives did not ameliorate any
burden on them. Accordingly, there was no clear error
in the district court’s finding that H.B. 2023 imposed
only a minimal burden.
4
Next, DNC and the dissent contend that the district
court clearly erred in finding that H.B. 2023 serves
Arizona’s important regulatory interests because
Arizona did not adduce any direct evidence of voter
fraud. We reject this argument.
DNC does not dispute—nor could it—that Arizona’s
interest in “a prophylactic measure intended to prevent
absentee voter fraud” and to maintain public
confidence are facially important. Id. at *18; see
Crawford, 553 U.S. at 196 (“There is no question about
the legitimacy or importance of the State’s interest in
counting only the votes of eligible voters.”); Purcell v.
Gonzalez, 549 U.S. 1, 4 (2006) (explaining that
“[c]onfidence in the integrity of our electoral processes
is essential to the functioning of our participatory
democracy” and noting “the State’s compelling interest
in preventing voter fraud”).
Further, a state “need not show specific local
evidence of fraud in order to justify preventive
measures,” Voting for Am., Inc. v. Steen, 732 F.3d 382,
394 (5th Cir. 2013), nor is such evidence required to

App. 286
uphold a law that imposes minimal burdens under the
Anderson/Burdick framework, see Munro v. Socialist
Workers Party, 479 U.S. 189, 195 (1986) (explaining
that legislatures are “permitted to respond to potential
deficiencies in the electoral process with foresight
rather than reactively”). For example, in Crawford, the
challenged law addressed only in-person voter fraud,
and “[t]he record contain[ed] no evidence of any such
fraud actually occurring in Indiana at any time in its
history.” 553 U.S. at 194. Yet the controlling opinion
concluded that the law served Indiana’s interests in
preventing fraud, citing evidence of in-person and
absentee voter fraud in other jurisdictions and in
historical examples. Id. at 195–96 & nn.11–13.
Accordingly, H.B. 2023 serves Arizona’s important
interest in preventing voter fraud even without direct
evidence of ballot collection voter fraud in Arizona.12
The dissent proposes several meritless distinctions
between H.B. 2023 and the voter I.D. law in Crawford.
First, the dissent argues that unlike H.B. 2023,
Crawford’s voter I.D. law was “tied to ‘the state’s
interest in counting only the votes of eligible voters.’”

12

DNC’s reliance on a vacated Sixth Circuit opinion is
unpersuasive. See Ohio State Conference of the NAACP v. Husted,
768 F.3d 524 (6th Cir. 2014), vacated, No. 14-3877, 2014 WL
10384647 (6th Cir. Oct. 1, 2014). The Sixth Circuit has explained
that any persuasive value in Ohio State Conference’s analysis of
this point is limited to cases involving “significant although not
severe” burdens, Ohio Democratic Party v. Husted, 834 F.3d 620,
635 (6th Cir. 2016) (quoting Ohio State Conference, 768 F.3d at
539), and not those involving “minimal” burdens, id. (explaining
that the district court’s reliance on Ohio State Conference was “not
sound”).

App. 287
Dissent at 124 (quoting Crawford, 553 U.S. at 196). But
H.B. 2023’s regulation of third-party ballot collectors is
likewise tied to the state’s interest in ensuring the
integrity of the vote. As explained by the district court,
Arizona could reasonably conclude that H.B. 2023
reduced “opportunities for early ballots to be lost or
destroyed” by limiting the possession of early ballots to
“presumptively trustworthy proxies,” and also lessened
the potential for pressure or intimidation of voters, and
other forms of fraud and abuse. Reagan, 2018 WL
2191664, at *20; see infra at 32–33. Second the dissent
argues that Crawford is distinguishable because the
legislature in that case was motivated in-part by
“legitimate concerns,” while here the Arizona
legislature was “motivated by discriminatory intent,” or
by solely partisan interests. Dissent at 124. Again, we
reject the dissent’s factual findings because the district
court found that the legislature was not motivated by
discriminatory intent and only partially motivated by
partisan considerations, and these findings are not
clearly erroneous. Moreover, a legislature may act on
partisan considerations without violating the
constitution. See infra at 53–54.
Similarly, a court can reasonably conclude that a
challenged law serves the state’s interest in
maintaining “public confidence in the integrity of the
electoral process,” even in the absence of any evidence
that the public’s confidence had been undermined.
Crawford, 553 U.S. at 197. As several other circuits
have recognized, it is “practically self-evidently true”
that implementing a measure designed to prevent voter
fraud would instill public confidence. Ohio Democratic
Party v. Husted, 834 F.3d 620, 633 (6th Cir. 2016)

App. 288
(citing Crawford, 553 U.S. at 197); see Frank v. Walker,
768 F.3d 744, 750 (7th Cir. 2014) (noting that Crawford
took “as almost self-evidently true” the relationship
between a measure taken to prevent voter fraud and
promoting voter confidence). The district court did not
clearly err in finding that H.B. 2023 also serves this
important state interest.
5
DNC next argues that Arizona could have used less
burdensome means to pursue its regulatory interests
and H.B. 2023 could have been designed more
effectively. This argument also fails. Burdick expressly
declined to require that restrictions imposing minimal
burdens on voters’ rights be narrowly tailored. See 504
U.S. at 433. Consistent with Burdick, we upheld an
election restriction that furthered the interest of
“ensuring local representation by and geographic
diversity among elected officials” even though lessrestrictive means could have achieved the same
purposes. Pub. Integrity All., 836 F.3d at 1028.
Similarly, in Arizona Green Party, we rejected the
argument that the state must adopt a system of voting
deadlines “that is the most efficient possible,” in light
of the “de minimis burden” imposed by the existing
deadlines. 838 F.3d at 992 (citation omitted).
Here, the district court found that H.B. 2023
imposed a minimal burden, and that it was a
reasonable means for advancing the state’s interests. It
concluded that “[b]y limiting who may possess
another’s early ballot, H.B. 2023 reasonably reduces
opportunities for early ballots to be lost or destroyed.”
Reagan, 2018 WL 2191664, at *20. The district court

App. 289
also observed that H.B. 2023 “closely follows,” id., the
recommendation of a bipartisan national commission
on election reform to “reduce the risks of fraud and
abuse in absentee voting by prohibiting ‘third-party’
organizations, candidates, and political party activists
from handling absentee ballots,” id. (quoting Building
Confidence in U.S. Elections § 5.2 (Sept. 2005)).13 These

13

The district court took judicial notice of the report of the
Commission on Federal Election Reform chaired by former
President Jimmy Carter and former Secretary of State James A.
Baker III. Reagan, 2018 WL 2191664, at *20 n.12. The district
court noted that the report was cited favorably in Crawford, which
remarked that “[t]he historical perceptions of the Carter-Baker
Report can largely be confirmed.” 553 U.S. at 194 n.10. The
relevant portion of the report provides:
Fraud occurs in several ways. Absentee ballots remain the
largest source of potential voter fraud. . . . Absentee
balloting is vulnerable to abuse in several ways: . . .
Citizens who vote at home, at nursing homes, at the
workplace, or in church are more susceptible to pressure,
overt and subtle, or to intimidation. Vote buying schemes
are far more difficult to detect when citizens vote by mail.
States therefore should reduce the risks of fraud and abuse
in absentee voting by prohibiting “third-party”
organizations, candidates, and political party activists
from handling absentee ballots.
Building Confidence in U.S. Elections § 5.2 (Sept. 2005),
https://www.eac.gov/assets/1/6/Exhibit%20M.PDF. The district
court did not abuse its discretion in taking judicial notice of the
report publicly available on the website of the U.S. Election
Assistance Commission. See Anderson v. Holder, 673 F.3d 1089,
1094 n.1 (9th Cir. 2012) (“We may take judicial notice of records
and reports of administrative bodies.”) (internal quotation marks
and citation omitted). There is no dispute as to the report’s
authenticity or that it contained the cited recommendation, and

App. 290
findings were sufficient to justify the minimal burden
imposed by H.B. 2023. DNC’s reliance on Common
Cause Indiana v. Individual Members of the Indiana
Election, 800 F.3d 913, 928 (7th Cir. 2015) as requiring
a closer means-ends fit is misplaced. As the Seventh
Circuit concluded, the election law in that case imposed
a severe burden on the right to vote, and therefore it
was appropriate to apply strict scrutiny. Id. at 927.
We therefore affirm the district court’s conclusion
that DNC did not succeed on its Anderson/Burdick
claim as to H.B. 2023.
B
We next consider DNC’s claim that H.B. 2023
violates § 2 of the VRA. We begin by providing some
necessary legal background.
1
“Inspired to action by the civil rights movement,”
Congress enacted the Voting Rights Act of 1965 to
improve enforcement of the Fifteenth Amendment.14
Shelby County v. Holder, 570 U.S. 529, 536 (2013).
Section 2 of the Act forbade all states from enacting
any “standard, practice, or procedure . . . imposed or

DNC was not unfairly surprised, given that counsel indicated at
trial that he was well acquainted with it and its contents.
14

The Fifteenth Amendment provides that “[t]he right of citizens
of the United States to vote shall not be denied or abridged by the
United States or by any State on account of race, color, or previous
condition of servitude,” and authorizes Congress to enforce the
provision “by appropriate legislation.” U.S. Const. amend. XV.

App. 291
applied . . . to deny or abridge the right of any citizen of
the United States to vote on account of race or color.”
Id. (quoting Voting Rights Act of 1965, § 2, 79 Stat.
437). Section 5 of the Act prevented states from making
certain changes in voting procedures unless the states
obtained “preclearance” for those changes, meaning
they were approved by either the Attorney General or
a court of three judges. Id. at 537.
“At the time of the passage of the Voting Rights Act
of 1965, § 2, unlike other provisions of the Act, did not
provoke significant debate in Congress because it was
viewed largely as a restatement of the Fifteenth
Amendment.” Chisom, 501 U.S. at 392. In 1980, black
residents of Mobile, Alabama challenged the city’s atlarge method of electing its commissioners on the
ground that it unfairly diluted their voting strength.
City of Mobile v. Bolden, 446 U.S. 55, 58 (1980). A
plurality of the Supreme Court held that the electoral
system did not violate § 2 of the VRA because there
was no showing of “purposefully discriminatory denial
or abridgment by government of the freedom to vote ‘on
account of race, color or previous conditions of
servitude.’” Id. at 65.
In response to Bolden, “Congress substantially
revised § 2 to make clear that a violation could be
proved by showing discriminatory effect alone.”
Thornburg v. Gingles, 478 U.S. 30, 35 (1986). In order
to show actionable discriminatory effect, Congress
enacted the “results test,” applied by the Supreme
Court in White v. Regester, 412 U.S. 755 (1973), see
Gingles, 478 U.S. at 35, namely “whether the political
processes are equally open to minority voters.” S. Rep.

App. 292
No. 97-417, at 2 (1982), as reprinted in 1982
U.S.C.C.A.N. 177, 205.
As amended, § 2 of the VRA provides:
§ 10301. Denial or abridgement of right to
vote on account of race or color through
voting qualifications or prerequisites;
establishment of violation
(a) No voting qualification or prerequisite to
voting or standard, practice, or procedure
shall be imposed or applied by any State or
political subdivision in a manner which
results in a denial or abridgement of the
right of any citizen of the United States to
vote on account of race or color, or in
contravention of the guarantees set forth in
section 10303(f)(2) of this title, as provided in
subsection (b).
(b) A violation of subsection (a) is established
if, based on the totality of circumstances, it is
shown that the political processes leading to
nomination or election in the State or
political subdivision are not equally open to
participation by members of a class of
citizens protected by subsection (a) in that its
members have less opportunity than other
members of the electorate to participate in
the political process and to elect
representatives of their choice. . . .
52 U.S.C. § 10301.

App. 293
Thus, § 2(a) prohibits a state or political subdivision
from adopting a practice that “results in a denial or
abridgement” of any U.S. citizen’s right to vote on
account of race, color, or membership in a language
minority group, “as provided in subsection (b).” Id.
§ 10301(a). Subsection (b), in turn, provides that a
plaintiff can establish a violation of § 2(a) if “based on
the totality of circumstances,” the members of a
protected class identified in § 2(a) “have less
opportunity than other members of the electorate to
participate in the political process and to elect
representatives of their choice.” Id. § 10301(b).
Thornburg v. Gingles further clarified that in
analyzing whether a state practice violates § 2, a court
must engage in a two-step process. First, the court
must ask the key question set forth in § 2(b), whether
“as a result of the challenged practice or structure
plaintiffs do not have an equal opportunity to
participate in the political processes and to elect
candidates of their choice.” 478 U.S. at 44 (quoting S.
Rep. No. 97-417, at 28). Second, a court must assess the
impact of the practice on such electoral opportunities in
light of the factors set forth in the Senate Report,
which accompanied the 1982 amendments and
“elaborates on the nature of § 2 violations and on the
proof required to establish these violations.” Id. at
43–44.15

15

As explained in Gingles, the Senate Factors include the extent
of any history of official discrimination, the use of election
practices or structures that could enhance the opportunity for
discrimination, the extent to which voting is racially polarized, and
the extent to which minorities bear the effects of discrimination in

App. 294
In the wake of Gingles, some lower courts
interpreted the key question set forth in § 2(b)
(whether as a result of the challenged practice
plaintiffs do not have an equal opportunity to
participate in the political process and to elect
candidates of their choice) as “provid[ing] two distinct
types of protection for minority voters.” Chisom, 501
U.S. at 396 (citing League of United Latin Am. Citizens
Council No. 4434 v. Clements, 914 F.2d 620, 625 (5th
Cir. 1990) (en banc)). These courts held that a “vote
denial” claim, meaning a claim that a particular state
election practice denied or abridged a minority group’s
right to vote, turned on whether members of that
protected class had “less opportunity . . . to participate
in the political process.” By contrast, a “vote dilution”
claim, meaning a claim that a state election practice
diluted the effectiveness of a minority group’s votes,
turned on whether those members had “less
education, employment and health. 478 U.S. at 36–37. The factors
are not exclusive, and “the question whether the political processes
are equally open depends upon a searching practical evaluation of
the past and present reality, and on a functional view of the
political process.” Id. at 45 (quoting S. Rep. No. 97-417, at 30
(1982), as reprinted in 1982 U.S.C.C.A.N. 177, 208). Because the
“essence of a § 2 claim is that a certain electoral law, practice, or
structure interacts with social and historical conditions to cause an
inequality in the opportunities enjoyed by black and white voters
to elect their preferred representatives,” 478 U.S. at 47, if a court
determines that a challenged practice does not cause unequal
opportunities, it need not consider the practice’s interaction with
the Senate Factors. Because we affirm the district court’s finding
that DNC failed to carry its burden of satisfying step one of the § 2
analysis for either H.B. 2023 or the OOP policy, we do not review
in detail its factual findings that DNC also failed to carry its
burdens at step two.

App. 295
opportunity . . . to elect representatives of their choice.”
Id. at 388, 395–96 (citing Clements, 914 F.2d at 625).
The Supreme Court flatly rejected this
interpretation. In Chisom, the Supreme Court
explained that § 2(b) “does not create two separate and
distinct rights.” Id. at 397. The Court reasoned that if
members of a protected class established that a
challenged practice abridged their opportunity to
participate in the political process, it would be
relatively easy to show they were also unable to elect
representatives of their choice, because “[a]ny
abridgment of the opportunity of members of a
protected class to participate in the political process
inevitably impairs their ability to influence the
outcome of an election.” Id. By contrast, evidence that
members of a protected class are unable to elect
representatives of their choice does not necessarily
prove they had less opportunity to participate in the
political process. Id. Accordingly, the Court concluded
that the two-pronged results test required by the 1982
amendment “is applicable to all claims arising under
§ 2,” and “all such claims must allege an abridgment of
the opportunity to participate in the political process
and to elect representatives of one’s choice.” Id. at 398;
see also Ortiz v. City of Phila. Office of City Comm’rs
Voter Registration Div., 28 F.3d 306, 314 (3d Cir. 1994)
(“Section 2 plaintiffs must demonstrate that they had
less opportunity both (1) to participate in the political
process, and (2) to elect representatives of their choice.”
(emphasis added) (citing Chisom, 501 U.S. at 397)).
In reaching this conclusion, the Chisom majority
rejected Justice Scalia’s argument in dissent that

App. 296
requiring a plaintiff to prove both less opportunity to
participate and less opportunity to elect
representatives would prevent small numbers of voters
from bringing a § 2 claim. According to Justice Scalia,
the Court should have read “and” in § 2(b) to mean “or,”
so that if “a county permitted voter registration for only
three hours one day a week, and that made it more
difficult for blacks to register than whites, blacks would
have less opportunity ‘to participate in the political
process’ than whites, and § 2 would therefore be
violated—even if the number of potential black voters
was so small that they would on no hypothesis be able
to elect their own candidate.” Chisom, 501 U.S. at 408
(Scalia, J., dissenting). The majority rejected this
argument, however, stating that it had “no authority to
divide a unitary claim created by Congress.” Id. at
398.16
In light of Chisom, plaintiffs cannot establish a § 2
violation without showing that an electoral practice
actually gives minorities less opportunity to elect
representatives of their choice. This requires plaintiffs
to show that the state election practice has some
material effect on elections and their outcomes. As
Gingles explained, “[i]t is obvious that unless minority
group members experience substantial difficulty
electing representatives of their choice, they cannot
16

The majority also rejected Justice Scalia’s “erroneous
assumption that a small group of voters can never influence the
outcome of an election,” Chisom, 501 U.S. at 397 n.24, although it
did not explain what evidence would be necessary to establish that
an election practice that affected only a small group of voters
deprived minorities of an equal opportunity to elect candidates of
their choice.

App. 297
prove that a challenged electoral mechanism impairs
their ability ‘to elect.’” 478 U.S. at 48 n.15 (quoting 52
U.S.C. § 10301(b)). It is “the usual predictability of the
majority’s success” which distinguishes a structural
problem “from the mere loss of an occasional election.”
Id. at 51. If an election practice would generally “not
impede the ability of minority voters to elect
representatives of their choice” there is no § 2 violation;
rather a “bloc voting majority must usually be able to
defeat candidates supported by a politically cohesive,
geographically insular minority group.” Id. at 48–49.
In a § 2 challenge, a court’s focus must be on the
question whether minorities have less opportunity to
elect representatives of their choice; therefore, evidence
that a particular election practice falls more heavily on
minority than non-minority voters, or that electoral
outcomes are not proportionate to the numbers of
minorities in the population,17 is not sufficient by itself
to establish a § 2 violation. As we have previously
explained, “a bare statistical showing of
disproportionate impact on a racial minority does not
satisfy the § 2 ‘results’ inquiry.” Salt River, 109 F.3d at
595. Rather, “plaintiffs must show a causal connection
between the challenged voting practice and [a]
prohibited discriminatory result,” i.e., less opportunity
to participate in the political process and elect
representatives. Id. (quoting Ortiz, 28 F.3d at 312).
Because “[n]o state has exactly equal registration rates,
exactly equal turnout rates, and so on, at every stage of
17

The VRA itself states that “nothing in this section establishes a
right to have members of a protected class elected in numbers
equal to their proportion in the population.” 52 U.S.C. § 10301(b).

App. 298
its voting system,” Frank, 768 F.3d at 754, were it
enough to merely point to “some relevant statistical
disparity” implicated by the challenged law, Salt River,
109 F.3d at 595, then § 2 would “dismantle every
state’s voting apparatus,” Frank, 768 F.3d at 754.18
If a challenged election practice is not burdensome
or the state offers easily accessible alternative means
of voting, a court can reasonably conclude that the law
does not impair any particular group’s opportunity to
“influence the outcome of an election,” Chisom, 501
U.S. at 397 n.24, even if the practice has a

18

Directly contrary to this longstanding precedent, the dissent
insists that if a challenged practice disproportionately impacts
members of a protected class, then it per se constitutes a violation
under the first step of the § 2 test. See Dissent at 83 (arguing that
because DNC showed that minorities are over-represented among
those who cast out-of precinct ballots, “[t]he analysis at step one of
the § 2 results test ought to end at this point”); id. at 83–84
(asserting that the district court’s finding that “OOP ballot
rejection has no meaningfully disparate impact on the
opportunities of minority voters to elect their preferred
representatives” is “irrelevant to step one of § 2’s results test,
which focuses solely on the differences in opportunity and effect
enjoyed by groups of voters”); id. at 86 (arguing that under § 2, a
state must correct any disparities that can be attributed to
socioeconomic factors); id. at 118 (arguing that because H.B. 2023
imposes a disparate burden on members of protected classes, it
meets step one). The dissent’s argument is not only contrary to our
precedent, but is inconsistent with the plain language of § 2, and
to the Supreme Court’s interpretation of the VRA. Gingles, 478
U.S. at 51 (§ 2 plaintiffs must show more than “the mere loss of an
occasional election”); Chisom, 501 U.S. at 398 (“For all such [§ 2]
claims must allege an abridgement of the opportunity to
participate in the political process and to elect representatives of
one’s choice.”).

App. 299
disproportionate impact on minority voters. For
instance, in Lee v. Virginia State Board of Elections,
plaintiffs argued that Virginia’s photo ID law violated
§ 2 because more minorities than non-minorities lacked
the necessary IDs, and “the process of obtaining photo
IDs requires those voters to spend time traveling to
and from a registrar’s office.” 843 F.3d 592, 600 (4th
Cir. 2016). The Fourth Circuit rejected this argument.
Observing that the state provided the option for voters
without ID to cast a provisional ballot and obtain a free
ID to verify their identity, the Fourth Circuit reasoned
that “every registered voter in Virginia has the full
ability to vote when election day arrives,” and therefore
the election practice “does not diminish the right of any
member of the protected class to have an equal
opportunity to participate in the political process.” Id.
In sum, in considering a § 2 claim, a court must
consider whether the challenged standard, practice, or
procedure gives members of a protected class less
opportunity than others both “to participate in the
political process and to elect representatives of their
choice.” Chisom, 501 U.S. at 397 (quoting 52 U.S.C.
§ 10301(b)). The plaintiff must show a causal
connection between the challenged voting practice and
the lessened opportunity of the protected class to
participate and elect representatives; it is not enough
that the burden of the challenged practice falls more
heavily on minority voters. See Salt River, 109 F.3d at
595. Rather, the challenged practice must “influence
the outcome of an election,” Chisom, 501 U.S. at 397
n.24, and create some “substantial difficulty” for a
protected class to elect representatives of its choice, not
just the “mere loss of an occasional election.” Gingles,

App. 300
478 U.S. at 48 n.15, 51. If this sort of discriminatory
result is found, then the practice must be considered in
light of the Senate Factors, which are “particularly”
pertinent to vote dilution claims, but “will often be
pertinent” to other § 2 claims as well. Id. at 44–45.19
2
We now turn to the district court’s determination
here. We review the district court’s legal
determinations de novo, Gonzalez v. Arizona, 677 F.3d
383, 406 (9th Cir. 2012), but defer to “the district
court’s superior fact-finding capabilities,” and review

19

Our two-step analysis, derived from the language of § 2, and
Supreme Court precedent, is consistent with the two-step
framework adopted by the Fourth, Fifth, and Sixth Circuits (and,
in part, the Seventh Circuit):
[1] [T]he challenged standard, practice, or procedure must
impose a discriminatory burden on members of a protected
class, meaning that members of the protected class have
less opportunity than other members of the electorate to
participate in the political process and to elect
representatives of their choice, [and]
[2] [T]hat burden must in part be caused by or linked to
social and historical conditions that have or currently
produce discrimination against members of the protected
class.
League of Women Voters of N.C. v. North Carolina, 769 F.3d 224,
240 (4th Cir. 2014) (citations and internal quotation marks
omitted); Veasey v. Abbott (Veasey I), 830 F.3d 216, 244 (5th Cir.
2016); Ohio Democratic Party, 834 F.3d at 637; Frank, 768 F.3d at
754–55 (adopting the test “for the sake of argument”). The first
prong tracks the language of § 2, as interpreted by the Supreme
Court, and the second prong implicates the Senate Factors.

App. 301
its factual findings for clear error, Salt River, 109 F.3d
at 591.
In analyzing the first step of a § 2 claim, the district
court first found that DNC had provided no
quantitative or statistical evidence showing how many
people would be affected by H.B. 2023 and their
minority status, noting that it was “aware of no vote
denial case in which a § 2 violation has been found
without quantitative evidence measuring the alleged
disparate impact of a challenged law on minority
voters.” Reagan, 2018 WL 2191664, at *30. Despite the
lack of any statistical evidence establishing a
disproportionate impact of H.B. 2023 on minorities, the
court stated that it would not rule against DNC on this
ground. Id. at *31. Instead, it considered DNC’s
circumstantial and anecdotal evidence, and tentatively
concluded that “prior to H.B. 2023’s enactment
minorities generically were more likely than nonminorities to return their early ballots with the
assistance of third parties,” emphasizing the caveat
that it could not “speak in more specific or precise
terms than ‘more’ or ‘less.’” Id. at *33.
Having inferred, based on DNC’s circumstantial and
anecdotal evidence, that H.B. 2023 likely impacted
more minority voters than non-minority voters, the
district court nevertheless concluded that DNC’s
evidence did not establish that H.B. 2023 gave
members of a protected class less opportunity than
other members of the electorate both to participate in
the political process and to elect representatives of
their choice. Id. at *32–34. The district court provided
two reasons. First, the court reasoned that the evidence

App. 302
presented indicated that only “a relatively small
number of voters” used ballot collection services at all.
Id. at *33. By logical extension, that meant that only a
small number of minorities used ballot collection
services to vote, and the vast majority of minority
voters “vote without the assistance of third-parties who
would not fall within H.B. 2023’s exceptions.” Id.
Because only a small number of minority voters were
affected to any degree by H.B. 2023, the court found “it
is unlikely that H.B. 2023’s limitations on who may
collect an early ballot cause a meaningful inequality in
the electoral opportunities of minorities as compared to
non-minorities.” Id.
Second, the court reasoned that even for the small
number of minority voters who were affected by H.B.
2023 (i.e., who would use third-party ballot collectors
no longer permitted by H.B. 2023 if they could), the
evidence did not show that H.B. 2023 gave minorities
less opportunity than other members of the electorate
to participate in the political process and elect
representatives. Id. at *34. While H.B. 2023 might
make it “slightly more difficult or inconvenient for a
small, yet unquantified subset of voters to return their
early ballots,” the court found that there was no
evidence that H.B. 2023 “would make it significantly
more difficult to vote,” particularly given that no
individual voter had testified that H.B. 2023 had this
impact. Id. Therefore, the district court found that
DNC had not carried its burden at the first step of the
§ 2 analysis. Id.
Although the district court did not need to reach the
second step, it nonetheless reviewed the relevant

App. 303
Senate Factors in order to develop the record and
concluded that DNC had likewise failed to carry its
burden at step two. Id. at *36–40.20
3
The district court’s conclusion that the burden on a
protected class of voters is so minimal that it would not
give them less opportunity to elect representatives of
their choice is not clearly erroneous. DNC produced
anecdotal testimony that various sources collected
between fifty and a few thousand ballots but DNC’s
counsel could not articulate an estimate more precise
than that “thousands” of people used this opportunity.
Id. at *12. Accordingly, the district court did not clearly
err in estimating that fewer than 10,000 voters used
ballot collection services in each election. Moreover, the
district court even considered a more generous,
although “unjustified,” number of 100,000 voters, but
nonetheless found that this was “relatively small” in
relation to the 1.4 million early mail ballots and 2.3
million total voters. Id. The district court’s view was, at
minimum, a permissible view of the evidence. See
Bessemer City, 470 U.S. at 573. Given these small
numbers, the district court did not clearly err in
concluding that the unavailability of third party ballot
collection would have minimal effect on the opportunity

20

As noted above, supra at 37 n.15, because the district court
correctly determined that H.B. 2023 does not satisfy step one of the
§ 2 analysis, we need not evaluate the district court’s analysis of
these factors in detail. Nevertheless, the district court’s factual
conclusions were not clearly erroneous, and as explained below, see
infra at 72 n.32, we reject the dissent’s factual reevaluations.

App. 304
of minority voters to elect representatives of their
choice.
Further, as explained in the Anderson/Burdick
analysis, the evidence available indicated that the
burden on even those few minority voters who used
third-party ballot collection was minimal, because
those voters had “done so out of convenience or
personal preference, or because of circumstances that
Arizona law adequately accommodates in other ways,”
rather than from necessity. Reagan, 2018 WL 2191664,
at *14. As the district court pointed out, not a single
voter testified at trial that H.B. 2023 made it
significantly more difficult to vote, despite the fact that
H.B. 2023 was in place for two 2016 elections. Id. at
*34.21
In challenging the district court’s conclusion, DNC
and the dissent argue that under § 2, the total number
of votes affected is not the relevant inquiry; the proper
test is whether any minority votes are burdened. This
argument is meritless. As we have explained, a “bare
statistical showing” that an election practice “has a
disproportionate impact on a racial minority does not
satisfy the § 2 ‘results’ inquiry.” Salt River, 109 F.3d at
595. Rather, the test under § 2 is whether the
“members [of a class of protected citizens] have less
opportunity than other members of the electorate to
participate in the political process and to elect
representatives of their choice.” 52 U.S.C. § 10301(b)

21

In arguing that H.B. 2023 had a disparate impact on the ability
of minorities to participate in the political process, the dissent fails
to address this key fact.

App. 305
(emphasis added).22 To determine whether a challenged
law will result in members of a class having less
opportunity to elect representatives of their choice, a
court must necessarily consider the severity and
breadth of the law’s impacts on the protected class.
Accordingly, we affirm the district court’s ruling
that DNC failed to establish that H.B. 2023 results in
less opportunity for minority voters to participate in
the political process and to elect representatives of
their choice, and therefore H.B. 2023 did not violate § 2
of the VRA.
C
Finally, we consider DNC’s claim that H.B. 2023
violated the Fifteenth Amendment.
1
Plaintiffs can challenge a state’s election practice as
violating their Fifteenth Amendment rights by showing
that “a state law was enacted with discriminatory
intent.” Abbott v. Perez, 138 S. Ct. 2305, 2324 (2018).
Discriminatory intent “implies more than intent as
volition or intent as awareness of consequences.” Pers.
Adm’r of Mass. v. Feeney, 442 U.S. 256, 279 (1979).
Rather, plaintiffs must show that a state legislature
“selected or reaffirmed a particular course of action at
least in part ‘because of,’ not merely ‘in spite of,’ its
22

While DNC cites extensively to the dissent in Chisom in arguing
that they need not prove members of a protected class have less
opportunity to elect representatives of their choice, we are bound
by the majority, which rejected this argument. 501 U.S. at 397 &
n.24.

App. 306
adverse effects upon an identifiable group.” Id. Thus,
although racial discrimination need not be the
“dominant” or “primary” factor underlying a legislative
enactment, it must be a “motivating factor.” Vill. of
Arlington Heights v. Metro. Hous. Dev. Corp., 429 U.S.
252, 265–66 (1977).
A law is not infected by discriminatory intent
merely “because it may affect a greater proportion of
one race than of another.” Washington v. Davis, 426
U.S. 229, 242 (1976). Rather, “[d]etermining whether
invidious discriminatory purpose was a motivating
factor demands a sensitive inquiry into such
circumstantial and direct evidence of intent as may be
available.” Arlington Heights, 429 U.S. at 266. This
inquiry is guided by factors set forth in Arlington
Heights. Id. at 266–68; see Bolden, 446 U.S. at 62,
72–74 (holding that a facially neutral law “violates the
Fifteenth Amendment only if motivated by a
discriminatory purpose” and applying Arlington
Heights in an analysis of discriminatory intent).
Under the Arlington Heights framework, “the
following, non-exhaustive factors” are relevant “in
assessing whether a defendant acted with
discriminatory purpose: (1) the impact of the official
action and whether it bears more heavily on one race
than another; (2) the historical background of the
decision; (3) the specific sequence of events leading to
the challenged action; (4) the defendant’s departures
from normal procedures or substantive conclusions;
and (5) the relevant legislative or administrative
history.” Arce v. Douglas, 793 F.3d 968, 977 (9th Cir.
2015). Because of “the presumption of good faith that

App. 307
must be accorded legislative enactments” and the
“evidentiary difficulty” in determining whether race
was a motivating factor, courts must “exercise
extraordinary caution” when engaging in this inquiry.
Miller v. Johnson, 515 U.S. 900, 916 (1995).
Discriminatory intent “is a pure question of fact”
subject to review for clear error. Pullman-Standard,
456 U.S. at 287–88; Abbott, 138 S. Ct. at 2326. “It is not
a question of law and not a mixed question of law and
fact.” Pullman-Standard, 456 U.S. at 288.
Given this standard, we must determine whether
the district court’s finding that the Arizona legislature
did not have discriminatory intent is clearly erroneous.
We consider the district court’s findings on each
Arlington Heights factor.
2
We start with two of the Arlington Heights factors,
the historical background and legislative history of the
enactment. Arce, 793 F.3d at 977. According to the
district court, Arizona’s history was “a mixed bag of
advancements and discriminatory actions.” Reagan,
2018 WL 2191664, at *38. Although there was evidence
of discrimination and racially polarized voting, there
was also evidence of improvement. While Arizona was
subject to § 5 preclearance, “the DOJ did not issue any
objections to any of [Arizona’s] statewide procedures for
registration or voting.” Id. at *37. Moreover, Arizona
enacted an Independent Redistricting Commission to
combat problems with discrimination in drawing
statewide redistricting plans. Id. at *38.

App. 308
The district court also noted the relevant legislative
history of H.B. 2023, including “farfetched allegations
of ballot collection fraud” made by one legislator,
Arizona State Senator Don Shooter, id. at *41, and a
video (referred to as the “LaFaro Video”) which
“showed surveillance footage of a man of apparent
Hispanic heritage appearing to deliver early ballots,”
id. at *38.23 However, the court concluded that the
legislature was not motivated by discriminatory intent.
Rather, the court found that “Shooter’s allegations and
the LaFaro Video were successful in convincing H.B.
2023’s proponents that ballot collection presented
opportunities for fraud that did not exist for in-person
voting, and these proponents appear to have been
sincere in their beliefs that this was a potential
problem that needed to be addressed.” Id. at *41.
The district court’s conclusion is well supported by
the legislative record, which shows that legislative
discussion focused on the danger of fraud. For example,
the bill’s sponsor, Senator Michelle Ugenti-Rita, stated
that H.B. 2023 was designed to “limit fraud” in ballot
collection, which “is important to maintaining integrity
in our electoral process” because the ballot collection
practice “is ripe to be taken advantage of.” Senator
Steve Smith testified that ballot fraud is “certainly
happening,” and Michael Johnson, an African

23

The district court found that the narration by Maricopa County
Republican Chair A.J. LaFaro “contained a narration of ‘Innuendos
of illegality . . . [and] racially tinged and inaccurate commentary
by . . . LaFaro.’” Reagan, 2018 WL 2191664, at *38. The video was
first introduced in 2014, but became “prominent in the debates
over H.B. 2023.” Id. at *39.

App. 309
American who had served on the Phoenix City Council,
testified that he had constituents call to complain
about ballot collectors in minority communities.
Senator Smith cited this testimony in a speech
supporting the law. Senator Sylvia Allen expressed
concern that “we do not know what happens between
the time the ballots are collected and when they’re
finally delivered.” This concern was confirmed by State
Election Director Eric Spencer, who testified that
“there is a huge imbalance in the amount of security
measures that are in place for polling place voting
compared to early voting.” Even though “77 percent of
all the votes cast in Arizona” are early votes, there are
“almost no prophylactic security procedures in place to
govern that practice, whereas, at the polling place,
where only 23 percent of the votes are taking place, we
have every security measure in the world.”
The legislature also heard testimony that other
states had implemented similar security measures
related to ballot collection. According to the legislative
record, at the time H.B. 2023 was considered by the
Arizona legislature, “California, New Mexico, Colorado,
[and] Nevada all ha[d] laws that restrict or prohibit
ballot collection,” and therefore Arizona was “a little bit
out of the norm especially among our neighbors.” The
legislature also heard that the California law was more
draconian than H.B. 2023: it prohibited all ballot
collection except by members of the household, family
members, and spouses, and did not count votes in
ballots that had been improperly collected.
DNC and the dissent claim that the district court
erred in giving weight to this evidence because there

App. 310
was no evidence of actual fraud. According to DNC, this
evidentiary gap established that the legislators’
expressed concerns regarding fraud in ballot collection
were merely a facade for racial discrimination. This
argument fails. The Arizona legislature was free to
enact prophylactic measures even when the legislative
record “contains no evidence of any such fraud actually
occurring.” Crawford, 553 U.S. at 194. Moreover, as the
district court noted, “H.B. 2023 found support among
some minority officials and organizations,” including
Michael Johnson, the African American councilman,
and the Arizona Latino Republican Association for the
Tucson Chapter, which undermines DNC’s claim that
concerns about fraud were a mere front for
discriminatory motives. Reagan, 2018 WL 2191664, at
*41.
DNC argues that the district court erred in not
giving sufficient weight to the evidence that the LaFaro
video had racial overtones. The district court’s decision
to give this evidence less weight was not a legal error,
however, because the district court was not obliged to
impute the motives of a few legislators to the entire
Arizona legislature that passed H.B. 2023. See
Arlington Heights, 429 U.S. at 265–66. “What
motivates one legislator to make a speech about a
statute is not necessarily what motivates scores of
others to enact it.” United States v. O’Brien, 391 U.S.
367, 384 (1968).24 The Sixth Circuit recently recognized

24

DNC relies on Masterpiece Cakeshop, Ltd. v. Colorado Civil
Rights Commission, 138 S. Ct. 1719 (2018), for the principle that
courts should put more weight on discriminatory statements of
individual decisionmakers, but that case is not on point. In holding

App. 311
this point, holding that the clearly discriminatory
statements and motive of one legislator did not show
that the enacting legislature “acted with racial
animus.” Ne. Ohio Coal., 837 F.3d at 637.
The district court also did not err in giving little
weight to evidence that “some individual legislators
and proponents were motivated in part by partisan
interests.” Reagan, 2018 WL 2191664, at *43. The
record shows that State Senator Shooter’s concerns
about ballot collection arose after he won a close
election, that Michael Johnson complained that ballot
collection put candidates without an effective get-outthe-vote effort at a disadvantage, and a 2014
Republican candidate for the Arizona House of
Representatives claimed that he lost his election
because of ballot collection activities. Id. Although DNC
and the dissent seem to argue that, as a matter of law,
legislators should be deemed to have a discriminatory
intent for Fifteenth Amendment purposes when they
are motivated by partisan interests to enact laws that
disproportionately burden minorities, this is incorrect.
that statements of individual commissioners were relevant to
determine whether a law intentionally discriminated on the basis
of religion, the Court distinguished the adjudicatory context from
the legislative context. See id. at 1730. Masterpiece Cakeshop
explained that while “[m]embers of the Court have disagreed on
the question whether statements made by lawmakers may
properly be taken into account in determining whether a law
intentionally discriminates on the basis of religion,” the remarks
in this case were made “in a very different context—by an
adjudicatory body deciding a particular case.” Id. Because our case
involves a legislature enacting a general statute, rather than
adjudicating a specific case, Masterpiece Cakeshop is not
applicable.

App. 312
Fifteenth Amendment plaintiffs must show that the
legislature acted with racial motives, not merely
partisan motives. See, e.g., Cooper v. Harris, 137 S. Ct.
1455, 1473 (2017) (“[A] trial court has a formidable
task: It must . . . assess whether the plaintiffs have
managed to disentangle race from politics and prove
that the former drove a district’s lines.”); Easley v.
Cromartie, 532 U.S. 234, 243 (2001) (evaluating the
district court’s critical finding “that race rather than
politics” motivated the districting map). The “intent to
preserve incumbencies” is not equivalent to raciallydiscriminatory intent, and only the latter supports a
finding of intentional discrimination. Garza v. County
of Los Angeles, 918 F.2d 763, 771 & n.1 (9th Cir. 1990).
Even when “racial identification is highly correlated
with political affiliation,” Cooper, 137 S. Ct. at 1473
(quoting Easley, 532 U.S. at 243), plaintiffs must still
carry their burden of showing that the former was a
motivating factor. Id. Accordingly, the determination
whether racial or political interests motivated a
legislature is one of fact subject to review for clear
error. See Cooper, 137 S. Ct. at 1473–74. Here the
district court disentangled racial motives from partisan
motives, and its factual finding that even those few
legislators harboring partisan interests did not act with
a discriminatory purpose is not clearly erroneous.25

25

Contrary to the dissent, the district court did not find that
“partisan self-interest [] absolve[d] discriminatory intent.” Dissent
at 110. Rather, the district court determined that the Arizona
legislature did not act with discriminatory intent, and passed H.B.
2023 in spite of any potential disparate-impact on minority voters,
not because of it. Reagan, 2018 WL 2191664, at *41.

App. 313
Therefore, the historical and legislative history factors
support the district court’s conclusion.
3
We next turn to the Arlington Heights factors of the
“sequence of events” leading to the challenged action
and “departures from normal procedures.” Arce, 793
F.3d at 977. First, the district court found that the
Arizona legislature followed its normal course in
enacting H.B. 2023, and therefore the legislative
process itself did not raise an inference of
discriminatory intent. Reagan, 2018 WL 2191664, at
*42–43. This conclusion is supported by the record;
there is no evidence that the legislature used unusual
procedures or unprecedented speed to pass a law, N.C.
State Conference of NAACP v. McCrory, 831 F.3d 204,
214, 228 (4th Cir. 2016), which other courts have
deemed raise such an inference, see, e.g., Veasey I, 830
F.3d at 238 (holding that the Texas legislature’s
unwonted procedure of designating the bill “as
emergency legislation,” cutting debates short, passing
it without the ordinary committee process, and
suspending a two-thirds voting rule to get the bill
passed, weighed in favor of a finding of discriminatory
intent).
Second, in considering the historical sequence of
events, the district court held that neither of the two
prior efforts to limit ballot collection, S.B. 1412
(enacted in 2011) and H.B. 2305 (enacted in 2013),
weighed in favor of finding that the legislature had a
discriminatory intent in enacting H.B. 2023. Reagan,
2018 WL 2191664, at *42–43. The record showed that
S.B. 1412 was subject to § 5 preclearance, and that

App. 314
after the DOJ requested additional information
regarding the ballot collection provision, the Arizona
Attorney General voluntarily withdrew the provision.
Id. at *42. Two years later, the legislature enacted H.B.
2305, which also regulated ballot collection. Id. After
citizen groups organized referendum efforts against the
law, the legislature repealed it. Id. The court held that
while these circumstances were somewhat suspicious,
they “have less probative value because they involve
different bills passed during different legislative
sessions by a substantially different composition of
legislators.” Id.
The district court did not clearly err in giving little
weight to these prior enactments. Even if the bills had
been informed by a discriminatory intent, the Supreme
Court has made clear that “[p]ast discrimination
cannot, in the manner of original sin, condemn
governmental action that is not itself unlawful.” Abbott,
138 S. Ct. at 2324 (quoting Bolden, 446 U.S. at 74). The
intent of a prior legislature cannot be imputed to a new
legislature enacting a different bill “notwithstanding
the previous drafter’s intent.” Veasey v. Abbott (Veasey
II), 888 F.3d 792, 802 (5th Cir. 2016). Indeed, it is a
clear error to presume that any invidious intent behind
a prior bill “necessarily carried over to and fatally
infected” the law at issue. Id. Further, “meaningful
alterations” in an amended statute may render even a
previously discriminatory statute valid. Id. (citation
omitted). Because Arizona’s previous laws on ballot
collection were different rules, passed by different
legislatures, and H.B. 2023 is “more lenient than its
predecessors given its broad exceptions for family
members, household members, and caregivers,” these

App. 315
prior enactments do not materially bear on the
legislature’s intent in enacting H.B. 2023. Reagan,
2018 WL 2191664, at *43.
Moreover, the district court did not err in finding
that neither S.B. 1412 or H.B. 2305 was enacted with
racially discriminatory intent. Regarding S.B. 1412, the
record shows only that the DOJ requested more
information, but its primary concern was the law’s
“impact on minority voters,” Feldman III, 843 F.3d at
369 (emphasis added), not the intent of the legislature
in enacting it.26 And as to H.B. 2305, the record does
not disclose why citizens opposed the law or whether
the referendum sought to combat a discriminatory
purpose. The lack of evidence of past discrimination
further undermines DNC’s argument that the
legislature had discriminatory intent in passing H.B.
2023.

26

To support its claim, DNC points to Representative Ruben
Gallego’s statements to the DOJ that S.B. 1412 was motivated by
discriminatory intent. But Gallego opposed S.B. 1412, and “[t]he
Supreme Court has . . . repeatedly cautioned—in the analogous
context of statutory construction—against placing too much
emphasis on the contemporaneous views of a bill’s opponents” in
determining a legislature’s intent. Veasey I, 830 F.3d at 234
(quoting Butts v. City of New York, 779 F.2d 141, 147 (2d Cir.
1985)). DNC also points to statements by Amy Chan (formerly
Amy Bjelland) to the DOJ, but the district court reasonably
interpreted her statements as merely explaining that the impetus
for S.B. 1412 was an accusation of voter fraud in San Luis, a
predominately Hispanic area in the southern portion of Arizona.
Feldman III, 843 F.3d at 384.

App. 316
4
In reviewing the final Arlington Heights factor
(whether the law would have a disparate impact on a
particular racial group), Arce, 793 F.3d at 977, the
district court found that “the legislature enacted H.B.
2023 in spite of its impact on minority [get out the vote]
efforts, not because of that impact,” and concluded that
“proponents of the bill seemed to view these concerns
as less significant because of the minimal burdens
associated with returning a mail ballot,” Reagan, 2018
WL 2191664, at *43.
The district court did not clearly err in reaching this
conclusion. Multiple senators expressed their view that
H.B. 2023 imposes only a slight burden on voters. For
instance, Senator Michelle Ugenti-Rita stated that
voters have “[l]ots of opportunities” to vote in the 27
day early-voting window, and expressed her view that
there is no reason to presume a voter who previously
used ballot collection would have trouble voting. Given
that these voters have already asked “that their ballot
be mailed to them,” Senator Ugenti-Rita stated “logic
would tell you they are perfectly capable and
understand that, in order to then get their ballot in,
they need to put it back in to the mailbox or drop it off.”
Another proponent of the bill, John Kavanaugh,
expressed a similar view: “The only way you get an
early ballot is to have it delivered to you by mail, and
the way you’re supposed to return an early ballot is to
reverse that process. And it’s hard to imagine how,
when you have an early ballot, somewhere in the area
of 30 days, you somehow can’t do that.” Again, the
record does not contain the sort of evidence that has led

App. 317
other courts to infer the legislature was acting with
discriminatory intent, such as evidence that the
legislators studied minority data and targeted the
voting methods most used by minority voters. Cf.
McCrory, 831 F.3d at 220. In fact, no voters, minority
or non-minority, testified that they faced a substantial
obstacle to voting because of H.B. 2023. Accordingly,
we find no clear error in the court’s holding that
“[b]ased on the totality of the circumstances,” DNC had
“not shown that the legislature enacted H.B. 2023 with
the intent to suppress minority votes.” Reagan, 2018
WL 2191664, at *43.
In sum, the district court carefully weighed the
evidence of discriminatory purpose and found the
Arizona legislature was not motivated by an intent to
discriminate. The findings supporting this conclusion
are not clearly erroneous, and neither was the ultimate
balancing of the Arlington Heights factors.
5
Because discriminatory intent is a “pure question of
fact,” a court must defer to the district court’s factfinding unless it is clearly erroneous. PullmanStandard, 456 U.S. at 288. But the dissent once again
reviews the record de novo, reweighs the evidence, and
reaches its own conclusion. For instance, the district
court referenced Senator Shooter’s allegations and the
LaFaro video, but concluded, based on its review of the
record, that the legislature was not motivated by
discriminatory intent. Reagan, 2018 WL 2191664, at
*41. The dissent simply reaches the opposite
conclusion, based on the same evidence. Dissent at
111–13. Similarly, the dissent claims “the district court

App. 318
was wrong to determine that a law is not racially
motivated if any people of color support it.” Dissent at
113. But that mischaracterizes the district court’s
holding. Rather, after reviewing the evidence in the
record, the district court found that H.B. 2023 was
supported by minority officials and organizations.
Reagan, 2018 WL 2191664, at *41. The district court
did not err in considering that fact, among others, in
determining whether the supporters of H.B. 2023 were
motivated by racial discrimination, and the district
court need not have concluded, as does the dissent, that
such evidence “simply demonstrates that people of color
have diverse interests.” Dissent at 113. The Supreme
Court has long held that an appellate court may not
reject a district court’s findings as clear error even
when the court is “convinced that had it been sitting as
the trier of fact, it would have weighed the evidence
differently.” Bessemer City, 470 U.S. at 574. The
dissent’s approach contradicts this rule.
Further, the dissent supports its conclusion that
“H.B. 2023 was enacted for the purpose of suppressing
minority votes” by creating its own per se rules that a
legislature’s anti-fraud motive is pretextual when there
is no direct evidence of voter fraud, and that a
legislature’s partisan motives are evidence of racial
discrimination. Dissent at 107, 110–12. The dissent
cites no support for these new rules, likely because
Supreme Court precedents contradict them: Crawford
rejected the idea that actual evidence of voter fraud
was needed to justify restrictions preventing voter
fraud, 553 U.S. at 195–96 & nn.11–13; and Cooper
made clear plaintiffs must “disentangle race from
politics and prove that the former drove” the

App. 319
legislature, 137 S. Ct. at 1473. The dissent’s attempt to
reframe the evidence does not make the district court’s
resolution of this purely factual question clearly
erroneous. Pullman-Standard, 456 U.S. at 287–88.
IV
We now turn to DNC’s challenges to the OOP policy.
DNC argues that (1) the OOP policy violates the First
and Fourteenth Amendment; and (2) the OOP policy
violates § 2 of the VRA.
A
We begin with DNC’s claims that the OOP policy
violates the First and Fourteenth Amendment by
imposing an unconstitutional burden under the
Anderson/Burdick test.
1
As an initial matter, we agree with the district
court’s characterization of these claims as constituting
a challenge to the precinct voter system. As discussed,
most Arizona counties use a precinct-based system for
the 20 percent of voters who vote in person on Election
Day. In-person voters must cast their ballots in their
assigned precinct, or their votes will not be counted.
See Ariz. Rev. Stat. §§ 16-122, 16-135, 16-584 (codified
in 1979); 1970 Ariz. Sess. Laws, ch. 151, § 64
(amending Ariz. Rev. Stat. § 16-895); Ariz. Rev. Stat.
§ 16-102 (1974). This rule does not apply to voters who
cast their ballots in a county that use a vote center
system, or who use other methods to vote.

App. 320
On appeal, DNC argues that it is not challenging
the rule requiring voting within a precinct, but rather
Arizona’s enforcement of the rule by not counting
ballots cast in the wrong precinct (which it calls
disenfranchisement).27 This argument is sophistical; it
conflates the burden of complying with an election rule
with the consequence of noncompliance. As the
Supreme Court has recognized, a state has an
obligation to structure and organize the voting process
within the state through a system of election rules.
Storer, 415 U.S. at 730. For instance, states typically
have election rules that require voters to register to
vote and to cast their votes in person during the hours
when polls are open. These rules impose certain
minimal burdens on voters—the ordinary burdens of
registering to vote and showing up on time. If voters
fail to comply, they may be unable to vote or their
ballots may not be counted. But it is the election rules
that impose a burden on the voter—not the
enforcement of those rules. Under DNC’s theory, a
state could not enforce even a rule requiring
registration, because the state’s failure to count the
vote of a non-registered voter would “disenfranchise”
the noncompliant voter.

27

This is a misnomer. A state disenfranchises voters (for example,
pursuant to a felon disenfranchisement law) by depriving certain
individuals of their right to vote, not by requiring voters to comply
with an election rule in order to have their votes counted. As the
Supreme Court has explained, an election rule, such as the
requirement to have a valid photo ID in order to vote, may be
valid, even if a voter’s noncompliance with such a rule means that
the voter’s ballot will not be counted. Crawford, 553 U.S. at 187,
189.

App. 321
Rather than adopt DNC’s fallacious approach, we
are guided by the Supreme Court’s approach in
Crawford. Crawford considered a state’s election rule
which provided that in-person voters who did not have
valid photo ID, and did not thereafter verify their
identities, were unable to have their votes counted. 553
U.S. at 186. In conducting its Anderson/Burdick
analysis, Crawford held that this photo ID rule
imposed the burden of obtaining the requisite
identification by “making a trip to the [issuing agency],
gathering the required documents, and posing for a
photograph,” id. at 198, and potentially could impose a
heavier burden on subgroups, such as the homeless or
those lacking birth certificates, id. at 199. The Court’s
analysis would make little sense if the relevant burden
were the state’s enforcement of the photo ID rule;
under that view, all voters would be subject to the same
burden—that of having their non-compliant votes
discounted. Accordingly, like the district court, we
conclude that the appropriate analysis is whether
compliance with the voter requirement in
question—here, the requirement to vote in an assigned
precinct—imposes an undue burden. See also Serv.
Emps. Int’l Union Local 1 v. Husted, 698 F.3d 341, 344
(6th Cir. 2012) (explaining that courts cannot “absolve[]
voters of all responsibility for voting in the correct
precinct or correct polling place by assessing voter
burden solely on the basis of the outcome—i.e. the
state’s ballot validity determination”).
2
Applying the Anderson/Burdick framework to the
proper characterization of DNC’s challenge, the district

App. 322
court found that the precinct voting rule did not
unconstitutionally burden the right to vote. As with
H.B. 2023, the district court first observed that
Arizona’s OOP policy has no impact on the vast
majority of Arizona voters because 80 percent of them
cast their ballots through early mail voting. Reagan,
2018 WL 2191664, at *21. The court also noted that the
policy has no impact on voters in Graham, Greenlee,
Cochise, Navajo, Yavapai, and Yuma counties, rural
counties that adopted the vote center model. Id.
As to those few Arizonans who vote in person
outside of the vote center counties, the district court
found that the burden of voting in the correct precinct
was minimal. The district court acknowledged that
people who move frequently may fail to update their
voter registration in a timely manner and, as a result,
may not have their early ballot forwarded to their new
address, and that “changes in polling locations from
election to election, inconsistent election regimes used
by and within counties, and placement of polling
locations all tend to increase OOP voting rates,” as well
as incorrect information provided by poll workers. Id.
at *22. The district court nevertheless concluded that
“the burdens imposed on voters to find and travel to
their assigned precincts are minimal and do not
represent significant increases in the ordinary burdens
traditionally associated with voting.” Id. at *24.
Moreover, the district court found, “Arizona does not
make it needlessly difficult for voters to find their
assigned precincts,” citing the myriad ways Arizona
provides that information to voters: direct mailings,
multiple state and county websites, town halls, live
events, and social media and other advertising. Id. at

App. 323
*23–24 This information is generally provided in both
English and Spanish. Id. at *24. Further, the court
found that “for those who find it too difficult to locate
their assigned precinct, Arizona offers generous early
mail voting alternatives.” Id. In light of these
measures, the district court did not clearly err in
finding that the burden of voting in the correct precinct
was minimal.
Considering the electorate as a whole, the court
found that the number of out-of-precinct votes was
“small and ever-dwindling.” Id. Only 14,885 of the
2,320,851 Arizonan votes cast in the 2008 general
election were cast outside of the correct precinct—just
0.64 percent of total votes. Id. at *21. That number
dropped to 10,979 ballots in the 2012 general
election—0.47 percent of total votes. Id. By the 2016
general election, only 3,970 votes were cast in the
wrong precinct in Arizona—just 0.15 percent of the
2,661,497 total votes. Id. The small and decreasing
number of out-of-precinct votes confirms the district
court’s conclusion that the burden of identifying the
correct precinct is minimal.
We conclude that the district court’s finding that the
requirement to vote in the correct precinct is a minimal
burden is not clearly erroneous. As the district court
noted, precinct-based voting is an established method
of conducting elections and is used in a majority of
states. Id. at *8; see also Serv. Emps., 698 F.3d at 344
(precinct-voting system); Sandusky Cty. Democratic
Party v. Blackwell, 387 F.3d 565, 568 (6th Cir. 2004)
(per curiam) (“One aspect common to elections in
almost every state is that voters are required to vote in

App. 324
a particular precinct. Indeed, in at least 27 of the states
using a precinct voting system, including Ohio, a
voter’s ballot will only be counted as a valid ballot if it
is cast in the correct precinct.”). And a majority of the
states that use precinct voting do not count out-ofprecinct ballots. Reagan, 2018 WL 2191664, at *8. The
requirement to use mail voting or locate the correct
precinct and then travel to the correct precinct to vote
does not “represent a significant increase over the
usual burdens of voting.” Crawford, 553 U.S. at 198.
DNC’s arguments to the contrary are meritless.
First, DNC argues that the burden imposed by
Arizona’s policy of not counting ballots cast outside of
the proper precinct is not minimal because the ratio of
Arizona voters who cast ballots outside of the correct
precinct compared to total votes cast in-person on
Election Day is higher than in any other state. This
statistic is misleading, because the vast majority of
Arizonans vote early by mail—not in-person on
Election Day. Reagan, 2018 WL 2191664, at *21. More
important, the relative difference between Arizona and
other states does not shed any light on the only
relevant issue: the size of the burden imposed by
Arizona’s precinct voter system.28
28

The dissent offers similarly misleading statistics to support its
assertion that “Arizona voters are far likelier to vote [out of
precinct] than voters of other states.” Dissent at 77. The dissent’s
graph, Dissent at 78, shows only that the small subset of Arizona
voters who cast their ballots in-person on Election Day are more
likely to vote outside their precinct than voters in other states.
Dissent at 78. The vast majority of Arizona voters, however, vote
early by mail. Reagan, 2018 WL 2191664, at *21. Further, the
dissent mentions the total number of votes cast out of precinct in

App. 325
Second, DNC points to the evidence in the record
regarding the external factors that contribute to out-of
precinct voting in Arizona, such as residential mobility,
polling place locations, and pollworker training, and
argues that such external factors impose a heavier
burden on minorities.29 But even if DNC presented
evidence showing that the burden of finding the correct
precinct fell more heavily on minorities than
nonminorities, such evidence would not establish that
the burden is any more than de minimis. DNC does not
cite evidence that would allow a court “to quantify
either the magnitude of the burden on [any such] class
of voters or the portion of the burden imposed on them
that is fully justified,” id. at 200; nor does DNC directly
contest the evidence on which the district court relied
in determining the burden was minimal. For instance,
the district court cited substantial evidence in the
record showing that in “Arizona counties with precinctbased systems, voters generally are assigned to
precincts near where they live, and county officials
consider access to public transportation when assigning
polling places,” and that “Arizona voters also can learn
of their assigned precincts in a variety of ways,” by
the 2012 election, but not the more recent data from the 2016
election, which supports the district court’s conclusion that the
number of votes cast out of precinct is an “ever-decreasing fraction
of the overall votes cast in any given election.” Reagan, 2018 WL
2191664, at *35.
29

As the district court noted, DNC did not challenge the manner
in which individual counties locate polling places, or the manner
in which Arizona trains its poll workers or informs voters of their
assigned precincts, thus undercutting any argument that such
practices violated § 2. Reagan, 2018 WL 2191664, at *23.

App. 326
accessing multiple websites operated by Arizona or
various counties, by being mailed notice of any changes
in polling places, or by calling the county recorder,
among numerous other methods. Reagan, 2018 WL
2191664, at *23. Further, the district court relied on a
2016 Survey of Performance of American Elections in
which no Arizona respondents stated that it was “very
difficult” to find their polling place, and 94 percent of
Arizona respondents reported that it was “very easy” or
“somewhat easy” to find their polling place. Id.
Accordingly, we decline the invitation by DNC and the
dissent to reweigh the same evidence considered by the
district court and reach the opposite conclusion. See
Bessemer City, 470 U.S. at 573. Instead, we affirm the
district court’s determination that the Arizona precinct
voter rule imposed only minimal burdens.
3
We next consider the district court’s conclusion that
Arizona had important regulatory interests for
requiring precinct-based voting. The court found that
this precinct system serves an important planning
function by allowing counties to estimate the number
of voters who may be expected at any particular
precinct, allowing for better allocation of resources and
personnel. Reagan, 2018 WL 2191664, at *24. A wellrun election increases voter confidence and reduces
wait times. Id. Second, the precinct voting system
ensures that each voter receives a ballot reflecting only
the races for which that person is entitled to vote,
which “promotes voting for local candidates and issues
and helps make ballots less confusing by not providing

App. 327
voters with ballots that include races for which they
are not eligible to vote.” Id.
The court concluded that the OOP policy was
sufficiently justified by Arizona’s important interests in
light of the minimal burdens it imposes, and held that
Arizona’s practice did not need to be the narrowest
means of enforcement. Id. at *24–26. The court
therefore rejected DNC’s arguments that Arizona
should be required to adopt a more narrowly tailored
rule and partially count ballots that were cast out-ofprecinct, i.e., “counting only the offices for which the
OOP voter is eligible to vote.” Id. at *25. Moreover, the
court concluded that such a requirement would have
significant impacts. If Arizona no longer enforced inprecinct voting, the court reasoned, people would “have
far less incentive to vote in their assigned precincts and
might decide to vote elsewhere.” Id. at *25. Voters
could also “be nefariously directed to vote elsewhere,”
id., as detailed in N.C. State Conference of NAACP v.
McCrory, 182 F. Supp. 3d 320, 461 (M.D.N.C. 2016),
rev’d on other grounds, 831 F.3d 204 (4th Cir. 2016).
Further, partially counting ballots would burden
candidates for local office, who would have to persuade
voters to vote in-precinct. Reagan, 2018 WL 2191664,
at *25. Finally, it would “impose a significant financial
and administrative burden on Maricopa and Pima
Counties because of their high populations.” Id.
Accordingly, the court concluded that Arizona’s
rejection of ballots cast out-of-precinct does not violate
the First and Fourteenth Amendments.

App. 328
We agree with the district court’s analysis. The
interests served by precinct-based voting are well
recognized. As the Sixth Circuit has explained:
The advantages of the precinct system are
significant and numerous: it caps the number of
voters attempting to vote in the same place on
election day; it allows each precinct ballot to list
all of the votes a citizen may cast for all
pertinent federal, state, and local elections,
referenda, initiatives, and levies; it allows each
precinct ballot to list only those votes a citizen
may cast, making ballots less confusing; it
makes it easier for election officials to monitor
votes and prevent election fraud; and it
generally puts polling places in closer proximity
to voter residences.
Sandusky Cty. Democratic Party, 387 F.3d at 569.
DNC does not dispute these legitimate interests,
but argues that the OOP policy is not justified because
it is administratively feasible to count ballots cast outof-precinct, pointing to 20 other states which partially
count out-of-precinct ballots. But restrictions such as
the OOP policy that impose minimal burdens on voters’
rights need not be narrowly tailored, see Burdick, 504
U.S. at 433, and thus Arizona is not required to show
that its electoral system “is the one best tailored to
achieve its purposes.” Dudum, 640 F.3d at 1114.
Moreover, as the district court pointed out, DNC’s
“requested relief essentially would transform Arizona’s
precinct-based counties, including its two most
populous, into quasi-vote-center counties.” Reagan,
2018 WL 2191664, at *26. The mere fact that a

App. 329
minority of jurisdictions adopt a different system does
not mean that Arizona’s choice is unjustified. Where, as
here, the plaintiff “effectively ask[s] the court to choose
between electoral systems,” we ordinarily reject such
challenges. See Dudum, 640 F.3d at 1115. “[A]bsent a
truly serious burden on voting rights,” we have held
that we must have “respect for governmental choices in
running elections,” particularly where “the challenge is
to an electoral system, as opposed to a discrete election
rule (e.g., voter ID laws, candidacy filing deadlines, or
restrictions on what information can be included on
ballots).” Id. at 1114–15 (emphasis omitted). As we
have recognized, such variations are “the product of our
democratic federalism, a system that permits states to
serve ‘as laboratories for experimentation to devise
various solutions where the best solution is far from
clear.’” Pub. Integrity All., 836 F.3d at 1028 (quoting
Ariz. State Legislature v. Ariz. Indep. Redistricting
Comm’n, 135 S. Ct. 2652, 2673 (2015)).
DNC also contends that there is insufficient
evidence that more voters will vote out-of-precinct if
Arizona began partially counting out-of-precinct
ballots. But just as with fraud prevention, Arizona does
not need to produce “elaborate, empirical verification of
the weightiness of [its] asserted justifications.”
Timmons v. Twin Cities Area New Party, 520 U.S. 351,
364 (1997); see also Munro, 479 U.S. at 195 (“To require
States to prove actual voter confusion, ballot
overcrowding, or the presence of frivolous candidacies
as a predicate to the imposition of reasonable ballot
access restrictions would invariably lead to endless
court battles over the sufficiency of the ‘evidence’
marshaled by a State to prove the predicate.”). Courts

App. 330
wisely do not require “that a State’s political system
sustain some level of damage” before it can impose
“reasonable restrictions” on the electoral process.30
Munro, 479 U.S. at 195. Therefore, we affirm the
district court’s holding that the OOP policy is valid
under the Anderson/Burdick framework.
B
Finally, we address DNC’s claim that the OOP
policy violates § 2 of the VRA.
As noted above, at the first step, DNC must carry
its burden of showing that the challenged practice
(here Arizona’s requirement that in-person voters vote
in the correct precinct) gives members of a protected
class less opportunity than other members of the
electorate both “to participate in the political process
and to elect representatives of their choice.” Chisom,
501 U.S. at 397 (quoting 52 U.S.C. § 10301(b)).
The district court held that DNC did not carry its
burden at the first step of its § 2 claim. Although
finding that “minorities are over-represented among

30

The dissent also challenges the wisdom of Arizona’s OOP policy,
labeling as “illogical” Arizona’s concern that without the policy
voters may not have an incentive to identify and vote in their
correct precinct. Dissent at 104. In reaching this conclusion, the
dissent relies only on its own view of proper policy, a view that
contradicts a majority of states, which each adopt the same
approach as Arizona. Reagan, 2018 WL 2191664, at *8. We
therefore reject this argument.

App. 331
the small number of voters casting OOP ballots,”31 the
court also found that out-of-precinct “ballots represent
. . . a small and ever-decreasing fraction of the overall
votes cast in any given election.” Reagan, 2018 WL
2191664, at *34–35. As noted above, only 3,970 out of
2,661,497 total votes, or 0.15 percent, were cast in the
wrong precinct during the 2016 general election. Id. at
*35. Further, as in its Anderson/Burdick analysis, the
court found that the burden of identifying the correct
precinct was minimal. The court noted that DNC had
not challenged “the manner in which Arizona counties
allocate and assign polling places or Arizona’s
requirement that voters re-register to vote when they
move.” Id. Nor had DNC claimed that there was
“evidence of a systemic or pervasive history” of
disproportionately giving minority voters
misinformation as to precinct locations, or evidence
“that precincts tended to be located in areas where it
would be more difficult for minority voters to find
them, as compared to non-minority voters.” Id. Because
the number of votes cast out of precinct by any voters
was small and decreasing, and because the burden of

31

For example, among all counties that reported out-of-precinct
ballots in the 2016 general election, roughly 99 percent of
Hispanic, African American, and Native American voters cast
ballots in the correct precinct, while the other 1 percent voted in
the wrong precinct. Reagan, 2018 WL 2191664, at *34. By
comparison, 99.5 percent of non-minority voters voted in the
correct precinct, with 0.5 percent casting out-of-precinct ballots. Id.
While this data shows, as Arizona notes, that minority voters were
“twice as likely” to cast OOP ballots as non-minority voters, the
relative percentages of voters in each group who vote in the correct
and incorrect precincts are far more meaningful. See Frank, 768
F.3d at 752 n.3.

App. 332
finding the correct precinct was minimal (and the state
had not made the burden more difficult for minorities),
the district court concluded that the OOP policy did not
give minority voters less opportunity than the rest of
the electorate to participate in the political process and
elect their preferred representatives. Id. at *36.
Therefore, the court concluded that DNC had failed to
carry its burden at the first step of § 2.32

32

Having reached this conclusion, the district court did not need
to reach step two, but nonetheless analyzed both challenged
election practices together and found that, although some of the
Senate Factors were present, DNC’s causation theory was too
tenuous to meet its burden. Reagan, 2018 WL 2191664, at *36–40.
These findings are not clearly erroneous. In arguing to the
contrary, the dissent again engages in appellate fact-finding,
emphasizing some parts of the extensive record and ignoring
others. For example, the district court found that DNC did not
carry its burden of proving that “there is a significant lack of
responsiveness on the part of elected officials to the particularized
needs of the members of the minority groups.” Id. at *27. This
conclusion is supported by substantial evidence in the record,
including evidence of outreach efforts by the Arizona Citizens
Clean Elections Commission to increase minority voter education
and participation, and evidence that Arizona had the sixteenthhighest minority representation ratio in the country. Although the
dissent points to other evidence in the record, e.g., evidence that
Arizona has the fourth-poorest health insurance coverage for
children, and is ranked second-lowest overall per-pupil spending
for Fiscal Year 2014, Dissent at 94–95, our proper role is to
determine whether “the district court’s account of the evidence is
plausible in light of the record viewed in its entirety,” Bessemer
City, 470 U.S. at 574, not to substitute our own evaluation of the
record. Here, the district court’s view of the evidence was clearly
permissible, and we therefore disregard the dissent’s
impermissible reweighing of the evidence.

App. 333
The district court did not clearly err in reaching this
conclusion. Although DNC argues that minorities are
more likely to cast out-of-precinct ballots, and that
there have been close elections where out-of-precinct
ballots could have made a difference, the fact that a
practice falls more heavily on minorities is not
sufficient to make out a § 2 violation. Salt River, 109
F.3d at 595. Rather, there must be a showing that the
challenged practice causes a material impact on the
opportunity provided to minorities to participate in the
political process and to elect representatives of their
choice. “[U]nless minority group members experience
substantial difficulty electing representatives of their
choice, they cannot prove that a challenged electoral
mechanism impairs their ability ‘to elect.’” Gingles, at
48 n.15 (quoting 52 U.S.C. § 10301(b)). A precinct
voting system, by itself, does not have such a causal
effect. Such a common electoral practice is a minimum
requirement, like the practice of registration, that does
not impose anything beyond “the usual burdens of
voting.” Crawford, 553 U.S. at 198. As with other laws
that impose such minimal burdens, a court can
reasonably conclude that this background requirement,
on its own, does not cause any particular group to have
less opportunity to “influence the outcome of an
election.” Chisom, 501 U.S. at 397. Indeed, DNC has
not adduced any evidence to the contrary.
In arguing that the district court erred, the dissent
relies primarily on its erroneous view that any
disparate impact on minorities constitutes a violation
of step one of § 2. See supra at 41 n.18. Based on this
misunderstanding, the dissent argues that “the district
court legally erred in determining that a critical mass

App. 334
of minority voters must be disenfranchised before § 2 is
triggered.”33 Dissent at 84. But it is the dissent that
errs in arguing that evidence that an election rule has
any disparate impact on minorities is sufficient to
succeed on a § 2 claim. Dissent at 88. As the Supreme
Court pointed out, to meet the language of § 2, “all such
claims must allege an abridgement of the opportunity
to participate in the political process and to elect
representatives of one’s choice,” Chisom, 501 U.S. at
398, and must prove more than “the mere loss of an
occasional election.” Gingles, 478 U.S. at 51. Here, the
district court was faithful to the language of § 2. 52
U.S.C. § 10301 (b).34

33

Of course, as explained above, supra at 61 n.27, an election rule
requiring voters to identify their correct precinct in order to have
their ballots counted does not constitute a “disenfranchisement” of
voters.

34

In the alternative, the dissent argues that “in this instance, a
critical mass has been shown.” Dissent at 84 n.2. The record
provides no support for this statement. Rather, the evidence shows
that approximately 99 percent of Hispanic, African American, and
Native American voters cast ballots in their correct precinct.
Reagan, 2018 WL 2191664, at *34. In 2016 only 3,970 votes were
cast out of precinct—0.15 percent of the total votes cast—and the
record is silent on what number of those ballots were cast by
minority voters. Reagan, 2018 WL 2191664, at *34–35. The
dissent’s only support for its claim is its brief reference to the
dissent in Feldman II, 842 F.3d at 634, which in turn references
two close primary elections in Arizona (one Republican, one
Democrat) in 2012 and 2014, and five other close races over the
course of the past 100 years (from 1916 to 2012). Dissent at 84 n.2.
This certainly does not compel a conclusion that the district court’s
view of the relevant evidence was clearly erroneous.

App. 335
This is not to say that plaintiffs could never carry
their burden of showing a precinct-based voting system
gave minority voters less opportunity. For instance, it
is possible that a state could implement such a system
in a manner that makes it more difficult for a
significant number of members of a protected group to
discover the correct precinct in order to cast a ballot.
This could occur, for instance, if the state did not
provide necessary information in the language best
understood by a language minority. But here, the
district court found that DNC did not present any
evidence of this sort of practice. Reagan, 2018 WL
2191664, at *23–24. DNC does not contest this finding
on appeal, nor does it challenge any other elements of
Arizona’s precinct voting system, such as individual
counties’ location of polling places, as unlawful.
Therefore, the district court correctly determined
that the precinct voter system did not lessen the
opportunities of minorities to participate in the
political process and to elect representatives of their
choice, and did not clearly err in rejecting DNC’s
argument that it need not provide evidence of this
factor so long as there is evidence of some disparity in
out-of-precinct voting.
V
After an exhaustive ten-day bench trial involving
the testimony of 51 witnesses and over 230 exhibits,
the district court made two key factual findings. First,
it found that neither Arizona’s precinct voter system
nor H.B. 2023 imposed more than a minimal burden on
voters or increased the ordinary burdens traditionally
associated with voting. Second, it found that the

App. 336
Arizona state legislature was not motivated by a
discriminatory purpose in enacting H.B. 2023. These
findings, which were not clearly erroneous, effectively
preclude DNC’s claims. The finding that Arizona’s two
election practices place only the most minimal burden
on voters necessarily leads to the conclusion that the
practices did not result in less opportunity for minority
voters to participate in the political process and elect
representatives of their choice for purposes of § 2 of the
VRA. Further, in light of the court’s finding that the
burden imposed on voters by the two election practices
was minimal, Arizona easily carried its burden under
the Anderson/Burdick test to show that its election
practices were reasonably tailored to achieve the
State’s important regulatory interests. Finally, the
court’s finding that the legislature had no
discriminatory purpose in enacting H.B. 2023
effectively eviscerates DNC’s Fifteenth Amendment
claim. Accordingly, we affirm the district court’s
determination that Arizona’s election practices did not
violate the First and Fourteenth Amendments or § 2 of
the VRA, and H.B. 2023 did not violate the Fifteenth
Amendment.
AFFIRMED.

App. 337
THOMAS, Chief Judge, dissenting:
“No right is more precious in a free country than
that of having a voice in the election of those who make
the laws under which, as good citizens, we must live.”
Wesberry v. Sanders, 376 U.S. 1, 17 (1964). Our right to
vote benefits government as much as it benefits us: a
representative democracy requires participation, and
the people require representatives accountable to them.
Arizona’s electoral scheme impedes this ideal and has
the effect of disenfranchising Arizonans of African
American, Hispanic, and Native American descent.
Arizona’s policy of wholly discarding—rather than
partially counting—votes cast out-of-precinct has a
disproportionate effect on racial and ethnic minority
groups. It violates § 2 of the Voting Rights Act (“VRA”),
and it unconstitutionally burdens the right to vote
guaranteed by the First Amendment and incorporated
against the states under the Fourteenth Amendment.
H.B. 2023, which criminalizes most ballot collection,
serves no purpose aside from making voting more
difficult, and keeping more African American,
Hispanic, and Native American voters from the polls
than white voters.
I respectfully dissent.
I
No state rejects more out-of-precinct (“OOP”) votes
than Arizona. As the district court recognized, Arizona
voters are far likelier to vote OOP than voters of other
states. Democratic Nat’l Comm. v. Reagan, No. CV-1601065-PHX-DLR, 2018 WL 2191664, at *21 (D. Ariz.

App. 338
May 10, 2018) (hereinafter Reagan). Indeed, “[i]n 2012
alone more than one in every five Arizona in-person
voters was asked to cast a provisional ballot, and over
33,000 of these—more than 5 percent of all in-person
ballots cast—were rejected.” Id. (internal quotation
marks and alterations omitted). The following graph
compares the rate at which Arizona rejects OOP ballots
to that of other states, showing just how much of an
outlier Arizona is:

Arizona voters are likely to vote OOP for a
constellation of reasons, the most striking of which is
the frequency with which polling locations change,
particularly in the highly populated urban areas. Id. at
*22. Between 2006 and 2008, at least 43 percent of all
polling places in Maricopa County—where
approximately two-thirds of Arizona’s registered voters
live—changed locations, and 40 percent moved again
between 2010 and 2012. Id. In 2016, Maricopa County

App. 339
went from 60 vote centers for the presidential
preference election to 122 polling locations for the May
special election to over 700 assigned polling locations in
the August primary and November general elections.
Id. In other words, the paths to polling places in the
Phoenix area is much like the changing stairways at
Hogwarts, constantly moving and sending everyone to
the wrong place. The effect? Voters whose polling
location changed were forty percent likelier to vote
OOP. Id.
Additionally, polling locations are often
counterintuitive, further driving up OOP rates. Polls
are likely to be placed on the edge of the precinct, and
they are frequently clustered together—sometimes
even in the same building. Unsurprisingly, voters who
live further from their assigned polling location than
from a location nearest to them or who are close to
more than one location are likelier to end up casting a
discarded ballot. Indeed, one-quarter of OOP voters
cast their ballots in locations closer than their assigned
polling place to their homes.
Worse, voters left confused by Arizona’s
labyrinthian system often miss out on the opportunity
to cast a ballot in their assigned location, where it will
be counted. At trial, all but one of the affected
witnesses testified that they were never informed that
they were voting OOP and that their ballot would not
be counted. And the one witness who was given this
crucial information was nonetheless unable to vote; he
could not make it to his assigned location before the
polls closed.

App. 340
There is no question that Arizona’s practice of
discarding OOP ballots is also a practice of
disproportionately discarding ballots cast by minority
voters. The district court recognized as much. Id. at *4,
*34. Indeed, although rates of OOP voting decreased in
the last election, the disparity between white and
minority voters remains constant. In the 2016 general
election, Hispanic, African American, and Native
American voters were twice as likely as white voters to
vote OOP. Id. at *34.
Race and ethnicity intersect with the socioeconomic
conditions that drive up OOP voting. It is frequently
more difficult for minority voters to locate and vote in
their assigned polling locations. As the district court
noted, “OOP voting is concentrated in relatively dense
precincts that are disproportionately populated with
renters and those who move frequently. These groups,
in turn, are disproportionately composed of minorities.”
Id. at *35.
Moreover, minority voters are far likelier to face
significant barriers in traveling to the polls, barriers
that compound the difficulty faced by the voter who is
informed that she is in the wrong location and
therefore needs to travel to a different precinct. The
evidence showed that African American, Hispanic, and
Native American voters in Arizona are more likely to
work multiple jobs and to lack reliable transportation
and childcare resources. Id. at *31. Given that voters
may wait as long as five hours in line just to cast a
ballot, it is not difficult to see how socioeconomic
conditions may increase the significance of barriers to
ballot access.

App. 341
Native American voters, many of whom live on
sovereign lands, face unique challenges. Navajo voters
in Northern Apache County, for example, are not
assigned standard addresses; their polling locations are
assigned according to “guesswork.” Id. at *35. And they
often have different polling locations for tribal elections
and state and federal elections. Id.
Despite these startling indicators, the district court
concluded that Arizona’s policy of discarding OOP
ballots violates neither § 2 of the VRA nor the First
Amendment, applicable to the states pursuant to the
Fourteenth Amendment. I respectfully disagree on both
counts.
II
Arizona’s practice of discarding OOP ballots violates
§ 2 of the VRA. The practice “results in a denial or
abridgement of the right of any citizen of the United
States to vote on account of race or color,” 52 U.S.C.
§ 10301(a), and, “based on the totality of
circumstances,” members of protected classes “have
less opportunity than other members of the electorate
to participate in the political process and to elect
representatives of their choice,” id. § 10301(b).
The VRA “should be interpreted in a manner that
provides ‘the broadest possible scope’ in combating
racial discrimination.” Chisom v. Roemer, 501 U.S. 380,
403 (1991) (quoting Allen v. State Bd. of Elections, 393
U.S. 544, 567 (1969)). There are two routes to
vindication of a § 2 claim—a plaintiff may satisfy either
the “intent test” or the “results test.” Thornburg v.
Gingles, 478 U.S. 30, 35, 44 (1986). DNC has not

App. 342
alleged that the challenged practice was initiated for a
discriminatory purpose, as required to satisfy the
intent test. Rogers v. Lodge, 458 U.S. 613, 618 (1982)
(requiring a showing of “invidious discriminatory
purpose”).
Thus, the operative question is whether, under “the
totality of circumstances,” members of a racial or ethnic
minority “have less opportunity than other members of
the electorate to participate in the political process and
to elect representatives of their choice,” 52 U.S.C.
§ 10301(b).1 Under the results test, a challenged law or
practice violates § 2 of the VRA if: (1) it “impose[s] a
discriminatory burden on members of a protected class,
meaning that members of the protected class have less
opportunity than other members of the electorate to
participate in the political process and to elect
1

The use of the conjunction “and” in the quoted language did not
create a new and more rigorous two-part test, as the majority’s
reading of Chisom v. Roemer, 501 U.S. 380 (1991) suggests. See Op.
38–42. Rather, in Chisom, the Court explained why it rejected the
notion that voters could not bring a vote dilution claim for judicial
elections. Chisom, 501 U.S. at 396–97. The Court clearly
understood that the VRA does not demand a showing that the
challenged provision may be outcome-determinative: “Any
abridgment of the opportunity of members of a protected class to
participate in the political process inevitably impairs their ability
to influence the outcome of an election.” Id. at 397. Indeed, the
Court wrote that it was a relatively “mere[ ]” thing to show that
voters are denied the ability to influence an election’s outcome; the
greater hurdle is to show that voters are not allowed to fully
participate. Id. at 396–97 (rejecting the position that “a . . .
practice . . . which has a disparate impact on black voters’
opportunity to cast their ballots under § 2, may be challenged even
if a different practice that merely affects their opportunity to elect
representatives of their choice to a judicial office may not.”).

App. 343
representatives of their choice”; and (2) that burden is
“in part . . . caused by or linked to social and historical
conditions that have or currently produce
discrimination against members of the protected class.”
League of Women Voters of N.C. v. North Carolina, 769
F.3d 224, 240 (4th Cir. 2014) (internal quotation marks
omitted) (quoting Ohio State Conf. of the NAACP v.
Husted, 768 F.3d 524, 553 (6th Cir. 2014)); accord
Veasey v. Abbott, 830 F.3d 216, 244 (5th Cir. 2016);
Ohio Democratic Party v. Husted, 834 F.3d 620, 637
(6th Cir. 2016).
Our responsibility is to interpret the law in
accordance with Congress’s “broad remedial purpose of
‘ridding the country of racial discrimination in voting,’”
Chisom, 501 U.S. at 403 (alteration omitted) (quoting
South Carolina v. Katzenbach, 383 U.S. 301, 315
(1966)). Here, we know that African American,
Hispanic, and Native American Arizonan voters are
twice as likely as white voters to be disenfranchised by
Arizona’s OOP policy, and we know that the problem
could be easily remedied. I would hold the challenged
practice in violation of § 2 and enjoin Arizona from
wholly discarding OOP ballots.
A
As the district court recognized, DNC “provided
quantitative and statistical evidence of disparities in
OOP voting.” Reagan, 2018 WL 2191664, at *34. That
evidence was “credible and shows that minorities are
over-represented among the small number of voters
casting OOP ballots.” Id. Indeed, in 2016, whites were
half as likely to vote OOP as African Americans,
Hispanics, or Native Americans, a pattern displayed in

App. 344
all counties save one, which is predominately white. Id.
The analysis at step one of the § 2 results test ought to
end at this point, as DNC clearly met its burden of
demonstrating that Arizona’s practice of discarding
OOP ballots places a “discriminatory burden” on
African Americans, Hispanics, and Native Americans.
League of Women Voters, 769 F.3d at 240.
The district court discredited this disparity, writing:
“Considering OOP ballots represent such a small and
ever-decreasing fraction of the overall votes cast in any
given election, OOP ballot rejection has no
meaningfully disparate impact on the opportunities of
minority voters to elect their preferred
representatives.” Reagan, 2018 WL 2191664, at *35.
However, this consideration is irrelevant to step one of
§ 2’s results test, which focuses solely on the differences
in opportunity and effect enjoyed by groups of voters.
52 U.S.C. § 10301. Thus, the district court legally erred
in determining that a critical mass of minority voters
must be disenfranchised before § 2 is triggered.2 See
Chisom, 501 U.S. at 397 (“Any abridgment of the
opportunity of members of a protected class to
participate in the political process inevitably impairs
their ability to influence the outcome of an election.”).
The district court also determined that, “as a
practical matter, the disparity between the proportion
2

What is more, in this instance, a critical mass has been shown. As
I wrote when this case was last before us, regarding DNC’s request
for a preliminary injunction, the record demonstrates vote margins
as thin as 27 votes in a 2016 partisan primary and about 10,000
votes in the 2002 gubernatorial general election. Feldman v. Ariz.
Sec’y of State’s Office, 842 F.3d 613, 634 (9th Cir. 2016).

App. 345
of minorities who vote at the wrong precinct and the
proportion of non-minorities who vote at the wrong
precinct does not result in minorities having unequal
access to the political process.” Reagan, 2018 WL
2191664, at *35. But when, as a result, proportionately
fewer of the ballots cast by minorities are counted than
those cast by whites, that is precisely what it means.
Under the standard applied by the district court, a
poll tax or literacy test—facially neutral, evenly
applied across racial and ethnic lines—could withstand
scrutiny. After all, regardless of race, individuals who
pay the tax or pass the test get to vote. However, the
§ 2 results test rejects this line of thinking. Gingles,
478 U.S. at 44 (quoting S. Rep. No. 97-417, at 28
(1982), as reprinted in 1982 U.S.C.C.A.N. 177, 206)
(“The ‘right’ question, . . . is whether ‘as a result of the
challenged practice or structure plaintiffs do not have
an equal opportunity to participate in the political
processes and to elect candidates of their choice.’”).
Similarly, it is inappropriate to require, as the
district court did, that DNC demonstrate a causal
connection between Arizona’s policy of not counting
OOP ballots and the disparate rates of OOP voting.
Reagan, 2018 WL 2191664, at *35–36. The district
court misstated the burden by concluding that DNC is
challenging the voters’ own behavior rather than the
state’s policy of not counting OOP ballots. Because the
challenged practice is Arizona’s wholesale rejection of

App. 346
OOP ballots, it does not matter whether such rejection
increases the rates of OOP voting.3
Moreover, the VRA does not demand the causal
connection required by the district court. Rather, it is
violated by a law that “impose[s] a discriminatory
burden on members of a protected class” when that
burden is “in part . . . caused by or linked to”
discriminatory conditions. League of Women Voters, 769
F.3d at 240. The district court flipped the requisite
connection between the burden alleged and the
conditions of discrimination by demanding DNC to
show that the burden of having votes go uncounted
leads to the socioeconomic disparities that in turn lead
to OOP voting.
Applying the appropriate causation requirement
leads to a different conclusion. The evidence showed
the existence of a “causal connection between the
challenged voting practice and [a] prohibited
discriminatory result.” Smith v. Salt River Project Agr.
Imp. & Power Dist., 109 F.3d 586, 595 (9th Cir. 1997)
(quoting Ortiz v. City of Phila. Office of City Comm’rs
Voter Registration Div., 28 F.3d 306, 312 (3d Cir.
1994)); see also id. at 595 (“Only a voting practice that
results in discrimination gives rise to § 2 liability.”)
(emphasis added). Here, the challenged practice—not
counting OOP ballots—results in “a prohibited
discriminatory result”; a substantially higher

3

For the same reason, I disagree that we must be more deferential
to the State on the grounds that “the challenge is to an electoral
system, as opposed to a discrete election rule.” Op. 20 (quoting
Dudum v. Arntz, 640 F.3d 1098, 1114 (9th Cir. 2011)).

App. 347
percentage of minority votes than white votes are
discarded. Id. at 586.
The district court recognized that socioeconomic
disparities between whites and minorities increase the
likelihood of OOP voting. In the district court’s words,
“OOP voting is concentrated in relatively dense
precincts that are disproportionately populated with
renters and those who move frequently. These groups,
in turn, are disproportionately composed of minorities.”
Reagan, 2018 WL 2191664, at *35. It also recognized
that “Hispanics, Native Americans, and African
Americans . . . are significantly less likely than nonminorities to own a vehicle, more likely to rely upon
public transportation, [and] more likely to have
inflexible work schedules.” Id. at *32.
I cannot accept the proposition that, under § 2, the
State is absolved of any responsibility to correct
disparities if they can be attributed to socioeconomic
factors. See Gingles, 478 U.S. at 63 (“[T]he reasons
black and white voters vote differently have no
relevance to the central inquiry of § 2.”). When we look
at the evidence through this lens, the district court’s
findings give rise to certain logical inferences. For one,
when a polling location is situated on one end of a
precinct—as often occurs—it is disproportionately
difficult for minorities to get to that location. And, in
the event that a poll worker informs the voter that she
is in the wrong precinct and her ballot will be
uncounted, she is likelier to have the opportunity to
successfully travel to and vote at her assigned polling
location if she is white. The district court erred by
requiring DNC to show that “Arizona’s policy to not

App. 348
count OOP ballots is . . . the cause of the disparities in
OOP voting.” Reagan, 2018 WL 2191664, at *35. The
VRA imposes no such requirement.
The district court also erred by discounting the
significance of its determination that “[p]olling place
locations present additional challenges for Native
American voters.” Id. As the trial court itself noted:
Navajo voters in Northern Apache County lack
standard addresses, and their precinct
assignments for state and county elections are
based upon guesswork, leading to confusion
about the voter’s correct polling place.
Additionally, boundaries for purposes of tribal
elections and Apache County precincts are not
the same. As a result, a voter’s polling place for
tribal elections often differs from the voter’s
polling place for state and county elections.
Inadequate transportation access also can make
travelling to an assigned polling place difficult.
Id. Remedying the legal error committed by the trial
court in imposing an overly onerous burden on the
plaintiffs, the court’s own findings demonstrate that
African American, Hispanic, and Native American
voters are far likelier than white voters to vote OOP
and see their votes go uncounted.
In sum, I take no issue with the district court’s
findings of fact. Rather, I disagree with the application
of law to the facts, and the conclusions drawn from
them. In particularly, I respectfully disagree with the
conclusion that the findings—which conclusively
demonstrate the existence of disparate burdens on

App. 349
African American, Hispanic, and Native American
voters—can be discounted on the grounds that there
are not enough disenfranchised voters to matter. See
Salt River Project, 109 F.3d at 591 (citation and
internal quotation marks omitted) (noting “the [court’s]
power to correct errors of law, including those that may
infect a so-called mixed finding of law and fact, or a
finding of fact that is predicated on a
misunderstanding of the governing rule of law”).
B
As required at step two of the results test, DNC has
shown that, under the “totality of circumstances,” 52
U.S.C. § 10301(b), the disparate burden of
disenfranchisement is “in part . . . caused by or linked
to social and historical conditions that have or
currently produce discrimination against members of
the protected class,” League of Women Voters, 769 F.3d
at 240 (citation and internal quotation marks omitted).
This step “provides the requisite causal link between
the burden on voting rights and the fact that this
burden affects minorities disparately because it
interacts with social and historical conditions that have
produced discrimination against minorities currently,
in the past, or both.” Veasey, 830 F.3d at 244. “[T]he
second step asks not just whether social and historical
conditions ‘result in’ a disparate impact, but whether
the challenged voting standard or practice causes the
discriminatory impact as it interacts with social and
historical conditions.” Husted, 834 F.3d at 638
(emphasis removed).
In 1982, Congress amended the VRA in response to
Mobile v. Bolden, 446 U.S. 55 (1980), in which the

App. 350
Supreme Court held that the VRA—like the Civil
Rights Amendments—was indifferent to laws with a
disparate impact on minority voters. Gingles, 478 U.S.
at 35. Consistent with Congress’s intent, courts
consider a non-exhaustive list of factors outlined in the
Senate Report accompanying the 1982 amendments.
Id. As relevant here, courts consider: (1) the history of
official discrimination connected to voting; (2) racially
polarized voting patterns; (3) whether systemic
discrimination disproportionately affects minority
group’s access to the polls; (4) racial appeals in political
campaigns; (5) the number of minorities in public
office; (6) officials’ responsiveness to the needs of
minority groups; and (7) the importance of the policy
underlying the challenged restriction. Id. at 36–37
(citing S. Rep. No. 97-417, at 28–29).
Here, each of the listed factors weigh in DNC’s
favor.
1
Courts are to consider “the extent of any history of
official discrimination in the state . . . that touched the
right of the members of the minority group to register,
to vote, or otherwise to participate in the democratic
process.” Gingles, 478 U.S. at 36–37 (1986) (quoting S.
Rep. No. 97-417, at 28–29). The district court classified
this factor as a “mixed bag,” but the evidence—even as
it was described by the court—points overwhelmingly
in the DNC’s favor.
The district court recognized Arizona’s “history of
discrimination against Native Americans, Hispanics,
and African Americans” throughout the entirety of its

App. 351
statehood. Reagan, 2018 WL 2191664, at *36–38. For
example, Native Americans could not legally vote until
1948, when the Arizona Supreme Court held the
disenfranchisement of Native Americans
unconstitutional. Id. at *36. From the state’s inception
until Congress passed the VRA, literacy tests enacted
specifically to limit “the ignorant Mexican vote”
prevented Hispanics, Native Americans, and African
Americans from full participation in the electoral
franchise. Id. The state discriminates against
minorities in other ways which ultimately limit voting
participation, too, particularly by undereducating
nonwhite residents and refusing to offer appropriate
Spanish translations, practices that continue into the
present day and likely serve to widen the racial and
ethnic gaps in OOP voting. Id. at *37.
The district court noted that “discrimination against
minorities in Arizona has not been linear.” Id.
However, the fact that “[d]iscriminatory action has
been more pronounced in some periods of state history
than others . . . [and] each party (not just one party)
has led the charge in discriminating against minorities
over the years” does not support the district court’s
conclusion that this factor is inconclusive. Id. at *38.
Rather, despite some advancements, most of which
were mandated by courts or Congress, Arizona’s history
is marred by discrimination. What is more, while
evidence of sustained improvement must be considered,
“sporadic[] and serendipitous[]” indicators of
improvement are not grounds for discounting a long
history of discrimination. Gingles, 478 U.S. at 76.

App. 352
Additionally, the district court discounted some
evidence on the grounds that “[m]uch of the
discrimination that has been evidenced may well have
in fact been the unintended consequence of a political
culture that simply ignores the needs of minorities.”
Reagan, 2018 WL 2191664, at *38. The results test
avoids such a chicken-or-the-egg inquiry. Gingles, 478
U.S. at 63. When Congress amended the VRA in 1982,
it did so in recognition that discrimination need not be
intentional to disenfranchise minority groups.
2
Courts are also tasked with considering “the extent
to which voting in the elections of the state . . . is
racially polarized.” Gingles, 478 U.S. at 37 (quoting
S. Rep. No. 97-417, at 28–29). The district court
correctly concluded that “Arizona has a history of
racially polarized voting, which continues today.”
Reagan, 2018 WL 2191664, at *38. This factor was
never in dispute.
However, it bears mentioning the degree to which
Arizona politics are racially polarized. In reasonably
contested elections, 59% of white Arizonans vote
Republican, in contrast to 35% of Hispanic Arizonans
and an undetermined minority of African American
and Native American voters. Arizona politics are even
more polarized along the lines of the candidate’s
ethnicity; in non-landslide district-level contests
between a Hispanic Democratic candidate and a white
Republican candidate, 84% of Hispanic voters, 77% of
Native American voters, 52% of African American
voters, and only 30% of white voters select the Hispanic
candidate.

App. 353
3
Similarly, there is no dispute that “members of the
minority groups[s] in the state . . . bear the effects of
discrimination in such areas as education, employment
and health, which hinder their ability to participate
effectively in the political process[.]” Gingles, 478 U.S.
at 37 (quoting S. Rep. No. 97-417, at 28–29). As the
district court noted, “[r]acial disparities between
minorities and non-minorities in socioeconomic
standing, income, employment, education, health,
housing, transportation, criminal justice, and electoral
representation have persisted in Arizona.” Reagan,
2018 WL 2191664, at *38. Although the district court’s
order only briefly mentions this factor, the evidence is
overwhelming. Indeed, compared to white Arizonans,
black Arizonans are over twice as likely to live in
poverty, Hispanic Arizonans are nearly three times as
likely, and Native Americans are almost four times as
likely. Id. at *31.
4
Arizona politicians have a long history of making
“overt or subtle racial appeals,” and that history
extends to the present day. Gingles, 478 U.S. at 37
(quoting S. Rep. No. 97-417, at 28–29). As the district
court noted, candidates have relied on racial appeals
since the 1970s. Reagan, 2018 WL 2191664, at *38. For
example, during Raul Castro’s successful gubernatorial
run in the 1970s, his opponent’s supporters called on
the electorate to choose the candidate who “looked like
a governor,” and a newspaper printed Fidel Castro’s
face below a headline reading, “Running for governor of
Arizona.” Id.

App. 354
More recently, too, during his winning campaign for
State Superintendent of Public Office, John
Huppenthal, a white candidate running against a
Hispanic competitor, ran an ad touting that he was
“one of us,” that he was opposed to bilingual education,
and that he “will stop La Raza,” an influential Hispanic
civil rights organization. Id. And when former
Maricopa County Attorney Andrew Thomas ran for
governor, one of his ads included an image of the
Mexican flag with a red line striking through it. Id.
Moreover, as I discuss at length below, racial appeals
were made specifically in regard to H.B. 2023. These
racial appeals “lessen to some degree the opportunity
of [minorities] to participate effectively in the political
processes and to elect candidates of their choice.”
Gingles, 478 U.S. at 40.
5
Also relevant is “the extent to which members of the
minority group[s] have been elected to public office in
the jurisdiction.” Gingles, 478 U.S. at 37 (quoting
S. Rep. No. 97-417, at 28–29). The district court noted
that “the disparity in the number of minority elected
officials in Arizona has declined.” Reagan, 2018 WL
2191664, at *39. However, a “decline” does not
translate to equity. Gingles, 478 U.S. at 76. While
nonwhites compose 44% of Arizona’s total population,
only two minority statespersons—one Hispanic
governor in 1974 and one African American
Corporation Commissioner in 2008—have been elected
to statewide positions in the last 50 years. Id. There
are currently no minorities in statewide office.

App. 355
Minorities hold only 22% of state congressional seats
and 9% of judgeships.
Minorities are seriously underrepresented in public
office in Arizona, and the problem is most severe at the
statewide level. Significantly, because Arizona could
not be required to count votes for which an OOP voter
is not qualified to vote, Arizona’s practice of wholly
discarding OOP ballots only has an effect on top-of-theticket races, where representation is at its lowest.
6
A § 2 claim is likelier to succeed where “there is a
significant lack of responsiveness on the part of elected
officials to the particularized needs of the members of
the minority group[s].” Gingles, 478 U.S. at 37 (quoting
S. Rep. No. 97-417, at 28–29). The district court found
that DNC’s evidence was “insufficient to establish a
lack of responsiveness on the part of elected officials to
particularized needs of minority groups.” Reagan, 2018
WL 2191664, at *39. It bolstered its conclusion with
evidence that the Arizona Citizens Clean Elections
Commission engages in outreach with minority
populations, but engagement by one entity is not
conclusive, especially in the face of overwhelming
evidence of government nonresponsiveness.
The district court ignored evidence that Arizona
underserves minority populations. For example, it
failed to recognize that Arizona was the last state in
the nation to join the Children’s Health Insurance
Program, which may explain, in part, why forty-six
states have better health insurance coverage for
children. Similarly, it ignored evidence that Arizona’s

App. 356
public schools are drastically underfunded; in fact, in
2016 Arizona ranked 50th among the states and the
District of Columbia in per pupil spending on public
elementary and secondary education. Given the welldocumented evidence that minorities are likelier to
depend on public services—evidence generally credited
by the district court—Arizona’s refusal to provide
adequate state services demonstrates its
nonresponsiveness to minority needs.4
Indeed, the district court’s finding is directly
contradicted by its recognition, later in its order, that
Arizona has a “history of advancing partisan objectives
with the unintended consequence of ignoring minority
interests.” Reagan, 2018 WL 2191664, at *43. And, as
I discuss below, there is significant specific evidence of
the legislature’s disregard for minority needs in the
legislative history leading to the passage of H.B. 2023.
The district court failed to consider important facts and
overstated the significance of one minor item of
evidence. It clearly erred in finding that this factor does
not support DNC. See, e.g., Myers v. United States, 652
F.3d 1021, 1036 (9th Cir. 2011) (holding that the

4

Rather than discuss the evidence supporting DNC, the district
court simply discredited the testimony of one of DNC’s experts, Dr.
Allan Lichtman, on the grounds that he “ignored various topics
that are relevant to whether elected officials have shown
responsiveness, and he did not conduct research on the issues in
Arizona.” Reagan, 2018 WL 2191664, at *39. However, the court
also found “Dr. Lichtman’s underlying sources, research, and
statistical information [to be] useful.” Id. at *2. Thus, my analysis
incorporates only Dr. Lichtman’s “underlying sources, research,
and statistical information.”

App. 357
district court clearly erred when it ignored evidence
contradicting its findings).
7
Courts may also consider “whether the policy
underlying the state . . . practice . . . is tenuous.”
Gingles, 478 U.S. at 37 (quoting S. Rep. No. 97-417, at
28). In its analysis of this factor, the district court
erroneously misstated the inquiry as whether the
precinct-based system—rather than the practice of
wholly discarding OOP votes—is justified. Finding the
precinct-based system well-supported, the district court
determined only that “Arizona’s policy to not count
OOP ballots is one mechanism by which it strictly
enforces this system to ensure that precinct-based
counties maximize the system’s benefits.” Reagan, 2018
WL 2191664, at *39. However, the district court
attempted no further explanation, fully adopting the
state’s explanation for its practice of discarding votes
without considering its logic.
Arizona’s OOP policy does not serve any purpose
beyond administrative ease. Simply put, it takes fewer
resources to count fewer ballots. There is no indication
that there is any correlation between the precinctbased model and the OOP policy. Because the analysis
of this factor is essentially no different than the
analysis under step two of the Anderson/Burdick test,
I will not discuss it at length here. Because it misstated
DNC’s challenge, the district court clearly erred in its
finding regarding the justifications for the OOP policy.
There is no indication that the precinct-based electoral
scheme runs more effectively because Arizona refuses
to count OOP votes.

App. 358
8
Summing up its analysis, the district court found
that “[some] of the germane Senate Factors . . . are
present in Arizona and others are not.” Reagan, 2018
WL 2191664, at *40. Because DNC showed that each of
the relevant factors was satisfied, the district court’s
characterization of the evidence was clearly erroneous.
Further, the district court took issue with the
Senate Factors themselves, writing that DNC’s
“causation theory is too tenuous to support [its] VRA
claim because, taken to its logical conclusion, virtually
any aspect of a state’s election regime would be suspect
as nearly all costs of voting fall heavier on
socioeconomically disadvantaged voters.” Id. However,
the results test was not on trial here; Congress
specifically amended the VRA in response to such
concerns. Gingles, 478 U.S. at 43–44 (“The Senate
Report which accompanied the 1982 amendments . . .
dispositively rejects the position of the plurality in
Mobile v. Bolden, 446 U.S. 55 (1980), which required
proof that the contested electoral practice or
mechanism was adopted or maintained with the intent
to discriminate against minority voters.”).
DNC demonstrated that Arizona’s practice of not
counting OOP ballots “results in a denial or
abridgement of the right of any citizen of the United
States to vote on account of race or color,” 52 U.S.C.
§ 10301(a), and that, “based on the totality of
circumstances,” members of protected classes “have
less opportunity than other members of the electorate
to participate in the political process and to elect
representatives of their choice,” id. § 10301(b).

App. 359
III
Arizona’s practice of wholly discarding OOP votes
also violates the First Amendment, which applies to
the states pursuant to the Fourteenth Amendment. In
deciding otherwise, the district court made several
legal errors, discussed below. Upon correcting the
district court’s errors and applying the
Anderson/Burdick test to the uncontested facts, the
record compels a contrary conclusion. See United States
v. Silverman, 861 F.2d 571, 576 (9th Cir. 1998)
(citation omitted) (clear error standard met when
appellate court is left with the “definite and firm
conviction” that a mistake was made). Arizona
unconstitutionally infringes upon the right to vote by
disenfranchising voters unable to find or travel to the
correct precinct, even as to those contests for which the
voter is qualified to vote.
The First and Fourteenth Amendments protect
individual voting rights by limiting state interference
with those rights. Reynolds v. Sims, 377 U.S. 533,
554–55 (1964); Tashjian v. Republican Party of Conn.,
479 U.S. 208, 217 (1986). While “the right[s] to vote in
any manner and . . . to associate for political purposes”
are not “absolute,” Burdick v. Takushi, 504 U.S. 428,
433 (1992), neither is the state’s constitutionally
designated authority to regulate the “Times, Places and
Manner of holding Elections for Senators and
Representatives,” U.S. Const. art. I, § 4, cl. 1; Williams
v. Rhodes, 393 U.S. 23, 29 (1968) (a state’s power to
regulate elections is “subject to the limitation that [it]
may not be exercised in a way that violates other . . .
provisions of the Constitution.”). Thus, “[t]he power to

App. 360
regulate the time, place, and manner of elections does
not justify, without more, the abridgment of
fundamental rights, such as the right to vote.”
Tashjian, 479 U.S. at 217.
Courts apply the Anderson/Burdick test, a “flexible”
balancing test, to determine whether a voting
regulation runs afoul of the First Amendment right to
associate. Burdick, 504 U.S. at 434. The Court must
“weigh ‘the character and magnitude of the asserted
injury to the rights . . . that the plaintiff seeks to
vindicate’ against ‘the precise interests put forward by
the State as justifications for the burden imposed by its
rule,’ taking into consideration ‘the extent to which
those interests make it necessary to burden the
plaintiff’s rights.’” Id. (quoting Anderson v. Celebrezze,
460 U.S. 780, 789 (1983)). There is no substitute for the
“balancing and means-end fit framework” required
under Anderson/Burdick; even if a burden is minimal,
it must be justified. Pub. Integrity All., Inc. v. City of
Tucson, 836 F.3d 1019, 1025 (9th Cir. 2016) (en banc).
A
The burden imposed by Arizona’s refusal to count
OOP votes is severe. The district court and the majority
mischaracterize that burden as the burden of
complying with the State’s general requirement that
individuals vote in their assigned precinct. However,
the burden here is the burden of disenfranchisement
suffered by those voters whose votes are discarded even
as to those elections in which the voter is qualified to
vote. DNC brought suit alleging that Arizona’s practice
of discarding OOP ballots unconstitutionally infringes
upon individual voting rights. They sought an

App. 361
injunction barring Arizona from continuing that
practice. They did not challenge Arizona’s precinctbased system in its entirety.
1
The defendants and intervenors rely on semantics,
casting the discarding of OOP ballots as the
“consequence” of Arizona’s precinct system. However,
wholly discarding OOP ballots is not a fundamental
requirement of—or even a logical corollary to—a
precinct-based model. Instead, Arizona’s practice of
discarding such ballots is exactly that—a practice. And
it can change.5
The district court legally erred when it restated the
burden along the lines urged by the defendants and
intervenors.6 Concluding that the burden was that of
voting in the correct precinct, the district court
determined that Arizona’s voters are themselves
5

Indeed, the district court determined in its analysis of standing,
which has not been contested on appeal, that the alleged
injury—not counting OOP ballots—is redressable. Reagan, 2018
WL 2191664, at *10.

6

I respectfully disagree with the majority that the district court
rightly restated DNC’s challenge because “under DNC’s theory, a
state could not enforce even a rule requiring registration, because
the state’s failure to count the vote of a non-registered voter would
‘disenfranchise’ the noncompliant voter.” Op. 61–62. The
Anderson/Burdick test is a balancing test. If a basic registration
requirement imposes a burden on voters—and it does—it will still
be upheld if that burden is justified—and it is. DNC has merely
asked us to apply the Anderson/Burdick framework to its
challenge; it has not asked for a per se rule striking any policy or
law under which votes go uncounted.

App. 362
partially responsible for any burden because they are
so likely to change residences and to rent rather than
own their homes. Reagan, 2018 WL 2191664, at *22.
However, if such a consideration were permissible, a
poll tax could be upheld on the grounds that poor
voters could simply earn more money or spend the
money that they do earn differently—propositions that
have, thankfully, been rejected. See Harper v. Virginia
State Board of Elections, 383 U.S. 663 (1966).
The court also rejected DNC’s challenge because
“there is no evidence that it will be easier for voters to
identify their correct precincts if Arizona eliminated its
prohibition on counting OOP ballots.” Reagan, 2018
WL 2191664, at *23. But the problem is not with the
voters, who are dealing with a system insensitive to
their needs; the problem is with an electoral system
that refuses to acknowledge and respond to the needs
of the State’s voting population. A democracy functions
only to the degree that it fosters participation.
The district court also legally erred when it equated
Arizona’s policy of discarding OOP votes with similar
policies in other states, policies which were not on trial
in this lawsuit. Voting rights claims demand an
“intensely local appraisal.” Gingles, 478 U.S. at 78
(quoting White v. Regester, 412 U.S. 755, 769 (1973)).
What is more, the constitutionality of these other
states’ policies has not been affirmatively decided.
Thus, the fact that those other states also have policies
of not counting votes cast OOP is not indicative of the
constitutionality of Arizona’s policy.
Thus, the district court erred as a matter of law in
determining that “[t]hough the consequence of voting

App. 363
OOP might make it more imperative for voters to
correctly identify their precincts, it does not increase
the burdens associated with doing so.” Reagan, 2018
WL 2191664, at *22. The burden identified by DNC and
faced by the voter is disenfranchisement.
2
The burden is severe. Because the district court
misstated the burden, it also miscalculated its severity.
For example, the district court determined that the
burden is slight based on its finding that “there is no
evidence that it will be easier for voters to identify
their correct precincts if Arizona eliminated its
prohibition on counting OOP ballots.” Id. at *23. But
that reasoning turns the appropriate legal framework
on its head.
Under the first prong of the Anderson/Burdick test,
the issue is the severity of the burden faced by voters
whose ballots are discarded because they voted OOP.
Pub. Integrity Alliance, 836 F.3d at 1024 n.2 (“[C]ourts
may consider not only a given law’s impact on the
electorate in general, but also its impact on subgroups,
for whom the burden, when considered in context, may
be more severe.”). Perhaps Arizona’s electoral scheme
justifies that burden, no matter its severity. If so,
however, that determination comes in under step two
of the Anderson/Burdick analysis.
For those whose votes go uncounted, “there can be
no do-over and no redress.” League of Women Voters,
769 F.3d at 247. To determine the burden, the Court
looks not to the voters unaffected by the practice, as
the district court did, Reagan, 2018 WL 2191664, at

App. 364
*21 (“Arizona’s rejection of OOP ballots . . . has no
impact on the vast majority of Arizona voters.”), but to
those who suffer the burden, Crawford v. Marion Cty.
Election Bd., 553 U.S. 181, 186 (2008) (plurality
opinion); Pub. Integrity All., 836 F.3d at 1024 n.2. And
those voters are effectively rendered unable to vote in
elections for which they are qualified and in which they
cast otherwise legitimate ballots. There is no burden
more severe in the voting rights context.
However, even if the district court had properly
stated the burden alleged, its ultimate finding would be
clearly erroneous. The district court found that Arizona
makes it easy for voters to find their precincts. Reagan,
2018 WL 2191664, at *23. The district court’s finding
is inconsistent with the evidence presented and
generally credited by the court.
The government bears responsibility for the high
rate of OOP voting. First, precincts appear to change
polling locations and practices even more often than
residents change homes. Id. at *22 (“[I]n Maricopa
County, between 2006 and 2008 at least 43 percent of
polling locations changed from year to the next[.]”).
Second, polling places are often in counterintuitive
locations, far from some residents’ homes. Id. And
third, the district court noted (and did not discredit)
evidence that election workers fail to inform voters that
they are in the wrong precinct and that a provisional
ballot will not be counted. Id. Thus, the district court
clearly erred in determining that Arizona does all it
should to prevent OOP voting.

App. 365
B
The severe burden faced by OOP voters is not
outweighed by a sufficiently important government
interest. Pub. Integrity All., 836 F.3d at 1024. Because
the district court misstated the burden, it also
overstated the government interest by focusing on the
“numerous and significant advantages” of a precinctbased voting model. Reagan, 2018 WL 2191664, at *24.
The inquiry should instead be whether the state can
justify the interests served by the challenged practice
of not counting OOP ballots. It cannot.
As the district court itself found, “[c]ounting OOP
ballots is administratively feasible.” Id. at *25. This is
demonstrated by: (1) the methods used by the 20 states
that use a precinct-based system and nonetheless count
OOP ballots; and (2) Arizona’s readily transferable
method “to process certain types of ballots that cannot
be read by an optical scan voting machine” and “some
provisional ballots cast by voters who are eligible to
vote in federal elections, but whom Arizona does not
permit to vote in state elections.” Id. Certainly, Arizona
can count the votes cast by all qualified voters.
The district court determined that, although OOP
votes could be counted, Arizona nonetheless could
justify its policy on the basis of assumptions regarding
what could happen if the state counted all of the ballots
that it received. Voters may “decide to vote” out of
precinct or “incorrectly believe that they can vote at
any location and receive the correct ballot.” Id. Worse,
they could “be nefariously directed to vote elsewhere.”
Id. This reasoning is illogical and unsupported by the
facts. There is no demonstrated increase in OOP voting

App. 366
in states where those votes are counted than in Arizona
(where, of course, OOP voting is at its highest level).
And “nefarious” interests would be far better served by
misdirecting voters if their out-of-precinct vote would
not be counted at all than if it were partially tallied.7
Arizona’s interest in administrative ease does not
justify the severe burden of disenfranchisement. I
would hold Arizona’s practice of discarding OOP ballots
unconstitutional.
IV
Next, DNC challenges a recently enacted law, H.B.
2023, which criminalizes most ballot collection. Under
the law, a person who collects another’s ballot commits
a felony unless the collector is an official engaged in
official duties or the voter’s family member household
member, or caregiver. Ariz. Rev. Stat. § 16-1005(H)–(I).
H.B. 2023 was not Arizona’s first attempt to limit
ballot collection. Prior to Shelby County v. Holder, 570
U.S. 529 (2013), Arizona was subject to the VRA’s § 5
preclearance requirements. In 2011, Arizona passed
S.B. 1412, which criminalized the collection of more
than ten ballots by any one individual. Reagan, 2018
WL 2191664, at *42. Arizona submitted the bill to the
DOJ for preclearance, and the DOJ “precleared all
provisions except for the provision regulating ballot
7

Under the current system, for example, a Democrat could
conceivably misdirect likely Republican voters to the wrong
precinct in order to render their ballots null. However, if OOP
ballots counted, the Democrat would have less incentive, as the
Republicans’ choices for statewide and federal office would still
register.

App. 367
collection,” about which the DOJ requested further
information in order to ensure that the provision had
neither the purpose nor the effect of limiting minority
participation in voting. Id. Arizona did not proffer the
requested information, instead withdrawing the
provision before formally repealing the law. Id. With
good reason: the State Elections Director, who helped
draft the bill, told the DOJ that the law was “targeted
at voting practices . . . in predominantly Hispanic
areas” and that state officials were expecting § 5
review. Withdrawing a provision was not standard
procedure for Arizona, which fully or partially
withdrew only 6 of its 773 preclearance provisions. Id.
In 2013, the legislature tried a new approach. It
passed H.B. 2305 “along nearly straight party lines in
the waning hours of the legislative session.” Id. The
law “banned partisan ballot collection and required
other ballot collectors to complete an affidavit stating
that they had returned the ballot.” Id. The public
outcry was immediate, with “citizen groups
organiz[ing] a referendum effort and collect[ing] more
than 140,000 signatures to place H.B. 2305 on the
ballot for a straight up-or-down vote” in the next
election. Id. “Rather than face a referendum,” which
would have barred further related legislation without
a supermajority vote, “Republican legislators again
repealed their own legislation along party lines.” Id. At
the time, then-State Senator Michele Reagan (now
Secretary of State and defendant to this action), who
sponsored the bill, stated that the legislature would
reintroduce the bill, but in smaller fragments. Id.

App. 368
As the district court noted, H.B. 2023 was passed
not only “on the heels of” these earlier bills, but also “in
the context of racially polarized voting” and “increased
use of ballot collection as a Democratic [get-out-thevote] strategy in . . . minority communities.” Id. at *41.
Legislators supporting the bill were particularly
motivated by two items of evidence: the wildly
irrational testimony of then-State Senator Don
Shooter, and a racist video prepared by former
Maricopa Republican Party Chair A.J. LaFaro, in
which LaFaro claims that a Hispanic man engaged in
a lawful get-out-the-vote ballot collection effort is a
“thug” breaking the law. Id. at *38–39, *41.
DNC brings three challenges to H.B. 2023. It argues
that the provision was motivated by racial animus, in
violation of the Fourteenth and Fifteenth Amendments
and § 2 of the VRA. It claims that it has a
discriminatory effect, also in violation of § 2. And,
finally, it contends that the law unreasonably burdens
voters’ First Amendment rights. I agree on all counts
and would hold the provision invalid under the VRA
and the United States Constitution.
V
H.B. 2023 was enacted for the purpose of
suppressing minority votes, in violation of § 2 of the
VRA and the Fourteenth and Fifteenth Amendments.
Although lawmakers were also motivated by
partisanship, their intent to reduce the total number of
Democratic votes does not render the law
constitutional.

App. 369
Under the Fourteenth and Fifteenth Amendments
and § 2 of the VRA, a law passed with the intent to
discriminate against racial or ethnic minorities cannot
stand. The law imposes a high burden on plaintiffs,
who must show “[p]roof of racially discriminatory
intent or purpose.” Vill. of Arlington Heights v. Metro.
Hous. Dev. Corp., 429 U.S. 252, 265 (1977). Voting
regulations are unconstitutional when they are
“‘conceived or operated as purposeful devices to further
racial discrimination’ by minimizing, cancelling out or
diluting the voting strength of racial elements in the
voting population.” Rogers, 458 U.S. at 617 (quoting
Whitcomb v. Chavis, 403 U.S. 124, 149 (1971)). A
plaintiff need not show that officials acted solely to
further a racially motivated agenda, Arlington Heights,
429 U.S. at 265, but the ultimate issue is whether “the
legislature enact[ed] a law ‘because of,’ and not ‘in spite
of,’ its discriminatory effect,” N.C. State Conf. of
NAACP v. McCrory, 831 F.3d 204, 220 (2016) (quoting
Pers. Adm’r of Mass. v. Feeney, 442 U.S. 256, 279
(1979)).
“Necessarily, an invidious discriminatory purpose
may often be inferred from the totality of the relevant
facts . . . .” Rogers, 458 U.S. at 618 (quoting Washington
v. Davis, 426 U.S. 229, 242 (1976)). “Thus determining
the existence of a discriminatory purpose ‘demands a
sensitive inquiry into such circumstantial and direct
evidence of intent as may be available.’” Id. (quoting
Arlington Heights, 429 U.S. at 266). Courts consider
the Arlington Heights factors, a non-exhaustive list of
considerations, to determine whether a law was
enacted to satisfy a motive to discriminate: (1) the
historical background and sequence of events leading

App. 370
to enactment; (2) substantive or procedural departures
from the normal legislative process; (3) relevant
legislative history; and (4) the impact of the law on a
particular racial group. Arlington Heights, 429 U.S. at
266–68.
Here, all four factors weigh in favor of DNC.
A
The historical background of a challenged provision
is an important evidentiary source, “particularly if it
reveals a series of official actions taken for invidious
purposes.” Id. at 267. As the district court recognized,
“H.B. 2023 emerged in the context of racially polarized
voting, increased use of ballot collection as a
Democratic [get-out-the-vote] strategy in low-efficacy
minority communities, and on the heels of several prior
efforts to restrict ballot collection.” Reagan, 2018 WL
2191664, at *41. And as discussed below, in my
analysis of § 2’s results test, a longer view of history
similarly weighs in favor of DNC. Quite simply, the
historical background suggests that the restriction was
enacted in order to prevent minority ballots from being
counted.
The fact that the minority votes would help
Democratic candidates does not alter the analysis. See
id. (suggesting that because “some individual
legislators and proponents were motivated in part by
partisan interests”8 they were not motivated by racially

8

The majority concludes that the district court “did not err in
giving little weight to evidence that ‘some individual legislators
and proponents were motivated in part by partisan interests.’” Op.

App. 371
discriminatory interests). Indeed, if that were the case,
consideration for racially polarized voting patterns—a
constant in VRA and constitutional voting regulation
challenges—would be impermissible or weigh in favor
of upholding a regulation. By nature of the political
process, an unconstitutionally discriminatory voting
regulation is a law enacted by the political party in
power in order to maintain power by preventing
minorities from voting, assuredly because they belong
to the other political party.
The first Arlington
discriminatory motive.

Heights factor

suggests

B
Under Arlington Heights courts consider “the
defendant’s departures from its normal procedures or
substantive conclusions.” Pac. Shores Props., LLC v.
City of Newport Beach, 730 F.3d 1142, 1159 (9th Cir.
2013) (citing Arlington Heights, 429 U.S. at 266–68).
The district court recognized that “the circumstances
surrounding” H.B. 2023 were “somewhat suspicious.”
Reagan, 2018 WL 2191664, at *42. This is an
understatement. H.B. 2023 flowed directly out of the
Arizona legislature’s two prior attempts to limit ballot
collection.9 The law enacted does not cure the intent to
53 (quoting Reagan, 2018 WL 2191664, at *43). But the court did
not discredit this evidence. Rather it relied on it to show proof of
nondiscrimination.
9

While it is true that discriminatory intent as to an earlier law
does not necessarily carry through to any other provision on the
subject, Op. 56, we do not have to suspend common sense. The
recency of the earlier provisions, coupled with relevant public

App. 372
discriminate demonstrated by its precursors; rather,
H.B. 2023 was part of the same general strategy of
limiting the minority vote by limiting ballot collection.
This Arlington Heights
discriminatory motive.

factor

suggests

C
“The legislative . . . history may be highly relevant,
especially where there are contemporary statements by
members of the decisionmaking body . . . .” Arlington
Heights, 429 U.S. at 267. The district court found
evidence of racial animus in the legislative history but
discounted its significance, suggesting that any initial
discriminatory motive was cured because some
legislators acted either out of self-interest or an
unfounded but sincere belief that voter fraud was
likely.
The district court’s reasoning is clearly erroneous.
First, partisan self-interest cannot absolve
discriminatory intent. If we were to allow racially
motivated voting schemes whenever those schemes
serve partisan interests, the exception would swallow
the rule, and there would be no prohibition on enacting
laws in order to discriminate. Second, the sincerity of
the legislators’ belief in a wholly theoretical risk of
voter fraud is—as the district court itself
suggested—indicative of discriminatory intent. Reagan,
2018 WL 2191664, at *41 (describing legislators’

statements and the weak legislative record supporting H.B. 2023,
places H.B. 2023 on one end of an unbroken line beginning just a
few years earlier with S.B. 1412.

App. 373
motives as “perhaps implicitly informed by racial
biases”).
Moreover, the district court’s own specific factual
findings belie its ultimate conclusion on the third
Arlington Heights factor. The district court determined
that the proponents of H.B. 2023 voted for the bill in
response to two pieces of evidence: (1) the
“demonstrably false,” “unfounded and often farfetched
allegations of ballot collection fraud” made by former
Arizona State Senator Don Shooter; and (2) a “raciallytinged” video created by Maricopa County Republican
Chair A.J. LaFaro (the “LaFaro Video”). Id. Because
there was “no direct evidence of ballot collection
fraud . . . presented to the legislature or at trial,” the
district court understood that Shooter’s allegations and
the LaFaro Video were the reasons the bill passed. Id.
(“Shooter’s allegations and the LaFaro Video were
successful in convincing H.B. 2023’s proponents that
ballot collection presented opportunities for fraud that
did not exist for in-person voting . . . .”).
Both of these evidentiary items demonstrate racial
animus. As the district court made clear, Senator
Shooter’s testimony regarding the existence and
prevalence of voter fraud was not only incorrect but in
fact “unfounded and often farfetched.” Id. If Senator
Shooter was sincere, his distorted view of reality is
explainable only by what the district court downplayed
as being “implicitly informed by racial biases,”—or, in
starker terms, by racism. Id. An unfounded and
exploited fear that members of minority groups are
“engage[d] in nefarious activities,” id., supports a
finding of racial animus. And if Senator Shooter was

App. 374
insincere, he purposefully distorted facts in order to
prevent Hispanics—who generally preferred his
opponent—from voting. Id. (“Due to the high degree of
racial polarization in his district, Shooter was in part
motivated by a desire to eliminate what had become an
effective Democratic [get-out-the-vote] strategy. . . .
Indeed, Shooter’s 2010 election was close: he won with
53 percent of the total vote, receiving 83 percent of the
non-minority vote but only 20 percent of the Hispanic
vote.”).
The LaFaro Video is even more damning. The video
shows a Hispanic man, a volunteer with a get-out-thevote organization, delivering early ballots to the polls.
The video is itself wholly mundane; it is eight
soundless minutes of a man moving completed ballots
from a cardboard box to the ballot box. It markedly “did
not show any obviously illegal activity.” Id. at *39.
However, LaFaro provided a voice-over narration,
“includ[ing] statements that the man was acting to
stuff the ballot box; that LaFaro did not know if the
person was an illegal alien, a dreamer, or citizen, but
knew that he was a thug; and that LaFaro did not
follow him out to the parking lot to take down his tag
number because he feared for his life.” Id. at *38. It is
LaFaro’s narration—not the dull raw material showing
a Hispanic man dropping off ballots—that “became
quite prominent in the debates over H.B. 2023.” Id. at
*39. As the district court recognized, the LaFaro Video
evidences racial animus.
After recognizing the existence of discriminatory
intent, the district court seems to have determined that
intent was later cured because the bill “found support

App. 375
among some minority officials and organizations” and
because some lawmakers opposed H.B. 2023 for
reasons other than that it being grounded in racial
discrimination. Id. at *41. The district court’s
reasoning is incorrect. As the Supreme Court has
stated, there is no room for judicial deference “[w]hen
there is . . . proof that a discriminatory purpose has
been a motivating factor in the decision.” Arlington
Heights, 429 U.S. at 265–66.
Moreover, the district court was wrong to determine
that a law is not racially motivated if any people of
color support it. Rather, the evidence that particular
Hispanic and African American Arizonans supported
H.B. 2023 simply demonstrates that people of color
have diverse interests, some of which may outweigh
potential concerns that a law was enacted with the
intent to discriminate. And although one lawmaker
“testified that she has no reason to believe H.B. 2023
was enacted with the intent to suppress Hispanic
voting,” the district court also recognized that “some
Democratic lawmakers accused their Republican
counterparts of harboring partisan or racially
discriminatory motives.” Reagan, 2018 WL 2191664, at
*41. Again, a diversity of perspectives is neither
surprising nor particularly telling, especially when the
operative legal test recognizes that a law may be
unconstitutionally discriminatory even if it is not
driven solely by racial animus: “legislators . . . are
properly concerned with balancing numerous
competing considerations.” Arlington Heights, 429 U.S.
at 265.

App. 376
The district court’s concerns were also assuaged
because Shooter’s “demonstrably false” allegations and
“the racially-tinged LaFaro Video . . . spurred a larger
debate in the legislature about the security of early
mail voting as compared to in-person voting.” Reagan,
2018 WL 2191664, at *41. The court’s finding is neither
here nor there. The legislature did not act to limit all
early voting, but it targeted a specific practice known
to be popular among minority voters, despite the
absence of any evidence that ballot collection was less
secure than other early voting methods.
This Arlington Heights factor weighs in favor of
DNC.
D
“The impact of the official action whether it ‘bears
more heavily on one race than another’” is “important”
to the analysis of whether a law was enacted to serve
a discriminatory motive. Arlington Heights, 429 U.S. at
266 (quoting Davis, 426 U.S. at 242.) The district court
wholly failed to measure H.B. 2023’s impact on
minority voters in its discussion of Arlington Heights.
Rather, it counterintuitively concluded that concerns
about the law’s effect on minority groups “show[] only
that the legislature enacted H.B. 2023 in spite of its
impact on minority [get-out-the-vote] efforts, not
because of that impact.” Reagan, 2018 WL 2191664, at
*43. The district court’s determination is not only
illogical but also out of place in its discussion of the
fourth Arlington Heights factor. As I will discuss in my
analysis of the § 2 results test, H.B. 2023
disproportionately affects minority voters.

App. 377
Like the first three factors considered, the fourth
and final factor supports a conclusion that the law is
motivated by racial animus. Thus, under the purpose
test of § 2 of the VRA and the Fourteenth and Fifteenth
Amendments, H.B. 2023 cannot survive.
VI
Like Arizona’s practice of discarding OOP votes,
H.B. 2023 imposes an unlawful discriminatory burden
on minority voters. As discussed above, § 2 of the VRA
provides that “[n]o voting . . . standard, practice, or
procedure shall be imposed or applied . . . in a manner
which results in a denial or abridgement of the right of
any citizen of the United States to vote on account of
race or color.” 52 U.S.C. § 10301(a).
Under the results test, “[t]he essence of a § 2 claim
is that a certain electoral law, practice, or structure
interacts with social and historical conditions to cause
an inequality in the opportunities enjoyed by [minority]
and white voters to elect their preferred
representatives.” Gingles, 478 U.S. at 47. The test is
one of the “totality of circumstances.” 52 U.S.C.
§ 10301(b); Gingles, 478 U.S. at 43. In this instance,
the totality of the circumstances conclusively
demonstrates that H.B. 2023 disproportionately
burdens minority voters, and that burden can be traced
directly to historical and social conditions of
discrimination. League of Women Voters, 769 F.3d at
240.

App. 378
A
The first prong of the results test “inquires about
the nature of the burden imposed and whether it
creates a disparate effect.” Veasey, 830 F.3d at 244.
The district court suggested that DNC’s challenge
ought to fail at step one because of a lack of
quantitative evidence, but it ultimately based its
disposition on its determination that “Plaintiffs’
circumstantial and anecdotal evidence is insufficient to
establish a cognizable disparity under § 2.” Reagan,
2018 WL 2191664, at *31. The district court erred as a
matter of law when it determined that although, “prior
to H.B. 2023’s enactment minorities generally were
more likely than non-minorities to give their early
ballots to third parties,” id., it could not find for DNC
because it could not “speak in more specific or precise
terms than ‘more’ or ‘less.’” Id. at *33.
While it is true that a plaintiff bears the burden of
demonstrating the existence and extent of a disparity,
Gonzalez v. Arizona, 677 F.3d 383, 406 (9th Cir. 2012)
(en banc), it is not true that the plaintiff is required to
do so with statistical evidence, 52 U.S.C. § 10301(b)
(providing that relevant inquiry is into “the totality of
circumstances”). The question is simply whether
members of the affected ethnic and racial minority
groups “have less opportunity than other members of
the electorate to participate in the political process and
to elect representatives of their choice.” Id. § 10301(b).
The evidence presented at trial weighed
overwhelmingly in DNC’s favor. For political and
socioeconomic reasons, H.B. 2023 is far likelier to affect

App. 379
African American, Hispanic, and Native American
Arizonan voters than white voters. As the district court
recognized, minority voters used ballot collection
services more than white voters. Reagan, 2018 WL
2191664, at *31. The disparity is not caused solely by
geography, as the socioeconomic conditions leading
minority voters to depend on ballot collection “exist in
both urban and rural areas.” Id. at *32.
The witnesses with direct experience in collecting
ballots, without exception, testified at trial that racial
and ethnic minority voters were far likelier to vote with
the help of ballot collection services. For example, one
individual who worked in several ballot collection
groups testified that “the overwhelming majority” of
voters with whom he worked were Hispanic or African
American. Another stated that the “vast majority of the
ballot pickups” done by the Maricopa County
Democratic Party are in “[m]ajority-minority districts.”
Democratic State Senator Martin Quezada described
requests for ballot collection, testifying that “[t]he large
majority of those requests came from the lower income
and the neighborhoods that were a larger percentage
Latino than others.”
No one had a clear statistical analysis of the
disparity. Nor could anyone, as the state would be the
only entity in a position to collect such evidence, and it
has not done so. However, one ballot collector testified
as to what she termed a “case study” showing the
extent of the disparity. In 2010, she and her fellow
organizers collected “somewhere south of 50 ballots” in
one particular district. The area was redistricted before
the next election to add a heavily Hispanic

App. 380
neighborhood, Sunnyslope, and in 2012, the
organization “pulled in hundreds of ballots, vast
majority from that Sunnyslope area.”
Not only is there no evidence in the record of any
significant reliance on ballot collection by white voters,
but the evidence is also replete with evidence
explaining why a disparity is natural. For example, in
rural Somerton and San Luis, both of which are over
95% Hispanic, voters lack home mail service and are
unlikely to have access to reliable transportation. Id. at
*32. In urban areas, too, Hispanic voters are less likely
to have access to mail services and, due to mail theft,
less likely to trust mail-in voting. Id.
As the district court rightfully noted, the “problems
are particularly acute in Arizona’s Native American
communities.” Id. Indeed, uncontroverted expert
testimony showed that “the majority of Native
Americans in non-metropolitan Arizona do not have
home mail delivery” and that non-Hispanic white
voters are 350% more likely to have home mail service
than Native American voters. Id. In fact, only 18% of
Native Americans outside of Pima and Maricopa
Counties have home mail service—in contrast to 86%
of non-Hispanic whites. And residents of sovereign
nations often must travel 45 minutes to 2 hours just to
get to a mailbox. In the district court’s words, “for
many Native Americans living in rural locations,
especially on reservations, voting is an activity that
requires the active assistance of friends and
neighbors.” Id.
In contrast, none of the evidence discussed by the
district court suggested that there was no disparate

App. 381
burden or that any such disparity was minor. In short,
the district court summarized the overwhelming
evidence showing a disparate burden and then
concluded that because it couldn’t pin down the
difference with exactitude, it could not find for DNC.
The district court also suggested that it could not
find for DNC because too few voters rely on ballot
collection for a restriction on ballot collection to matter.
Id. at *33–34. To the degree that this finding matters,
it is a consideration under the Anderson/Burdick
analysis, not under step one of the VRA analysis.
Moreover, the district court’s analysis ignores that the
VRA exists to protect minority groups—those groups
least likely to have their voices heard. Thus, the precise
number of affected voters is not particularly helpful.
Because it misstated the legal requirements for
establishing a disparity, the district court clearly erred
in concluding that DNC failed to meet their burden. I
would hold that H.B. 2023 imposes a disparate burden
on members of protected classes.
B
As detailed earlier, within my application of the § 2
results test to the OOP policy, the Senate Factors
demonstrate the existence of social and historical
conditions of discrimination in Arizona. Those
determinations have equal force here, and I will not
belabor the point by repeating my analysis here.
Instead, I will focus on the ways in which H.B. 2023 is
directly connected to those conditions of discrimination.
For example, one of the Senate Factors considers
the state’s history of racial discrimination. Gingles, 478

App. 382
U.S. at 36–37. Not only does Arizona have a history of
official discrimination, as I have discussed, but the
history of H.B. 2023—passed after one provision was
rejected under § 5 of the VRA and after the people of
Arizona demonstrated concern with another—
powerfully links the statute to that history. Similarly,
as to racially polarized voting patterns, as the district
court noted, one of the most vocal proponents for
criminalizing ballot collection, Senator Shooter, did so
in part because he was facing a close election in which
Hispanic voters were highly unlikely to vote for him.
Perhaps most significantly, there is direct evidence
of racial appeals being made in the context of this very
issue. Gingles, 478 U.S. at 36–37. In the LaFaro video,
a Hispanic get-out-the-vote volunteer gives no
indication that he is violating election law but is
nonetheless described as a “thug” likely to physically
harm a white political figure. Reagan, 2018 WL
2191664, at *38–39. That video figured “prominently”
in public debates about voter fraud and ballot
collection, even though it showed no illegal activity. Id.
at *39. The Senate Factors clarify that even “subtle”
racial appeals are significant under the § 2 analysis,
but the subtext of the LaFaro video does not demand
decoding. Gingles, 478 U.S. at 37 (1986) (quoting
S. Rep. No. 97-417, at 28–29).
Additionally, the legislative record demonstrates a
“significant lack of responsiveness on the part of
elected officials to the particularized needs of the
members of the minority group[s].” Gingles, 478 U.S. at
37 (1986) (quoting S. Rep. No. 97-417, at 28–29).
Legislators were apprised of concerns that H.B. 2023

App. 383
would place an especial burden on minority voters.
Their response? In the words of the bill’s sponsor: “not
my problem.” And in those of another state senator
supporting the measure, “I don’t know why we have to
spoon-fe[e]d and baby them over their vote.”
H.B. 2023 “interacts with social and historical
conditions to cause an inequality in the opportunities
enjoyed by [minority] and white voters to elect their
preferred representatives.” Gingles, 478 U.S. at 47.
DNC has conclusively met its burden of showing that
H.B. 2023 limits African American, Hispanic, and
Native American Arizonan voters’ ability to fully
participate in the political process and to elect
representatives of their choice.
VII
Finally, H.B. 2023 cannot be reconciled with the
First Amendment, which applies to the states under
the Fourteenth Amendment and which guarantees that
the right to vote will not be unreasonably burdened.
Burdick, 504 U.S. at 434.
A
The burden is identified by looking to those affected
by the challenged provision. Crawford, 553 U.S. at 198
(“The burdens that are relevant to the issue before us
are those imposed on persons who are eligible to vote
but do not possess a current photo identification that
complies with the requirements.”). Here, then, the
relevant burden is that faced by individuals who vote
with the assistance of others who are not family
members, household members, or caregivers.

App. 384
“[C]ourts may consider not only a given law’s impact
on the electorate in general, but also its impact on
subgroups, for whom the burden, when considered in
context, may be more severe.” Pub. Integrity All., 836
F.3d at 1024 n.2. And, indeed, the Court recognized
this principle in Crawford by noting that “a somewhat
heavier burden may be placed on a limited number of
persons.” 553 U.S. at 199. A determination of the
severity of that burden takes into account
socioeconomic situations. Id. (considering “persons who
because of economic or other personal limitations may
find it difficult either to secure a copy of their birth
certificate or to assemble the other required
documentation to obtain a state-issued identification”).
Here, there is a heavy burden on, at minimum,
Native Americans living in rural Arizona, 82% of whom
lack home mail service. Reagan, 2018 WL 2191664, at
*32. Many of these individuals without home mail
access may have serious difficulties getting to the post
office due to distance, socioeconomic conditions, and
lack of reliable transportation. Id. Additionally, as the
district court recognized, the State’s definition of a
family relationship, codified in H.B. 2023, does not
track with family relationships in Indian Country. Id.
at *33.
The district court erred by failing to consider a
significant body of evidence demonstrating the burdens
faced by voters. The district court wrote that it “ha[d]
insufficient evidence from which to measure the
burdens on discrete subsets of voters” because it could
not determine a precise number of voters that had
relied on ballot collection in the past or predict a likely

App. 385
number in the future. Id. at *14. Its reliance on
Crawford for this assertion is legally erroneous. In
Crawford, the Court did not set forth a rigorous
evidentiary standard requiring the production of
quantifiable evidence; instead, the Court simply said
that DNC did not produce anything sufficiently reliable
to demonstrate who would be burdened or to what
degree. 553 U.S. at 200–02.
DNC presented a much better case than the
plaintiffs in Crawford. First, here, unlike in Crawford,
the district court did not reject the plaintiff’s evidence
as “utterly incredible and unreliable.” Crawford, 553
U.S. at 200. Second, also distinguishable from
Crawford, here, there is evidence that some will be
unable to vote under H.B. 2023. For example, an
individual who collected ballots for the Maricopa
County Democratic Party testified that even though the
organization only collected ballots for voters with “no
other option,” she nonetheless witnessed its collection
of 1,200 to 1,500 ballots. Here, there was no evidentiary
failure.
That said, even if the district court properly
classified the burden as minimal at step one of the
Anderson/Burdick analysis, H.B. 2023 nonetheless
fails at step two.
B
H.B. 2023 was and is not supported by the
“adequate justification” of “reduc[ing] opportunities for
early ballot loss or destruction,” Reagan, 2018 WL
2191664, at *40, or of “maintain[ing] public confidence
in election integrity,” id. at *18. Rather, the legislative

App. 386
history uncontrovertedly indicates that the best
justification offered by the legislators voting for the
measure was a generic concern regarding voter
fraud—a solution in search of a problem. Even after the
bill was passed and a trial was held, the trial court
could find “no direct evidence that the type of ballot
collection fraud the law is intended to prevent or deter
has occurred.” Id.10 H.B. 2023’s foundation is not only
shaky, it’s illusory.
Even if the district court had been correct to classify
the burden imposed by H.B. 2023 as minimal, the law
does not withstand scrutiny under the First
Amendment. “However slight [a] burden may
appear, . . . it must be justified by relevant and
legitimate state interests ‘sufficiently weighty to justify
the limitation.” Crawford, 553 U.S. at 191 (quoting
Norman v. Reed, 502 U.S. 279, 288–89 (1992)).
“‘[E]venhanded restrictions that protect the integrity
and reliability of the electoral process itself are not
invidious and satisfy the standard.” Crawford, 553 U.S.
181, 189–90 (quoting Anderson, 460 U.S. at 788). Here,
no legitimate interest justifies H.B. 2023.
Crawford is not a blank check for legislators seeking
to restrict voting rights with baseless cries of “voter
fraud.” In Crawford, the Court held that the state’s
interest in deterring voter fraud was legitimate despite
the record’s absence of “evidence of any [in-person]
fraud actually occurring . . . at any time in its history,”

10

Nor was there any suggestion that legislators had reason to
believe that public faith in the system had been shaken, as the
district court notes. Reagan, 2018 WL 2191664, at *18.

App. 387
but the case is distinguishable for at least two reasons.
Id. at 194. First, the voter I.D. restriction considered in
Crawford was tied to “the State’s interest in counting
only the votes of eligible voters,” particularly given the
extreme disorganization of Indiana’s voter rolls. Id. at
196. On the other hand, the nature of the relationship
between the voter and the person submitting a ballot
has no similar logical connection to that interest. The
same safeguards—e.g., “tamper evident envelopes and
a rigorous voter signature verification procedure”—are
in place for voters who give their ballots to their sister
as for those who participate in a get-out-the-vote effort.
Reagan, 2018 WL 2191664, at *19.
Second, the Court in Crawford was untroubled by
its determination that the legislature was motivated by
partisanship because it determined that the legislature
was also motivated by legitimate concerns. Crawford,
553 U.S. at 204 (“[I]f a nondiscriminatory law is
supported by valid neutral justifications, those
justifications should not be disregarded simply because
partisan interests may have provided one motivation
for the votes of individual legislators.”). Here, however,
the legislature was motivated by discriminatory intent,
as I have discussed.
Moreover, even in the absence of discriminatory
intent, given the precision of H.B. 2023 toward
Democratic get-out-the-vote operations, “partisan
considerations” did not simply “play[] a significant role
in the decision to enact [the law]” but rather “provided
the only justification for [the restriction on ballot
collection].” Id. at 203. In Crawford, the plurality
“assume[d]” that such a law would be held

App. 388
unconstitutional. Id. The Court’s assumption was
based in Harper v. Virginia State Board of Elections,
383 U.S. 663, in which the Court struck a poll tax
requirement. Harper is instructive. There, the Court
wrote that “the interest of the State, when it comes to
voting, is limited to the power to fix qualifications.” Id.
at 668. Just as “[w]ealth, like race, creed, or color, is
not germane to one’s ability to participate intelligently
in the electoral process[,]” neither is political affiliation.
Id. at 668.
VIII
As I said in the previous appeal in this case, voting
should be easy in America. It is not in Arizona, and the
burden falls most heavily on minority voters. In my
view, the district court should have granted an
injunction as to both of DNC’s challenges. Arizona’s
practice of discarding OOP votes violates § 2 of the
VRA and the First and Fourteenth Amendments. And
H.B. 2023 cannot withstand scrutiny under § 2 and the
First, Fourteenth, and Fifteenth Amendments.
I respectfully dissent.

App. 389

APPENDIX C
WO
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
No. CV-16-01065-PHX-DLR
[Filed May 10, 2018]
________________________________
Democratic National Committee, )
DSCC, and Arizona Democratic
)
Party,
)
)
Plaintiffs,
)
)
v.
)
)
Michele Reagan and Mark
)
Brnovich,
)
)
Defendants.
)
________________________________ )

App. 390
AMENDED FINDINGS OF FACT AND
CONCLUSIONS OF LAW1
Plaintiffs challenge two aspects of Arizona’s election
system: (1) Arizona’s policy to not count provisional
ballots cast in the wrong precinct, which derives from
the collective effect of A.R.S. §§ 16-122, -135, -584, and
related rules in the Arizona Election Procedures
Manual; and (2) Arizona House Bill 2023 (“H.B. 2023”),
codified at A.R.S. § 16-1005(H)-(I), which makes it a
felony for anyone other than the voter to possess that
voter’s early mail ballot, unless the possessor falls
within a statutorily enumerated exception. Plaintiffs
allege that the challenged laws violate § 2 of the Voting
Rights Act of 1965 (“VRA”) by adversely and
disparately impacting the electoral opportunities of
Hispanic, African American, and Native American
Arizonans, who Plaintiffs claim are among their core
constituencies. Plaintiffs also contend that these
provisions violate the First and Fourteenth
Amendments to the United States Constitution by
severely and unjustifiably burdening voting and
associational rights. Lastly, Plaintiffs claim that H.B.
2023 violates § 2 of the VRA and the Fifteenth
Amendment to the United States Constitution because
it was enacted with the intent to suppress voting by
Hispanic and Native American voters. (Doc. 360 at 41

This order amends the Court’s May 8, 2018 order (Doc. 412) to:
(1) correct five non-substantive typographical errors on pages 50
at line 5, 61 at lines 18 and 23, 64 at line 6, and 69 at line 10 of the
original order; and (2) replace the words “qualitative” and
“qualitatively” on pages 56, 58, and 62 of the original order with
more accurate and precise modifiers. The substance of the order
remains the same.

App. 391
7.)2 Plaintiffs seek (1) a declaration that the challenged
election practices are unlawful and (2) a permanent
injunction requiring Defendants to partially count outof-precinct (“OOP”) provisional ballots for races for
which the voter otherwise was eligible to cast a vote
and enjoining Defendants from implementing,
enforcing, or giving any effect to H.B. 2023. (Doc. 233
at 41-42.)
The Court presided over a ten-day bench trial
beginning October 3, 2017 and ending October 18,
2017. Pursuant to Federal Rule of Civil Procedure 52,
and for the following reasons, the Court finds against
Plaintiffs and in favor of Defendants on all claims.3
I. PARTIES
Plaintiffs are the Democratic National Committee
(“DNC”), the Democratic Senatorial Campaign
Committee (“DSCC”), and the Arizona Democratic
Party (“ADP”). The DNC is a national committee
dedicated to electing local, state, and national
candidates of the Democratic Party to public office. The
DSCC is a Democratic political committee dedicated to
encouraging the election of Democratic Senate
candidates to office and is comprised of sitting
2

For purposes of this order, “Doc.” refers to documents on the
Court’s electronic docket, “Ex.” to trial exhibits, “Tr.” to the official
trial transcript, and “Dep.” to designated deposition transcripts.
Record citations offer examples of supporting evidence, but are not
intended to be exhaustive of all evidence supporting a proposition.

3

Defendants’ oral motion, made during trial, for judgment on
partial findings pursuant to Federal Rule of Civil Procedure 52(c)
is denied as moot. (Doc. 384.)

App. 392
Democratic members of the United States Senate. The
ADP is a state committee dedicated to electing
candidates of the Democratic Party to public office
throughout Arizona.
Defendants are Arizona Secretary of State Michele
Reagan and Arizona Attorney General Mark Brnovich.
Secretary Reagan is Arizona’s chief elections officer.
Attorney General Brnovich is Arizona’s chief legal
officer, charged with enforcing state criminal statutes,
including H.B. 2023 and other election-related offenses.
Secretary Reagan drafts, and Attorney General
Brnovich (in conjunction with the Governor of Arizona)
approves, the Election Procedures Manual. A.R.S.
§§ 41-191 et seq, 16-1021, -452.
The Court also permitted the following parties to
intervene as defendants: (1) the Arizona Republican
Party (“ARP”), a state committee dedicated to electing
candidates of the Republican Party to public office;
(2) Debbie Lesko, who at the time of intervention was
an Arizona State Senator representing Arizona’s 21st
legislative district and Precinct Committeewoman for
Arizona’s 21st legislative district, and who recently was
elected to represent Arizona’s 8th congressional district
in the United States House of Representatives;
(3) Tony Rivero, a member of the Arizona House of
Representatives representing Arizona’s 21st legislative
district; (3) Bill Gates, who at the time of intervention
served as a City of Phoenix Councilman and Precinct
Committeeman for Arizona’s 28th legislative district,
and who now serves as a member of the Maricopa
County Board of Supervisors representing district 3;
and (4) Suzanne Klapp, a City of Scottsdale

App. 393
Councilwoman and Precinct Committeewoman for
Arizona’s 23rd legislative district. (Docs. 39, 44, 56,
126.)
II. OVERVIEW OF TRIAL TESTIMONY
A. Plaintiffs’ Expert Witnesses
1. Dr. Allan Lichtman
Dr. Allan Lichtman is a Distinguished Professor of
History at American University in Washington, D.C.,
where he has been employed for 42 years. Dr. Lichtman
formerly served as Chair of the History Department
and Associate Dean of the College of Arts and Sciences
at American University. He received his B.A. in
History from Brandeis University in 1967 and his
Ph.D. in History from Harvard University in 1973,
with a specialty in the mathematical analysis of
historical data. Dr. Lichtman’s areas of expertise
include political history, electoral analysis, and
historical and quantitative methodology. (Ex. 91 at 34.)
Dr. Lichtman has worked as a consultant or expert
witness for plaintiffs and defendants in more than 80
voting and civil rights cases, including League of
United Latin American Citizens (LULAC) v. Perry, 548
U.S. 399 (2006), in which Justice Kennedy’s majority
opinion authoritatively cited Dr. Lichtman’s statistical
work. Dr. Lichtman also has testified several times for
plaintiffs and defendants on issues of intentional
discrimination and application of Section 2 in VRA
cases. (Ex. 91 at 4.)

App. 394
Dr. Lichtman opined, generally, that under the
totality of the circumstances H.B. 2023 causes minority
voters to have less opportunity to participate in the
political process than non-minority voters, and that the
law was passed with the intent to suppress minority
voters.4 He supported his opinions with the standard
sources used in political and historical analysis,
including scholarly books, articles, reports,
newspapers, voter registration and turnout data, and
scientific surveys.
Dr. Lichtman’s underlying sources, research, and
statistical information are useful. The surveys and data
he supplied reveal significant socioeconomic disparities
between non-minorities and minorities, including in
areas of poverty, unemployment, education,
transportation, and health. (Ex. 91 at 3-4.) His report
also contains evidence that Arizona exhibits racially
polarized voting and has a history of racial appeals in
political campaigns that continue to this day. (Ex. 91 at
30, 44-45.) Dr. Lichtman opined that the strong ties
between race and partisanship in Arizona make
targeting minorities the most effective and efficient
way for Republicans to advance their political
prospects. (Ex. 93 at 4-5.)
Although the Court finds Dr. Lichtman’s curation of
material facts surrounding the legislative history and
his underlying research to be helpful and reliable, the
Court did not find Dr. Lichtman’s ultimate opinions

4

For ease, the Court uses the terms “minority” to refer to the
racial minorities alleged to be adversely impacted by the challenge
laws, and “non-minority” to refer to non-Hispanic white voters.

App. 395
useful. Dr. Lichtman applied the law as he interpreted
it to the data he assembled. In this respect, his
opinions presented more like an attorney’s closing
argument than an objective analysis of data, and the
credibility of his trial testimony was undermined by his
seeming effort to advocate a position rather than
answer a question. Moreover, applying law to facts is
this Court’s duty, and it is one the Court can do
without the assistance of an expert opining on how he
interprets the law and thinks it should be applied. The
Court also has not considered Dr. Lichtman’s opinions
on the ultimate issue of legislative intent, both because
this issue is not the proper subject of expert testimony
and because it invades the province of the Court.
2. Dr. David Berman
Dr. David Berman is a Professor Emeritus of
Political Science and a Senior Research Fellow at the
Morrison Institute for Public Policy at Arizona State
University. As a political science professor, he has
taught undergraduate survey courses in American
government and politics, state and local politics, and
Arizona government and politics, as well as more
specialized courses, including undergraduate seminars
on Arizona politics during which students interacted
with state and local office holders and political
participants. He has also taught advanced graduate
courses focusing on research methods in these areas.
(Ex. 89 at 3.)
As a Senior Research fellow with the Morrison
Institute, Dr. Berman specializes in research and
writing on governance and election issues in Arizona,
including redistricting, direct democracy, and

App. 396
campaign finance. He has been a professor at Arizona
State University since 1966, and his previous work
experience was as a Research Associate at the National
League of Cities in Washington, D.C. from 1964 to
1966. (Ex. 89 at 3-4.)
Dr. Berman opined that Arizona has a long history
of discrimination against the voting rights of Native
Americans, Hispanics, and African Americans, and
that this discrimination is part of a more general
pattern of political, social, and economic discrimination
against minority groups in areas such as school
segregation, educational funding and programming,
equal pay and the right to work, and immigration.
The Court finds Dr. Berman credible. His opinions
were well-researched and rendered using standard
sources and methodologies in his field of expertise, and
his sources were well-identified. Dr. Berman has
authored ten books and over 70 published papers, book
chapters, or refereed articles dealing with state and
local government, politics, and public policy, and his
opinions were based substantially on these prior works.
In particular, Dr. Berman drew heavily upon his book
Arizona Politics and Government: The Quest for
Autonomy, Democracy, and Development (University of
Nebraska Press, 1998) and his review of archival
papers and collections. (Ex. 89 at 3-4.) The Court
affords great weight to Dr. Berman’s opinions.
3. Dr. Jonathan Rodden
Dr. Jonathan Rodden is a tenured Professor of
Political Science at Stanford University and the
founder and director of the Stanford Spatial Social

App. 397
Science Lab, a center for research and teaching with a
focus on the analysis of geo-spatial data in the social
sciences. Students and faculty members affiliated with
the lab are engaged in a variety of research projects
involving large, fine-grained, geo-spatial data sets,
including individual records of registered voters,
Census data, survey responses, and election results at
the level of polling. Prior to joining the Stanford
faculty, Dr. Rodden was the Ford Professor of Political
Science at the Massachusetts Institute of Technology.
He received his Ph.D. from Yale University and his
B.A. from the University of Michigan, Ann Arbor, both
in political science. (Ex. 95 at 5-6.)
Dr. Rodden has expertise in the use of large data
sets and geographic information systems to analyze
aspects of political representation. He has developed a
national data set of geo-coded precinct-level election
results that has been used extensively in policyoriented research related to redistricting and
representation. He also has worked extensively with
Census data from the United States and other
countries.
Dr. Rodden has published papers on political
geography and representation in a variety of academic
journals and has been featured in popular publications
like the Wall Street Journal, the New York Times, and
Boston Review. Dr. Rodden has testified as an expert
witness in three recent election law cases. (Ex. 95 at 6.)
Here, Dr. Rodden analyzed the rates and causes of
OOP voting in Arizona during the 2012, 2014, and 2016
general elections. The Court finds his use of a
combination of individual-level and aggregate data

App. 398
analyses, both of which have been accepted in previous
cases analyzing questions under the VRA, to be valid
and generally trustworthy, and affords them great
weight. (Ex. 97 at 7-9.)
Dr. Rodden found that Hispanic, Native American,
and African American voters cast OOP ballots at
statistically higher rates than their non-minority
counterparts. (Ex. 95 at 3-4; Ex. 97 at 2-4.) Focusing on
Maricopa County in the 2012 election, Dr. Rodden
found that the rate of OOP voting was “131 percent
higher for Hispanics, 74 percent higher for African
Americans, and 39 percent higher for Native
Americans than whites.” (Ex. 95 at 3-4.)
Further, Dr. Rodden found that OOP voters are
substantially more likely to be young and to live in
neighborhoods characterized by large numbers of
renters and with high rates of transience, and that the
rate of OOP voting was 65 percent higher for
Democratic voters than for Republican voters in
Maricopa County, and 56 percent higher in Pima
County. Dr. Rodden found that “changes in polling
place locations are associated with higher rates of outof-precinct voting,” and that “African Americans and
Hispanics are substantially more affected by this than
whites. In particular, the impact of precinct
consolidation, while statistically significant for all
groups, is more than twice as large for Hispanics and
African Americans as for non-Hispanic whites.” (Ex. 95
at 3-4.) When analyzing Arizona’s non-metropolitan
counties, Dr. Rodden found that OOP voting is
“negligible in majority-white precincts, but increases

App. 399
dramatically in precincts where Hispanics and Native
Americans make up majorities.” (Ex. 96 at 58.)
In addition to his analysis of OOP voting, Dr.
Rodden employed standard and accepted methods in
his field to analyze the “mailability” of Arizona’s nonmetropolitan counties in order to estimate the
populations that likely would be most affected by H.B.
2023’s ballot collection restrictions. Though somewhat
imprecise, the Court finds his method of analysis to be
creative given the lack of direct data available on the
subject, generally reliable, and based on sufficient data
given the circumstances. Dr. Rodden found that
“[o]utside of Maricopa and Pima counties” “around 86
percent of non-Hispanic whites have home mail
service,” but “only 80 percent of Hispanics do, and only
18 percent of Native Americans have such access.” (Ex.
97 at 4.)
Dr. Rodden’s error rate is unknown, however, due to
the lack of direct data. Also, his analysis did not
include Arizona’s metropolitan counties and therefore
does not reveal whether, on a statewide basis,
minorities have disparate access to home mail service
as compared to non-minorities. Further, mail access is
an imprecise proxy for determining the number and
demographics of voters who use or rely on ballot
collection services. Simply because a voter lacks home
mail access does not necessarily mean that she uses or
relies on a ballot collector to vote, let alone a ballot
collector who does not fall into one of H.B. 2023’s
exceptions. Accordingly, although Dr. Rodden’s
analysis provided useful insight into home mail access
in non-metropolitan counties, the Court is mindful of

App. 400
its limitations and affords these opinions moderate
weight.
B. Plaintiffs’ Lay Witnesses
Plaintiffs called the following lay witnesses to
testify at trial: Carmen Arias, Michael Blair, Delilah
Correa, Charlene Fernandez, LeNora Fulton, Steve
Gallardo, Kate Gallego, Kathleen Giebelhausen, Marva
Gilbreath, Leah Gillespie, Carolyn Glover, Leonard
Gorman, Shari Kelso, Scott Konopasek, Joeseph Larios,
Daniel Magos, Lori Noonan, Patrick O’Connor, Martin
Quezada, Nellie Ruiz, Spencer Scharff, Sam Shaprio,
Ken Clark, and John Powers. These witnesses include
individual voters, representatives from state, county,
and municipal governments, community advocates who
have collected ballots as part of get-out-the-vote
(“GOTV”) efforts, community advocates focusing of
Native American issues, Democratic Party operatives,
a California state elections official, and a former United
States Department of Justice (“DOJ”) official.
C. Defendants’ Expert Witnesses
1. Dr. Donald Critchlow
Dr. Donald Critchlow works at Arizona State
University as the Director of the Center for Political
Thought and Leadership, an organization funded by a
grant from the Charles Koch Foundation. (Tr. 1533-37.)
He opined on the relationship between racial
discrimination and voting in Arizona. Dr. Critchlow
made credible observations that discrimination in
Arizona has not been linear and that Arizona has taken
effective action to combat discrimination and encourage
participation in voting.

App. 401
With that said, Dr. Critchlow has never published
a book or article focused specifically on Arizona history,
nor has he taught courses in Arizona history or politics.
(Tr. 1531-32.) Further, in many respects he offered onesided opinions of Arizona’s history, ignored incidents of
discrimination, and failed to address the key political
shift between the Democratic and Republican parties
during the Civil Rights Movement. For example, he
either was unfamiliar with or totally discounted the
Republican strategy of confrontation of minority voters
at the polls during “Operation Eagle Eye” in the 1960s.
(Ex. 89 at 16; Tr. 1549.) Additionally, although Dr.
Critchlow acknowledged that Arizona has a history of
discrimination, his report appears to attribute past
racial discrimination in Arizona only to the Democratic
Party and claims that discrimination has not existed
since the 1960s (in the Republican era). (Ex. 521 at 4.)
For these reasons, the Court affords little weight to Dr.
Critchlow’s opinions
2. Sean Trende
Sean Trende critiqued Dr. Lichtman’s analysis of
Arizona’s voting patterns and history of racial
discrimination, but offered no new information or
analysis. Though the Court found some of his criticisms
worth considering, overall they were insignificant. For
example, although Trende generally agreed with Dr.
Lichtman that Arizona experiences racially polarized
voting, he made much of the irrelevant fact that
Arizona voting is not as racially polarized as voting in
Alabama. (Tr. 1837.) Additionally, Trende’s opinions on
the weight to give certain evidence and on the proper
interpretation and application of the law and

App. 402
evidence—like those of Dr. Lichtman’s—were not
helpful and invade the province of the Court. Moreover,
Trende does not have a Ph.D and has never written a
peer-reviewed article. He has spent most of his
professional career working as a lawyer or political
commentator. He is not a historian and says nothing
about the historical methods Dr. Lichtman utilized.
(Tr. 1861-62.) For these reasons, the Court affords
Trende’s opinions little weight.
3. Dr. M.V. Hood
Dr. M.V. Hood is a Professor of Political Science at
the University of Georgia. Dr. Hood responded to the
reports of Drs. Lichtman, Rodden, and Berman. (Ex.
522 at 2-3.) For a number of reasons, the Court affords
little weight to Dr. Hood’s opinions.
Dr. Hood criticizes Dr. Berman’s use of older
historical information. Yet Dr. Critchlow, another
expert retained by Defendants, agrees with Dr. Berman
that older historical information is relevant to
understanding patterns. (Ex. 521 at 8-10; Ex. 522 at
11.) Moreover, Dr. Hood admitted at trial that he
examines historical information going back 50 to 200
years. (Tr. 2122-23.)
Dr. Hood opined that H.B. 2023 does not hinder
Native American voting because the rates of early
voting on the Navajo Nation increased from 2012 to
2016. He based that opinion on early votes cast in three
counties. This opinion is not reliable. Dr. Hood’s
analysis did not include an assessment of racial
disparities and turnout. He also conceded that myriad
factors could affect turnout. (Tr. 2111-14.)

App. 403
Dr. Hood prepared a cross-state comparative
analysis of ballot collection laws and policies related to
counting OOP ballots. Although his analysis offered
some insight, it overall was not useful because he did
not address statutory differences and nuances, and his
analysis reflected an incomplete understanding of the
laws he categorized. For example, some of the states he
labeled as prohibiting ballot collection do not have laws
comparable to H.B. 2023 because they prohibit only the
delivery of the ballot, not the collection and mailing of
the ballot on someone else’s behalf. (Ex. 92 at 52-53.)
The Court also notes that Dr. Hood’s testimony
either has been rejected or given little weight in
numerous other cases due to concerns over its
reliability. See Ne. Ohio Coal. for the Homeless v.
Husted, No. 2:06-CV-896, 2016 WL 3166251, at *24
(S.D. Ohio June 7, 2016), aff’d in part, rev’d in part,
837 F.3d 612 (6th Cir. 2016); Veasey v. Perry, 71 F.
Supp. 3d 627, 663 (S.D. Tex. 2014); Frank v. Walker, 17
F. Supp. 3d 837, 881-84 (E.D. Wis. 2014), rev’d on other
grounds, 768 F.3d 744 (7th Cir. 2014); Fla. v. United
States, 885 F. Supp. 2d 299, 324 (D.D.C. 2012);
Common Cause/Ga. v. Billups, No. 4:05-cv-0201, 2007
WL 7600409, at *14 (N.D. Ga. Sept. 6, 2007).
Additionally, most of Dr. Hood’s work has been as an
expert on behalf of states defending against allegations
that their laws violated the Constitution or the VRA.
(Tr. 2123-25.)
4. Dr. Janet Thornton
Dr. Janet Thornton is a Managing Director at
Berkeley Research Group. Dr. Thornton did not
conduct her own analysis, but instead offered her

App. 404
opinion that Dr. Rodden’s statistical work is flawed.
(Ex. 525 at 1.) For example, she challenged Dr.
Rodden’s approaches to measuring racial disparities in
OOP voting. One approach uses individual surname
data and geographic coordinates to infer race. Among
Dr. Thornton’s critiques was the presence of
measurement error, which is well-taken. Indeed, even
Dr. Rodden concedes measurement error exists,
especially as it pertains to African American
probabilities. Dr. Thornton did not critique the
Hispanic probabilities assessed by Dr. Rodden,
however, and Dr. Rodden credibly explained that the
measurement error for Hispanic probabilities leads
only to the under-estimation of racial disparities.
The second approach that Dr. Rodden employed
relied on data collected by the Census Department on
race and ethnicity at the lowest possible level of
geographic aggregation. Dr. Thornton’s challenge to the
aggregate approach was neither about the data nor the
presence of racial disparities in OOP voting, but rather
the statistical model employed by Dr. Rodden. Dr.
Rodden, however, credibly showed that results similar
to those reported by his analysis are obtained using the
alternative model specification or measurement
strategies recommended by Dr. Thornton.
Dr. Thornton’s opinion that there should have been
a systematic decline in the number of ballots cast in
Arizona’s 13 non-metropolitan counties during 2016 if
the limits on ballot collection impacted the ability of
rural and minority persons to vote is simplistic and not
credible. The statistical evidence suggests that
increased turnout in rural counties for the 2016

App. 405
election was driven by non-minority voters, not Native
American and Hispanic voters. (Ex. 98 at 21-26.)
Moreover, many factors impact voter turnout, including
controversial candidates and partisan mobilization
efforts, all of which might drown out the potentially
deleterious effects of H.B. 2023. Overall, the Court
finds that Dr. Thornton’s critiques do not significantly
undermine Dr. Rodden’s opinions and therefore affords
them less weight.
D. Defendants’ Lay Witnesses
Defendants called the following lay witnesses to
testify at trial: Brad Nelson, Eric Spencer, Helen
Purcell, James Drake, Michael Johnson, Michelle
Ugenti-Rita, Amy Chan (formerly Amy Bjelland), Tony
Rivero, and Scott Freeman. These witnesses include
current and former lawmakers, elections officials, and
law enforcement officials.
E. Witnesses Testifying By Deposition
In addition to the live testimony, the following
witnesses testified by deposition: Sheila Healy, Randy
Parraz, Samantha Pstross, Secretary Reagan, Spencer
Scharff, Donald Shooter, Eric Spencer, Robyn
Stallworth-Pouquette, Alexis Tameron, Victor Vasquez,
and Dr. Muer Yang. The parties each raised
admissibility objections to certain of these deposition
designations. The Court addresses these objections,
along with other outstanding evidentiary matters, in a
separate order.

App. 406
III.

OVERVIEW
OF
CHALLENGED
ELECTIONS PRACTICES

A. H.B. 2023
Voting in Arizona involves a flexible mixture of
early in-person voting, early voting by mail, and
traditional, in-person voting at polling places on
Election Day. Arizona voters do not need an excuse to
vote early and Arizona permits early voting both in
person and by mail during the 27 days before an
election. A.R.S. § 16-541. For those voters who prefer to
vote early and in-person, all Arizona counties operate
at least one in-person early voting location. Some of
these locations are open on Saturdays. (Doc. 361 ¶ 59.)
Arizona has allowed early voting by mail for over 25
years, and it has since become the most popular
method of voting, accounting for approximately 80
percent of all ballots cast in the 2016 election. In 2007,
Arizona implemented permanent no-excuse early
voting by mail, known as the Permanent Early Voter
List (“PEVL”). Arizonans now may vote early by mail
either by requesting an early ballot on an election-byelection basis, or by joining the PEVL, in which case
they will be sent an early ballot as a matter of course
no later than the first day of the 27-day early voting
period. A.R.S. §§ 16-542, -544. In 2002, Arizona also
became the first state to make available an online voter
registration option, allowing voters to register online
through Arizona’s Motor Vehicle Division (“MVD”)
website, www.servicearizona.com. When registering
online through the MVD, voters can enroll in the PEVL
by clicking a box. (Doc. 361 ¶ 56.)

App. 407
To be counted, an early ballot must be received by
the county recorder by 7:00 p.m. on Election Day.
A.R.S. § 16-548(A). Early ballots contain instructions
that inform voters of the 7:00 p.m. deadline. Voters
may return their early ballots by mail postage-free, but
they must mail them early enough to ensure that they
are received by this deadline. Additionally, some
Arizona counties provide special drop boxes for early
ballots, and voters in all counties may return their
early ballots in person at any polling place, vote center,
or authorized election official’s office without waiting in
line. (Doc. 361 ¶¶ 57, 61.)
Since 1997, it has been the law in Arizona that
“[o]nly the elector may be in possession of that elector’s
unvoted early ballot.” A.R.S. § 16-542(D). In 2016,
Arizona amended A.R.S. § 16-1005 by enacting H.B.
2023, which limits who may collect a voter’s voted or
unvoted early ballot:
H. A person who knowingly collects voted or
unvoted early ballots from another person is
guilty of a class 6 felony. An election official, a
United States postal service worker or any other
person who is allowed by law to transmit United
States mail is deemed not to have collected an
early ballot if the official, worker or other person
is engaged in official duties.
I. Subsection H of this section does not apply to:
1. An election held by a special taxing district
formed pursuant to title 48 for the purpose of
protecting or providing services to agricultural

App. 408
lands or crops and that is authorized to conduct
elections pursuant to title 48.
2. A family member, household member or
caregiver of the voter. For the purposes of this
paragraph:
(a) “Caregiver” means a person who provides
medical or health care assistance to the voter in
a residence, nursing care institution, hospice
facility, assisted living center, assisted living
facility, assisted living home, residential care
institution, adult day health care facility or
adult foster care home.
(b) “Collects” means to gain possession or control
of an early ballot.
(c) “Family member” means a person who is
related to the voter by blood, marriage, adoption
or legal guardianship.
(d) “Household member” means a person who
resides at the same residence as the voter.
A.R.S. § 16-1005(H)-(I). Voters therefore may entrust
a caregiver, family member, household member, mail
carrier, or elections official to return their early ballots,
but may not entrust other, unauthorized third parties
to do so.
B. Rejection of OOP Ballots
Since at least 1970, Arizona has required voters
who choose to vote in person on Election Day to cast
their ballots in their assigned precinct and has enforced
this system by counting only those ballots cast in the

App. 409
correct precinct. (Doc. 361 ¶ 46.) Because elections
involve many different overlapping jurisdictions, the
precinct-based system ensures that each voter receives
a ballot reflecting only the races for which that person
is entitled to vote. (Ex. 95 at 10.) If a voter arrives at a
precinct but does not appear on the precinct register,
Arizona allows the voter to cast a provisional ballot.
A.R.S. §§ 16-122, -135, -584. After Election Day, county
elections officials review all provisional ballots. If a
voter’s address is determined to be within the precinct,
the provisional ballot is counted. Arizona does not
count any portion of a provisional ballot cast outside of
a voter’s correct precinct. A majority of states do not
count OOP ballots, putting Arizona well within the
mainstream on this issue.5 Indeed, at no point has the
DOJ objected to this practice, and Plaintiffs object to it
for the first time in this case.
In 2011, Arizona amended its elections code to allow
counties to choose whether to conduct elections under
5

See Ala. Code §§ 17-9-10, -10-2, -10-3; Ark. Code Ann. §§ 7-5306(b), -308(d)(2); Conn. Gen. Stat. §§ 9-19j, -232n; Del. Code Ann.
tit. 15, § 4948(b), h(7); Fla. Stat. § 101.048(1),(2); Haw. Admin.
Rules § 3-172-140; Ind. Code §§ 3-11.7-2-1, -11-8-2, and -11.7-5-3;
Iowa Code §§ 49.9, 49.79(2)(c), 49.80, 49.81, 53.23; Tit. 31 Ky.
Admin. Regs. § 6:020(1),(14); Mich. Comp. Laws
§§ 168.523a(1),(5),(7), 168.813(1); Miss. Code, Ann. § 23-15573(1),(3)(b); Mo. Rev. Stat. § 115.430(2),(3),(6); Mont. Code §§ 1315-107(1),(3), 13-2-512, 13-13-114(1)(a),(2); Neb. Rev. Stat. §§ 32915(1), - 1002(5)(b),(e); Nev. Rev. Stat. § 293.3081(1), 293.3085(4);
N.Y. U.C.C. Law §§ 8-302(3)(e), § 9-209; Ohio Rev. Stat.
§§ 3505.181(A)(1), 3505.183(B)(1), (4)(a); S.C. Code Ann. §§ 7-13820, 7-13-830; S.D. Sess. Laws § 12-18-39, 12-20-5.1; Tenn. Code
Ann. § 2-7-112(a)(3)(A),(B); Tex. Elec. Code Ann. §§ 63.001(c),(g),
63.011(a),(b); Tex. Admin. Code § 81.172.

App. 410
the traditional precinct model or to use a “vote center”
system. 2011 Ariz. Legis. Serv. Ch. 331 (H.B. 2303)
(April 29, 2011) (amending A.R.S. § 16-411). Unlike the
precinct-based system, the vote center model requires
each vote center to be equipped to print a specific
ballot, depending on each voter’s particular district,
that includes all races for which that voter is eligible to
vote. Thus, under a vote center system, voters may cast
their ballots at any vote center in the county in which
they reside and receive the appropriate ballot. A.R.S.
§ 16-411(B)(4). Graham, Greenlee, Cochise, Navajo,
Yavapai, and Yuma counties have adopted the vote
center model. These counties are mostly rural and
sparsely populated. Precinct-based voting
requirements, such as Arizona’s policy to not count
OOP ballots, have no impact on voters in these
counties. By comparison, the most populous counties in
Arizona, such as Maricopa, Pima, and Pinal, currently
adhere to the traditional precinct-based model.
IV.

PRELIMINARY ISSUES
A. Standing

Article III of the United States Constitution limits
federal courts to resolving “Cases” and “Controversies,”
one element of which is standing. To have standing to
litigate in federal court, a plaintiff “must have suffered
or be imminently threatened with a concrete and
particularized ‘injury in fact’ that is fairly traceable to
the challenged action of the defendant and likely to be
redressed by a favorable judicial decision.” Lexmark
Int’l, Inc. v. Static Control Components, Inc., -- U.S. --,
134 S. Ct. 1377, 1386 (2014) (citing Lujan v. Defenders
of Wildlife, 504 U.S. 555, 560-61 (1992)). Only one

App. 411
plaintiff needs to have standing when only injunctive
relief is sought. Crawford v. Marion Cty. Election Bd.,
472 F.3d 949, 951 (7th Cir. 2007), aff’d, 553 U.S. 181,
189 n.7 (2008).
Plaintiffs have organizational standing to challenge
the election regulations at issue. Ballot collection was
a GOTV strategy used primarily by the Democratic
Party to increase electoral participation by otherwise
low-efficacy voters. (Tr. 416-26, 632-33, 659, 902, 930;
Healy Dep. 28:15-29:13.) H.B. 2023’s limitations will
require Democratic organizations, such as the ADP, to
retool their GOTV strategies and divert more resources
to ensure that low-efficacy voters are returning their
early mail ballots. Additionally, credible expert
testimony shows that minority voters, who tend to vote
disproportionately for Democratic candidates, vote
OOP at higher rates than non-minority voters. Thus,
Arizona’s policy to not count OOP ballots places a
greater imperative on organizations like the ADP to
educate their voters. These are sufficiently concrete
and particularized injuries that are fairly traceable to
the challenged provisions. See Crawford, 472 F.3d at
951 (“Thus the new law injures the Democratic Party
by compelling the party to devote resources to getting
to the polls those of its supporters who would otherwise
be discouraged by the new law from bothering to
vote.”); One Wis. Inst., Inc. v. Nichol, 186 F. Supp. 3d
958, 967 (W.D. Wis. 2016) (finding expenditure of
resources for educating voters about how to comply
with new state voter registration requirements
sufficient to establish standing).

App. 412
Plaintiffs also have associational standing to
challenge these provisions on behalf of their members.
[A]n association has standing to bring suit on
behalf of its members when: (a) its members
would otherwise have standing to sue in their
own right; (b) the interests it seeks to protect are
germane to the organization’s purpose; and
(c) neither the claim asserted nor the relief
requested requires the participation of
individual members in the lawsuit.
Hunt v. Wash. State Apple Adver. Comm’n, 432 U.S.
333, 343 (1977). A number of self-identified Democratic
voters testified either that they have used ballot
collection services in the past, or that they have voted
OOP. The voting rights of such individuals are
germane to Plaintiffs’ goal of electing Democratic
candidates to local, state, and federal offices. Further,
neither the claims asserted nor the relief requested
requires individual members to participate in this
lawsuit.
Finally, Plaintiffs’ asserted injuries can be
redressed by a favorable decision of this Court. “[W]hen
a plaintiff challenges the constitutionality of a rule of
law, it is the state official designated to enforce that
rule who is the proper defendant[.]” Am. Civil Liberties
Union v. The Fla. Bar, 999 F.2d 1486, 1490 (11th Cir.
1993). Here, county officials are responsible for
counting ballots and verifying proper voter registration,
see A.R.S. §§ 16-621(A), -584(E), but Secretary Reagan
and Attorney General Brnovich also play a role in
determining how OOP ballots are counted. Arizona law
requires Secretary Reagan, after consulting with

App. 413
county officials, to “prescribe rules to achieve and
maintain the maximum degree of correctness,
impartiality, uniformity and efficiency on the
procedures for early voting and voting, and of
producing, distributing, collecting, counting, tabulating
and storing ballots.” A.R.S. § 16-452(A). These rules are
prescribed in the Election Procedures Manual and have
the force of law. A.R.S. § 16-452(B)-(C). “Any person
who does not abide by the Secretary of State’s rules is
subject to criminal penalties,” Ariz. Libertarian Party,
Inc. v. Bayless, 351 F.3d 1277, 1280 (9th Cir. 2003)
(citing A.R.S. § 16-452(C)), and Attorney General
Brnovich is authorized to prosecute such violations,
A.R.S. § 16-1021. Although county officials are
responsible for physically counting ballots, they are not
empowered to count or reject ballots at their discretion.
Rather, “[a]ll proceedings at the counting center shall
be under the direction of the board of supervisors or
other officer in charge of elections and shall be
conducted in accordance with the approved instructions
and procedures manual[.]” A.R.S. § 16-621(A).
Though the Court cannot require Secretary Reagan
and Attorney General Brnovich to physically count
OOP ballots for races for which the voter was otherwise
eligible to cast a vote, it can require them to prescribe
such a procedure in the Election Procedures Manual,
which county election officials then would be bound by
law to follow. Further, Attorney General Brnovich can
ensure compliance with such a directive because he is
authorized to prosecute county officials who violate it.
Likewise, Attorney General Brnovich is empowered
to enforce state election laws like H.B. 2023. He is not

App. 414
the only official with such authority; Attorney General
Brnovich is authorized to enforce Arizona’s election
laws “[i]n any election for state office, members of the
legislature, justices of the supreme court, judges of the
court of appeals or statewide initiative or referendum,”
but in elections for “county, city or town office,
community college district governing board, judge or a
county, city, or town initiative or referendum,” that
authority resides with “the appropriate county, city or
town attorney[.]” A.R.S. § 16-1021. But most elections
will include statewide races and therefore Attorney
General Brnovich likely will share enforcement
authority in most circumstances. Moreover, although
Attorney General Brnovich might lack authority to
direct the enforcement activities of county and
municipal prosecutors, there is no reason to believe
that these local law enforcement officials will attempt
to enforce H.B. 2023 should the Court declare it
unconstitutional or unlawful under the VRA.
Lastly, although there is no evidence that Secretary
Reagan or other state or local elections officials play a
direct role in the enforcement of H.B. 2023, Secretary
Reagan has some indirect involvement in the law’s
implementation by virtue of her responsibility for
drafting the Election Procedures Manual. If the Court
were to enjoin H.B. 2023’s implementation and
enforcement, the Election Procedures Manual would
need to reflect as much.
B. Effect
of
Proceedings

Preliminary

Appellate

On September 23, 2016, the Court denied Plaintiffs’
motion to preliminarily enjoin enforcement of H.B.

App. 415
2023. (Doc. 204.) On October 4, 2016, the Court also
denied Plaintiffs’ motion to preliminary enjoin
enforcement of H.B. 2023 pending Plaintiffs’ appeal of
the Court’s September 23 order. (Doc. 213.) Plaintiffs
thereafter moved the Ninth Circuit Court of Appeals
for an injunction pending appeal, which was denied by
a three-judge motions panel. Later, on October 28,
2016, a divided three-judge merits panel affirmed the
Court’s order denying Plaintiffs’ preliminary injunction
motion. Chief Judge Thomas dissented.
On November 2, 2016, a majority the Ninth
Circuit’s non-recused active judges voted to rehear the
case en banc. Two days later, a majority of the en banc
panel voted to preliminarily enjoin enforcement of H.B.
2023 pending the panel’s rehearing, essentially for the
reasons provided in Chief Judge Thomas’ dissent.6 This
preliminary injunction was short-lived, however, as the
United States Supreme Court stayed the order on
November 5, 2016, pending the Ninth Circuit’s final
disposition of the appeal.
In light of this history, the parties disagree over the
effect that Chief Judge Thomas’ dissent should have on
the Court’s post-trial analysis. As explained during the
final pretrial conference, although the Court has
considered Chief Judge Thomas’ dissent, the Court is
not bound by its factual analysis. To date, all appellate
proceedings have occurred at the preliminary
injunction stage on a less developed factual record.

6

The en banc panel technically issued a stay of the Court’s order
denying Plaintiffs’ preliminary injunction motion, but the stay had
the practical effect of an injunction pending appeal.

App. 416
Findings and conclusions rendered at the preliminary
injunction stage are just that—preliminary. They do
not necessarily preclude the Court from making
different findings or conclusions after thorough factual
development and a full trial on the merits. Accordingly,
although the Court is mindful of Chief Judge Thomas’
critiques and their preliminary adoption by a majority
of the en banc panel, the Court is not bound to make
identical findings and conclusions as those made at a
preliminary phase of the litigation.
And with that, the Court proceeds to the merits.
V. FIRST AND FOURTEENTH AMENDMENTS7
“[T]he Constitution of the United States protects the
right of all qualified citizens to vote, in state as well as
in federal elections.” Reynolds v. Sims, 377 U.S. 533,
554 (1964). Relatedly, the First and Fourteenth
Amendments protect the right of the people to associate
for political purposes. Tashjian v. Republican Party of
Conn., 479 U.S. 208, 214 (1986). “It does not follow,
however, that the right to vote in any manner and the
right to associate for political purposes . . . are
absolute.” Burdick v. Takushi, 504 U.S. 428, 433
(1992). Rather, the Constitution empowers states to
regulate the “Times, Places and Manner of holding
Elections for Senators and Representatives,” U.S.
Const. art. I, § 4, cl. 1, and states retain “control over

7

Because Plaintiffs challenge state election laws, their claims
technically arise under the Fourteenth Amendment, which applies
the First Amendment’s protections against states and their
political subdivisions. See City of Ladue v. Gilleo, 512 U.S. 43, 45
n.1 (1994).

App. 417
the election process for state offices,” Tashjian, 479
U.S. at 217. “Common sense, as well as constitutional
law, compels the conclusion that government must play
an active role in structuring elections.” Burdick, 504
U.S. at 433. “[A]s a practical matter, there must be a
substantial regulation of elections if they are to be fair
and honest and if some sort of order, rather than chaos,
is to accompany the democratic processes.” Storer v.
Brown, 415 U.S. 724, 730 (1974).
Like an individual’s voting and associational rights,
however, a state’s power to regulate elections is not
absolute; it is “subject to the limitation that [it] may
not be exercised in a way that violates other . . .
provisions of the Constitution.” Williams v. Rhodes, 393
U.S. 23, 29 (1968); see Wash. State Grange v. Wash.
State Republican Party, 552 U.S. 442, 451 (2008). But
because all election regulations “invariably impose
some burden upon individual voters,” Burdick, 504 U.S.
at 433, “not every voting regulation is subject to strict
scrutiny,” Pub. Integrity Alliance, Inc. v. City of Tucson,
836 F.3d 1019, 1024 (9th Cir. 2016).
Instead, . . . a more flexible standard applies. A
court considering a challenge to a state election
law must weigh “the character and magnitude of
the asserted injury to the rights protected by the
First and Fourteenth Amendments that the
plaintiff seeks to vindicate” against “the precise
interests put forward by the State as
justifications for the burden imposed by its rule,”
taking into consideration “the extent to which
those interests make it necessary to burden the
plaintiff’s rights.”

App. 418
Burdick, 504 U.S. at 434 (quoting Anderson v.
Celebrezze, 460 U.S. 780, 789 (1983)). This framework
commonly is referred to as the Anderson/Burdick test,
after the two Supreme Court decisions from which it
derives.
Under this framework, the degree to which the
Court scrutinizes “the propriety of a state election law
depends upon the extent to which a challenged
regulation burdens First and Fourteenth Amendment
rights.” Id. A law that imposes severe burdens is
subject to strict scrutiny, meaning it must be narrowly
tailored to serve a compelling state interest. Id.
“Regulations imposing . . . [l]esser burdens, however,
trigger less exacting review, and a State’s ‘important
regulatory interests’ will usually be enough to justify
‘reasonable, nondiscriminatory restrictions.’” Timmons
v. Twin Cities Area New Party, 520 U.S. 351, 358
(1997) (quoting Burdick, 504 U.S. at 434); see also Pub.
Integrity Alliance, 836 F.3d at 1024 (“Applying these
precepts, ‘[w]e have repeatedly upheld as ‘not severe’
restrictions that are generally applicable, evenhanded,
politically neutral, and protect the reliability and
integrity of the election process.’” (quoting Dudum v.
Arntz, 640 F.3d 1098, 1106 (9th Cir. 2011)).
Additionally, when applying Anderson/Burdick, the
Court considers the state’s election regime as a whole,
including aspects that mitigate the hardships that
might be imposed by the challenged provisions. See
Ohio Democratic Party v. Husted, 834 F.3d 620, 627
(6th Cir. 2016); see also Crawford v. Marion Cty.
Election Bd., 553 U.S. 181, 199 (2008) (considering
mitigating aspects of Indiana’s election laws).

App. 419
A. Application to H.B. 2023
1. Burden on Voting Rights
At most, H.B. 2023 minimally burdens Arizona
voters as a whole. In fact, the vast majority of Arizona
voters are unaffected by the law. Although voting by
early mail ballot has steadily increased in Arizona, in
any given election there remains a subset of voters who
choose to vote in person, either early at a designated
early voting site or on Election Day. In-person voters
are not impacted by limitations on who may collect
early mail ballots. For example, 2,323,579 registered
voters cast ballots during the 2012 general election.
(Ex. 543 at 2.) Of these, 1,542,855 submitted early mail
ballots, over 99 percent of which were counted. (Ex. 95
at 17.) Thus, roughly a third of all Arizonans voted in
person during the 2012 general election. Similarly,
approximately 80 percent of the 2,661,497 Arizonans
who voted during the 2016 general election cast an
early ballot, meaning about 20 percent voted in person
on Election Day. (Tr. 1925; Ex. 543.) H.B. 2023 has no
impact on these voters.
Further, even under a generous interpretation of
the evidence, the vast majority of voters who choose to
vote early by mail do not return their ballots with the
assistance of a third-party collector who does not fall
within H.B. 2023’s exceptions. There are no records of
the numbers of voters who, in any given election,
return their ballots with the assistance of third parties.
The ADP collected “a couple thousand” ballots in 2014.
(Tameron Dep. 52:12-17.) According to Secretary
Reagan, community advocate Randy Parraz testified
before the Arizona Senate Elections Committee that he

App. 420
had once collected 4,000 ballots. (Regan Dep. 101:1221.) During closing argument, the Court asked
Plaintiffs’ counsel for his best estimate of the number
of voters affected by H.B. 2023 based on the evidence at
trial, to which he responded: “Thousands . . . but I don’t
have a precise number of that.” (Tr. 2268.) An estimate
of “thousands” offers little guidance for determining
where, on the scale of 1,000 to 999,999, the number
falls, but the evidence and Counsel’s response suggests
that possibly fewer than 10,000 voters are impacted.
Purely as a hypothetical, if the Court were to draw
the unjustified inference that 100,000 early mail
ballots were collected and returned by third parties
during the 2012 general election, that estimate would
leave over 1.4 million early mail ballots that were
returned without such assistance. The point, of course,
is that H.B. 2023’s limitations have no effect on the
vast majority of voters who vote by early mail ballot
because, even under generous assumptions, relatively
few early voters give their ballots to individuals who
would be prohibited by H.B. 2023 from possessing
them.
On its face, H.B. 2023 is generally applicable and
does not increase the ordinary burdens traditionally
associated with voting. The law merely limits who may
possess, and therefore return, a voter’s early mail
ballot. Early voters may return their own ballots,
either in person or by mail, or they may entrust a
family member, household member, or caregiver to do
the same. Thus, the burden H.B. 2023 imposes is the
burden of traveling to a mail box, post office, early
ballot drop box, any polling place or vote center

App. 421
(without waiting in line), or an authorized election
official’s office, either personally or with the assistance
of a statutorily authorized proxy, during a 27-day early
voting period.8
Even with H.B. 2023’s limitations, the burden on
early voters to return their early mail ballots is less
severe than the burden on in-person voters, who must
travel to a designated polling place or vote center on
Election Day, often necessitating taking time off work
and waiting in line. Indeed, the burden on early mail
voters is less severe even than the burden on early inperson voters, who must travel to a designated early
voting location during the 27-day early voting period.
Plaintiffs do not contend that the more onerous travel
required of in-person voters is unconstitutionally
burdensome, nor would the law support such an
argument.

8

Throughout this case, Plaintiffs have conflated the burden
imposed by H.B. 2023 with the circumstances that might make
that burden harder to surmount for certain voters. That is,
Plaintiffs conflate the burden with its severity. For example,
during closing argument the Court asked Plaintiffs’ counsel to
summarize the precise burdens that H.B. 2023 imposes. (Tr. 2262.)
Counsel responded that the burdens include lack of mail access,
inadequate transportation, disabilities, low education attainment,
and residential instability. (Tr. 2263.) But H.B. 2023 does not
impose these conditions on any voter. The sole burden H.B. 2023
imposes is the burden of traveling to a mail box, post office, early
ballot drop box, polling place or vote center, or authorized election
official’s office, either personally or with authorized assistance,
during a 27-day early voting period. The socioeconomic
circumstances cited by Plaintiffs might explain why this process is
more difficult for some voters than others, but those circumstances
are not themselves the burden imposed by the challenged law.

App. 422
For example, in Crawford the Supreme Court
considered whether Indiana’s voter identification law,
which required in-person voters to present photo
identification, unconstitutionally burdened the right to
vote. 553 U.S. at 185. A voter who had photo
identification but was unable to present it on Election
Day, or a voter who was indigent or had a religious
objection to being photographed, could cast a
provisional ballot, which then would be counted if the
voter traveled to the circuit court clerk within ten days
after the election and either presented photo
identification or executed an affidavit. Id. at 185-86.
In his controlling opinion upholding the
constitutionality of the challenged law, Justice Stevens
explained “[t]he burdens that are relevant to the issue
before us are those imposed on persons who are eligible
to vote but do not possess a current photo identification
that complies with the requirements of” the challenged
law. Id. at 198. The Court characterized these burdens
as “the inconvenience of making a trip to the [Indiana
Bureau of Motor Vehicles], gathering the required
documents, and posing for a photograph,” to obtain the
required identification, and concluded that this process
“does not qualify as a substantial burden on the right
to vote, or even represent a significant increase over
the usual burdens of voting.”9 Id. The Court also
reasoned that “[t]he severity of that burden is . . .

9

The Supreme Court did not characterize the burdens imposed by
Indiana’s photo identification law as the circumstances of
particular voters that made it harder to obtain the required
identification. Rather, those conditions informed the analysis of
the severity of the burden on discrete subgroups.

App. 423
mitigated by the fact that, if eligible, voters without
photo identification may cast provisional ballots that
will ultimately be counted,” although to do so voters
would need to make two trips: one to vote in the first
instance and another to the circuit court clerk’s office.
Id. at 199.
At most, H.B. 2023 requires only that early mail
voters make the first trip described in Crawford—the
trip to vote. Further, the trip H.B. 2023 requires voters
to make is less burdensome because an Arizona early
mail voter has 27 days in which to make it, can choose
between traveling to the nearer and most convenient of
either a personal mailbox, post office, early ballot drop
box, polling place or vote center, or authorized election
official’s office, and can have a family member,
household member, or caregiver make the trip on her
behalf. Voting early by mail in Arizona is far easier
than traditional, in-person voting on Election Day, and
if laws that do not “represent a significant increase
over the usual burdens of voting” do not severely
burden the franchise, id. at 198, it is illogical to
conclude that H.B. 2023 imposes a severe burden on
Arizona voters.
For these reasons, Plaintiffs’ Fourteenth
Amendment challenge is best understood as follows:
H.B. 2023 has no impact on the vast majority of
Arizona voters, but its limitations on who may return
a voter’s early mail ballot present special difficulties for
a small subset of socioeconomically disadvantaged
voters. When evaluating the severity of burdens
imposed by a challenged law, “courts may consider not
only a given law’s impact on the electorate in general,

App. 424
but also its impact on subgroups, for whom the burden,
when considered in context, may be more severe.” Pub.
Integrity Alliance, 836 F.3d at 1024 n.2 (citing
Crawford, 553 U.S. at 199-203, 212-17 (Souter, J.,
dissenting)). But to do so, the challengers must present
sufficient evidence to enable the court to quantify the
magnitude of the burden imposed on the subgroup. Id.;
see also Ne. Ohio Coal. for the Homeless v. Husted, 837
F.3d 612, 631-32 (6th Cir. 2016) (explaining that, even
under this “more liberal approach to burden
measuring,” the record must contain “quantifiable
evidence from which an arbiter could gauge the
frequency with which this narrow class of voters has
been or will become disenfranchised as a result of” the
challenged law).
Thus, in Crawford the Supreme Court
acknowledged that Indiana’s voter identification law
might place “a somewhat heavier burden . . . on a
limited number of persons,” such as “elderly persons
born out of State, who may have difficulty obtaining a
birth certificate; persons who because of economic or
other personal limitations may find it difficult either to
secure a copy of their birth certificate or to assemble
the other required documentation to obtain a stateissued identification; homeless persons; and persons
with a religious objection to being photographed.” 553
U.S. at 199. But the Court declined to consider these
burdens because “on the basis of the evidence in the
record it [was] not possible to quantify either the
magnitude of the burden on this narrow class of voters
or the portion of the burden imposed on them that
[was] fully justified.” Id. at 200.

App. 425
Like in Crawford, this Court has insufficient
evidence from which to measure the burdens on
discrete subsets of voters. The Court cannot quantify
with any degree of certainty “the number of registered
voters” who, in past elections, returned early mail
ballots with the assistance of ballot collectors who do
not fall within H.B. 2023’s exceptions. Id. at 200. The
Court therefore cannot determine how frequently
voters will be impacted by H.B. 2023’s limitations. And
of the nebulous “thousands” who, in past elections,
have entrusted their ballots to third parties, there is
insufficient “concrete evidence” for the Court to gauge
the magnitude of that burden or the portion of it that
is justified. Id. at 201. Stated differently, it is not
enough to know roughly how many voters have used
ballot collection services—which, in any event, the
Court cannot determine on this record. The Court also
needs to know why voters used these services so that it
may determine whether those voters did so out of
convenience or personal preference, as opposed to
meaningful hardship, and whether other aspects of
Arizona’s election system adequately mitigate those
burdens.
The evidence available largely shows that voters
who have used ballot collection services in the past
have done so out of convenience or personal preference,
or because of circumstances that Arizona law
adequately accommodates in other ways. Joseph
Larios, a community advocate who has collected ballots
in past elections, testified that in his experience
returning early mail ballots presents special challenges
for communities that lack easy access to outgoing mail
services; the elderly, homebound, and disabled voters;

App. 426
socioeconomically disadvantaged voters who lack
reliable transportation; voters who have trouble finding
time to return mail because they work multiple jobs or
lack childcare services; and voters who are unfamiliar
with the voting process and therefore do not vote
without assistance or tend to miss critical deadlines.
(Tr. 416-26, 432-39.)
As to this latter category of voters who, due either
to forgetfulness or unfamiliarity with the voting
process, choose not to vote or neglect to mail their
ballots in time for them to reach the county recorder by
7:00 p.m. on Election Day, H.B. 2023 does not impose
a severe burden. Remembering relevant election
deadlines “does not qualify as a substantial burden on
the right to vote, or even represent a significant
increase over the usual burdens of voting.” Crawford,
553 U.S. at 198. Moreover, nothing in H.B. 2023
prohibits Plaintiffs or other organizations from
educating voters and offering assistance in
understanding and completing a ballot.
As for the other types of voters Larios identified,
Arizona accommodates many of the circumstances that
tend to make voting in general (and not just early mail
voting) more difficult for them. For example, all
counties must provide special election boards for voters
who cannot travel to a polling location because of an
illness or disability. A.R.S. § 16-549. If an ill or disabled
voter timely requests an accommodation, the county
recorder must arrange for a special election board to
deliver a ballot to the voter in person. Although
relatively few voters are aware of this service (Tr. 86465), nothing in H.B. 2023 prevents Plaintiffs from

App. 427
educating voters about the special election board option
and assisting them in making those arrangements.
Arizona also allows curbside voting at polling places,
where election officials will go out to a vehicle to assist
voters as necessary.10
For working voters, Arizona law requires employers
to give an employee time off to vote if the employee is
scheduled to work a shift on Election Day that provides
fewer than three consecutive hours between either the
opening of the polls and the beginning of the shift, or
the end of the shift and the closing of the polls. A.R.S.
§ 16-402. An employer is prohibited from penalizing an
employee for exercising this right. If voters nonetheless
feel uncomfortable requesting time off, they have a 27day window to vote in person at an on-site early voting
location. Additionally, even under H.B. 2023 voters
with transportation difficulties or time limitations may
entrust their early ballots to family members,
household members, caregivers, or elections officials.
The testimony of individual voters who have used
ballot collection services in past elections largely
confirms that H.B. 2023 does not impose significant
burdens. Five voters testified at trial about their
personal experiences with ballot collectors: Nellie Ruiz,
Carolyn Glover, Daniel Magos, Carmen Arias, and
10

It is of no moment that entrusting a ballot to a volunteer is
relatively more convenient than arranging a special election board.
In Crawford, voting without the required identification certainly
would have been easier than voting provisionally and then
travelling to the circuit court clerk’s office within ten days.
Nonetheless, the controlling opinion found this option to be an
adequate mitigating alternative.

App. 428
Marva Gilbreath. None of these voters would be
severely burdened by H.B. 2023’s limitations.
Ruiz, a 71-year-old early mail voter in Phoenix,
testified that she typically asks her neighbor to return
her ballot because her rheumatoid arthritis and
deteriorating eyesight make it difficult for her to return
it personally. Ruiz lives with her adult son and
daughter-in-law. Although Ruiz has a personal
mailbox, she prefers not to mail important documents,
like bill payments and ballots. Instead, her son delivers
her bill payments whenever he delivers his own mail.
Ruiz testified that she preferred to give her ballot to
her neighbor because she “didn’t want to impose on
[her] children,” but could not explain why her son could
not return her ballot the same way he returns her bills,
or why asking him to deliver a ballot was any more of
an imposition than asking him to deliver her bills. Ruiz
also was not aware that her son could drop off her
ballot when he goes to the polls to vote in person. Ruiz
testified that she was not able to give her early mail
ballot to her neighbor during the 2016 general election
because of H.B. 2023. Nonetheless, Ruiz successfully
returned her ballot by mailing it from her home
mailbox. (Tr. 93-96, 98-100, 102-103, 111.)
H.B. 2023 does not burden voters like Ruiz. She
admittedly was able to mail her ballot in 2016 without
relying on her neighbor and lives with her adult son
who is capable of returning her ballots, either by mail
the same way he returns her bill payments, or at a
polling place when he votes in person.
Glover, a retired voter with mobility issues who
resides in a senior citizens apartment complex in

App. 429
Phoenix, testified that prior to the 2016 general
election persons affiliated with the Democratic Party
would collet her early mail ballot. Glover initially
testified that her sister returned her ballot for her
during the 2016 election, but on cross-examination
Glover claimed her ballot was returned by her “sister
from church,” rather than a family member. Glover
testified that her apartment building has outgoing
mail, but the slots are too small for the ballot. Although
a postal worker collects mail at the building, Glover
sometimes forgets to give the postal worker her
outgoing mail. Glover testified that others in the
community have caregivers, but that she would not feel
comfortable giving her ballot to a caregiver. Glover also
testified that she was unaware she could request to
vote via a special election board. (Tr. 222-25, 228-230,
232-33.)
H.B. 2023 does not severely burden voters like
Glover, who admittedly can hand her ballot to a postal
worker, provided she remembers to do so. Further, if
Glover’s mobility issues make it difficult for her to
travel to a post office, she can request to vote via a
special election board. Nothing in H.B. 2023 prevents
volunteers from the Democratic Party from assisting
her with making those arrangements.
Magos is a 72-year-old Phoenix resident who prefers
to vote by mail. He has a home mailbox but prefers not
to use it to send important items because his mailbox
has been tampered with in the past. Magos once gave
his ballot to a collector because a flood impacted his
home and he did not want to leave his wife alone. But
in most elections, he either takes his ballot to the post

App. 430
office or drops it off at a polling place. Magos is capable
of driving to a polling place and voting in person, and
he has family members who could return his ballot if
he found himself in need of such a service, though he
testified that he “would hate to burden them with one
more duty” because “they already do enough for” him.
Magos successfully voted in 2016, even though H.B.
2023 was in effect. (Tr. 235, 238-40, 242, 247, 250.)
Arias is a registered voter in Phoenix who testified
that she once gave her ballot to a collector because her
vehicle had broken down. Additionally, Arias voted by
early ballot in the 2016 presidential preference and
general elections by driving to Democratic Party
headquarters and dropping her voted early ballots off
there, presumably so volunteers could later deliver
those ballots to an appropriate destination. Although
Arias testified that the postal service in her
neighborhood is unreliable, she did not explain why she
could drive her ballots to Democratic Party
headquarters but not to a post office, early ballot drop
box, polling location, or elections office. (Tr. 1166-68,
1173.)
The only early mail voter who testified that she did
not vote during the 2016 general election was
Gilbreath, a 72-year-old Laveen resident. Gilbreath
testified that she has mobility issues due to her
arthritis. During the 2014 election, Gilbreath gave her
early mail ballot to a friend because she waited too long
to mail it. Gilbreath voted in the 2016 presidential
preference election by mailing her early ballot herself.
She received an early mail ballot for the general
election but did not return it because she waited too

App. 431
long to mail it and was not sure where to go to deliver
it in person. Thus, Gilbreath has access to a mailbox;
she simply must remember to timely mail her ballot.11
(Tr. 128, 130, 133, 135, 142.)
In addition to these voters, Plaintiffs designated for
admission portions of the deposition testimony of Victor
Vasquez, who said that he suffered a heart attack
during the 2014 general election and asked a hospital
nurse to return his early ballot for him, but she
refused. Accordingly, he checked himself out of the
hospital on Election Day and had a friend drive him to
a polling place, where he cast a provisional ballot that
ultimately was not counted because Vasquez was not in
his assigned precinct. (Vasquez Dep. 15:18-18:13; 25:725.) The Court has concerns about the credibility of
Vasquez’s account. If Vasquez had already completed
an early mail ballot, it is not clear why he completed an
entirely new, provisional ballot at the polling place
rather than simply drop off the early ballot he
previously completed. Vasquez also stated that in a
prior election he gave his ballot to a friend to mail at
the post office because he does not trust the outgoing
mail service where he lives, but he did not explain
whether he easily can go to the post office on his own.
In sum, though for voters like those who testified at
trial H.B. 2023 might have eliminated a preferred or
convenient way of returning an early mail ballot, it

11

Plaintiffs do not challenge Arizona’s requirement that early mail
ballots be received by the county recorder by 7:00 p.m. on Election
Day, which appears to cause more problems for voters than H.B.
2023’s limitations on ballot collection.

App. 432
does not follow that what H.B. 2023 expects them to do
instead is burdensome. The Constitution does not
demand “recognition and accommodation of such
variable personal preferences, even if the preferences
are shown to be shared in higher numbers by members
of certain identifiable segments of the voting public.”
Ohio Democratic Party, 834 F.3d at 630. Nor does it
require states to prioritize voter convenience above all
other regulatory considerations. Id. at 629. H.B. 2023
has no impact on the vast majority of Arizona voters,
and the Court lacks sufficient evidence to assess
whether the law imposes a more severe burden for
discrete subsets of voters. The evidence that was
adduced at trial, however, indicates that, for many,
ballot collection is used out of convenience and not
because the alternatives are particularly difficult.
2. Burden on Associational Rights
In Count V of their Second Amended Complaint,
Plaintiffs alleged that H.B. 2023 unjustifiably infringes
upon Plaintiffs’ associational rights, as distinct from
voting rights. (Doc. 233 ¶¶ 112-115.) The parties’ joint
proposed pretrial order, however, does not include this
claim as a contested issue of fact and law. Instead, the
proposed pretrial order states that Plaintiffs challenge
H.B. 2023 under the Fourteenth Amendment only
“because it imposes burdens on voters that outweigh
the state’s interest in this policy.” (Doc. 360 at 7.)
Although Plaintiffs’ pretrial brief asserts that H.B.
2023 “infringes on the right to associate,” it does not
elaborate further on the issue. (Doc. 359 at 6.)
Moreover, Plaintiffs’ proposed findings of fact and
conclusions of law contain no proposed factual findings

App. 433
or legal conclusions regarding H.B. 2023’s impact on
associational rights. (Doc. 362 ¶ 131.) Defendants did
not brief the associational rights issue because, based
on the parties’ joint description of contested issues in
the joint proposed pretrial order, they understood that
Plaintiffs would not be seeking to prove that claim at
trial. (Doc. 356 at 11 n.6.) Plaintiffs did not seriously
advance this issue at trial, though when asked whether
the claim still is at issue, Plaintiffs’ responded
affirmatively and explained that the claim is “part and
parcel of our Anderson/Burdick claim.” (Tr. 1500.)
To the extent this claim has not been abandoned,
Plaintiffs have offered no evidence or argument that
would lead the Court to deviate from the conclusion it
reached at the preliminary injunction stage, where
Plaintiffs argued that H.B. 2023 burdens the
associational rights of groups that encourage and
facilitate voting through ballot collection. (Doc. 85 at
16-18.) The Anderson/Burdick framework applies to
Plaintiff’s First Amendment claim. Timmons, 520 U.S.
at 358. As the party invoking the First Amendment’s
protection, however, Plaintiffs bear the additional,
threshold burden of proving that it applies. See Clark
v. Cmty. for Creative Non-Violence, 468 U.S. 288, 293
n.5 (1984).
Conduct, such as collecting a ballot, is not “speech”
for purposes of the First Amendment simply because
“the person engaging in the conduct intends thereby to
express an idea.” U.S. v. O’Brien, 391 U.S. 367, 376
(1968). Rather, the First Amendment extends “only to
conduct that is inherently expressive.” Rumsfeld v.
Forum for Acad. & Institutional Rights, Inc., 547 U.S.

App. 434
47, 66 (2006). The Court continues to find persuasive
the Fifth Circuit’s opinion in Voting for Am. v. Steen,
732 F.3d 382 (5th Cir. 2013), which considered a
challenge to various Texas laws that regulated the
receipt and delivery of completed voter registration
applications. The Fifth Circuit rejected the argument
that collecting and delivering voter registration
applications were inherently expressive activities
protected by the First Amendment. Id. at 392. In doing
so, the court agreed that “some voter registration
activities involve speech—‘urging’ citizens to register;
‘distributing’ voter registration forms; ‘helping’ voters
fill out their forms; and ‘asking’ for information to
verify registrations were processed successfully.” Id. at
389. It determined, however, that “there is nothing
inherently expressive about receiving a person’s
completed [voter registration] application and being
charged with getting that application to the proper
place.” Id. at 392 (internal quotation and citation
omitted). Likewise, though many GOTV activities
involve First Amendment protected activity, there is
nothing inherently expressive or communicative about
collecting a voter’s completed early ballot and
delivering it to the proper place.
Moreover, assuming that H.B. 2023 implicates
protected associational rights, it does not impose severe
burdens. Nothing in H.B. 2023 prevents Plaintiffs from
encouraging, urging, or reminding people to vote,
informing and reminding them of relevant election
deadlines, helping them fill out early ballots or request
special election boards, or arranging transportation to
on-site early voting locations, post offices, county
recorder’s offices, or polling places. See id. at 393

App. 435
(noting that voter registration volunteers remained
“free to organize and run the registration drive,
persuade others to register to vote, distribute
registration forms, and assist others in filling them
out”); League of Women Voters of Fla. v. Browning, 575
F. Supp. 2d 1298, 1322 (S.D. Fla. 2008) (“[The
challenged law] does not place any restrictions on who
is eligible to participate in voter registration drives or
what methods or means third-party voter registration
organizations may use to solicit new voters and
distribute registration applications. Instead, [it] simply
regulates an administrative aspect of the electoral
process—the handling of voter registration applications
by third-party voter registration organizations after
they have been collected from applications.”). H.B. 2023
merely regulates who may possess, and therefore
return, another’s early ballot. Accordingly, H.B. 2023
no more than minimally burdens Plaintiffs’
associational rights.
3. Justifications
Because H.B. 2023 no more than minimally burdens
Plaintiffs’ First and Fourteenth Amendment rights,
Defendants must show only that it serves important
regulatory interests. Wash. State Grange, 552 U.S. at
452. Defendants advance two justifications for H.B.
2023. First, they claim that H.B. 2023 is a prophylactic
measure intended to prevent absentee voter fraud by
creating a chain of custody for early ballots and
minimizing the opportunities for ballot tampering, loss,
and destruction. Second, Defendants argue that H.B.
2023 improves and maintains public confidence in
election integrity.

App. 436
Fraud prevention and preserving public confidence
in election integrity are facially important state
regulatory interests. Purcell v. Gonzalez, 549 U.S. 1, 4
(2006) (“Confidence in the integrity of our electoral
process is essential to the functioning of our
participatory democracy. Voter fraud drives honest
citizens out of the democratic process and breeds
distrust of our government.”); Eu v. S.F. Cty.
Democratic Cent. Comm., 489 U.S. 214, 231 (1989) (“A
State indisputably has a compelling interest in
preserving the integrity of its election process.”); see
also Crawford, 553 U.S. at 195 (“There is no question
about the legitimacy or importance of the State’s
interest in counting only the votes of eligible voters. . . .
While the most effective method of preventing election
fraud may well be debatable, the propriety of doing so
is perfectly clear.”). Plaintiffs do not argue otherwise.
Instead, they argue that H.B. 2023 is unjustified
because (1) there is no evidence of absentee voter fraud
perpetrated by ballot collectors or of widespread public
perception that ballot collection leads to fraud and
(2) H.B. 2023 is not an appropriately tailored means of
accomplishing Arizona’s objectives.
On the first point, there has never been a case of
voter fraud associated with ballot collection charged in
Arizona. (Tr. 1682, 1981, 2198.) Although three specific
allegations of ballot collection voter fraud have been
investigated in Arizona, none of the incidents resulted
in a criminal prosecution. (Tr. 834-37 1659, 1680-81,
2163-68, 2185-87, 2202-05; Exs. 81, 372, 400.) No
specific, concrete example of voter fraud perpetrated
through ballot collection was presented by or to the
Arizona legislature during the debates on H.B. 2023 or

App. 437
its predecessor bills. No Arizona county produced
evidence of confirmed ballot collection fraud in
response to subpoenas issued in this case, nor has the
Attorney General’s Office produced such information.
(Ex. 44, 65.)
The Republican National Lawyers Association
(“RNLA”) performed a study dedicated to uncovering
cases of voter fraud between 2000 and 2011. (Tr. 1868.)
The study found no evidence of ballot collection or
delivery fraud, nor did a follow-up study through May
2015. (Ex. 91 at 19-20.) Although the RNLA reported
instances of absentee ballot fraud, none were tied to
ballot collection and delivery. (Tr. 1368-69.) Likewise,
the Arizona Republic conducted a study of voter fraud
in Maricopa County and determined that, out of
millions of ballots cast in Maricopa County from 2005
to 2013, a total of 34 cases of fraud were prosecuted. Of
these, 18 involved a felon voting without her rights
first being restored. Fourteen involved non-Arizona
citizens voting. The study uncovered no cases of fraud
perpetrated though ballot collection. (Ex. 91 at 19.)
As for public perception of fraud, the legislative
record contains no evidence of widespread public
concern that ballot collectors were engaging in voter
fraud. (Ex. 91 at 19.) H.B. 2023’s sponsor,
Representative Michelle Ugenti-Rita, was not aware of
any polling data indicating that Arizonans lacked
confidence in the State’s election system at the time
she introduced the bill. (Tr. 1805.)
Although there is no direct evidence of ballot
collection fraud or of widespread public perception that
ballot collection undermined election integrity,

App. 438
Arizona’s legislature is not limited to reacting to
problems as they occur, nor is it required to base the
laws it passes on evidence that would be admissible in
court. See Voting for Am., 732 F.3d at 394 (explaining
that states “need not show specific local evidence of
fraud in order to justify preventative measures”). A
more exacting review of the evidence supporting
Arizona’s concerns might be appropriate if H.B. 2023
severely burdened the franchise. But because H.B.
2023’s burdens are at most minimal, the Court’s review
is less exacting. Timmons, 520 U.S. at 358.
For example, in Crawford the Supreme Court
upheld Indiana’s voter identification requirement as a
measure designed to prevent in-person voter fraud
even though “[t]he record contain[ed] no evidence of
any such fraud actually occurring in Indiana at any
time in its history.” 553 U.S. at 195. Similarly, in
Munro v. Socialist Workers Party, the Supreme Court
upheld a Washington law requiring all minor party
candidates for partisan office to receive at least one
percent of all votes cast during the primary election in
order to appear on the general election ballot. 479 U.S.
189 (1986). Washington argued that the law prevented
voter confusion from ballot overcrowding by ensuring
candidates appearing on the general election ballot had
sufficient community support. Id. at 194. In upholding
the law, the Supreme Court explained: “We have never
required a State to make a particularized showing of
the existence of voter confusion, ballot overcrowding, or
the presence of frivolous candidates prior to the
imposition of reasonable restrictions on ballot access.”
Id. at 194-95. Rather, “[l]egislatures . . . should be
permitted to respond to potential deficiencies in the

App. 439
electoral process with foresight rather than
reactively[.]” Id. at 195; see also Lee v. Va. State Bd. of
Elections, 188 F. Supp. 3d 577, 609 (E.D. Va. 2016)
(“Outlawing criminal activity before it occurs is not
only a wise deterrent, but also sound public policy.”),
aff’d, 843 F.3d 592 (4th Cir. 2016).
Furthermore, many courts have recognized that
absentee voting presents a greater opportunity for
fraud. See Crawford, 553 U.S. at 225 (Souter, J.
dissenting) (noting that “absentee-ballot fraud . . . is a
documented problem in Indiana”); Griffin v. Roupas,
385 F.3d 1128, 1131 (7th Cir. 2004) (“Voting fraud . . .
is facilitated by absentee voting.”); Qualkinbush v.
Skubisz, 826 N.E.2d 1181, 1197 (Ill. App. Ct. 2004) (“It
is evident that the integrity of the vote is even more
susceptible to influence and manipulation when done
by absentee ballot.”). Indeed, mail-in ballots by their
very nature are less secure than ballots cast in person
at polling locations. Accordingly, the Court finds that
the regulatory interests Arizona seeks to advance are
important.
The question then becomes one of means-end
tailoring. Because H.B. 2023 does not impose severe
burdens, it need not be narrowly tailored to achieve the
State’s goals. Nevertheless, the Court still must take
into consideration the extent to which Arizona’s
important regulatory interests make it necessary to
impose those minimal burdens. Burdick, 504 U.S. at
434
Plaintiffs contend that H.B. 2023 is not necessary
because Arizona law already includes measures
designed to ensure the security of early mail ballots,

App. 440
and because H.B. 2023 is unlikely to be a useful tool to
prevent or deter voter fraud or to preserve public
confidence in election integrity. For example, ballot
tampering, vote buying, or discarding someone else’s
ballot all were illegal prior to the passage of H.B. 2023.
(Shooter Dep. 51:16-52:5.) Arizona law has long
provided that any person who knowingly collects voted
or unvoted ballots and does not turn those ballots in to
an elections official is guilty of a class 5 felony. A.R.S.
§ 16-1005. Further, Arizona has long made all of the
following class 5 felonies: “knowingly mark[ing] a voted
or unvoted ballot or ballot envelope with the intent to
fix an election;” “receiv[ing] or agree[ing] to receive any
consideration in exchange for a voted or unvoted
ballot;” possessing another’s voted or unvoted ballot
with intent to sell; “knowingly solicit[ing] the collection
of voted or unvoted ballots by misrepresenting [one’s
self] as an election official or as an official ballot
repository or . . . serv[ing] as a ballot drop off site, other
than those established and staffed by election officials;”
and “knowingly collect[ing] voted or unvoted ballots
and . . . not turn[ing] those ballots in to an election
official . . . or any . . . entity permitted by law to
transmit post.” A.R.S. §§ 16-1005(a)-(f). The early
voting process also includes a number of other
safeguards, such as tamper evident envelopes and a
rigorous voter signature verification procedure. (Tr.
834-35, 1563-66, 1752, 1878, 2209.)
Plaintiffs also note that, to the extent Arizona
wanted to create a chain of custody for early ballots,
the legislature rejected a less restrictive amendment to
H.B. 2023 proposed by Representative Ken Clark and
Senator Martin Quezada, which would have allowed

App. 441
ballot collection if the collector issued a tracking
receipt. (Shooter Dep. at 50:21-23; Ex. 91 at 12; Ex. 16
at 54.) As enacted, H.B. 2023 is less effective at
creating a chain of custody because it allows certain
individuals to possess another’s voted early ballot but
does not require a record of that collection. (Reagan
Dep. 83:25-85:20.) H.B. 2023 also is not enforced by
county recorders. (Ex. 526 at 5 n.15; Ex. 75.) Instead,
county recorders will accept all ballots, even those
returned by prohibited possessors under H.B. 2023.
Plaintiffs raise fair concerns about whether, as a
matter of public policy, H.B. 2023 is the best way to
achieve Arizona’s stated goals. If H.B. 2023 severely
burdened the franchise, and Arizona consequently was
required to narrowly tailor the law to achieve
compelling ends, Plaintiffs’ arguments would carry
more weight. But because H.B. 2023’s burdens are
minimal, and the Court’s review consequently less
exacting, H.B. 2023’s means-end fit can be less precise.
Defendants contend that one of H.B. 2023’s
purposes is to reduce the opportunity for early mail
ballot fraud by limiting who may possess a voter’s early
ballot. They also use the term “fraud” broadly to
encompass not just vote tampering, which is amply
addressed by other provisions of Arizona law, but also
early ballot loss or destruction. By limiting who may
possess another’s early ballot, H.B. 2023 reasonably
reduces opportunities for early ballots to be lost or
destroyed.
Although Arizona’s legislature arguably could have
addressed this concern through a more narrowly
tailored, but also more complex, system of training and

App. 442
registering ballot collectors and requiring tracking
receipts or other proof of delivery, the Constitution does
not require Arizona to erect such a bureaucracy if the
alternative it has chosen is not particularly
burdensome. Arizona reasonably chose to limit
possession of early ballots to the voter herself, and to a
handful of presumptively trustworthy proxies, such as
family and household members. Indeed, H.B. 2023
closely follows the recommendation of the bipartisan
Commission on Federal Election Reform, chaired by
former President Jimmy Carter and former Secretary
of State James A. Baker III, which in 2005 wrote:
Fraud occurs in several ways. Absentee ballots
remain the largest source of potential voter
fraud. . . . Absentee balloting is vulnerable to
abuse in several ways: . . . Citizens who vote at
home, at nursing homes, at the workplace, or in
church are more susceptible to pressure, overt
and subtle, or to intimidation. Vote buying
schemes are far more difficult to detect when
citizens vote by mail. States therefore should
reduce the risks of fraud and abuse in absentee
voting by prohibiting “third-party”
organizations, candidates, and political party
activists from handling absentee ballots.
Building Confidence in U.S. Elections § 5.2 (Sept. 2005)
(“Carter-Baker Report”), available at
https://www.eac.gov/assets/1/6/Exhibit%20M.PDF.12

12

The Carter-Baker Report was not offered into evidence by either
party. It was part of the record in Crawford, however, and the
Supreme Court cited it favorably. 553 U.S. at 193. It also was cited

App. 443
Though it might not be the most narrowly tailored
provision, H.B. 2023 is one reasonable way to advance
what are otherwise important state regulatory
interests. Accordingly, H.B. 2023 does not violate the
First and Fourteenth Amendments.
B. Application to OOP Ballot Policy
1. Burden on Voting Rights
Arizona consistently is at or near the top of the list
of states that collect and reject the largest number of
provisional ballots each election. (Ex. 95 at 23-25.) In
2012 alone “[m]ore than one in every five [Arizona inperson] voters . . . was asked to cast a provisional
ballot, and over 33,000 of these—more than 5 percent
of all in-person ballots cast—were rejected. No other
state rejected a larger share of its in-person ballots in
2012.” (Ex. 95 at 24-25.) Interstate comparisons of
provisional voting are complicated, however, because
states use provisional ballots in different ways, and
some states do not utilize provisional voting in any

favorably by Judge Bybee in his dissent from the en banc Ninth
Circuit panel’s November 4, 2016 order temporarily enjoining
enforcement of H.B. 2023 pending en banc review of this Court’s
order denying a preliminary injunction. See Feldman v. Ariz. Sec.
of State’s Office, 843 F.3d 366, 414 (9th Cir. 2016) (Bybee, J.
dissenting). The Court may take judicial notice of the Carter-Baker
Report’s recommendations pursuant to Federal Rule of Evidence
201. The Carter-Baker Report is a government document publicly
available on the United States Election Assistance Commission’s
website. Though Plaintiffs might disagree with the Carter-Baker
Report’s recommendations, their continued validity, or their
relevance to this case, there is no question that this
recommendation was made and is authentic.

App. 444
form. For example, nationwide a much higher
proportion of provisional votes are rejected for reasons
not specified or because the voter voted in an incorrect
jurisdiction, as compared to Arizona. Moreover, the
overall number of provisional ballots in Arizona, both
as a percentage of the registered voters and as a
percentage of the number of ballots cast, has
consistently declined.
One of the most frequent reasons that provisional
ballots are rejected in Arizona is because they are cast
OOP. (Ex. 95 at 22-29.) Arizona’s rejection of OOP
ballots, however, has no impact on the vast majority of
Arizona voters. Early mail voting is the most popular
method of voting in Arizona, accounting for
approximately 80 percent of all ballots cast in the 2016
election. Voters who cast early mail ballots are
unaffected by Arizona’s policy to not count OOP ballots.
Likewise, this policy has no impact on voters in
Graham, Greenlee, Cochise, Navajo, Yavapai, and
Yuma counties, which have adopted the vote center
model.
Moreover, the vast majority of in-person voters
successfully vote in their assigned precincts, and OOP
voting has consistently declined as a percentage of the
total ballots cast in Arizona. In the 2008 general
election, Arizona voters cast 14,885 OOP ballots out of
the 2,320,851 ballots cast statewide, meaning OOP
ballots constituted 0.64 percent of all votes cast in that
election. In the 2012 general election, Arizona voters
cast 10,979 OOP ballots out of the 2,323,579 ballots
cast statewide, accounting for 0.47 percent of all votes
cast. In that same election, 1,542,855 Arizona voters

App. 445
submitted early ballots, and more than 99 percent were
counted. In the 2016 general election, Arizona voters
cast 3,970 OOP ballots out of the 2,661,497 ballots cast
statewide, representing 0.15 percent of all votes cast.
Since 2008, OOP voting during general presidential
elections has declined 73 percent statewide, dropping
from 14,885 in 2008 to 3,970 in the 2016 election. (Tr.
1927-32; Exs. 578, 581.)
OOP voting has declined in midterm elections, as
well. In the 2010 general election, Arizona voters cast
4,919 OOP ballots out of the 1,750,840 ballots cast
statewide, constituting 0.28 percent of all votes cast. By
comparison, in the 2014 general election, Arizona
voters cast 3,582 OOP ballots out of the 1,537,671
ballots cast statewide, constituting 0.23 percent of all
votes cast. During this same period, the number of
registered voters in Arizona increased as follows:
2,987,451 in 2008; 3,146,418 in 2010; 3,124,712 in
2012; 3,235,963 in 2014; and 3,588,466 in 2016. (Exs.
577, 578.)
These trends also hold true at the county level. For
example, Maricopa County (Arizona’s most populous)
has experienced a consistent decline in the number of
OOP ballots, both in terms of raw numbers and as a
percentage of the total ballots cast. In the 2008 general
election, Maricopa County voters cast 9,159 OOP
ballots out of the 1,380,571 ballots cast countywide,
accounting for 0.66 percent of the all votes cast. In the
2012 general election, Maricopa County voters cast
7,529 OOP ballots out of the 1,390,836 ballots cast
countywide, representing 0.54 percent of all votes. In
the 2016 general election, Maricopa County voters cast

App. 446
2,197 OOP ballots out of the 1,608,875 ballots cast
countywide, representing 0.14 percent of all votes cast.
Likewise, in the 2010 general midterm election,
Maricopa County voters cast 3,527 OOP ballots out of
the 1,004,125 ballots cast countywide, accounting for
0.35 percent of all votes. In the 2014 general election,
Maricopa County voters cast 2,781 OOP ballots out of
the 877,187 ballots cast countywide, constituting 0.32
percent of all votes. Between 2008 and 2016, Maricopa
County had a staggering decrease of 76 percent in the
raw number of OOP ballots. During this same period,
the number of registered voters in Maricopa County
increased as follows: 1,730,886 in 2008; 1,851,956 in
2010; 1,817,832 in 2012; 1,935,729 in 2014; and
2,161,716 in 2016. (Exs. 579, 582.)
Pima County (Arizona’s second most populous) also
has experienced a consistent decline in OOP voting. In
the 2008 general election, Pima County voters cast
3,227 OOP ballots out of the 397,503 ballots cast
countywide, accounting for 0.81 percent of all votes. In
the 2012 general election, Pima County voters cast
2,212 OOP ballots out of the 385,725 ballots cast
countywide, accounting for 0.57 percent of all votes. In
the 2016 general election, Pima County voters cast
1,150 OOP ballots out of the 427,102 ballots cast
countywide, representing 0.27 percent of all votes. As
for Pima County midterm elections, in the 2010 general
election Pima County voters cast 641 OOP ballots out
of the 318,995 ballots cast countywide, or 0.20 percent
of all votes. By comparison, in the 2014 general
election, Pima County voters cast just 371 OOP ballots
out of the 274,449 ballots cast countywide, constituting
0.14 percent of the total ballots. The raw number of

App. 447
OOP ballots thus dropped by 64 percent in Pima
County between 2008 and 2016. During this same
period, the number of registered voters in Pima County
increased as follows: 498,777 in 2008; 486,697 in 2010;
494,630 in 2012; 497,542 in 2014; and 544,270 in 2016.
(Exs. 580, 583.)
In light of these figures, and much like their H.B.
2023 claim, Plaintiffs’ challenge to Arizona’s treatment
of OOP ballots is best described as follows: Arizona’s
rejection of OOP ballots has no impact on the vast
majority of Arizona voters, though a small subset of
voters is affected more often because of their special
circumstances. But Plaintiffs’ contention that Arizona’s
rejection of OOP ballots severely burdens this small
subset of voters is unavailing for two independent
reasons.
First, Plaintiffs do not directly challenge the
electoral practices actually responsible for higher rates
of OOP voting. For example, high rates of residential
mobility are associated with higher rates of OOP
voting. Almost 70 percent of Arizonans have changed
their residential address in the decade between 2000
and 2010, the second highest rate of any state. The vast
majority of Arizonans who moved in the last year
moved to another address within their current city of
residence and, compared with other states, Arizona has
the second highest rate of within-city moves. Most of
these within-city moves took place in Maricopa and
Pima Counties. (Ex. 95 at 11-12.) Relatedly, rates of
OOP voting are higher in neighborhoods where renters
make up a larger share of householders. (Ex. 96 at 41.)
One significant reason residential mobility tends to

App. 448
result in higher rates of OOP voting is because voters
who move sometimes neglect to timely update their
voter registration. (See, e.g., Tr. 602-06.) Relatedly,
voters registered for PEVL who move and do not
update their address information will not have their
early ballot forwarded to their new address. Arizona inperson voters are more likely to vote OOP if they have
signed up for the PEVL and have moved. (See, e.g., Tr.
124, 987-89.)
Additionally, changes in polling locations from
election to election, inconsistent election regimes used
by and within counties, and placement of polling
locations all tend to increase OOP voting rates. (Ex. 95
at 12-15, 26-27, 44-52, 54-58.) In Maricopa County,
between 2006 and 2008 at least 43 percent of polling
locations changed from one year to the next. Likewise,
approximately 40 percent of Maricopa County’s active
registered voters’ polling locations changed between
2010 and 2012. Changes in Maricopa County polling
locations and election regimes continued to occur in
2016, when Maricopa County experimented with 60
vote centers for the presidential preference election,
then reverted to a precinct-based system with 122
polling locations for the May special election, and then
implemented over 700 assigned polling places in the
August primary and November general elections. The
OOP voting rate was 40 percent higher for voters who
had experienced such polling place changes. (Ex. 95 at
14-15, 56-57.) Further, some individual voters testified
that they arrived at an incorrect polling place but were
not redirected by poll workers to the correct location,
nor were the implications of casting a provisional ballot
explained. These voters stated that they would have

App. 449
gone to the correct polling location had they been so
advised. (Tr. 120, 265-66, 352-54, 493, 935-36.)
Plaintiffs do not challenge as unconstitutional the
manner in which Arizona and its counties allocate or
relocate polling places, inform voters of their assigned
precincts, or train poll workers. They do not challenge
Arizona’s requirement that voters update their voter
registrations after moving to a new address. Nor do
Plaintiffs challenge Arizona’s use of the precinct-based
system, though the logical implication of their
argument is that Arizona may utilize a precinct-based
system but cannot enforce it as to races for which an
OOP voter otherwise would be eligible to vote (usually
so-called “top of the ticket” races). (Tr. 1495-96.)
Instead, Plaintiffs challenge what Arizona does with
OOP ballots after they have been cast. But there is no
evidence that it will be easier for voters to identify
their correct precincts if Arizona eliminated its
prohibition on counting OOP ballots. Though the
consequence of voting OOP might make it more
imperative for voters to correctly identify their
precincts, it does not increase the burdens associated
with doing so.
Second, the burdens imposed by precinct-based
voting—a system which, again, Plaintiffs do not
directly challenge—are not severe. Precinct-based
voting merely requires voters to locate and travel to
their assigned precincts, which are ordinary burdens
traditionally associated with voting.13 See Colo.

13

Plaintiffs again conflate the burdens imposed by the (indirectly)
challenged practice with the socioeconomic circumstances that can

App. 450
Common Cause v. Davidson, No. 04CV7709, 2004 WL
2360485, at *14 (Colo. Dist. Ct. Oct. 18, 2004) (“[I]t
does not seem to be much of an intrusion into the right
to vote to expect citizens, whose judgment we trust to
elect our government leaders, to be able to figure out
their polling place.”); see also Serv. Emps. Int’l Union
Local 1 v. Husted, 698 F.3d 341, 344 (6th Cir. 2012)
(explaining that voters cannot be absolved “of all
responsibility for voting in the correct precinct or
correct polling place by assessing voter burden solely
on the basis of the outcome—i.e., the state’s ballot
validity determination”).
Moreover, Arizona does not make it needlessly
difficult for voters to find their assigned precincts.
Indeed, a 2016 Survey of Performance of American
Elections (“SPAE”) found that none of the survey
respondents for Arizona reported that it was “very
difficult” to find their polling places. By comparison,
several other states had respondents who reported that
it was very difficult to find their polling places. The
2016 SPAE also reported that approximately 94
percent of the Arizona respondents thought it was very
easy or somewhat easy to find their polling places. (Tr.
1350-51.)

make those burdens more difficult for certain subsets of voters to
surmount. Arizona’s precinct-based system does not impose
residential instability, transportation difficulties, or informational
deficits on any voter. These circumstances exist independent of the
precinct-based system. Instead, the precinct-based system imposes
on voters the burden of locating and travelling to an assigned
precinct, which might be more difficult for some voters to do
because of their circumstances.

App. 451
In Arizona counties with precinct-based systems,
voters generally are assigned to precincts near where
they live, and county officials consider access to public
transportation when assigning polling places. (Tr.
1570-73.) Arizona voters also can learn of their
assigned precincts in a variety of ways. (See Ex. 526 at
11-18.)
If precincts or polling places have been altered since
the previous election, registered voters are sent a
mailing informing them of this fact and of where their
new polling places are located. (Tr. 1575-76.) State law
requires that election officials send each household
with a registered voter who is not on the PEVL a
sample ballot at least eleven days prior to election day,
A.R.S. § 16-510(C), which contains instructions and
identifies their polling location. (Doc. 361 ¶ 52.) The
Secretary of State’s Office operates several websites
that make voter-specific polling place information
available and allow the Secretary’s staff to respond
directly to voter inquiries. The Secretary of State’s
Office also mails a publicity pamphlet to voters, which
includes information on how to locate their correct
precincts. This information is provided in English and
Spanish. The Secretary also uses social media, town
halls, and live events (such as county and state fairs) to
register voters and answer questions.
In addition, several Arizona counties, including
Maricopa and Pima Counties, operate online polling
place locators that are available in English and
Spanish. Voters also can learn their assigned polling
locations by calling the office of the county recorder for
the county in which they reside. Counties spread

App. 452
awareness about polling place locations and the
consequences of OOP voting through news and social
media. This information is communicated in both
English and Spanish. Some counties—including the
state’s most populous, Maricopa and Pima—post signs
at polling places informing voters that OOP ballots will
not be counted. (Tr. 1586-88; Ex. 368.) Poll workers
also are trained to direct voters who appear at an
incorrect polling location to their correct polling
location and to notify such voters that their votes will
not be counted if they vote with a provisional ballot at
the wrong location.
The Arizona Citizens Clean Elections Commission
(“CCEC”) operates a website in English and Spanish
that provides a tool for voters to determine their polling
place. The CCEC also engages in advertising to help
educate voters on where to vote. Partisan groups, such
as the ADP and political campaigns, also help educate
voters on how to find their assigned polling places. (Tr.
1575-76.)
In sum, Arizona’s rejection of OOP ballots has no
impact on the vast majority of voters. Although a small
and ever-dwindling subset of voters still vote OOP, how
Arizona treats OOP ballots after they have been cast
does not make it difficult for these voters to find and
travel to their correct precincts. To the extent
Plaintiffs’ claim may properly be considered as an
indirect challenge to Arizona’s strictly enforced
precinct-based system, the burdens imposed on voters
to find and travel to their assigned precincts are
minimal and do not represent significant increases in
the ordinary burdens traditionally associated with

App. 453
voting. Moreover, for those who find it too difficult to
locate their assigned precinct, Arizona offers generous
early mail voting alternatives.14
2. Justifications
Weighing against the minimal burdens imposed by
precinct-based voting are numerous important state
regulatory interests. Precinct-based voting serves an
important planning function for Arizona counties by
helping them estimate the number of voters who may
be expected at any particular precinct, which allows for
better allocation of resources and personnel. In turn,
orderly administration of elections helps to increase
voter confidence in the election system and reduces
wait times. (Tr. 1608-10, 1896-913.) Because elections
involve many different overlapping jurisdictions, the
precinct-based system also ensures that each voter
receives a ballot reflecting only the races for which that
person is entitled to vote. Precincts must be created,
and ballots printed, so that the residential address of
every voter is connected to the correct assortment of
local elected officials. The system thus promotes voting
for local candidates and issues and helps make ballots
less confusing by not providing voters with ballots that
include races for which they are not eligible to vote.
(Ex. 95 at 10; Doc. 361 ¶ 47.)
Indeed, other courts have recognized
numerous and significant advantages:
14

these

If a voter is capable of travelling to an incorrect precinct, she
certainly is capable of mailing an early ballot. Moreover, early mail
voters may drop their ballots off at any polling place, even one to
which they are not assigned.

App. 454
[Precinct-based voting] caps the number of
voters attempting to vote in the same place on
election day; it allows each precinct ballot to list
all of the votes a citizen may cast for all
pertinent federal, state, and local elections,
referenda, initiatives, and levies; it allows each
precinct ballot to list only those votes a citizen
may cast, making ballots less confusing; it
makes it easier for election officials to monitor
votes and prevent election fraud; and it
generally puts polling places in closer proximity
to voter residences.
Sandusky Cty. Democratic Party v. Blackwell, 387 F.3d
565, 569 (6th Cir. 2004).
Plaintiffs do not quarrel with the importance or
legitimacy of these interests or contest that precinctbased voting brings significant advantages. Instead,
they argue that Arizona need not reject OOP ballots in
their entirety to accomplish these goals. Plaintiffs
contend that Arizona can just as easily accomplish
these goals and reap these benefits by partially
counting OOP ballots, accepting votes in races for
which the voter is eligible to vote and rejecting votes in
races for which the voter is not.
Counting OOP ballots is administratively feasible.
Twenty states partially count OOP ballots. (Ex. 94 at
32-33.) These include the neighboring states of
California, Utah, and New Mexico. Cal. Elec. Code
§§ 14310(a)(3), 14310 (c)(3), 15350; Utah Code Ann.
§ 20A-4-107(1)(b)(iii), 2(a)(ii), 2(c); N.M. Stat. Ann § 112-25.4(F); N.M. Admin. Code 1.10.22.9(N). Elections
administrators in these and other states have

App. 455
established processes for counting only the offices for
which the OOP voter is eligible to vote. Some states,
such as New Mexico, use a hand tally procedure,
whereby a team of elections workers reviews each OOP
ballot, determines the precinct in which the voter was
qualified to vote, and marks on a tally sheet for that
precinct the votes cast for each eligible office. See N.M.
Admin Code 1.10.22.9(H)-(N). Other states, such as
California, use a duplication method, whereby a team
of elections workers reviews each OOP ballot,
determines the precinct in which the voter was
qualified to vote, obtains a new paper ballot for the
correct precinct, and duplicates the votes cast on the
OOP ballot onto the ballot for the correct precinct. Only
the offices that appear on both the OOP ballot and the
ballot for the correct precinct are copied. The
duplicated ballot then is scanned through the optical
scan voting machine and electronically tallied. (Tr. 77781.)
Arizona has a similar duplication procedure that it
uses to process certain types of ballots that cannot be
read by an optical scan voting machine, such as ballots
that are damaged, marked with the wrong color pen, or
submitted to the county recorder by a military or
overseas voter via facsimile. (Tr. 1564-66; Ex. 455 at
177-78.) Arizona also uses the duplication procedure to
process some provisional ballots cast by voters who are
eligible to vote in federal elections, but whom Arizona
does not permit to vote in state elections. (Ex. 455 at
187.) This duplication procedure takes about twenty
minutes per ballot. (Tr. 1604-606.)

App. 456
If strict scrutiny applied and Arizona were required
to narrowly tailor its precinct enforcement to achieve
compelling state interests, Plaintiffs’ critiques might
carry more weight. But in light of the minimal burdens
associated with the precinct-based system, Arizona’s
policy need not be the narrowest means of enforcement.
Moreover, Plaintiffs are incorrect that Arizona can
accomplish all of its goals without its strict
enforcement regime. If voters in precinct-based
counties can have their ballots counted for statewide
and countywide races even if they vote in the wrong
precinct, they will have far less incentive to vote in
their assigned precincts and might decide to vote
elsewhere. Other voters might incorrectly believe that
that they can vote at any location and receive the
correct ballot. Voters might also be nefariously directed
to vote elsewhere. North Carolina, for example, has
experienced a problem with “political organizations
intentionally transporting voters to the wrong
precinct.” See N.C. State Conf. of the NAACP v.
McCrory, 182 F. Supp. 3d 320, 461 (M.D.N.C. 2016)
rev’d on other grounds, 831 F.3d 204 (4th Cir. 2016).
This, in turn, would undermine both the ability of
Arizona counties to accurately estimate the number of
voters who may be expected at any particular precinct
and allocate appropriate resources and personnel, and
Arizona’s goal of promoting voting for local candidates.
Consequently, if OOP ballots are partially counted in
Arizona, candidates for local office will have to expend
resources to educate voters on why it nevertheless is
important to vote within their assigned precincts.
Moreover, requiring counties to review all OOP ballots
for any given election and determine the specific

App. 457
contests in which each voter was eligible to vote would
impose a significant financial and administrative
burden on Maricopa and Pima Counties because of
their high populations.
Plaintiffs’ requested relief essentially would
transform Arizona’s precinct-based counties, including
its two most populous, into quasi-vote-center counties.
But the vote-center model is not appropriate for every
jurisdiction. Compared to precinct-based polling places,
it can be difficult for counties to predict the number of
voters at each vote center. Consequently, vote centers
can cause voter wait times to increase, with
corresponding decreases in turnout, due to the
potential for uneven distribution of voters. (Tr. 1607611, 1896-913.) Plaintiffs’ requested relief therefore
would deprive precinct-based counties of the full range
of benefits that correspond with the precinct-based
system.
Precinct-based voting is a quintessential time,
place, and manner election regulation. Arizona’s policy
to not count OOP ballots is one mechanism by which it
enforces and administers this precinct-based system to
ensure that it reaps the full extent of its benefits. This
policy is sufficiently justified in light of the minimal
burdens it imposes. Accordingly, Arizona’s rejection of
OOP ballots does not violate the Fourteenth
Amendment.
VI.

SECTION 2 OF THE VOTING RIGHTS ACT
(RESULTS TEST)

“Inspired to action by the civil rights movement,
Congress responded in 1965 with the Voting Rights

App. 458
Act.” Shelby Cty. v. Holder, 570 U.S. 529, 536 (2013). In
its original form, § 2 of the VRA prohibited all states
from enacting any “standard, practice, or procedure . . .
imposed or applied . . . to deny or abridge the right of
any citizen of the United States to vote on account of
race or color.” Id. (quoting § 2, 79 Stat. 437).
“At the time of passage of the Voting Rights Act of
1965, § 2, unlike other provisions of the Act, did not
provoke significant debate in Congress because it was
viewed largely as a restatement of the Fifteenth
Amendment.” Chisom v. Roemer, 501 U.S. 380, 392
(1991). The Supreme Court took a similar view, holding
in a 1980 plurality opinion that “the language of § 2 no
more than elaborates upon that of the Fifteenth
Amendment,” and therefore § 2 is violated only if a
state enacted the challenged law with the intent to
discriminate on account of race or color. City of Mobile
v. Bolden, 446 U.S. 55, 60-62 (1980) (plurality opinion).
In 1982, in response to the Supreme Court’s opinion
in Bolden, “Congress substantially revised § 2 to make
clear that a violation could be proved by showing
discriminatory effect alone[.]” Thornburg v. Gingles,
478 U.S. 30, 35 (1986). In its current form, § 2 provides:
(a) No voting qualification or prerequisite to
voting or standard, practice, or procedure shall
be imposed or applied by any State or political
subdivision in a manner which results in a
denial or abridgement of the right of any citizen
of the United States to vote on account of race or
color, or in contravention of the guarantees set
forth in section 10303(f)(2) of this title, as
provided in subsection (b).

App. 459
(b) A violation of subsection (a) is established if,
based on the totality of circumstances, it is
shown that the political processes leading to
nomination or election in the State or political
subdivision are not equally open to participation
by members of a class of citizens protected by
subsection (a) in that its members have less
opportunity than other members of the
electorate to participate in the political process
and to elect representatives of their choice.
52 U.S.C. § 10301. To succeed on a § 2 claim, a plaintiff
now may show either that the challenged law was
enacted with the intent to discriminate on account of
race or color, or that “under the totality of the
circumstances, a challenged election law or procedure
ha[s] the effect of denying a protected minority equal
chance to participate in the electoral process.” Gingles,
478 U.S. at 44 n.8. “The essence of a § 2 claim” brought
under the so-called “effects” or “results test” “is that a
certain electoral law, practice, or structure interacts
with social and historical conditions to cause an
inequality in the opportunities enjoyed by [minority
and non-minority] voters to elect their preferred
representatives.” Id. at 47.
When determining whether, under the totality of
the circumstances, a challenged voting practice
interacts with social and historical conditions to cause
inequality in the electoral opportunities of minority
and non-minority voters, courts may consider, as
relevant, the following factors derived from the Senate
Report accompanying the 1982 amendments to the
VRA (“Senate Factors”):

App. 460
1. the extent of any history of official
discrimination in the state or political
subdivision that touched the right of the
members of the minority group to register, to
vote, or otherwise to participate in the
democratic process;
2. the extent to which voting in the elections of
the state or political subdivision is racially
polarized;
3. the extent to which the state or political
subdivision has used unusually large election
districts, majority vote requirements, anti-single
shot provisions, or other voting practices or
procedures that may enhance the opportunity
for discrimination against the minority group;
4. if there is a candidate slating process,
whether the members of the minority group
have been denied access to that process;
5. the extent to which members of the minority
group in the state or political subdivision bear
the effects of discrimination in such areas as
education, employment and health, which
hinder their ability to participate effectively in
the political process;
6. whether political campaigns have been
characterized by overt or subtle racial appeals;
[and]
7. the extent to which members of the minority
group have been elected to public office in the
jurisdiction.

App. 461
Id. at 36-37 (quoting S. Rep. No. 97-417, at 28-29
(1982)). Courts also may consider “whether there is a
significant lack of responsiveness on the part of elected
officials to the particularized needs of the members of
the minority group,” and “whether the policy
underlying the state or political subdivision’s use of
such voting qualification, prerequisite to voting, or
standard, practice or procedure is tenuous.” Id.; see also
Houston Lawyers’ Ass’n v. Attorney Gen. of Tex., 501
U.S. 419, 426-27 (1991) (explaining that courts may
consider a state’s “justification for its electoral
system”). “[T]here is no requirement that any
particular number of factors be proved, or that a
majority of them point one way or the other.” Gingles,
478 U.S. at 45.
Until relatively recently, “Section 2’s use . . . has
primarily been in the context of vote-dilution cases,”
which “‘involve challenges to methods of electing
representatives—like redistricting or at-large
districts—as having the effect of diminishing minorities
voting strength.’” League of Women Voters of N.C. v.
N.C., 769 F.3d 224, 239 (4th Cir. 2014) (quoting Ohio
State Conference of N.A.A.C.P. v. Husted, 768 F.3d 524,
554 (6th Cir. 2014), vacated on other grounds by 2014
WL 10384647 (6th Cir. 2014)). Gingles itself was a vote
dilution case. “While vote-dilution jurisprudence is
well-developed, numerous courts and commentators
have noted that applying Section 2’s ‘results test’ to
vote-denial claims is challenging, and a clear standard
for its application has not been conclusively

App. 462
established.”15 Ohio Democratic Party, 834 F.3d at 636;
see also Veasey v. Abbott, 830 F.3d 216, 243-44 (5th Cir.
2016) (“Although courts have often applied the Gingles
factors to analyze claims of vote dilution . . . there is
little authority on the proper test to determine whether
the right to vote has been denied or abridged on
account of race.”); League of Women Voters, 769 F.3d at
239 (“[T]here is a paucity of appellate case law
evaluating the merits of Section 2 claims in the votedenial context.”); Ohio State Conference, 768 F.3d at
554 (“A clear test for Section 2 vote denial claims . . .
has yet to emerge.”); Simmons v. Galvin, 575 F.3d 24,
41-42 n.24 (1st Cir. 2009) (“‘While Gingles and its
progeny have generated a well-established standard for
vote dilution, a satisfactory test for vote denial cases
under Section 2 has yet to emerge . . . [and] the
Supreme Court’s seminal opinion in Gingles . . . is of
little use in vote denial cases.’” (quoting Daniel P.
Tokaji, The New Vote Denial: Where Election Reform
Meets the Voting Rights Act, 57 S.C. L. Rev. 689, 709
(2006))); Janai S. Nelson, The Causal Context of
Disparate Vote Denial, 54 B.C. L. Rev. 579, 595 (2013)
(“[T]he legal contours of vote denial claims remain
woefully underdeveloped as compared to vote dilution
claims.”). Indeed, some of the Senate Factors cited by
the Gingles Court as relevant to the totality of the
circumstances inquiry do not seem particularly
germane to vote denial claims. Cf. Gingles, 478 U.S. at
45 (“While the enumerated factors will often be
pertinent to certain types of § 2 violations, particularly

15

A “vote denial” claim generally refers “to any claim that is not a
vote dilution claim.” Ohio State Conference, 768 F.3d at 554

App. 463
to vote dilution claims, other factors may also be
relevant and considered.”); see Frank v. Walker, 768
F.3d 744, 752-55 (7th Cir. 2014) (questioning
usefulness of Senate Factors in vote denial claims);
Ohio Democratic Party, 834 F.3d at 638 (explaining
that totality of circumstances inquiry in vote denial
cases is “potentially informed by the ‘Senate Factors’
discussed in Gingles” (emphasis added)).
Several circuit courts that recently have analyzed
vote denial claims have adopted the following two-part
framework based on the text of § 2 and the Supreme
Court’s guidance in Gingles:
First, the challenged standard, practice, or
procedure must impose a discriminatory burden on
members of a protected class, meaning that
members of the protected class have less
opportunity than other members of the electorate to
participate in the political process and to elect
representatives of their choice.
Second, that burden must in part be caused by
or linked to social and historical conditions that
have or currently produce discrimination against
members of the protected class.
League of Women Voters, 769 F.3d at 240 (internal
quotations and citations omitted); see also Veasey, 830
F.3d at 244; Ohio Democratic Party, 834 F.3d at 636;
Frank, 768 F.3d at 754-55 (adopting two-park
framework for sake of argument but expressing
skepticism of the second step “because it does not
distinguish between discrimination by [the state] from
other persons’ discrimination”). The Ninth Circuit

App. 464
likewise endorsed this two-part framework in the
context of this case. Feldman v. Ariz. Sec. of State’s
Office, 840 F.3d 1057, 1070 (9th Cir. 2016); id. at 1091
(Thomas, C.J. dissenting); Feldman, 843 F.3d at 367.
“The first part of this two-prong framework inquires
about the nature of the burden imposed and whether it
creates a disparate effect[.]” Veasey, 830 F.3d at 244.
Drawing on the Supreme Court’s guidance in Gingles,
“[t]he second part . . . provides the requisite causal link
between the burden on voting rights and the fact that
this burden affects minorities disparately because it
interacts with social and historical conditions that have
produced discrimination against minorities currently,
in the past, or both.” Id. That is, “the second step asks
not just whether social and historical conditions ‘result
in’ a disparate impact, but whether the challenged
voting standard or practice causes the discriminatory
impact as it interacts with social and historical
conditions.” Ohio Democratic Party, 834 F.3d at 638
(emphasis in original).
Although proving a violation of § 2 does not
require a showing of discriminatory intent, only
discriminatory results, proof of a causal
connection between the challenged voting
practice and a prohibited result is crucial. Said
otherwise, a § 2 challenge based purely on a
showing of some relevant statistical disparity
between minorities and whites, without any
evidence that the challenged voting qualification
causes that disparity, will be rejected.
Gonzales v. Arizona, 677 F.3d 383, 405 (9th Cir. 2012)
(internal quotations and citations omitted); see also

App. 465
Smith v. Salt River Project Agric. Improvement &
Power Dist., 109 F.3d 586, 595 (9th Cir. 1997).
A close reading of the decisions of courts that
recently have grappled with vote denial claims reveals
two important nuances of the results test. The first
bears on the meaning of “disparity” as it has been used
in vote denial cases. “No state has exactly equal
registration rates, exactly equal turnout rates, and so
on, at every stage of its voting system.” Frank, 768 F.3d
at 754. Perfect racial parity is unlikely to exist in any
aspect of a state’s election system, which is to say it is
unlikely that minorities and non-minorities will be
impacted by laws in perfect proportion to their
representation in the overall voting population. Unless
the VRA is to be interpreted to sweep away all elections
regulations, some degree of disproportionality must be
tolerable.
Therefore, not every disparity between minority and
non-minority voters is cognizable under the VRA.
Rather, to be cognizable the disparity must be
meaningful enough to work “an inequality in the
opportunities enjoyed by [minority as compared to nonminority] voters to elect their preferred
representatives.” Gingles, 478 U.S. at 47; see Gonzales,
677 F.3d at 405 (suggesting that disparity must be
“relevant”). For example, the Seventh Circuit rejected
the notion that:
if whites are 2% more likely to register than
blacks, then the registration system top to
bottom violates § 2; and if white turnout on
election day is 2% higher, then the requirement
of in-person voting violates § 2. Motor-voter

App. 466
registration, which makes it simple for people to
register by checking a box when they get drivers’
licenses, would be invalid, because black and
Latino citizens are less likely to own cars and
therefore less likely to get drivers’ licenses. . . .
Yet it would be implausible to read § 2 as
sweeping away almost all registration and
voting rules. It is better to understand § 2(b) as
an equal-treatment requirement (which is how
it reads) than as an equal-outcome command[.]
Frank, 768 F.3d at 754.
The second nuance bears on the definition of
“impact” or “effect.” To be cognizable, the challenged
voting practice must “impose a discriminatory burden,”
League of Women Voters, 769 F.3d at 240, and not
merely result in a “disproportionate impact,” Salt River
Project, 109 F.3d at 595. Section 2 “does not sweep
away all election rules that result in a disparity in the
convenience of voting.” Lee v. Va. State Bd. of Elections,
843 F.3d 592, 601 (4th Cir. 2016). A contrary
interpretation would require the Court to accept:
an unjustified leap from the disparate
inconveniences that voters face when voting to
the denial or abridgment of the right to vote.
Every decision that a State makes in regulating
its elections will, inevitably, result in somewhat
more inconvenience for some voters than for
others. For example, every polling place will, by
necessity, be located closer to some voters than
to others. To interpret § 2 as prohibiting any
regulation that imposes a disparate
inconvenience would mean that every polling

App. 467
place would need to be precisely located such
that no group had to spend more time traveling
to vote than did any other. Similarly, motorvoter registration would be found to be invalid
[if] members of [a] protected class were less
likely to possess a driver’s license. Yet, courts
have also correctly rejected that hypothetical.
Id.; see also N.E. Ohio Coal. for the Homeless, 837 F.3d
at 628 (“A law cannot disparately impact minority
voters if its impact is insignificant to begin with.”);
Ohio Democratic Party, 834 F.3d at 623 (“[W]hile the
challenged regulation may slightly diminish the
convenience of registration and voting, it applies evenhandedly to all voters, and, despite the change, Ohio
continues to provide generous, reasonable, and
accessible voting options to all Ohioans. The issue is
not whether some voter somewhere would benefit from
six additional days of early voting or from the
opportunity to register and vote at the same time.
Rather, the issue is whether the challenged law results
in a cognizable injury under the Constitution or the
Voting Rights Act.”); Frank, 843 F.3d at 753 (“[U]nless
the State of Wisconsin made it ‘needlessly hard’ to
obtain the requisite photo identification for voting, this
requirement did not result in a ‘denial’ of anything by
Wisconsin, as § 2(a) requires.”); Jacksonville Coal. for
Voter Prot. v. Hood, 351 F. Supp. 2d 1326, 1335 (M.D.
Fla. 2004) (“While it may be true that having to drive
to an early voting site and having to wait in line may
cause people to be inconvenienced, inconvenience does
not result in a denial of ‘meaningful access to the
political process.’” (quoting Osburn v. Cox, 369 F.2d
1283, 1289 (11th Cir. 2004)); Glover v. S.C. Democratic

App. 468
Party, No. C/A 4-04-CV-2171-25, 2004 WL 3262756, at
*6 (D.S.C. Sept. 3, 2004) (“[T]he Court does not find
that difficulty voting equates with a ‘denial or
abridgment’ of the right to vote.”).
With these principles in mind, the Court first will
apply step one of the two-part vote denial framework to
each of the challenged voting practices to determine
whether either disparately burdens minority voters.
The Court then will discuss step two and the Senate
Factors.
A. Step One (Disparate Impact)
1. H.B. 2023
H.B. 2023 is facially neutral. It applies to all
Arizonans regardless of race or color. Plaintiffs
nonetheless allege that H.B. 2023 disparately burdens
Hispanic, Native American, and African American
voters as compared to non-minority voters because
these groups disproportionately rely on others to collect
and return their early ballots. But there are no records
of the numbers of people who, in past elections, have
relied on now-prohibited third parties to collect and
return their early mail ballots, and of this unknown
number Plaintiffs have provided no quantitative or
statistical evidence comparing the proportion that is
minority versus non-minority.
This evidentiary hole presents a practical problem.
Disparate impact analysis is a comparative exercise. To
determine whether a practice disparately impacts
minorities, the Court generally must know
approximately: (1) how many people will be affected by
the practice, and (2) their racial composition. Without

App. 469
this information, it becomes difficult to compare the
law’s impact on different demographic populations and
to determine whether the disparities, if any, are
meaningful. That is, it might be true that minorities
broadly have used ballot collection services more often
than non-minorities, but the discrepancy might be
slight enough that it does not meaningfully deny
minorities an equal opportunity to participate in the
political process and elect their preferred
representatives. See Frank, 768 F.3d at 754.
Indeed, the Court is aware of no vote denial case in
which a § 2 violation has been found without
quantitative evidence measuring the alleged disparate
impact of a challenged law on minority voters. Rather,
the standards developed for analyzing § 2 vote denial
cases suggest that proof of a relevant statistical
disparity might be necessary at step one, even though
it is not alone sufficient to prove a § 2 violation because
of the causation requirement at step two.16 See
Gonzales, 677 F.3d at 405; Veasey, 830 F.3d at 244
(noting that “courts regularly utilize statistical
analyses to discern whether a law has a discriminatory

16

In vote dilution cases the Senate Factors “are sometimes used as
a non-statistical proxy . . . to link disparate impacts to current or
historical conditions of discrimination.” Ohio Democratic Party,
834 F.3d at 637 n.11. But to use the Gingles factors to prove the
existence of a disparity essentially would collapse the step one and
step two inquiries. That is, a plaintiff could simply assume that the
challenged law causes a meaningful disparity between minorities
and non-minorities because of social and historical discrimination
in the state. This perhaps is another illustration of how the
Gingles vote-dilution framework is an imperfect fit for vote denial
claims.

App. 470
impact”). Further, in other contexts courts have
“recognized the necessity of statistical evidence in
disparate impact cases.” Budnick v. Town of Carefree,
518 F.3d 1109, 1118 (9th Cir. 2008) (Fair Housing Act);
Pottenger v. Potlatch Corp., 329 F.3d 740, 749 (9th Cir.
2003) (Age Discrimination in Employment Act); Cooper
v. S. Co., 390 F.3d 695, 716 (11th Cir. 2004), overruled
on other grounds by Ash v. Tyson Foods, Inc., 546 U.S.
454 (2006) (Title VII); Rollins v. Alabama Cmty. Coll.
Sys., No. 2:09-CV-636-WHA, 2010 WL 4269133, at *9
(M.D. Ala. Oct. 25, 2010) (Equal Pay Act); Davis v. City
of Panama City, Fla., 510 F. Supp. 2d 671, 689 (N.D.
Fla. 2007) (Title VII and 42 U.S.C. § 1983).
The Court is not suggesting that quantitative
evidence of a challenged voting practice’s actual effect
is needed in vote denial cases. As Chief Judge Thomas
noted in his dissent during the preliminary appellate
phase of this case, “quantitative evidence of the effect
of a rule on voting behavior is only available after an
election has occurred, at which point the remedial
purpose of the Voting Rights Act is no longer served.”
Feldman, 840 F.3d at 1092 n.5 (Thomas, C.J.
dissenting). But quantitative evidence of the number of
voters who used ballot collection before H.B. 2023’s
enactment, together with similar evidence of those
voters’ demographics, would permit the Court to
reasonably infer how many voters would be affected by
H.B. 2023’s limitations in future elections, and whether

App. 471
those voters disproportionately would be minorities.17
As one commentator has argued:
It can be difficult to document the racial
composition of those who use a voting
opportunity . . . , given that election and other
public records often do not include racial or
ethnic data. There is no getting around this
problem. But given that § 2 forbids the denial or
abridgement of the vote on account of race, it is
reasonable that plaintiffs be required to make a
threshold showing they are disproportionately
burdened by the challenged practice, in the
sense that it eliminates an opportunity they are
more likely to use or imposes a requirement they
are less likely to satisfy.
Daniel P. Tokaji, Applying Section 2 to the New Vote
Denial, 50 Harv. C.R.-C.L. L. Rev. 439, 476 (2015).
The Court is mindful, however, that no court has
explicitly required quantitative evidence to prove a vote
denial claim, and a majority of the en banc Ninth
Circuit panel reviewing the preliminary phase of this
case appears to have rejected such a rule. The Court
therefore does not find against Plaintiffs on this basis.
Rather, the Court finds that Plaintiffs’ circumstantial
and anecdotal evidence is insufficient to establish a
cognizable disparity under § 2.

17

Notably, the trial in this matter occurred after H.B. 2023 had
been in effect for two major elections—the 2016 presidential
preference election and the 2016 general election—yet Plaintiffs
still were unable to produce data on the law’s impact.

App. 472
To overcome the lack of quantification, Plaintiffs
attempt to prove the existence of a meaningful
disparity through two general categories of
circumstantial evidence. First, lawmakers, elections
officials, and community advocates testified that ballot
collection tends to be used more by communities that
lack easy access to secure, outgoing mail services; the
elderly, homebound, and disabled; the poor; those who
lack reliable transportation; those who work multiple
jobs or lack childcare; and less educated voters who are
unfamiliar with or more intimidated by the voting
process. In turn, data shows that these socioeconomic
circumstances are disproportionately reflected in
minority communities. (See Ex. 97 at 57; Tr. 59-60,
416-26, 432-39, 629-35, 895-900.) It stands to reason,
then, that prior to H.B. 2023’s enactment minorities
generally were more likely than non-minorities to give
their early ballots to third parties.
For example, relative to non-minorities, Hispanics
and African Americans are nearly two times more
likely to live in poverty, and the poverty rate for Native
Americans is over three times higher. (Ex. 93 at 15.)
Wages and unemployment rates for Hispanics, African
Americans, and Native Americans consistently have
exceeded non-minority unemployment rates for the
period of 2010 to 2015. (Ex. 91 at 40; Ex. 93 at 15.)
According to the 2015 American Community Survey 1year estimates, unemployment rates were 10.5 percent
for African Americans, 7.7 percent for Hispanics, 16.8
percent for Native Americans, and only 5.6 percent for
non-minorities. In Arizona, 68.9 percent of nonminorities own a home, whereas only 32.3 percent of
African Americans, 49 percent of Hispanics, and 56.1

App. 473
percent of Native Americans do so. (Ex. 93 at 15, 17;
Ex. 98 at 33.)
Non-minorities remain more likely than Hispanics,
Native Americans, and African Americans to graduate
from high school, and are nearly three times more
likely to have a bachelor’s degree than Hispanics and
Native Americans. Additionally, in a recent survey,
over 22.4 percent of Hispanics and 11.2 percent of
Native Americans rated themselves as speaking
English less than “very well,” as compared to only 1.2
percent of non-minorities. (Ex. 93 at 16.) Due to their
lower levels of literacy and education, minority voters
are more likely to be unaware of certain technical
rules, such as the requirement that early ballots be
received by the county recorder, rather than merely
postmarked, by 7:00 p.m. on Election Day. (Ex. 91 at
38.)
As of 2015, Hispanics, Native Americans, and
African Americans fared worse than non-minorities on
a number of key health indicators. (Ex. 93 at 18.)
Native Americans in particular have much higher rates
of disability than non-minorities, and Arizona counties
with large Native American populations have much
higher rates of residents with ambulatory disabilities.
For example, “17 percent of Native Americans are
disabled in Apache County, 22 percent in Navajo
County, and 30 percent in Coconino County.” Further,
“11 percent [of individuals] have ambulatory difficulties
in Apache County, 13 percent in Navajo County, and 12
percent in Coconino County, all of which contain
significant Native American populations and
reservations.” (Ex. 97 at 60.)

App. 474
Hispanics, Native Americans, and African
Americans also are significantly less likely than nonminorities to own a vehicle, more likely to rely upon
public transportation, more likely to have inflexible
work schedules, and more likely to rely on income from
hourly wage jobs. (Ex. 93 at 12-18; Ex. 97 at 51-52;
Tameron Dep. 155:5-20; Pstross Dep. 34:11-22.) Ready
access to reliable and secure mail service is nonexistent
in some minority communities. (Ex. 97 at 57; Ex. 98 at
18; Tr. 506.)
These disparities exist in both urban and rural
areas. For example, Representative Charlene
Fernandez described a lack of home mail service in
rural San Luis, a city that is 98 percent Hispanic.
Almost 13,000 residents rely on a post office located
across a major highway. With no mass transit, a
median income of $22,000, and many people not
owning cars, receiving and sending mail in San Luis
can be more difficult than in other communities. (Tr.
40-46.) A surprising number of voters in the Hispanic
community also distrust returning their voted ballot
via mail, particularly in low-income communities
where mail theft is common. Although a lack of
outgoing mail presents a problem for rural minority
voters, unsecure mailboxes are an impediment for
urban minorities who distrust the mail service and
prefer instead to give their ballots to a volunteer. (Tr.
98, 238-39, 896-97, 1170; Healy Dep. 97:18-24; Scharff
Dep. 92:5-17.)
These problems are particularly acute in Arizona’s
Native American communities, in which vehicle
ownership is significantly lower than non-minority

App. 475
Arizonans. (Ex. 91 at 42.) Between one quarter and one
half of all households on Native American reservations
lack access to a vehicle. (Ex. 98 at 16.) Moreover,
according to Dr. Rodden, “the extent to which rural
Native Americans lack mail service is quite striking.”
“[T]he majority of Native Americans in nonmetropolitan Arizona do not have residential mail
service.” “Only 18 percent of Native American
registered voters have home mail delivery. . . . The rate
at which registered voters have home mail service is
over 350 percent higher for non-Hispanic whites than
for Native Americans.” As such, most Native American
registered voters must travel to a town to retrieve their
mail, “[y]et rates of vehicle access are quite low.” (Ex.
97 at 57.) On the Navajo Reservation, most people live
in remote communities, many communities have little
to no vehicle access, and there is no home incoming or
outgoing mail, only post office boxes, sometimes shared
by multiple families. (Tr. 172-75, 297-98.)
There is no home delivery in the Tohono O’odham
Nation, where there are 1,900 post office boxes and
some cluster mail boxes. The postmaster for the Tohono
O’odham Nation anecdotally related to Representative
Fernandez that she observes residents come to the post
office every two or three weeks to get their mail. Due to
the lack of transportation, the condition of the roads,
and health issues, some go to post office only once per
month. (Tr. 52-58, 315-17.)
Thus, “for many Native Americans living in rural
locations, especially on reservations, voting is an
activity that requires the active assistance of friends
and neighbors.” (Ex. 97 at 60.) LeNora Fulton—a

App. 476
member of the Navajo Nation, former representative of
the Fort Defiance Chapter of the Navajo National
Council, member of the Navajo Election Board of
Supervisors, and the Apache County Recorder from
2004 through 2016, where her responsibilities included
overseeing voter registration, early voting and voter
outreach—explained that people in the Navajo Nation
trust non-family members to deliver their early ballots
because “[i]t’s part of the culture. . . . [T]here is a clan
system. They may not be related by blood, but they are
related by clan. Everyone on the Navajo Nation is
related one way or another through the clan system.”
Ballot collection and delivery by those with the means
to travel “was the standard practice with the Apache
County . . . but also with the Nation[.]” “We have many
people that would come into our office in St. Johns that
help individuals that not are not able to get a ballot,
you know, to the office. They would bring it in. And so
it was just a standard practice . . . It was a norm for
us.” According to Fulton, limiting who may collect and
deliver early ballots “would be a huge devastation . . . .
The laws are supposed to be helpful to people, but in
this instance, it’s harmful.” (Tr. 283-85, 300, 322-324.)
The second category of circumstantial evidence
concerns those who tend to offer ballot collection
services. Within the last decade, ballot collection has
become a larger part of the Democratic Party’s GOTV
strategy. The Democratic Party and community
advocacy organizations have focused their ballot
collection efforts on low-efficacy voters, who trend
disproportionately minority. In turn, minorities in
Arizona tend to vote for Democratic candidates. (Ex. 93
at 4-6, 11; Tr. 92, 283, 309, 416-26, 632-33, 659, 902-03,

App. 477
1143, 1191-96, 1200, 1407, 1770-71, 1843-44; Healy
Dep. 28:15-29:13.) Individuals who have collected
ballots in past elections observed that minority voters,
especially Hispanics, were more interested in utilizing
their services. Indeed, Helen Purcell, who served as the
Maricopa County Recorder for 28 years from 1988 to
2016, observed that ballot collection was
disproportionately used by Hispanic voters. (Tr. 417-19,
635, 642, 866, 895-900, 931-32, 1039-40, 1071, 1170.)
In contrast, the Republican Party has not
significantly engaged in ballot collection as a GOTV
strategy. The base of the Republican Party in Arizona
trends non-minority. On average, non-minorities in
Arizona vote 59 percent for Republican candidates, as
compared with 35 percent of Hispanic voters.
Individuals who have collected ballots in past elections
have observed that voters in predominately nonminority areas were not as interested in ballot
collection services. (Tr. 430-31, 898, 1170, 1192, 1408;
Ex. 91 at 31.)
Based on this evidence, the Court finds that prior to
H.B. 2023’s enactment minorities generically were
more likely than non-minorities to return their early
ballots with the assistance of third parties. The Court,
however, cannot speak in more specific or precise terms
than “more” or “less.” Although there are significant
socioeconomic disparities between minorities and nonminorities in Arizona, these disparities are an
imprecise proxy for disparities in ballot collection use.
Plaintiffs do not argue that all or even most
socioeconomically disadvantaged voters use ballot
collection services, nor does the evidence support such

App. 478
a finding. Rather, the anecdotal estimates from
individual ballot collectors indicate that a relatively
small number of voters have used ballot collection
services in past elections. It reasonably follows, then,
that even among socioeconomically disadvantaged
voters, most do not use ballot collection services to vote.
Considering the vast majority of Arizonans, minority
and non-minority alike, vote without the assistance of
third-parties who would not fall within H.B. 2023’s
exceptions, it is unlikely that H.B. 2023’s limitations on
who may collect an early ballot cause a meaningful
inequality in the electoral opportunities of minorities
as compared to non-minorities.
Moreover, H.B. 2023 does not impose burdens
beyond those traditionally associated with voting.
Although, for some voters, ballot collection is a
preferred and more convenient method of voting, H.B.
2023 does not deny minority voters meaningful access
to the political process simply because the law makes
it slightly more difficult or inconvenient for a small, yet
unquantified subset of voters to return their early
ballots. In fact, no individual voter testified that H.B.
2023’s limitations on who may collect an early ballot
would make it significantly more difficult to vote. The
Court therefore finds that Plaintiffs have not carried
their burden at step one of the vote denial framework.
2. OOP Voting
Unlike their H.B. 2023 challenge, Plaintiffs
provided quantitative and statistical evidence of
disparities in OOP voting through the expert testimony
of Dr. Rodden. Because Arizona does not track the
racial demographics of its voters, Dr. Rodden used an

App. 479
open-source software algorithm that he found online to
predict each voter’s race. (Tr. 378-414, 520-24.)
Specifically, Dr. Rodden placed the names of
individuals who cast ballots in particular elections into
Census blocks and tracts, for which racial data is
available from the Census, and then combined that
information with surname data to estimate the race of
each voter. This approach has become common in
academic studies, as well as VRA litigation. Dr. Rodden
added further precision to his estimates by conditioning
them on not just surnames and neighborhood race
statistics, but also on additional information found in
the voter file, such as the individual’s age and party.18
(Ex. 97 at 10-15.)
Dr. Rodden’s analysis is credible and shows that
minorities are over-represented among the small
number of voters casting OOP ballots. For example, in
Maricopa County—which accounts for 61 percent of
Arizona’s population—non-minority voters accounted
for only 56 percent of OOP ballots cast during the 2012
general election, despite casting 70 percent of all in18

Dr. Thornton criticized Dr. Rodden’s analysis of racial disparities
in OOP voting among the smallest minority groups in Arizona’s
smaller counties, but when Dr. Rodden conducted an analysis
addressing Dr. Thornton’s criticisms he reached the same results.
Dr. Thornton also was critical of Dr. Rodden’s analysis because the
application of the algorithm to Arizona voters includes
unidentifiable measurement error. But because there is no
concrete racial data for individual voters, Dr. Rodden has no
means to compare his estimates. Indeed, if such concrete data
existed, there would have been no need for Dr. Rodden’s estimates.
Moreover, as Dr. Rodden explains in his Second Expert Report, his
methods lead to more conservative estimates of disparities, a fact
not challenged by Dr. Thornton. (Ex. 98 at 3, 8-11.)

App. 480
person votes. In contrast, African American and
Hispanic voters made up 10 percent and 15 percent of
in-person voters, but accounted for 13 percent and 26
percent of OOP ballots, respectively. Native American
voters accounted for 1.1 percent of in-person voters,
and 1.3 percent of OOP ballots. Dr. Rodden observed
similar results for Pima County. (Ex. 91 at 52; Ex. 95
at 31-33, 37, 43.)
Similarly, minority voters cast a disproportionate
share of OOP ballots during the 2016 general election.
In Maricopa County, estimated rates of OOP voting
were twice as high for Hispanics, 86 percent higher for
African Americans, and 73 percent higher for Native
Americans than for their non-minority counterparts. In
Pima County, rates of OOP voting were 150 percent
higher for Hispanics, 80 percent higher for African
Americans, and 74 percent higher for Native
Americans than for non-minorities. Moreover, in Pima
County the overall rate of OOP voting was higher, and
the racial disparities larger, in 2016 than in 2014.
Among all counties that reported OOP ballots in the
2016 general election, a little over 1 in every 100
Hispanic voters, 1 in every 100 African-American
voters, and 1 in every 100 Native American voters cast
an OOP ballot. For non-minority voters, the figure was
around 1 in every 200 voters. Racial disparities in OOP
voting were found in all counties except La Paz County,
which has a small minority population. (Ex. 97 at 3, 1921, 28-34.)
Although Dr. Rodden’s race estimation is credible,
his analysis paints an incomplete picture of the
practical impact of OOP voting because the majority of

App. 481
Arizonans successfully vote by mail and therefore are
unaffected by precinct requirements. For example, in
the 2012 general election Arizona voters cast 10,979
OOP ballots out of the 2,323,579 ballots cast statewide,
accounting for 0.47 percent of all votes cast. In
Maricopa County, 1,390,836 total ballots were cast, of
which 7,529 (or 0.54 percent) were rejected for being
cast out of the voter’s assigned precinct. OOP ballots
cast by non-minority voters therefore accounted for
only 0.3 percent of all votes cast in Maricopa County
during the 2012 election, whereas OOP ballots cast by
Hispanic and African American voters accounted only
for approximately 0.14 percent and 0.07 percent,
respectively. These figures dropped substantially in the
2016 general election, during which only 3,970
Arizonans voted OOP out of the 2,661,497 ballots cast
statewide, representing only 0.15 percent of all votes
cast. In Maricopa County, 1,608,875 total ballots were
cast, of which only 2,197 (or 0.14 percent) were cast
OOP. (Tr. 1927-32; Exs. 578-79, 581.)
Considering OOP ballots represent such a small and
ever-decreasing fraction of the overall votes cast in any
given election, OOP ballot rejection has no
meaningfully disparate impact on the opportunities of
minority voters to elect their preferred representatives.
To be clear, the Court is not suggesting that the votes
of individuals who show up at the wrong precinct are
unimportant. But, as a practical matter, the disparity
between the proportion of minorities who vote at the
wrong precinct and the proportion of non-minorities
who vote at the wrong precinct does not result in
minorities having unequal access to the political
process. See Fed. Judicial Ctr., Reference Manual on

App. 482
Scientific Evidence 252 (3d ed. 2011) (discussing
difference between statistical significance and practical
significance). No state has exactly equal rates at every
stage of its voting system, and in the end the vast
majority of all votes in Arizona—cast by minority and
non-minority voters alike—are counted. See Frank, 768
F.3d at 754.
Moreover, Arizona’s policy to not count OOP ballots
is not the cause of the disparities in OOP voting. Dr.
Rodden’s analysis confirms that OOP voting is
concentrated in relatively dense precincts that are
disproportionately populated with renters and those
who move frequently. These groups, in turn, are
disproportionately composed of minorities. (Ex. 97 at
16-18.) Because minority voters in Arizona have
disproportionately higher rates of residential mobility,
they are more likely to need to renew their voter
registration and reeducate themselves about their new
voting locations. (Ex. 91 at 39; Ex. 93 at 17; Ex. 95 at 4,
7-12; Ex. 98 at 33.)
Polling place locations present additional challenges
for Native American voters. For example, Navajo voters
in Northern Apache County lack standard addresses,
and their precinct assignments for state and county
elections are based upon guesswork, leading to
confusion about the voter’s correct polling place.
Additionally, boundaries for purposes of tribal elections
and Apache County precincts are not the same. As a
result, a voter’s polling place for tribal elections often
differs from the voter’s polling place for state and
county elections. Inadequate transportation access also

App. 483
can make travelling to an assigned polling place
difficult. (Ex. 97 at 51-54; Tr. 299-301.)
Plaintiffs, however, do not challenge the manner in
which Arizona counties allocate and assign polling
places or Arizona’s requirement that voters re-register
to vote when they move. Plaintiffs also offered no
evidence of a systemic or pervasive history of minority
voters being given misinformation regarding the
locations of their assigned precincts, while nonminority voters were given correct information. Nor
have they shown that precincts tend to be located in
areas where it would be more difficult for minority
voters to find them, as compared to non-minority
voters. To the contrary, there are many ways for voters
in Arizona to locate their assigned precincts, and state,
county, and local elections officials engage in
substantial informational campaigns and voter
outreach. Plaintiffs, instead, have challenged what
Arizona does with OOP ballots after they have been
cast, which does not cause the observed disparities in
OOP voting.
In sum, Plaintiffs have not carried their burden at
step one of the vote denial framework for two
independent reasons. First, they have not shown that
Arizona’s policy to not count OOP ballots causes
minorities to show up to vote at the wrong precinct at
rates higher than their non-minority counterparts.
Second, given that OOP ballots account for such a
small fraction of votes cast statewide, Plaintiffs have
not shown that the racial disparities in OOP voting are
practically significant enough to work a meaningful
inequality in the opportunities of minority voters as

App. 484
compared to non-minority voters to participate in the
political process and elect their preferred
representatives.
B. Step Two (Senate Factors)
Step two of the results test is informed by the
Senate Factors and asks whether the disparate
burdens imposed by the challenged voting practices are
in part caused by or linked to social and historical
conditions within the state that have or currently
produce discrimination against the affected minorities.
The Court does not need to reach this step because
Plaintiffs have not shown at step one that the
challenged voting practices impose meaningfully
disparate burdens on minority voters as compared to
non-minority voters. Cf. Ohio Democratic Party, 834
F.3d at 638 (“If this first element is met, the second
step comes into play, triggering consideration of the
‘totality of the circumstances,’ potentially informed by
the ‘Senate Factors’ discussed in ‘Gingles.’”).
Nonetheless, to ensure that the record is fully
developed, the Court will address below the evidence
pertinent to the Senate Factors. The Court will not
discuss factors three and four, however, because they
are not germane to the challenged voting practices and
there is insufficient evidence to warrant discussion.
1. R e levant
Histor y
Discrimination

of

O f f icial

Arizona has a history of discrimination against
Native Americans, Hispanics, and African Americans.
Such discrimination began as early as 1912, when
Arizona became a state, and continued into the modern

App. 485
era. In 1975, Arizona’s history of discrimination
resulted in it becoming one of only nine states to be
brought wholly under § 5 of the VRA as a “covered
jurisdiction.” In addition to being covered under § 5, it
was one of only three states to be covered under
§ 4(f)(4) of the Act for Spanish Heritage. (Ex. 89 at 524; Ex. 91 at 2, 24-30; Ex. 521 at 43-45; Doc. 361 ¶ 42.)
When Arizona became a state in 1912, Native
Americans were excluded from voting. Even after
Congress acknowledged that Native Americans were
citizens in 1924, thereby affording them the right to
vote, Arizona’s Constitution continued to deny Native
Americans that right. (Ex. 89 at 17; Ex. 521 at 43.) It
was not until 1948—24 years after federal law allowed
Native Americans to vote—that the Arizona Supreme
Court found the State’s disenfranchisement of Native
Americans was unconstitutional and finally granted
Native Americans the right to vote. (Doc. 361 ¶ 17; Ex.
89 at 17; Ex. 521 at 45.); Harrison v. Laveen, 196 P.2d
456, 463 (Ariz. 1948).
Despite this ruling, Native Americans, as well as
Hispanics and African Americans, continued to face
barriers to participation in the franchise. For example,
in 1912 Arizona enacted an English literacy test for
voting. The test was enacted specifically to limit “the
ignorant Mexican vote,” but it also had the effect of
reducing the ability of African Americans and Native
Americans to register and vote, as registrars applied
the test to these communities as well. Well into the
1960s, white Arizonans challenged minority voters at
the polls by asking them to read and explain literacy

App. 486
cards. (Doc. 361 ¶ 14; Ex. 89 at 14-17; Ex. 521 at 4445.)
In 1970, Congress amended the VRA to enact a
nationwide ban on literacy tests after finding that they
were used to discriminate against voters on account of
their race or ethnicity. In reaching that finding,
Congress cited evidence that showed application of the
literacy test had significantly lowered the participation
rates of minorities. It specifically found that in Arizona
“only two counties out of eight with Spanish surname
populations in excess of 15% showed a voter
registration equal to the state-wide average.” It also
noted that Arizona had a serious deficiency in Native
American voter registrations. Rather than comply with
the VRA and repeal its literacy test, Arizona challenged
the ban, arguing that it could not be enforced to the
extent that it was inconsistent with the State’s literacy
requirement. Even after the Supreme Court upheld
Congress’s ban, Arizona waited an additional two years
to formally repeal its literacy test. (Ex. 89 at 14-18; Ex.
91 at 24); see Or. v. Mitchell, 400 U.S. 112, 118 (1970).
The effects of Arizona’s literacy test were
compounded by the State’s history of discrimination in
the education of its Hispanic, Native American, and
African American citizens. (Doc. 361 ¶¶ 2-4; Ex. 89 at
9-10; Ex. 91 at 5.) From 1912 until the Supreme Court’s
decision in Brown v. Board of Education, 347 U.S. 483
(1954), segregated education was widespread
throughout Arizona and sanctioned by both the courts
and the state legislature. (Ex. 521 at 35-39; Ex. 89 at 912); see also Dameron v. Bayless, 126 P. 273 (Ariz.
1912); Gonzales v. Sheely, 96 F. Supp. 1004, 1008-09

App. 487
(D. Ariz. 1951) (enjoining segregation of Mexican school
children in Maricopa County). In fact, the Tucson
Public Schools only recently reached a consent decree
with the DOJ over its desegregation plan in 2013. (Ex.
91 at 27.) The practice of segregation also extended
beyond schools; it was common place to have
segregated public spaces such as restaurants,
swimming pools, and theaters. (Ex. 89 at 15; Ex. 521 at
34.) Even where schools were not segregated, Arizona
enacted restrictions on bilingual education. As recently
as 2000, Arizona banned bilingual education with the
passage of Proposition 203. (Ex. 89 at 20; Ex. 91 at 47.)
Arizona has a record of failing to provide adequate
funding to teach its non-English speaking students.
This under-funding has taken place despite multiple
court orders instructing Arizona to develop an
adequate funding formula for its programs, including
a 2005 order in which Arizona was held in contempt of
court for refusing to provide adequate funding for its
educational programs. (Ex. 91 at 46-47); Flores v.
Arizona, 405 F. Supp. 2d 1112 (D. Ariz. 2005), vacated,
204 Fed. App’x 580 (9th Cir. 2006). “According to the
Education Law Center’s latest National Report Card
that provided data for 2013, Arizona ranked 47th
among the states in per-student funding for elementary
and secondary education.” (Ex. 91 at 47.)
Along with the State’s hostility to bilingual
education, Maricopa County has sometimes failed to
send properly translated education materials to its
Spanish speaking residents, resulting in confusion and
distrust from Hispanic voters. For example, in 2012,
Maricopa County misprinted the date of the election on

App. 488
over 2,000 Spanish language information cards and
bookmarks, some of which were distributed into the
community. (Ex. 89 at 22; Ex. 91 at 51; Healy Dep.
114:1-22.)
With that said, discrimination against minorities in
Arizona has not been linear. (Ex. 521 at 4.) For
example, Arizona was subject to § 5 preclearance
requirements until 2013. In Shelby, however, the
Supreme Court found the formula used to determine
which states were subject to preclearance requirements
unconstitutional because it was “based on 40–year–old
facts having no logical relation to the present day.” 570
U.S. at 553-54. Moreover, during the time that Arizona
was under preclearance requirements (1975-2013), the
DOJ did not issue any objections to any of its statewide
procedures for registration or voting.
From 1982 to 2002, the DOJ objected to four of
Arizona’s statewide redistricting plans. Arizona acted
to avoid the politics of racially discriminatory
redistricting when, in 2000, the Arizona Independent
Redistricting Commission (“AIRC”) was formed
pursuant to a voter initiative (Proposition 106). The
AIRC is composed of two Republicans, two Democrats,
and an Independent, and it is tasked with redrawing of
legislative and congressional district lines following
each decennial Census. According to its enacting
constitutional provisions, the AIRC considers the
following six criteria when redistricting: (a) equal
population; (b) compactness and contiguousness;
(c) compliance with the Constitution and the VRA;
(d) respect for communities of interest;
(e) incorporation of visible geographic features,

App. 489
including city, town and county boundaries, as well as
undivided census tracts; and (f) creation of competitive
districts where there is no significant detriment to
other goals. (Doc. 361 ¶ 44.) The most recent AIRC set
a goal to pass preclearance with its first submittal to
DOJ. The AIRC did this by ensuring the
competitiveness of legislative and congressional
districts and ensuring that minorities have the
opportunity to elect candidates of their choice. See
Harris v. Ariz. Indep. Redistricting Comm’n,-- U.S. --,
136 S. Ct. 1301, 1308 (2016). The Commission
succeeded, and the DOJ approved Arizona’s new maps
on April 9, 2012 without objection.
In sum, “[d]iscriminatory action has been more
pronounced in some periods of state history than
others . . . [and] each party (not just one party) has led
the charge in discriminating against minorities over
the years.” Sometimes, however, partisan objectives are
the motivating factor in decisions to take actions
detrimental to the voting rights of minorities. “[M]uch
of the discrimination that has been evidenced may well
have in fact been the unintended consequence of a
political culture that simply ignores the needs of
minorities.” (Ex. 90 at 8.) Arizona’s recent history is a
mixed bag of advancements and discriminatory actions.
2. Racially Polarized Voting
Arizona has a history of racially polarized voting,
which continues today. (Ex. 91 at 30-33, 44-45). In the
most recent redistricting cycle, experts for the AIRC
found that at least one congressional district and five
legislative districts clearly exhibited racially polarized
voting. (Ex. 91 at 29-33.) Exit polls for the 2016 general

App. 490
election demonstrate that voting between nonminorities and Hispanics continues to be polarized
along racial lines. (Ex. 91 at 29-33, 44-45; Ex. 92 at 12,
14; Ex. 94 at 4); see also Gonzalez, 677 F.3d at 407.
3. Socioeconomic Effects of Discrimination
Racial disparities between minorities and nonminorities in socioeconomic standing, income,
employment, education, health, housing,
transportation, criminal justice, and electoral
representation have persisted in Arizona. (Ex. 89 at 78, 12, 23; Ex. 91 at 39-43; Ex. 93 at 12-18, 21, 24; Ex. 95
at 4, 9-11; Ex. 97 at 46-52, 56-58; Ex. 98 at 16, 18, 33;
Tameron Dep. 155:5-20; Pstross Dep. 34:11-22; Tr.
506.) Of these, disparities in transportation, housing,
and education are most pertinent to the specific
burdens imposed by the challenged laws.
4. Racial Appeals in Political Campaigns
Arizona’s racially polarized voting has resulted in
racial appeals in campaigns. For example, when Raul
Castro ran for governor in the 1970s, his opponents
urged support for the white candidate because “he
looked like a governor.” In that same election, a
newspaper published a picture of Fidel Castro with a
headline that read “Running for governor of Arizona.”
(Ex. 89 at 19.) In a 2010 bid for State Superintendent
of Public Education, John Huppenthal “ran an
advertisement in which the announcer said that
Huppenthal was ‘one of us.’ The announcer noted that
Huppenthal voted against bilingual education and ‘will
stop La Raza.’” Similarly, when running for governor in
2014, Maricopa County Attorney Andrew Thomas ran

App. 491
an ad describing himself as “the only candidate who
has stopped illegal immigration” while “simultaneously
show[ing] a Mexican flag with a red strikeout line
through it superimposed over the outline of Arizona.”
(Ex. 91 at 44.)
Moreover, racial appeals have been made in the
specific context of legislative efforts to limit ballot
collection. During the legislative hearings on earlier
bills to criminalize ballot collection, Republican
sponsors and proponents expressed beliefs that ballot
collection fraud regularly was occurring but struggled
with the lack of direct evidence substantiating those
beliefs. In 2014, the perceived “evidence” arrived in the
form of a racially charged video created by Maricopa
County Republican Chair A.J. LaFaro (the “LaFaro
Video”) and posted on a blog. (Ex. 121.) The LaFaro
Video showed surveillance footage of a man of apparent
Hispanic heritage appearing to deliver early ballots. It
also contained a narration of “Innuendos of
illegality . . . [and] racially tinged and inaccurate
commentary by . . . LaFaro.” (Ex. 91 at 18 n.40; Ex. 524
at 23-24.) LaFaro’s commentary included statements
that the man was acting to stuff the ballot box; that
LaFaro did not know if the person was an illegal alien,
a dreamer, or citizen, but knew that he was a thug; and
that LaFaro did not follow him out to the parking lot to
take down his tag number because he feared for his
life. The LaFaro Video goes on to tell about ballot
parties where people gather en mass and give their unvoted ballots to operatives of organizations so they can
not only collect them, but also vote them illegally. (Ex.
91 at 18; Ex. 121.)

App. 492
The LaFaro Video did not show any obviously illegal
activity and there is no evidence that the allegations in
the narration were true. Nonetheless, it “became quite
prominent in the debates over H.B. 2023.” (Tr. 1154.)
The LaFaro video also was posted on Facebook and
YouTube, shown at Republican district meetings, and
was incorporated into a television advertisement—
entitled “Do You Need Evidence Terry?”—for Secretary
Reagan when she ran for Secretary of State. (Ex. 91 at
18; Ex. 107.) In the ad, the LaFaro Video plays after a
clip of then-Arizona Attorney General Terry Goddard
stating he would like to see evidence that there has
been ballot collection fraud. While the video is playing,
Secretary Reagan’s narration indicates that the LaFaro
Video answers Goddard’s request for evidence of fraud.
The LaFaro Video, however, merely shows a man of
apparent Hispanic heritage dropping off ballots and not
obviously violating any law.19 (Ex. 107.)
5. Minority
Offices

Representation

in

Public

Notwithstanding racially polarized voting and racial
appeals, the disparity in the number of minority
elected officials in Arizona has declined. Arizona has
been recognized for improvements in the number of
Hispanics and Native Americans registering and
voting, as well as in the overall representation of
19

Notably, LaFaro was not called as a witness in this case,
Defendants do not rely on the LaFaro Video as evidence of fraud,
and, despite the implications of her campaign advertisement,
Secretary Reagan testified in deposition that “I have never accused
anyone collecting ballots as doing fraudulent activities[.]” (Reagan
Dep. 91:2-3.)

App. 493
minority elected officials in the State. (Ex. 521 at 2728.) “Nonwhites make up 25 percent of Arizona’s
elected office holders, compared to 44 percent of the
total population. This gives [Arizona] the 16th best
representation ratio in the country.” (Ex. 524 at 44.)
Nevertheless, Arizona has seen only one Hispanic
and one African American elected to statewide office,
and Arizona has never elected a Native American to
statewide office. No Native American or African
American has been elected to represent Arizona in the
United States House of Representatives. Further, no
Hispanic, Native American, or African American has
ever served as a United States Senator representing
Arizona or as Arizona Attorney General. (Ex. 91 at 45;
Ex. 93 at 19-20; Ex. 89 at 19, 22.)
6. Lack of Responsiveness to Minority
Needs
Plaintiffs’ evidence on this factor, presented through
the analysis and opinions of Dr. Lichtman, is
insufficient to establish a lack of responsiveness on the
part of elected officials to particularized needs of
minority groups. Dr. Lichtman ignored various topics
that are relevant to whether elected officials have
shown responsiveness, and he did not conduct research
on the issues in Arizona when considering this factor.
Notably, the CCEC engages in outreach to various
communities, including the Hispanic and Native
American communities, to increase voter participation.
The CCEC develops an annual voter education plan in
consultation with elections officials and stakeholders,
and the current Chairman of the CCEC is Steve Titla,

App. 494
an enrolled member of the San Carlos Apache Tribe,
who has been particularly vocal in supporting CCEC
outreach to Native Americans.
7. Justifications for Challenged Provisions
Precinct-based voting helps Arizona counties
estimate the number of voters who may be expected at
any particular precinct, allows for better allocation of
resources and personnel, improves orderly
administration of elections, and reduces wait times.
The precinct-based system also ensures that each voter
receives a ballot reflecting only the races for which that
person is entitled to vote, thereby promoting voting for
local candidates and issues and making ballots less
confusing. Arizona’s policy to not count OOP ballots is
one mechanism by which it strictly enforces this system
to ensure that precinct-based counties maximize the
system’s benefits. This justification is not tenuous.
As for H.B. 2023, there is no direct evidence that the
type of ballot collection fraud the law is intended to
prevent or deter has occurred. Although the
justifications for H.B. 2023 are weaker than the
justifications for the State’s OOP ballot policy, Arizona
nonetheless has a constitutionally adequate
justification for the law: to reduce opportunities for
early ballot loss or destruction.
8. Overall Assessment
In sum, of the germane Senate Factors, the Court
finds that some are present in Arizona and others are
not. Plaintiffs have shown that past discrimination in
Arizona has had lingering effects on the socioeconomic
status of racial minorities. But Plaintiffs’ causation

App. 495
theory is too tenuous to support their VRA claim
because, taken to its logical conclusion, virtually any
aspect of a state’s election regime would be suspect as
nearly all costs of voting fall heavier on
socioeconomically disadvantaged voters. Such a loose
approach to causation, which potentially would sweep
away any aspect of a state’s election regime in which
there is not perfect racial parity, is inconsistent with
the Ninth Circuit’s repeated emphasis on the
importance of a “causal connection between the
challenged voting practice and a prohibited
discriminatory result.” Salt River Project, 109 F.3d at
595. For these reasons, the Court concludes that
Plaintiffs have not carried their burden at either step
of the § 2 results test.
VII.

FIFTEENTH
AMENDMENT/§
(INTENTIONAL DISCRIMINATION)

2

Lastly, Plaintiffs contend that H.B. 2023 violates § 2
and the Fifteenth Amendment because it was enacted
with the intent to suppress minority votes. The
Fifteenth Amendment provides that “[t]he right of
citizens of the United States to vote shall not be denied
or abridged by the United States or by any State on
account of race, color, or previous condition of
servitude,” and authorizes Congress to enforce this
mandate “by appropriate legislation.” Section 2 is such
legislation. Although Congress amended the VRA in
1982 to add the results test, § 2 continues to prohibit
intentional discrimination in a manner coextensive
with the Fifteenth Amendment. Consequently, the
standards for both the statutory and the constitutional
claim overlap.

App. 496
The parties agree that the standard for finding
unconstitutional, intentional racial discrimination is
governed by the Supreme Court’s decision in Village of
Arlington Heights v. Metropolitan Housing
Development Corp., 429 U.S. 252 (1977). There, the
Supreme Court explained that “official action will not
be held unconstitutional solely because it results in a
racially disproportionate impact.” Id. at 264-65. Rather,
“[p]roof of racially discriminatory intent or purpose is
required to show a violation” of the Constitution. Id. at
265.
Discriminatory purpose must be “a motivating
factor in the decision,” but it need not be the only
factor. Id. at 265-66. “Determining whether invidious
discriminatory purpose was a motivating factor
demands a sensitive inquiry into such circumstantial
and direct evidence of intent as may be available.” Id.
at 266. “[A]n invidious discriminatory purpose may
often be inferred from the totality of the relevant facts,
including the fact, if it is true, that the law bears more
heavily on one race than another.” Wash. v. Davis, 426
U.S. 229, 242 (1976). “But the ultimate question
remains: did the legislature enact a law ‘because of,’
and not just ‘in spite of,’ its discriminatory effect.” N.C.
St. Conf. of NAACP v. McCrory, 831 F.3d 204, 200 (4th
Cir. 2016) (quoting Pers. Adm’r of Mass. v. Fenney, 442
U.S. 256, 279 (1979)).
To guide this inquiry, the Arlington Heights Court
articulated a non-exhaustive list of factors courts
should consider. These so-called “Arlington Heights
Factors” include: (1) the historical background and
sequence of events leading to enactment;

App. 497
(2) substantive or procedural departures from the
normal legislative process; (3) relevant legislative
history; and (4) whether the law has a disparate impact
on a particular racial group. Arlington Heights, 429
U.S. at 266-68. If “racial discrimination is shown to
have been a ‘substantial’ or ‘motivating’ factor behind
enactment of the law, the burden shifts to the law’s
defenders to demonstrate that the law would have been
enacted without this factor.” Hunter v. Underwood, 471
U.S. 222, 228 (1985). This same framework applies to
§ 2 claims based on allegations of discriminatory
purpose. See Garza v. Cty. of L.A., 918 F.2d 763, 766
(9th Cir. 1990).
Having considered these factors, the Court finds
that H.B. 2023 was not enacted with a racially
discriminatory purpose. Though some individual
legislators and proponents of limitations on ballot
collection harbored partisan motives—perhaps
implicitly informed by racial biases about the
propensity of GOTV volunteers in minority
communities to engage in nefarious activities—the
legislature as a whole enacted H.B. 2023 in spite of
opponents’ concerns about its potential effect on GOTV
efforts in minority communities, not because of that
effect. Despite the lack of direct evidence supporting
their concerns, the majority of H.B. 2023’s proponents
were sincere in their belief that ballot collection
increased the risk of early voting fraud, and that H.B.
2023 was a necessary prophylactic measure to bring
early mail ballot security in line with in-person voting.
Beginning with the historical background, H.B.
2023 emerged in the context of racially polarized

App. 498
voting, increased use of ballot collection as a
Democratic GOTV strategy in low-efficacy minority
communities, and on the heels of several prior efforts
to restrict ballot collection, some of which were
spearheaded by former Arizona State Senator Don
Shooter.20 Due to the high degree of racial polarization
in his district, Shooter was in part motivated by a
desire to eliminate what had become an effective
Democratic GOTV strategy. (Tr. 1061-63, 1200, 168788, 2158-62; Ex. 89 at 24; Ex. 91 at 52-55; Ex. 92 at 210; Ex. 93 at 2; Shooter Dep. at 117:5-16.) Indeed,
Shooter’s 2010 election was close: he won with 53
percent of the total vote, receiving 83 percent of the
non-minority vote but only 20 percent of the Hispanic
vote. (Ex. 94 at 4.)
Shooter’s efforts to limit ballot collection were
marked by unfounded and often farfetched allegations
of ballot collection fraud. (Tr. 1064, 2162, 2194, 2205;
Ex. 3 at 7-8; Ex. 10 at 3-9; Ex. 25 at 22-23; Ex. 91 at 1920; Ex. 123.) Though his allegations were demonstrably
false, they—along with the racially-tinged LaFaro
Video—spurred a larger debate in the legislature about
the security of early mail voting as compared to inperson voting.21 (Tr. 1644, 1687, 2158-59, 2161-62; Ex.
10 at 49-53; Ex. 17 at 15-16; Ex. 23 at 83-84.)

20

Shooter most recently was a member of the Arizona House of
Representatives but served as a state senator during the relevant
time period.
21

Although the video referenced by various proponents of ballot
collection limitations was not always identified as such, it is plain
from their descriptions that they were describing the LaFaro video.

App. 499
Turning to the relevant legislative history,
proponents of H.B. 2023 repeatedly voiced concerns
that mail-in ballots were less secure than in-person
voting, and that ballot collection created opportunities
for fraud. Although no direct evidence of ballot
collection fraud was presented to the legislature or at
trial, Shooter’s allegations and the LaFaro Video were
successful in convincing H.B. 2023’s proponents that
ballot collection presented opportunities for fraud that
did not exist for in-person voting, and these proponents
appear to have been sincere in their beliefs that this
was a potential problem that needed to be addressed.
(Ex. 17 at 11-13, 17-75, 83-84; Ex. 19 at 56-57; Ex. 21
at 11; Ex. 23 at 36; Tr. 1450, 1805, 1822-23.) Notably,
H.B. 2023 found support among some minority officials
and organizations. For example, the measure was
supported by the Arizona Latino Republican
Association for the Tucson Chapter, which expressed
concerns that elderly people in the Latino community
were being taken advantage of by ballot collectors. (Ex.
17 at 71-75.) Likewise, Michael Johnson, an African
American who had served on the Phoenix City Council,
strongly favored H.B 2023 and expressed concern about
stories of ballot collectors misrepresenting themselves
as election workers. (Ex. 17 at 45-50.) Further,
although some Democratic lawmakers accused their
Republican counterparts of harboring partisan or
racially discriminatory motives, this view was not
shared by all of H.B. 2023’s opponents. (Tr. 697.) For
example, Representative Fernandez testified that she
has no reason to believe H.B. 2023 was enacted with
the intent to suppress Hispanic voting. (Tr. 83.)

App. 500
As for departures from the normal legislative
process, Plaintiffs cite two prior efforts to limit ballot
collection as examples of procedural discrepancies.
First, in 2011 Arizona enacted S.B. 1412, which
required any person who delivered more than ten early
ballots to provide a copy of her photo identification to
the receiving elections official. If a ballot collector could
not produce a copy of her photo identification, the
elections official was directed to record the information
from whatever identification that the ballot collector
had available. Within 60 days of each election, the
Secretary of State was to compile a public statewide
report listing the identities and personal information of
all ballot collectors. (Ex. 2 at 16-19; Ex. 91 at 6-7.)
When S.B. 1412 became law, Arizona still was
subject to § 5 preclearance. Accordingly, S.B. 1412
could not go into effect until the law had been
precleared by the DOJ or a federal court. The Arizona
Attorney General submitted the law for preclearance
on April 26, 2011, and on June 27, 2011 the DOJ
precleared all provisions except for the provision
regulating ballot collection. (Ex. 41; Ex. 91 at 6-7.) As
to that provision, the DOJ stated that “the information
sent [wa]s insufficient to enable us to determine that
the proposed changes have neither the purpose nor will
have the effect of denying or abridging the right to vote
on account of race, color, or membership in a language
minority group.” The DOJ asked for more information
and stated that “if no response is received within sixty
days of this request, the Attorney General may object
to the proposed changes.” (Ex. 41.) Rather than respond
to the DOJ’s request for more information, the
Attorney General chose to voluntarily withdraw the

App. 501
ballot collection provision on July 28, 2011, rendering
the law unenforceable. (Ex. 91 at 6-7; Ex. 42.) “Of 773
preclearance submissions this was one of only 6 that
were fully or partially withdrawn in Arizona.” (Ex. 91
at 7.) Arizona formally repealed the law shortly
thereafter. (Ex. 5.)
Second, Republican legislators again tried to restrict
ballot collection in 2013 with the enactment of H.B.
2305, which banned partisan ballot collection and
required other ballot collectors to complete an affidavit
stating that they had returned the ballot. Violation of
the law was a misdemeanor. H.B. 2305 was passed
along nearly straight party lines in the waning hours
of the legislative session. (Ex. 7; Ex. 91 at 7-10.) Shortly
after its enactment, citizen groups organized a
referendum effort and collected more than 140,000
signatures to place H.B. 2305 on the ballot for a
straight up-or-down vote. (Tr. 1071-72; Ex. 91 at 11.)
Had H.B. 2305 been repealed by referendum, the
legislature could not have enacted related legislation
except on a supermajority vote, and only to “further[]
the purposes” of the referendum. Ariz. Const. art. 4, pt.
1, § 1(6)(C), (14). Rather than face a referendum,
Republican legislators again repealed their own
legislation along party lines. The bill’s primary
sponsor, Secretary Reagan (who, at the time, was a
State Senator), admitted that the legislature’s goal was
to break the bill into smaller pieces and reintroduce
individual provisions “a la carte.” (Ex. 91 at 11.)
Although the circumstances surrounding these prior
bills are somewhat suspicious, these departures have
less probative value because they involve different bills

App. 502
passed during different legislative sessions by a
substantially different composition of legislators. See
Burton v. City of Belle Glade, 178 F.3d 1175, 1195
(11th Cir. 1999) (“[W]e fail to see how evidence of . . . a
[city’s] prior refusal to annex [a housing project]
standing alone establishes any intent, let alone a
discriminatory one” for later annexation decision);
Kansas City, Mo. v. Fed. Pac. Elec. Co., 310 F.2d 271,
278 (8th Cir. 1962) (noting the “questionable import
that the rejection of prior bills may have in
determining congressional intent as to subsequently
enacted legislation”).
Plaintiffs also claim that H.B. 2023 represents a
substantive deviation from normal legislative processes
because it differs from these prior bills. But the fact
that different bills from different sponsors and
different legislative sessions did not have the same
substance is not alone surprising, nor is it particularly
probative of discriminatory intent. Moreover, although
Plaintiffs argue that the legislature made H.B. 2023
harsher than previous ballot collection bills by
imposing felony penalties, they ignore that H.B. 2023
in other respects is more lenient than its predecessors
given its broad exceptions for family members,
household members, and caregivers.
Finally, Plaintiffs highlight the law’s impact on
minority voters. As previously noted, ballot collection
was used as a GOTV strategy in mostly low-efficacy
minority communities, though the Court cannot say
how often voters used ballot collection, nor can it
measure the degree or significance of any disparities in
its usage. The legislature was aware that the law could

App. 503
impact GOTV efforts in low-efficacy minority
communities; numerous democratic lawmakers
speaking in opposition to the bill expressed concerns
that it would adversely impact minority GOTV efforts.
(Ex. 17 at 74; Ex. 19 at 17-18, 20, 35-37; Ex. 23 at 8991; Ex. 25 at 27-28.) But this evidence shows only that
the legislature enacted H.B. 2023 in spite of its impact
on minority GOTV efforts, not because of that impact.
Indeed, proponents of the bill seemed to view these
concerns as less significant because of the minimal
burdens associated with returning a mail ballot. (See,
e.g., Ex. 23 at 81-82.)
Based on the totality of the circumstances, Plaintiffs
have not shown that the legislature enacted H.B. 2023
with the intent to suppress minority votes. Rather,
some individual legislators and proponents were
motivated in part by partisan interests. Shooter, for
example, first raised concerns about ballot collection
after winning a close election. In addition to raising
concerns about ballot collectors impersonating election
workers, Johnson complained that ballot collection put
candidates “who don’t have accessibility to large groups
to go out and collect those ballots” at a disadvantage.
Likewise, Richard Hopkins, a proponent of the bill and
a 2014 Republican candidate for the Arizona House of
Representatives, claimed that he lost his election
because of “ballot harvesting.” (Ex. 17 at 17, 45-49.) In
opposing ballot collection restrictions, Democratic
Senator Steve Farley stated “[t]he problem we’re
solving is that one party is better at collecting ballots
than the other one.” (Ex. 25 at 35.)

App. 504
But partisan motives are not necessarily racial in
nature, even though racially polarized voting can
sometimes blur the lines. Importantly, both the
Fifteenth Amendment and § 2 of the VRA—upon which
Plaintiffs’ intentional discrimination claims are
based—address racial discrimination, not partisan
discrimination. That some legislators and proponents
harbored partisan interests, rather than racially
discriminatory motives, is consistent with Arizona’s
history of advancing partisan objectives with the
unintended consequence of ignoring minority interests.
(Ex. 90 at 8.)
Moreover, partisan motives did not permeate the
entire legislative process. Instead, many proponents
acted to advance facially important interests in
bringing early mail ballot security in line with inperson voting security, notwithstanding the lack of
direct evidence that ballot collection fraud was
occurring. Though Plaintiffs might disagree with the
manner in which the legislature chose to address its
concerns about early ballot security, “the propriety of
doing so is perfectly clear,” and the legislature need not
wait until a problem occurs to take proactive steps it
deems appropriate. Crawford, 553 U.S. at 196; see also
Lee, 188 F. Supp. 3d at 609.
The Court therefore finds that the legislature that
enacted H.B. 2023 was not motivated by a desire to
suppress minority voters. The legislature was
motivated by a misinformed belief that ballot collection
fraud was occurring, but a sincere belief that mail-in
ballots lacked adequate prophylactic safeguards as
compared to in-person voting. Some proponents also

App. 505
harbored partisan motives. But, in the end, the
legislature acted in spite of opponents’ concerns that
the law would prohibit an effective GOTV strategy in
low-efficacy minority communities, not because it
intended to suppress those votes.
VIII. CONCLUSION
Plaintiffs have not carried their burden to show that
the challenged election practices severely and
unjustifiably burden voting and associational rights,
disparately impact minority voters such that they have
less opportunity than their non-minority counterparts
to meaningfully participate in the political process, or
that Arizona was motivated by a desire to suppress
minority turnout when it placed limits on who may
collect early mail ballots. Plaintiffs have raised fair
concerns about the wisdom of H.B. 2023 and Arizona’s
treatment of OOP ballots as matters of public policy.
The Court, however, is not charged with secondguessing the prudence of Arizona’s laws. The Court’s
authority extends only to determining whether, in
exercising its constitutional authority to regulate the
times, places, and manner of elections, Arizona has
acted within permissible constitutional and statutory
bounds. In exercising this duty, the Court also is
constrained by decisions of the Supreme Court,
including those standing for the proposition that
legislatures may act prophylactically rather than upon
specific evidence of a documented problem, and those
finding that prevention of voter fraud and preservation
of public confidence in election integrity are important
state interests. See Purcell, 549 U.S. at 4; Crawford,
553 U.S. at 195; Munro, 479 U.S. at 194-95; Eu, 489

App. 506
U.S. at 231. Based on a careful review of the evidence
and governing case law, the Court concludes that the
challenged provisions contravene neither the
Constitution nor the VRA. Therefore,
IT IS ORDERED as follows:
1. Defendants’ oral motion for judgment on partial
findings (Doc. 384) is DENIED as moot.
2. The Court finds in favor of Defendants and
against Plaintiffs on all claims.
3. The Clerk of the Court shall enter judgment
accordingly and terminate this case.
Dated this 10th day of May, 2018.
/s/Douglas L. Rayes
Douglas L. Rayes
United States District Judge

App. 507

APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
NO. CV-16-01065-PHX-DLR
[Filed May 8, 2018]
__________________________
Leslie Feldman, et al.,
)
)
Plaintiffs,
)
)
v.
)
)
Arizona Secretary of State’s )
Office, et al.,
)
)
Defendants.
)
__________________________ )
JUDGMENT IN A CIVIL CASE
Decision by Court. This action came for
consideration before the Court. The issues have been
considered and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that pursuant
to the Court’s Order filed May 8, 2018, judgment is
entered in favor of defendants and against plaintiffs on
all claims. This action is hereby terminated.

App. 508
Brian D. Karth
District Court Executive/Clerk of Court
May 8, 2018
By

s/ A. Duran
Deputy Clerk

App. 509

APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
No. CV-16-01065-PHX-DLR
[Filed May 8, 2018]
________________________________
Democratic National Committee, )
DSCC, and Arizona Democratic
)
Party,
)
)
Plaintiffs,
)
)
v.
)
)
Michele Reagan and Mark
)
Brnovich,
)
)
Defendants.
)
________________________________ )
ORDER
This order addresses a number of evidentiary issues
raised during the bench trial in this matter.
I. Deposition Designations
Upon review of deposition transcripts, the Court
issues the following rulings on Plaintiffs’ and
Defendants’ objections and counter-designations.

App. 510
A. July 14, 2016 Deposition of Sheila Healy
1.

Defendants’ objection to Plaintiffs’
designation from page 5 at line 10,
through page 7 at line 22, on the rule of
completeness is sustained;

2.

Defendants’ objection from page 8, lines 1
through 5, on the issue of relevance is
overruled;

3.

Defendants’ objection from page 9 at line
18, through page 10 at line 7, on the rule
of completeness is sustained;

4.

Defendants’ objection from page 13 at line
10, through page 15 at line 11, on the rule
of completeness is sustained;

5.

Defendants’ objection from page 13 at line
10, through page 15 at line 11, on the
issue of relevance is sustained;

6.

Defendants’ objection from page 17 at line
14, through page 18 at line 14 on the
issue of relevance is overruled;

7.

Defendants’ objection from page 31 at line
18, through page 32 at line 4 on the issue
of relevance is overruled;

8.

Defendants’ objection from page 32 at
lines 5 through 18, on the rule of
completeness is sustained;

App. 511
9.

Defendants’ objection from page 32 at line
25, through page 33 at line 4 on the rule
of completeness is sustained;

10.

Defendants’ objection from page 47 at line
24, through page 48 at line 8 on the rule
of completeness is sustained;

11.

Defendants’ objection from page 50 at line
10, through page 51 at line 5, and from
page 52 at lines 2-8 on the rule of
completeness is sustained;

12.

Defendants’ objection from page 61 at
lines 15 through 22 on the rule of
completeness is sustained;

13.

Defendants’ objection from page 61 at line
23, through page 62 at line 1 on Healy’s
lack of personal knowledge is overruled;

14.

Defendants’ objection from page 64 at
lines 1 through 12 on the issue of legal
conclusions is overruled;

15.

Defendants’ objection from page 64 at
lines 13 through 22 on Healy’s lack of
personal knowledge is sustained;

16.

Defendants’ objection from page 65 at
lines 1 through 3 for lack of foundation
and Healy’s lack of personal knowledge is
overruled;

17.

Defendants’ objection from page 66 at line
22, through page 67 at line 3 on the issue
of legal conclusions is overruled;

App. 512
18.

Defendants’ objection from page 78 at line
12 through page 79 at line 8 on the issue
of relevance is overruled;

19.

Defendants’ objection from page 79 at
lines 11 through 15 on the issue of legal
conclusions is overruled;

20.

Defendants’ objection from page 80 at line
24, through page 81 at line 20 on the
issue of relevance is sustained;

21.

Defendants’ objection from page 82 at line
17, through page 83 at line 6, for Healy’s
lack of personal knowledge is overruled;

22.

Defendants’ objection from page 83 at line
18, through page 87 at line 2, for
foundation and legal conclusions is
sustained;

23.

Defendants’ objection from page 90 at line
7, through page 91 at line 9, and page 91
at lines 10 through 24, for Healy’s lack of
personal knowledge is overruled;

24.

Defendants’ objection from page 95 at line
3, through page 97 at line 3 on the issues
of foundation, relevance, and Healy’s lack
of personal knowledge is overruled;

25.

Defendants’ objection from page 97 at line
18, through page 98 at line 14 on Healy’s
lack of personal knowledge is overruled;

26.

Plaintiffs’ objection to Defendant’s
counter-designation from page 98 at lines

App. 513
15 through 24 on foundation and calls for
speculation are overruled;
27.

Defendants’ objection from page 98 at line
25, through page 99 at line 22, on the
issue of Healy’s lack of personal
knowledge is overruled;

28.

Defendants’ objection from page 102 at
line 24, through page 103 at line 7, on the
issue of legal conclusions is overruled;

29.

Defendants’ objection from page 114 at
line 1, through page 115 at line 4 on
Healy’s lack of personal knowledge is
sustained;

30.

Defendants’ objection to Plaintiffs’
counter-designation on page 90 from lines
2 through 17 on the issue of hearsay is
sustained;

31.

Plaintiffs’ objection on page 63 from lines
1 through 4 on the issue of Healy’s lack of
personal knowledge is overruled;

32.

Defendants’ objection to Plaintiffs’
counter-designation on page 82 at line 17,
through page 83 at line 6 on foundation
and hearsay issues is overruled;

33.

Plaintiffs’ objection from page 70 at line
17, through page 71 at line 14 regarding
calls for impermissible opinion testimony
is overruled;

App. 514
34.

Plaintiffs’ objection on page 77 from line
13 through 16 on Healy’s lack of personal
knowledge, foundation, and attempt to
use for legal conclusion issues is
overruled;

35.

Defendants’ objection to Plaintiffs’
counter-designation from page 82 at line
17, through page 83 at line 6, on
foundation and hearsay issues is
overruled;

36.

Plaintiffs’ objection on page 95 from line
7 through 15 on speculation and improper
legal opinion is overruled;

37.

Defendants’ objection to Plaintiffs’
counter-designation from page 96 at line
13, through page 97 at line 3, and from
page 97 at lines 18 through 24, on
foundation, hearsay, and improper expert
opinion issues is overruled;

38.

Plaintiffs’ objection on page 98 at lines 3
through 14 on the foundation of Healy’s
testimony is overruled.

B. July 7, 2016 Deposition of Randy Parraz
1.

Defendants’ objection from page 4 at line
17, through page 5 at line 3 on the
relevance of Parraz’s testimony is
overruled;

App. 515
2.

Defendants’ objection from page 5 at lines
4 through 7 on the rule of completeness is
sustained;

3.

Defendants’ objection from page 10 at
lines 13 through 23 on the rule of
completeness is sustained;

4.

Defendants’ objection from page 11 at line
24, through page 12 at line 6 on the rule
of completeness is sustained;

5.

Defendants’ objection from page 26 at line
12, through page 57 at line 14 on issues of
relevance and lack of personal knowledge
is overruled;

6.

Defendants’ objection from page 52 at line
12, through page 53 at line 3 on issues of
foundation and lack of personal
knowledge is overruled;

7.

Defendants’ objection from page 57 at line
20, through page 67 at line 24, and from
page 60 at line 23, through page 61 at line
21 on the relevance of Parraz’s testimony
is sustained;

8.

Defendants’ objection from page 73 at line
10, through page 74 at line 25 on the
relevance of Parazz’s testimony is
overruled;

9.

Defendants’ objection from page 76 at line
24, through page 77 at line 1 on the rule
of completeness is sustained;

App. 516
10.

Defendants’ objection from page 88 at
lines 1 through 3, on foundational and
lack of knowledge issues is overruled;

11.

Defendants’ objection from page 90 at line
18, through page 91 at line 19 on the rule
of completeness is sustained;

12.

Defendants’ objection on page 96 from
lines 5 through 18, on the rule of
completeness is sustained;

13.

Defendants’ objection on page 104 from
lines 4 through 10, on the rule of
completeness is sustained;

14.

Defendants’ objection on page 104 at line
4, through page 105 at line 2, on lack of
personal knowledge is overruled;

15.

Defendants’ objection on page 105 from
lines 3 through 25, on the rule of
completeness is sustained;

16.

Defendants’ objection from page 112 at
line 16, through page 113 at line 25, on
the rule of completeness is sustained;

17.

Defendants’ objection on page 117 at lines
16 through 25, on the rule of
completeness is sustained;

18.

Defendants’ objection from page 127 at
line 18, through page 128 at line 10, on
foundation and lack of personal
knowledge issues is overruled;

App. 517
19.

Defendants’ objections to Plaintiffs’
counter-designations from pages 30 at
lines 6 through 13 and from page 30 at
line 17, through page 31 at line 5 are
sustained.

C. May 15, 2017 Deposition of Samantha
Pstross
1.

Defendants’ objection from page 10 at line
20, through page 12 at line 5 on the rule
of completeness is sustained;

2.

Defendants’ objection from page 21 at line
20, through page 22 at line 24 on the rule
of completeness is sustained;

3.

Defendants’ objection from page 23 at line
15, through page 24 at line 19 on the rule
of completeness is sustained;

4.

Defendants’ objections from page 24 at
line 23, through page 25 at line 19
regarding foundation, as well as the issue
of lack of personal knowledge, are both
overruled;

5.

Defendants’ objections from page 25 at
line 24, through page 32 at line 18
regarding foundation, as well as the issue
of lack of personal knowledge, are both
overruled;

6.

Defendants’ objections from page 32 at
line 24, through page 34 at line 22
regarding foundation, lack of personal

App. 518
knowledge, and the rule of completeness,
are all overruled;
7.

Defendants’ objections from page 35 at
line 14, through page 36 at line 9
regarding foundation, lack of personal
knowledge, and the rule of completeness,
are all overruled, but are not admitted for
the truth of the matter asserted;

8.

Defendants’ objections from page 38 at
lines 6 through 18 regarding foundation,
as well as the issue of lack of personal
knowledge, are both sustained;

9.

Defendants’ objections from page 36 at
line 18, through page 38 at line 5
regarding foundation, as well as the issue
of lack of personal knowledge, are both
overruled;

10.

Defendants’ objections from page 40 at
line 10, through page 42 at line 17
regarding foundation, as well as the issue
of lack of personal knowledge, are both
overruled;

11.

Defendants’ objection from page 42 at line
25, through page 45 at line 1 on the rule
of completeness is sustained;

12.

Defendants’ objection from page 48 at line
17, through page 49 at line 12 on the
issue of relevance is overruled;

App. 519
13.

Defendants’ objection from page 51 at line
5, through page 56 at line 4 on the rule of
completeness is sustained;

14.

Defendants’ objections from page 60 at
lines 19 through 24 regarding the rule of
completion, foundation, and lack of
personal knowledge are all sustained;

15.

Defendants’ objections from page 62 at
line 14, through page 64 at line 24
regarding foundation, as well as the issue
of lack of personal knowledge, are both
overruled;

16.

Defendants’ objection from page 66 at
lines 4 through 19 on the rule of
completeness is sustained;

17.

Defendants’ objections from page 66 at
lines 4 through 19 regarding foundation,
as well as the issue of lack of personal
knowledge, are both overruled;

18.

Defendants’ objections from page 70 at
line 20, through page 71 at line 23
regarding foundation, as well as the issue
of lack of personal knowledge, are both
sustained;

19.

Defendants’ objections from page 82 at
lines 10 through 15 regarding foundation,
as well as the issue of lack of personal
knowledge, are both sustained;

App. 520
20.

Defendants’ objections from page 80 at
line 3, through page 82 at line 9 regarding
foundation, as well as the issue of lack of
personal knowledge, are both overruled;

21.

Defendants’ objections from page 82 at
line 16, through page 84 at line 1
regarding foundation, as well as the issue
of lack of personal knowledge, are both
overruled;

22.

Defendants’ objection from page 99 at line
9 through page 100 at line 24 on the rule
of completeness is sustained;

23.

Defendants’ objection from page 102 at
line 15 through page 103 at line 14 on the
rule of completeness is sustained;

24.

Defendants’ objection from page 107 at
line 5, through page 108 at line 25 on the
issue of legal conclusions is overruled;

25.

Plaintiffs’ objection to Defendants’
counter-designations from page 109 at
line 3 to page 114 at line 5, on the issue of
scope is overruled.

D. May 22, 2017 Deposition of Michele Reagan
1.

Defendants’ objection from page 34 at line
25, through page 34 at line 6 on the rule
of completeness is sustained;

2.

Defendants’ objection from page 37 at line
21, through page 38 at line 17 on the rule
of completeness is sustained;

App. 521
3.

Defendants’ objection from page 42 at line
17, through page 43 at line 3 on the issue
of legislative privilege is overruled;

4.

Defendants’ objection from page 46 at line
14, through page 47 at line 14 on the
issue of legislative privilege is overruled;

5.

Defendants’ objection from page 53 at
lines 15 through 19 on the issue of lack of
personal knowledge is overruled;

6.

Defendants’ objection from page 53 at line
24, through page 54 at line 9 regarding
the Plaintiffs’ misstatement of the
contents of a document is overruled;

7.

Defendants’ objection from page 54 at
lines 14 through 24 on the issue of lack of
personal knowledge is overruled;

8.

Defendants’ objection from page 103 at
lines 7 through 14 on the issue of lack of
personal knowledge is overruled;

9.

Defendants’ objection from page 98 at line
22, through page 99 at line 3 on the issue
of personal knowledge is overruled;

10.

Defendants’ objections from page 111 at
line 2, through page 114 at line 11
regarding calls for legal conclusions, as
well as the issue of lack of personal
knowledge, are both overruled.

App. 522
E. June 1, 2017 Deposition of Donald Shooter
1.

Defendants’ objection from page 19 at line
8, through page 20 at line 3, and page 54
at line 10, through page 55 at line 9 is
overruled.

2.

Defendants’ objection from page 40 at line
25, through page 42 at line 8 on the rule
of completeness is sustained;

3.

Defendants’ objection from page 49 at
lines 17 through 25 due to Plaintiffs’
allegedly misstating the content of a bill
amendment is overruled;

4.

Plaintiffs’ objection on page 92 from lines
14 through 23 on the lack of foundation
on Defendant’s counter-designation is
sustained;

5.

Defendants’ objections from page 83 at
line 17 through page 87 at line 4 on the
issues of Shooter’s lack of personal
knowledge and Plaintiff’s alleged calls for
legal conclusion are overruled;

6.

Defendants’ objection from page 117 at
lines 9 through 16 on the issue of
Shooter’s lack of personal knowledge is
overruled;

7.

Plaintiffs’ objection to Defendants’
counter-designation from page 96 at line
22, through page 98 at line 4, and from
page 98 at line 9, through page 99 at line

App. 523
22 on the issues of foundation and
Shooter’s lack of personal knowledge is
sustained;
8.

Plaintiffs’ objection to Defendants’
counter-designation from page 112 at
lines 1 through 17 on the rule of
completeness is sustained.

F. May 4, 2017 Deposition of Eric Spencer
1.

Defendants’ objection from page 8 at line
8, through page 11 at line 1 on the rule of
completeness is sustained;

2.

Defendants’ objection from page 20 at line
20, through page 26 at line 15 on the rule
of completeness is sustained;

3.

Defendants’ objection from page 26 at line
23, through page 27 at line 13 on the rule
of completeness is sustained;

4.

Defendants’ objection from page 62 at line
7, through page 66 at line 13 on the rule
of completeness is sustained;

5.

Defendants’ objections from page 88 at
line 20, through page 90 at line 4 on
relevance, as well as the issue of lack of
personal knowledge, are both overruled;

6.

Defendants’ objection from page 90 at line
16, through page 91 at line 10 on the rule
of completeness is sustained;

App. 524
7.

Defendants’ objection from page 92 at line
25, through page 94 at line 17 on
relevance is sustained;

8.

Defendants’ objection from page 96 at
lines 7 through 14 on relevance is
sustained;

9.

Defendants’ objection from page 98 at line
9, through page 100 at line 18 on
relevance is sustained;

10.

Defendants’ objection from page 102 at
line 4, through page 107 at line 10 on
relevance is overruled.

G. June 13, 2017 Deposition
Stallworth-Pouquette:

of

Robyn

1.

Plaintiffs’ objection to Defendants’
counter-designation from page 28 at line
20, through page 33 at line 1 regarding
scope, as well as the rule of completeness,
are both overruled;

2.

Plaintiffs’ objection to Defendants’
counter-designation from page 35 at line
11, through page 36 at line 18 regarding
scope, as well as the rule of completeness,
are both overruled;

3.

Plaintiffs’ objection to Defendants’
counter-designation from page 38 at line
22, through page 39 at line 25 regarding
scope, as well as the rule of completeness,
are both overruled;

App. 525
4.

Plaintiffs’ objection to Defendants’
counter-designation from page 40 at lines
4 through 10 regarding scope, as well as
the rule of completeness, are both
overruled;

5.

Plaintiffs’ objection to Defendants’
counter-designation from page 41 at line
20, through page 42 at line 24 regarding
scope, as well as the rule of completeness,
are both overruled;

6.

Plaintiffs’ objection to Defendants’
counter-designation from page 43 at lines
4 through 11 regarding scope, as well as
the rule of completeness, are both
overruled;

7.

Plaintiffs’ objection to Defendants’
counter-designation from page 43 at line
18, through page 44 at line 6 regarding
scope, as well as the rule of completeness,
are both overruled;

8.

Plaintiffs’ objection to Defendants’
counter-designation from page 44 at line
10, through page 45 at line 16 regarding
scope, as well as the rule of completeness,
are both overruled;

9.

Plaintiffs’ objection to Defendants’
counter-designation from page 51 at lines
6 through 13 regarding scope, as well as
the rule of completeness, are both
overruled;

App. 526
10.

Plaintiffs’ objection to Defendants’
counter-designation from page 59 at line
3, through page 60 at line 13 regarding
scope, as well as the rule of completeness,
are both overruled;

11.

Plaintiffs’ objection to Defendants’
counter-designation from page 62 at line
10, through page 63 at line 17 regarding
scope, as well as the rule of completeness,
are both overruled;

12.

Plaintiffs’ objection to Defendants’
counter-designation from page 65 at line
9, through page 66 at line 6 regarding
scope, as well as the rule of completeness,
are both overruled;

13.

Plaintiffs’ objection to Defendants’
counter-designation from page 94 at line
11, through page 95 at line 19 regarding
scope, as well as the rule of completeness,
are both overruled;

14.

Plaintiffs’ objection to Defendants’
counter-designation from page 111 at line
24, through page 112 at line 2 regarding
scope, as well as the rule of completeness,
are both overruled;

15.

Plaintiffs’ objection to Defendants’
counter-designation from page 112 at line
4, through page 113 at line 9 regarding
scope, as well as the rule of completeness,
are both overruled;

App. 527
16.

Plaintiffs’ objection to Defendants’
counter-designation from page 125 at line
9, through page 127 at line 15 regarding
scope, as well as the rule of completeness,
are both overruled;

17.

Plaintiffs’ objection to Defendants’
counter-designation from page 131 at line
13, through page 132 at line 8 regarding
scope, as well as the rule of completeness,
are both overruled;

18.

Plaintiffs’ objections to Defendants’
counter-designation from page 31 at line
14, through page 32 at line 1 on the issue
of hearsay, as well as the lack of personal
knowledge, are both sustained;

19.

Plaintiffs’ objection to Defendants’
counter-designation from page 38 at line
22, through page 39 at line 17 on the
issue of hearsay is sustained;

20.

Plaintiffs’ objections to Defendants’
counter-designation from page 42 at lines
8 through 14 on the issues of hearsay,
foundation, and lack of personal
knowledge, are all sustained;

21.

Plaintiffs’ objections to Defendants’
counter-designation from page 42 at lines
19 through 24 regarding foundation, as
well as the issue of lack of personal
knowledge, are both sustained;

App. 528
22.

Plaintiffs’ objection to Defendants’
counter-designation from page 44 at line
10, through page 45 at line 16 on the
issue of hearsay is sustained;

23.

Plaintiffs’ objection to Defendants’
counter-designation from page 51 at lines
6 through 13 on the issue of hearsay is
sustained;

24.

Plaintiffs’ objection to Defendants’
counter-designation from page 59 at line
3, through page 60 at line 13 on the issue
of hearsay is sustained;

25.

Plaintiffs’ objection to Defendants’
counter-designation from page 62 at line
10, through page 63 at line 17 on the
issue of hearsay is sustained;

26.

Plaintiffs’ objection to Defendants’
counter-designation from page 11 at line
24, through page 112 at line 2 on the
issue of hearsay is sustained;

27.

Plaintiffs’ objection to Defendants’
counter-designation from page 112 at
lines 4 through 10 on the issue of hearsay
is sustained;

28.

Plaintiffs’ objection to Defendants’
counter-designation from page 65 at line
9, through page 6 at line 6 on the issue of
hearsay is sustained;

App. 529
29.

Plaintiffs’ objections to Defendants’
counter-designation from page 94 at line
11, through page 95 at line 19 on the
issues of hearsay and lack of foundation
are both sustained;

30.

Plaintiffs’ objection to Defendants’
counter-designation from page 112 at
lines 12 through 15 for lack of foundation
is sustained;

31.

Defendants’ objection from page 23 at
lines 16 through 19 for lack of personal
knowledge is sustained;

32.

Defendants’ objection from page 24 at
lines 1 through 3 for lack of personal
knowledge is overruled;

33.

Defendants’ objection from page 24 at
lines 4 through 5 for lack of personal
knowledge is overruled;

34.

Defendants’ objection from page 27 at
lines 4 through 12 for lack of personal
knowledge is overruled.

H. May 9, 2017 Deposition of Victor Vasquez:
1.

Defendants’ objection from page 15 at line
14, through page 18 at line 13, on the
issue of narrative is overruled;

2.

Defendants’ objection from page 66 at line
22, through page 70 at line 8, on the issue
of relevance is overruled;

App. 530
3.

Defendants’ objections from page 58 at
line 4, through page 59 at line 3, on the
issues of narrative and relevance are both
overruled;

4.

Defendants’ objections from page 69 at
line 23, through page 69 at line 3, on the
issues of narrative and relevance are both
overruled.

I. May 10, 2017 Deposition of Alexis Tameron
1.

Defendants’ objection from page 34 at line
4, through page 35 at line 11, for use of
First Amendment privilege, is overruled;

2.

Defendants’ objections from page 52 at
line 18, through page 53 at line 3,
regarding foundation and lack of personal
knowledge, are both overruled;

3.

Plaintiffs’ objections from page 72 at line
17, through page 75 at line 5, regarding
foundation, hearsay, and impermissible
opinion testimony, are all overruled;

4.

Plaintiffs’ objections from page 82 at line
17, through page 83 at line 2, regarding
foundation, speculation, and hearsay, are
all overruled;

5.

Plaintiffs’ objections from page 83 at line
9 through line 13, regarding foundation,
speculation, and hearsay, are all
overruled;

App. 531
6.

Plaintiffs’ objections from page 83 at line
14 through line 24, regarding foundation
and speculation, are both overruled;

7.

Plaintiffs’ objection from page 83 at line
25, through page 84 at line 2, regarding
foundation, is overruled;

8.

Plaintiffs’ objection to Defendants’
designations from page 88 at line 25,
through page 89 at line 17, regarding
hearsay, is sustained;

9.

Defendants’ objections from page 160 at
line 19, through page 162 at line 7,
regarding foundation, improper opinion,
and calls for legal conclusion, are all
overruled;

10.

Plaintiffs’ objections to Defendants’
designations from page 91 at line 10
through line 18, regarding foundation and
speculation, are both overruled;

11.

Plaintiffs’ objection from page 126 at line
4 through line 6, regarding improper
testimony, is overruled;

12.

Plaintiffs’ objections from page 126 at line
10, through page 127 at line 23, regarding
foundation, speculation, and improper
opinion testimony, are all overruled;

13.

Plaintiffs’ objections from page 133 at line
12 through line 15, regarding form,

App. 532
foundation, speculation, and
conclusion, are all sustained;

legal

14.

Defendants’ objections to Plaintiffs’
counter-designations from page 165 at
line 1 through line 16, regarding improper
foundation, legal conclusion, and the
improper use of opinion testimony, are all
sustained;

15.

Defendant’s objection to Plaintiffs’
counter-designation from page 147 at line
11, to page 148 at line 10, on the issue of
counsel testifying, is sustained;

16.

Defendants’ objection to Plaintiffs’
counter-designation from page 34 at line
4, through page 35 at line 11, for use of
First Amendment privilege, is overruled.

J. June 6, 2017 Deposition of Spencer Scharff:
1. Defendant’s objection from page 17 at line 8
through line 14, on the issue of a statement
from counsel, is sustained.
II. Admission of Exhibits Containing Legislator
Statements
The Court took under advisement the admissibility
of Exhibits 47, 53, 54, 56, 87, and 88, which contain
statements by Representative Michelle Ugenti-Rita,
pending briefing by the parties. Having considering the
parties’ briefs (Docs. 390, 396), the Court finds as
follows:

App. 533
Exhibits 87 and 88 are admitted into evidence.
Defendants’ hearsay objection is overruled.
Representative Ugenti-Rita’s statements made during
the public presentation and discussion at an Arizona
State Bar continuing legal education seminar are
statements of a party opponent. Although she is not a
named party, Representative Ugenti-Rita was the
sponsor of H.B. 2023. For purposes of the issues
associated with the passage of H.B. 2023, she was
exercising the authority of the State. Her relationship
to the State was illustrated by Defendants’ argument
that her testimony should be given more weight than
other evidence on the subject of the discriminatory
intent. (Tr. 2313.) Exhibits 87 and 88 are not hearsay.
Fed. R. Evid. 801(d)(2).
Exhibit 47 is not admitted into evidence.
Defendants’ objection is sustained. An email to
Representative Ugenti-Rita from a reporter asking
several questions, for which there is no evidence she
read and to which she did not respond, is not relevant.
Fed. R. Evid. 401-403.
Exhibit 53 is admitted into evidence. Defendants’
objection is overruled. The email chain between
Representative Ugenti-Rita and General Counsel to the
Secretary of State is relevant as foundation for the
admission of Exhibits 87 and 88. It is evidence that
Representative Ugenti-Rita was acting as if she were a
party to the litigation. Fed. R. Evid. 401.
Exhibit 54 is admitted into evidence. Defendants’
Rule 403 objection is overruled. The probative value of
the email chain between Representative Ugenti-Rita,
legislative staff, and other legislators regarding the

App. 534
scheduling of a stakeholder meeting is not
substantially outweighed by a danger of needlessly
presenting cumulative evidence. Fed. R. Evid. 403.
Exhibit 56 is not admitted into evidence.
Defendants’ relevance objection is sustained. Fed. R.
Evid. 401-403.
III.

Expert Witness Testimony of Drs. Allan
Lichtman and Jonathan Rodden

Defendants move to exclude the following: (1) Dr.
Lichtman’s testimony on legislative intent, (2) Dr.
Lichtman’s testimony on housing discrimination and
socioeconomic disparities; (3) Dr. Rodden’s testimony
on racial disparities in OOP voting, and (4) Dr.
Rodden’s testimony on disparities in home mail access.
(Doc. 356.)
Pursuant to Federal Rule of Evidence 702:
A witness who is qualified as an expert by
knowledge, skill, experience, training, or
education may testify in the form of an
opinion or otherwise if:
(a) the expert’s scientific, technical, or other
specialized knowledge will help the trier of
fact to understand the evidence or to
determine a fact in issue;
(b) the testimony is based on sufficient facts
or data;
(c) the testimony is the product of reliable
principles and methods; and

App. 535
(d) the expert has reliably applied the
principles and methods to the facts of the
case.
Rule 702 requires expert testimony to be both relevant
and reliable. Estate of Barabin v. AstenJohnson, Inc.,
740 F.3d 457, 463 (9th Cir. 2014). Testimony is
relevant if “[t]he evidence . . . logically advance[s] a
material aspect of the party’s case,” Cooper v. Brown,
510 F.3d 870, 942 (9th Cir. 2007), and reliable if it has
“a reliable basis in the knowledge and experience of the
relevant discipline,” Kumho Tire Co., Ltd. v.
Carmichael, 526 U.S. 137, 149 (1999).
When assessing the reliability of expert witness
testimony, the court should consider the nonexhaustive factors identified by the Supreme Court in
Daubert v. Merrell Dow Pharmaceuticals, Inc.:
(1) whether the method “can be (and has been) tested;”
(2) whether the method “has been subjected to peer
review and publication;” (3) the method’s “known or
potential rate of error;” (4) whether there are
“standards controlling the technique’s operation;” and
(5) whether the method has “general acceptance”
within the “relevant scientific community.” 509 U.S.
579, 592-94 (1993). “[T]he test of reliability is ‘flexible,’
and Daubert’s list of specific factors neither necessarily
nor exclusively applies to all experts or in every case.”
Kumho Tire, 526 U.S. at 141.
With that said, “[r]ejection of expert testimony is
the exception rather than the Rule. Daubert did not
work a ‘seachange over federal evidence law,’ and ‘the
trial court’s role as gatekeeper is not intended to serve
as a replacement for the adversary system.’” Rule 702

App. 536
advisory committee note to the 2000 amendment
(quoting United States v. 14.38 Acres of Land Situated
in Leflore Cty., Mississippi, 80 F.3d 1074, 1078 (5th
Cir. 1996)). Instead, “[v]igorous cross-examination,
presentation of contrary evidence, and careful
instruction on the burden of proof are the traditional
and appropriate means of attacking shaky but
admissible evidence.” Daubert, 509 U.S. at 596.
A. Dr. Lichtman
Defendants’ motion to exclude Dr. Lichtman’s
opinions on the ultimate conclusion of legislative intent
is granted. Those ultimate opinions will not be
considered. “Courts routinely exclude as impermissible
expert testimony as to intent, motive, or state of mind.”
Siring v. Or. St. Bd. of Higher Educ. ex rel. E. Or.
Univ., 927 F. Supp. 2d 1069, 1077 (D. Or. 2013). This is
so because:
Expert testimony as to intent, motive, or state of
mind offers no more than the drawing of an
inference from the facts of the case. The [factfinder] is sufficiently capable of drawing its own
inferences regarding intent, motive, or state of
mind from the evidence, and permitting expert
testimony on this subject would be merely
substituting the expert’s judgment for the [factfinder] and would not be helpful[.]
Id.
To the extent Defendants seek to exclude other
aspects of Dr. Lichtman’s testimony, or the information
he curated to form his opinions, the motion is denied.
Though Dr. Lichtman’s ultimate opinions on legislative

App. 537
intent are not helpful, his curation of material facts
surrounding the legislative history and his underlying
research are both helpful and reliable.
Defendants’ motion to exclude Dr. Lichtman’s
testimony about housing discrimination and
socioeconomic disparities is denied. Dr. Lichtman is a
Distinguished Professor of History at American
University in Washington, D.C., where he has been
employed for 42 years. He formerly served as Chair of
the History Department and Associate Dean of the
College of Arts and Sciences at American University.
He received his B.A. in History from Brandeis
University in 1967 and his Ph.D. in History from
Harvard University in 1973, with a specialty in the
mathematical analysis of historical data. Dr.
Lichtman’s areas of expertise include political history,
electoral analysis, and historical and quantitative
methodology. Dr. Lichtman also has worked as a
consultant or expert witness for plaintiffs and
defendants in more than 80 voting and civil rights
cases, and has testified several times on issues of
intentional discrimination and application of Section 2
of the Voting Rights Act (“VRA”) of 1965. The Court
finds that Dr. Lichtman is adequately qualified to opine
on these matters. Defendants’ critiques go to the
weight of Dr. Lichtman’s testimony, not to its
admissibility.
B. Dr. Rodden
Defendants’ motion to exclude Dr. Rodden’s
opinions on racial disparities in OOP voting and
disparities in home mail delivery is denied. Dr. Rodden
is a tenured Professor of Political Science at Stanford

App. 538
University and the founder and director of the Stanford
Spatial Social Science Lab, a center for research and
teaching with a focus on the analysis of geo-spatial
data in the social sciences. Prior to joining the Stanford
faculty, Dr. Rodden was the Ford Professor of Political
Science at the Massachusetts Institute of Technology.
He received his Ph.D. from Yale University and his
B.A. from the University of Michigan, Ann Arbor, both
in political science.
Dr. Rodden has expertise in the use of large data
sets and geographic information systems to analyze
aspects of political representation. He has developed a
national data set of geo-coded precinct-level election
results that has been used extensively in policyoriented research related to redistricting and
representation. He also has worked extensively with
Census data from the United States and other
countries.
Dr. Rodden has published papers on political
geography and representation in a variety of academic
journals and has been featured in popular publications
like the Wall Street Journal, the New York Times, and
Boston Review. Dr. Rodden also has testified as an
expert witness in recent election law cases.
The Court finds Dr. Rodden’s use of a combination
of individual-level and aggregate data analyses to
assess racial disparities in OOP voting, both of which
have been accepted in previous cases analyzing
questions under the VRA, to be helpful and reliable.
Defendants’ criticisms go to weight, not admissibility.

App. 539
Dr. Rodden also employed standard and accepted
methods in his field to analyze the “mailability” of
Arizona’s non-metropolitan counties in order to
estimate the populations that likely would be most
affected by H.B. 2023’s ballot collection restrictions.
Though somewhat imprecise, the Court finds his
method of analysis to be generally reliable and based
on sufficient data given the circumstances, though the
Court is mindful of the limitations of his methods.
Defendants’ criticisms again go to weight, not
admissibility.
IT IS ORDERED as follows:
1. The parties’ objections to the admissibility of
various deposition designations are addressed as stated
herein.
2. Plaintiffs’ Exhibits 53, 54, 87, and 88 are
admitted into evidence.
3. Plaintiffs’ Exhibits 47 and 56 are not admitted
into evidence.
4. Defendants’ motion to exclude Dr. Lichtman’s
expert witness testimony (Doc. 356) is GRANTED IN
PART and DENIED IN PART as explained herein.
5. Defendants’ motion to exclude Dr. Rodden’s
expert witness testimony (Doc. 356) is DENIED as
explained herein.
Dated this 8th day of May, 2018.

App. 540
/s/Douglas L. Rayes
Douglas L. Rayes
United States District Judge

App. 541

APPENDIX F
U.S. Const. amend. XV
§1 The right of citizens of the United States to vote
shall not be denied or abridged by the United
States or by any State on account of race, color,
or previous condition of servitude.
§2 The Congress shall have power to enforce this
article by appropriate legislation.
52 U.S.C. § 10301
(a)

No voting qualification or prerequisite to
voting or standard, practice, or procedure
shall be imposed or applied by any State or
political subdivision in a manner which
results in a denial or abridgement of the
right of any citizen of the United States to
vote on account of race or color, or in
contravention of the guarantees set forth in
section 10303(f)(2) of this title, as provided in
subsection (b).

(b)

A violation of subsection (a) is established if,
based on the totality of circumstances, it is
shown that the political processes leading to
nomination or election in the State or
political subdivision are not equally open to
participation by members of a class of
citizens protected by subsection (a) in that its
members have less opportunity than other
members of the electorate to participate in

App. 542
the political process and to elect
representatives of their choice. The extent to
which members of a protected class have
been elected to office in the State or political
subdivision is one circumstance which may
be considered: Provided, That nothing in this
section establishes a right to have members
of a protected class elected in numbers equal
to their proportion in the population.
Ariz. Rev. Stat. § 16-122. Registration and records
prerequisite to voting
No person shall be permitted to vote unless such
person’s name appears as a qualified elector in both
the general county register and in the precinct
register or list of the precinct and election districts
or proposed election districts in which such person
resides, except as provided in §§ 16-125, 16135 and 16-584.
Ariz. Rev. Stat. § 16-135. Change of residence
from one address to another
A. An elector who is correcting the residence
address shown on the elector’s voter registration
record shall reregister with the new residence
address or correct the voter registration record
as prescribed by this section.
B. An elector who moves from the address at which
he is registered to another address within the
same county and who fails to notify the county
recorder of the change of address before the date
of an election shall be permitted to correct the
voter registration records at the appropriate

App. 543
polling place for the voter’s new address. The
voter shall present a form of identification that
includes the voter’s given name and surname
and the voter’s complete residence address that
is located within the precinct for the voter’s new
residence address. The voter shall affirm in
writing the new residence address and shall be
permitted to vote a provisional ballot.
C. When an elector completes voting a provisional
ballot, the election official shall place the ballot
in an envelope for provisional ballots and shall
deposit the envelope in the ballot box designated
for provisional ballots.
D. Within ten calendar days after a general election
that includes an election for a federal office and
within five business days after any other
election, a provisional ballot shall be compared
to the signature roster for the precinct in which
the voter was listed and if the voter’s signature
does not appear on the signature roster for that
election and if there is no record of that voter
having voted early for that election, the
provisional ballot shall be counted. If the
signature roster or early ballot information
indicates that the person did vote in that
election, the provisional ballot for that person
shall remain unopened and shall not be counted.
E. An elector may also correct the residence
address on the elector’s voter registration record
by requesting the address change on a written
request for an early ballot that is submitted

App. 544
pursuant to § 16-542 and that contains all of the
following:
1. A request to change the voter registration
record.
2. The elector’s new residence address.
3. An affirmation that the information is
true and correct.
4. The elector’s signature.
Ariz. Rev. Stat. § 16-452. Rules; instructions and
procedures manual; approval of manual; field
check and review of systems; violation;
classification
A. After consultation with each county board of
supervisors or other officer in charge of
elections, the secretary of state shall prescribe
rules to achieve and maintain the maximum
degree of correctness, impartiality, uniformity
and efficiency on the procedures for early voting
and voting, and of producing, distributing,
collecting, counting, tabulating and storing
ballots. The secretary of state shall also adopt
rules regarding fax transmittal of unvoted
ballots, ballot requests, voted ballots and other
election materials to and from absent uniformed
and overseas citizens and shall adopt rules
regarding internet receipt of requests for federal
postcard applications prescribed by section 16543.

App. 545
B. The rules shall be prescribed in an official
instructions and procedures manual to be issued
not later than December 31 of each oddnumbered year immediately preceding the
general election. Before its issuance, the manual
shall be approved by the governor and the
attorney general. The secretary of state shall
submit the manual to the governor and the
attorney general not later than October 1 of the
year before each general election.
C. A person who violates any rule adopted
pursuant to this section is guilty of a class 2
misdemeanor.
D. The secretary of state shall provide personnel
who are experts in electronic voting systems and
procedures and in electronic voting system
security to field check and review electronic
voting systems and recommend needed statutory
and procedural changes.
Ariz. Rev. Stat. § 16-584. Qualified elector not on
precinct register; recorder’s certificate; verified
ballot; procedure
A. A qualified elector whose name is not on the
precinct register and who presents a certificate
from the county recorder showing that the
elector is entitled by law to vote in the precinct
shall be entered on the signature roster on the
blank following the last printed name and shall
be given the next consecutive register number,
and the qualified elector shall sign in the space
provided.

App. 546
B. A qualified elector whose name is not on the
precinct register, on presentation of
identification verifying the identity of the elector
that includes the voter’s given name and
surname and the complete residence address
that is verified by the election board to be in the
precinct or on signing an affirmation that states
that the elector is a registered voter in that
jurisdiction and is eligible to vote in that
jurisdiction, shall be allowed to vote a
provisional ballot.
C. If a voter has moved to a new address within the
county and has not notified the county recorder
of the change of address before the date of an
election, the voter shall be permitted to correct
the voting records for purposes of voting in
future elections at the appropriate polling place
for the voter’s new address. The voter shall be
permitted to vote a provisional ballot. The voter
shall present a form of identification that
includes the voter’s given name and surname
and the voter’s complete residence address. The
residence address must be within the precinct in
which the voter is attempting to vote, and the
voter shall affirm in writing that the voter is
registered in that jurisdiction and is eligible to
vote in that jurisdiction.
D. On completion of the ballot, the election official
shall place the ballot in a provisional ballot
envelope and shall deposit the envelope in the
ballot box. Within ten calendar days after a
general election that includes an election for a

App. 547
federal office and within five business days after
any other election or no later than the time at
which challenged early voting ballots are
resolved, the signature shall be compared to the
precinct signature roster of the former precinct
where the voter was registered. If the voter’s
name is not signed on the roster and if there is
no indication that the voter voted an early
ballot, the provisional ballot envelope shall be
opened and the ballot shall be counted. If there
is information showing the person did vote, the
provisional ballot shall remain unopened and
shall not be counted. When provisional ballots
are confirmed for counting, the county recorder
shall use the information supplied on the
provisional ballot envelope to correct the address
record of the voter.
E. When a voter is allowed to vote a provisional
ballot, the elector’s name shall be entered on a
separate signature roster page at the end of the
signature roster. Voters’ names shall be
numbered consecutively beginning with the
number V-1. The elector shall sign in the space
provided. The ballot shall be placed in a separate
envelope, the outside of which shall contain the
precinct name or number, a sworn or attested
statement of the elector that the elector resides
in the precinct, is eligible to vote in the election
and has not previously voted in the election, the
signature of the elector and the voter
registration number of the elector, if available.
The ballot shall be verified for proper
registration of the elector by the county recorder

App. 548
before being counted. The verification shall be
made by the county recorder within ten calendar
days after a general election that includes an
election for a federal office and within five
business days following any other election.
Verified ballots shall be counted by depositing
the ballot in the ballot box and showing on the
records of the election that the elector has voted.
If registration is not verified the ballot shall
remain unopened and shall be retained in the
same manner as voted ballots.
F. For any person who votes a provisional ballot,
the county recorder or other officer in charge of
elections shall provide for a method of notifying
the provisional ballot voter at no cost to the
voter whether the voter’s ballot was verified and
counted and, if not counted, the reason for not
counting the ballot. The notification may be in
the form of notice by mail to the voter,
establishment of a toll free telephone number,
internet access or other similar method to allow
the voter to have access to this information. The
method of notification shall provide reasonable
restrictions that are designed to limit
transmittal of the information only to the voter.
Ariz. Rev. Stat. § 16-1005 (H)-(I). Ballot abuse;
violation; classification
H. A person who knowingly collects voted or
unvoted early ballots from another person is
guilty of a class 6 felony. An election official, a
United States postal service worker or any other
person who is allowed by law to transmit United

App. 549
States mail is deemed not to have collected an
early ballot if the official, worker or other person
is engaged in official duties.
I. Subsection H of this section does not apply to:
1. An election held by a special taxing district
formed pursuant to title 48 for the purpose of
protecting or providing services to
agricultural lands or crops and that is
authorized to conduct elections pursuant to
title 48.
2. A family member, household member or
caregiver of the voter. For the purposes of
this paragraph:
a. “Caregiver” means a person who provides
medical or health care assistance to the
voter in a residence, nursing care
institution, hospice facility, assisted living
center, assisted living facility, assisted
living home, residential care institution,
adult day health care facility or adult
foster care home.
b. “Collects” means to gain possession or
control of an early ballot.
c. “Family member” means a person who is
related to the voter by blood, marriage,
adoption or legal guardianship.
d. “Household member” means a person who
resides at the same residence as the
voter.

App. 550

APPENDIX G
No. 18-15845
Oral Argument Calendared For The Week Of
March 25, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DEMOCRATIC NATIONAL COMMITTEE, et al.,
Plaintiffs-Appellants
v.
KATIE HOBBS, et al.,
Defendants-Appellees,
ARIZONA REPUBLICAN PARTY, et al.,
Intervenor-Defendants-Appellees
ON APPEAL FROM THE UNITED STATES
DISTRICT COURT FOR THE DISTRICT OF
ARIZONA
BRIEF FOR THE UNITED STATES AS AMICUS
CURIAE IN SUPPORT OF APPELLEES ON
REHEARING EN BANC AND SUPPORTING
AFFIRMANCE

App. 551
ERIC S. DREIBAND
Assistant Attorney General
JOHN M. GORE
Principal Deputy
Assistant Attorney General
GREGORY B. FRIEL
Deputy Assistant Attorney General
THOMAS E. CHANDLER
ERIN H. FLYNN
Attorneys
Department of Justice
CRD – Appellate Section
Ben Franklin Station
P.O. Box 14403
Washington, D.C. 20044-4403
(202) 307-3192
[Table of Contents and Authorities Omitted in this
Appendix]
INTEREST OF THE UNITED STATES
This case presents important questions regarding
the standards for liability under Section 2 of the Voting
Rights Act (VRA), 52 U.S.C. 10301, in cases challenging
voting practices alleged to result in unequal access to
the ballot box for minority voters (often referred to as
vote denial or abridgement cases). The Department of
Justice is charged with the VRA’s enforcement, 52
U.S.C. 10308(d), and thus has a substantial interest in
how courts construe and apply the statute.

App. 552
STATEMENT OF THE ISSUES
1. Whether Arizona House Bill 2023 (2016) (H.B.
2023), which prohibits individuals who do not fall into
certain categories from collecting completed ballots
from voters, violates the VRA Section 2 results test.
2. Whether Arizona’s longstanding requirement
that in-person, election-day voters cast their ballot in
their assigned precinct violates the VRA Section 2
results test.1
STATEMENT OF THE CASE
1. Challenged Provisions Of Arizona Law
a. Arizona provides voters with multiple options to
cast a ballot, including early voting in person or by
mail and traditional in-person voting on election day.
Arizona voters do not need an excuse to vote early in
person or by mail, Ariz. Rev. Stat. Ann. § 16-541 (2018),
and all counties operate at least one in-person early
voting location. E.R. 12.2
Arizona has allowed early voting by mail for more
than 25 years, and it is the most popular method of
voting in the State. In the 2012 general election,
approximately 66% of voters submitted early mail
ballots. In the 2016 general election, 80% of voters

1

2

The United States takes no position on any other issue.

“Doc. __, at __” refers to the docket entry number and relevant
pages of the filings below in Feldman v. Arizona Sec’y of State’s
Office, No. 16-cv-1065 (D. Ariz.). “E.R.” refers to appellants’
Excerpts of Record.

App. 553
submitted early mail ballots. E.R. 12-13, 22. Voters
may request a mail ballot on an election-by-election
basis or may join Arizona’s Permanent Early Voter
List, which ensures that participants automatically
receive a mail ballot no later than the first day of the
27-day early voting period. See Ariz. Rev. Stat. Ann.
§§ 16-542, 16-543, 16-544 (2018); 2007 Ariz. Sess. Laws
183.
In order to be counted, early ballots must be
received by the county recorder by 7 p.m. on election
day. See Ariz. Rev. Stat. Ann. § 16-548(A) (2018).
Voters may return their early ballots by mail postagefree. Voters may also return their early ballots at any
polling place or authorized election official’s office
without waiting in line. Some counties provide
additional drop boxes for early ballots. E.R. 13.
As relevant here, H.B. 2023 makes it a felony for
anyone other than the voter to possess that voter’s
completed early mail ballot, unless the possessor fits
one of the statute’s exceptions. Under those exceptions,
the only third persons permitted to collect and return
a voter’s completed early mail ballot are a caregiver,
family or household member, mail carrier, or election
official. See Ariz. Rev. Stat. Ann. § 16-1005(H)-(I)
(2018).
b. Since “at least 1970,” Arizona has required that
in-person voters cast their ballots at their assigned
polling places in order for their votes to be counted.
E.R. 14. When a voter arrives at a polling place but is
not listed in the precinct register, that voter will
receive a provisional ballot, which election officials will
later review to determine whether it may be counted.

App. 554
See Ariz. Rev. Stat. Ann. §§ 16-122, 16-135, 16-584
(2018). If the voter is registered and resides in the
precinct where the provisional ballot was cast, that
ballot is counted. See Ariz. Rev. Stat. Ann. § 16-584(C)-(E)
(2018). Arizona does not count any portion of a
provisional ballot cast outside of the voter’s correct
precinct. E.R. 14.
Since 2011, Arizona counties may choose whether to
conduct in-person, election-day voting by dividing the
county into different precincts or by using “vote
centers.” 2011 Ariz. Sess. Laws 331, § 3(B)(4). A voter
in a county using vote centers can cast his or her ballot
at any vote center in the county, as each has the
capability to print a ballot that lists the correct races
for each voter. See Ariz. Rev. Stat. Ann. § 16-411
(2018). Some populous counties generally have
continued to use precinct-based, election-day voting.
E.R. 15. Nonetheless, the number of voters affected by
Arizona’s prohibition on out-of-precinct (OOP) voting
has declined in recent elections. In the 2008 general
election, 0.64% of all votes cast were not counted
because they were cast OOP. That figure dropped to
0.47% in the 2012 general election, and to 0.15% in the
2016 general election. E.R. 40.
2. Procedural History
a. Plaintiffs filed this case and sought a
preliminary injunction to enjoin H.B. 2023’s
enforcement and Arizona’s OOP voting restrictions in
time for the 2016 general election. Docs. 72, 84.
Plaintiffs alleged that both practices violated Section 2
of the VRA and the First and Fourteenth Amendments.
They further alleged that the Arizona legislature

App. 555
enacted H.B. 2023 with racially discriminatory intent.
The district court denied preliminary injunctive relief
as to each practice. Doc. 204 (H.B. 2023 claims); Doc.
214 (OOP voting claims).
This Court granted expedited review and a divided
panel affirmed. See Feldman v. Arizona Sec’y of State’s
Office, 840 F.3d 1057 (9th Cir. 2016) (H.B. 2023
claims); Feldman v. Arizona Sec’y of State’s Office, 842
F.3d 613 (9th Cir. 2016) (OOP voting claims). Days
before the 2016 general election, this Court voted to
rehear both appeals en banc and to enjoin enforcement
of H.B. 2023 pending rehearing. The Supreme Court
then stayed this Court’s injunction of H.B. 2023. See
Arizona Sec’y of State’s Office v. Feldman, No. 16A460
(Nov. 5, 2016). Thus, Arizona enforced both H.B. 2023
and the State’s in-precinct voting requirements during
the 2016 elections.
b. After a ten-day bench trial, the district court
rejected each of plaintiffs’ claims. E.R. 1-83. The court
used a two-step framework to analyze plaintiffs’
Section 2 claims. The court stated that plaintiffs first
must show that the challenged practices “impose a
discriminatory burden on members of a protected class,
meaning that members of the protected class have less
opportunity than other members of the electorate to
participate in the political process and to elect
representatives of their choice.” E.R. 53. If they
established such a burden, the court stated that
plaintiffs then must show that “the burden must in
part be caused by or linked to social and historical
conditions that have or currently produce
discrimination against minority voters.” E.R. 53. For

App. 556
both challenged practices, the court held that plaintiffs
could not make the required showing at either step.
With respect to any burden imposed by H.B. 2023,
the court found that “[t]here are no records of the
numbers of voters who, in any given election,
return[ed] their ballots with the assistance of third
parties” before H.B. 2023’s enactment. E.R. 22. Instead,
the court stated that “even under a generous
interpretation of the evidence, the vast majority of
voters who choose to vote early by mail d[id] not return
their ballots with the assistance of a third-party
collector who does not fall within H.B. 2023’s
exceptions.” E.R. 22 (citing testimony that ballot
collectors affiliated with the Arizona Democratic Party
collected “a couple thousand” ballots during the 2014
election). While the court credited circumstantial
evidence that minority voters were “generically more
likely” to use third-party ballot collectors than other
voters, the court explained that plaintiffs had failed to
adduce evidence that would allow for more specific
findings as to how much more likely minority voters
had been than non-minority voters to rely on thirdparty ballot collectors, or what percentage of those
voters could not rely on a person excepted under H.B.
2023 to return their ballot. E.R. 62.
Based on the evidence before it, the court held that
plaintiffs had failed to prove that H.B. 2023 imposes a
discriminatory burden on Hispanic, African-American,
or Native-American voters. E.R. 63. The court
summarized that H.B. 2023 “does not deny minority
voters meaningful access to the political process simply
because the law makes it slightly more difficult or

App. 557
inconvenient for a small, yet unquantified subset of
voters to return their early ballots.” E.R. 63.
With respect to OOP ballots, the court found that
minority voters have been disproportionately likely to
cast an OOP ballot that goes uncounted. E.R. 65. The
court credited expert evidence showing that, among all
counties that reported receiving OOP ballots in the
2016 general election, 1 in every 100 Hispanic voters,
1 in every 100 African-American voters, and 1 in every
100 Native-American voters cast an out-of-precinct
ballot. In contrast, for non-minority voters, “the figure
was around 1 in every 200 voters.” E.R. 64-65. The
court concluded, however, that plaintiffs had not shown
that Arizona’s OOP voting practices impose a
discriminatory burden for two reasons. First, the court
stated that plaintiffs had not shown that “Arizona’s
policy to not count OOP ballots causes minorities to
show up to vote at the wrong precinct at rates higher
than their non-minority counterparts.” E.R. 67. Second,
the court reasoned that, because OOP ballots account
for “such a small fraction of votes cast statewide,”
plaintiffs had not shown a racial disparity in voting
“practically significant enough to work a meaningful
inequality in the opportunities of minority voters” as
compared to other voters. E.R. 67.
c. A divided panel of this Court affirmed.
Democratic Nat’l Comm. (DNC) v. Reagan, 904 F.3d
686 (2018). The majority rejected plaintiffs’ Section 2
results challenge to H.B. 2023 for two principal
reasons. First, the majority reasoned that, because of
the “small number” of voters affected, the
“unavailability of third party ballot collection would

App. 558
have minimal effect on the opportunity of minority
voters to elect representatives of their choice.” Id. at
716. Second, it explained that, even as to “those few
minority voters who used third party ballot collection,”
the burden at issue “was minimal” as “not a single
voter testified at trial that H.B. 2023 made it
significantly more difficult to vote.” Id. at 716-717.
For similar reasons, the majority also rejected
plaintiffs’ challenge to Arizona’s ban on OOP voting.
Specifically, it held that the ban did not violate
Section 2 because the burden of complying with the
requirement was minimal, the number of affected
voters was small, and the requirement did “not cause
any particular group to have less opportunity to
‘influence the outcome of an election.’” DNC, 904 F.3d
at 730 (quoting Chisom v. Roemer, 501 U.S. 380, 397
(1991)).
Chief Judge Thomas dissented. He would have held
that, in addition to violating the First and Fourteenth
Amendments, Arizona’s restrictions on third-party
ballot collection and out-of-precinct voting violate
Section 2. DNC, 904 F.3d at 733-754.
SUMMARY OF THE ARGUMENT
Section 2 prohibits voting practices that, in the
totality of circumstances, result in members of one
racial group having less opportunity, on account of race
or color, to participate in the political process and elect
representatives of their choice. 52 U.S.C. 10301(a) and
(b). On this record, neither H.B. 2023 nor Arizona’s inprecinct voting requirement violates Section 2.

App. 559
Accordingly, this Court should affirm the district
court’s rejection of both Section 2 results claims.
In reaching that conclusion, this Court should
clarify three crucial principles of law. First, the Court
should reaffirm its long-standing precedent that the
VRA does not ban any voting practice merely because
it results in some racial disparity, but only practices
that, when viewed in light of the jurisdiction’s entire
voting scheme, actually result in unequal access to the
political process on account of race or color. Second, the
Court should adopt a legal standard that fully captures
the essential statutory elements and analysis for vote
denial or abridgement claims. Finally, this Court
should clarify that Section 2 liability in this context
does not require that a challenged practice affect a
certain number of voters or change electoral outcomes.
After all, Section 2 protects the right to equal
participation and electoral opportunities, and as the
Supreme Court has explained, “any abridgment of the
opportunity of members of a protected class to
participate in the political process inevitably impairs
their ability to influence the outcome of an election.”
Chisom v. Roemer, 501 U.S. 380, 397 (1991). As
explained more fully below, plaintiffs’ failure to show
any such abridgement warrants affirmance of the
rejection of their Section 2 results claims.

App. 560
ARGUMENT
PLAINTIFFS HAVE NOT SHOWN THAT
EITHER CHALLENGED PRACTICE VIOLATES
SECTION 2 OF THE VRA
A. Section 2 Prohibits Voting Practices That, In The
Totality Of Circumstances, Result In Less
Opportunity, On Account Of Race Or Color, For
Protected Voters To Participate In The Political
Process And Elect Representatives Of Their Choice
1. Section 2 of the VRA imposes a “permanent,
nationwide ban on racial discrimination in voting.”
Shelby Cty. v. Holder, 570 U.S. 529, 557 (2013).
Section 2(a) prohibits jurisdictions from imposing or
applying a “prerequisite to voting” or “standard,
practice, or procedure” that “results in a denial or
abridgement of the right of any citizen of the United
States to vote on account of race or color, or in
contravention of the guarantees set forth in section
10303(f)(2), as provided in [Section 2(b)].” 52 U.S.C.
10301(a); see 52 U.S.C. 10303(f)(2) (applying VRA
protections to language minorities). Section 2(b)
provides that a violation is established if, “based on the
totality of circumstances,” “the political processes
leading to nomination or election in the State or
political subdivision are not equally open to
participation by members of” a racial group, “in that
[they] have less opportunity than other members of the
electorate to participate in the political process and to
elect representatives of their choice.” 52 U.S.C.
10301(b). A voting practice therefore violates Section 2
if, considering the totality of circumstances, it results
in voters having less opportunity, on account of race or

App. 561
color, to participate in the political process and elect
their chosen representatives.
A Section 2 plaintiff need not prove that a voting
rule is intentionally discriminatory. Congress
specifically amended Section 2 in 1982 to reject an
intent requirement and make clear that a statutory
violation can be established by showing a
discriminatory result. See Thornburg v. Gingles, 478
U.S. 30, 34-37, 43-45 (1986); see also S. Rep. No. 417,
97th Cong., 2d Sess. (1982) (Senate Report). As this
Court has long recognized, however, Section 2 liability
cannot rest on mere statistical racial disparities in an
electoral system or correlations between race and
poverty. See Gonzalez v. Arizona, 677 F.3d 383, 405 &
405 n.32 (9th Cir. 2012) (en banc), aff’d sub nom.
Arizona v. Inter Tribal Council of Ariz., Inc., 570 U.S.
1 (2013); Smith v. Salt River Project Agric.
Improvement & Power Dist., 109 F.3d 586, 595 (9th Cir.
1997). The ultimate question Section 2(a) asks, which
Section 2(b) helps courts to answer, is whether a
challenged voting practice denies or abridges
individuals’ right to vote “on account of race or color.”
52 U.S.C. 10301(a). Although a plaintiff need not prove
that the challenged rule’s intended purpose was to
impose racially disparate burdens, the rule must still
result in persons having less opportunity to vote on
account of their race. A contrary reading that allowed
any statistical disparity to invalidate a practice could
call into question countless commonplace, longestablished, race-neutral voting practices, and could
raise constitutional concerns. Cf. Texas Dep’t of Hous.
& Cmty. Affairs v. Inclusive Cmtys. Project, Inc., 135
S. Ct. 2507, 2522 (2015).

App. 562
Rather, as the Supreme Court has explained, the
“essence” of a Section 2 results claim is that a
challenged practice “interacts with social and historical
conditions” attributable to race discrimination “to cause
an inequality in the opportunities enjoyed by [minority]
and white voters.” Gingles, 478 U.S. at 47; see Senate
Report 27-30 & nn.109-120. A finding of a Section 2
violation thus requires a “peculiarly” fact-based inquiry
into the “design and impact of the contested electoral
mechanism[]” in light of the jurisdiction’s “past and
present reality.” Gingles, 478 U.S. at 79 (citations
omitted).
2. The Supreme Court has never decided a
Section 2 vote denial or abridgement case on the merits
and, therefore, has never articulated the governing test
for such claims. Most lower courts have applied a twostep framework in this context:
[1]
[T]he challenged standard, practice, or
procedure must impose a discriminatory burden
on members of a protected class, meaning that
members of the protected class have less
opportunity than other members of the
electorate to participate in the political process
and to elect representatives of their choice, [and]
[2]
[T]hat burden must in part be caused by
or linked to social and historical conditions that
have or currently produce discrimination against
members of the protected class.
League of Women Voters of N.C. (LWV) v. North
Carolina, 769 F.3d 224, 240 (4th Cir. 2014); see also,
e.g., Michigan State A. Phillip Randolph Inst. v.

App. 563
Johnson, 833 F.3d 656, 667 n.2 (6th Cir. 2016);
Veasey v. Abbott, 830 F.3d 216, 244 (5th Cir. 2016) (en
banc); cf. Frank v. Walker, 768 F.3d 744, 754-755
(7th Cir. 2014) (Frank I) (applying test “for the sake of
argument”).
The parties litigated, and the district court decided,
this case under this two-step framework. E.R. 52-53.
On appeal, the panel majority applied a modified
version of the two-step test. DNC v. Reagan, 904 F.3d
686, 715 (9th Cir. 2018). If applied too literally, this
test could be troublingly over-inclusive and could
invalidate many commonplace rules of modern election
administration, such as voter registration or precinct
voting. See, e.g., Frank I, 768 F.3d at 753-754. But not
all racially disparate impacts, including those rooted in
socio-economic disparities, will actually result in “less
opportunity” to vote. See Gonzalez, 677 F.3d at 405;
Frank I, 768 F.3d at 753 (“[Section] 2[] does not
condemn a voting practice [merely] because it has a
disparate effect on minorities.”); accord, e.g., Salt River,
109 F.3d at 595; Ortiz v. City of Phila. Office of the City
Comm’rs, 28 F.3d 306, 312-316 (3d Cir. 1994).
Moreover, this two-part test does not precisely capture
the essential elements or scope of analysis that
Section 2’s plain text requires, including the “results
in” and “totality of circumstances” elements. 52 U.S.C.
10301(a) and (b).
a. To violate Section 2, a voting rule or practice
must result in voters of a racial group “hav[ing] less
opportunity than other members of the electorate to
participate in the political process and to elect
representatives of their choice.” 52 U.S.C. 10301(b)

App. 564
(emphasis added). A challenged voting practice results
in “less opportunity” within the meaning of Section 2
when it results in protected voters having unequal
access to “participate in the political process” and “elect
representatives of their choice.” 52 U.S.C. 10301(b);
Chisom, 501 U.S. at 397; see Lee v. Virginia State Bd.
of Elections, 843 F.3d 592, 600-601 (4th Cir. 2016);
LWV, 769 F.3d at 240; Frank I, 768 F.3d at 754-755;
Gonzalez, 677 F.3d at 405; Johnson v. Governor of Fla.,
405 F.3d 1214, 1237-1239 (11th Cir. 2005) (en banc)
(Tjoflat, J., concurring).
A showing of any disproportionate burden, without
more, does not satisfy this element. See Veasey, 830
F.3d at 253-254; Frank I, 768 F.3d at 753; Gonzalez,
677 F.3d at 405. Rather, the burden a challenged rule
imposes on the right to vote thus must be not only
disproportionate, but also material to the voter’s ability
to vote, taking into account the totality of
circumstances. Such a burden exists when members of
a protected class face materially greater difficulty in
complying with the challenged practice than other
voters, and that burden is not sufficiently mitigated by
other voting practices in the jurisdiction. E.g., Lee, 843
F.3d at 600-601; LWV, 769 F.3d at 240; Veasey, 830
F.3d at 254; Frank I, 768 F.3d at 754-755; Gonzalez,
677 F.3d at 405. Plaintiffs may establish that the
burden is “disproportionate” by showing that a
challenged practice is more likely to affect the
protected group (or groups) than other voters, or that
the group has less relative ability to overcome the
burdens that the challenged practice imposes on the
right to vote. And a burden is material if it creates an
impediment to the ability to vote that is not offset by

App. 565
other opportunities to register or vote. See, e.g., Lee,
843 F.3d at 601; compare also Crawford v. Marion Cty.
Election Bd., 553 U.S. 181, 198 (2008) (election rules
that impose “the usual burdens of voting” do not violate
Constitution); Storer v. Brown, 415 U.S. 724, 730
(1974) (“[A]s a practical matter, there must be a
substantial regulation of elections if they are to be fair
and honest and if some other order, rather than chaos,
is to accompany the democratic process.”).
Applying Section 2 by its terms to require plaintiffs
to demonstrate that members of a racial group have
less opportunity to vote—i.e., that the challenged rule
disproportionately and materially burdens their ability
to vote—not only is faithful to the text, but also avoids
improper invalidation of a host of commonplace, longestablished voting practices that Congress could not
have intended to sweep aside. As the Seventh Circuit
reasoned, omitting or misapplying the less-opportunity
requirement would have far-reaching consequences
under Section 2, for “[n]o state has exactly equal
registration rates, exactly equal turnout rates, and so
on, at every stage of its voting system.” Frank I, 768
F.3d at 754. Section 2, however, “does not sweep away
all election rules that result in a disparity in the
convenience of voting.” Lee, 843 F.3d at 601. The
requirement that plaintiffs show “a disproportionate
and material burden” ensures that, consistent with
Section 2's text, the results test prohibits only those
voting practices that actually “result[] in a denial or
abridgement of the right * * * to vote” and “less
opportunity” for “members” of a protected class, and
not every practice that has any racially

App. 566
disproportionate impact or burden. 52 U.S.C. 10301(a),
(b).
b. Section 2(b) also requires courts to evaluate “the
totality of the circumstances” to determine whether or
not the “political processes” in the jurisdiction are
“equally open to participation by members” of a
protected group. 52 U.S.C. 10301(b). Considering all
relevant circumstances is essential to accurately
assessing whether a voting rule results in less
opportunity to vote. Because Section 2 claims must be
analyzed under the “totality of circumstances,” courts
have properly considered the nature and extent of the
burden a challenged practice imposes in light of any
other practices in the jurisdiction that mitigate or
eliminate the alleged burden. See, e.g., DNC, 904 F.3d
at 714 (“If a challenged election practice is not
burdensome or the state offers easily accessible
alternative means of voting, a court can reasonably
conclude that the law does not impair any particular
group’s [electoral] opportunity.”); Lee, 843 F.3d at 601;
Veasey, 830 F.3d at 256. Indeed, it is only through a
fact-intensive examination of a jurisdiction’s electoral
scheme that courts can properly determine that the
challenged practice actually results in an “inequality in
the opportunities enjoyed by [minority] and white
voters.” Gingles, 478 U.S. at 47; see also Gonzalez, 677
F.3d at 405-407.
Considering the totality of circumstances also
enables courts to ensure that any inequality of
opportunity that results from the challenged practice is
“on account of race or color.” 52 U.S.C. 10301(a); see
also 52 U.S.C. 10301(b) (prohibiting practices that

App. 567
result in “less opportunity” for “members” of a
protected group). In practical terms, this showing of
causation requires the plaintiff to prove that the
unequal opportunity flowing from the challenged
practice is attributable to the social, historical, and
political effects of past or present race discrimination.
See Salt River, 109 F.3d at 594-596. Courts frequently
have relied upon the non-exhaustive list of factors often
referred to as the Senate Factors to conduct this
examination. These factors seek to capture the extent
of racial politics and the lingering effects of past and
present race discrimination in the jurisdiction. See
Gingles, 478 U.S. at 44-45; Senate Report 28-29; see
also Gonzalez, 677 F.3d at 405-406; Salt River, 109
F.3d at 594-596 & nn.6-8; Johnson, 405 F.3d at 12381239 (Tjoflat, J., concurring). Each factor’s relevance
will vary with “the kind of rule, practice, or procedure
called into question.” Senate Report 28; see also
Gonzalez, 677 F.3d at 406 (citing Gingles, 478 U.S. at
45, and Senate Report 29).3

3

The factors included in the Senate Report accompanying the 1982
amendments to Section 2 are based upon circumstantial factors
that the Supreme Court identified in White v. Regester, 412 U.S.
755 (1973), and Rogers v. Lodge, 458 U.S. 613 (1982), as potentially
probative of unconstitutional vote dilution. There is thus
considerable overlap between the factors that courts analyze in
addressing whether a Section 2 results violation exists and the
factors that the Supreme Court has identified as permitting a factfinder to infer purposeful discrimination. The Supreme Court has
recognized the Senate Report accompanying the 1982 amendments
as “the authoritative source for legislative intent” about Section 2.
See Gingles, 478 U.S. at 43 n.7.

App. 568
A disproportionate and material burden is not “on
account of race or color” where the impact complained
of is not sufficiently attributable to the on-going effects
of race discrimination, but is instead traceable to some
other factor, such as the promotion of a non-tenuous
state interest. Thus, the “tenuousness” Senate factor
requires courts analyzing Section 2 claims to examine
a jurisdiction’s claimed interest in imposing a
challenged practice and whether the practice actually
advances that interest. See Senate Report 29-30 &
n.117; LULAC, Council No. 4434 v. Clements, 999 F.2d
831, 869-876 (5th Cir. 1993) (en banc) (citing Houston
Lawyers’ Ass’n v. Attorney Gen. of Tex., 501 U.S. 419,
426-428 (1991)). This factor does not cut against a
finding of Section 2 liability where a defendant
jurisdiction merely asserts a substantial interest or
non-tenuous justification for a category of laws, but
instead examines the fit with the specific, actual
provisions of the challenged law or practice. Houston
Lawyers’ Ass’n, 501 U.S. at 426-427 (state interest “is
merely one factor to be considered in evaluating the
‘totality of circumstances’” and “does not automatically,
and in every case, outweigh proof of” a disproportionate
and material burden).
B. The District Court Correctly Concluded That H.B.
2023 And Arizona’s In-Precinct Voting Requirement
Do Not Violate Section 2’s Results Test
Proper application of these standards to the record
here shows that neither challenged practice results in
a disproportionate and material burden on minority
voters under Section 2. Therefore, neither practice
results in minority voters having “less opportunity”

App. 569
than other voters “to participate in the political process
and elect representatives of their choice,” 52 U.S.C.
10301(b), and the Court should affirm dismissal of the
Section 2 results claims.
1. The Record Fails To Establish That H.B. 2023
Imposes A Disproportionate And Material Burden
On Minority Voters
a. There Are Significant Evidentiary Gaps
Regarding The Nature And Extent Of The
Alleged Impact Of H.B. 2023’s Restrictions
Plaintiffs failed to show that H.B. 2023 imposes a
disproportionate and material burden on the right to
vote that results in “less opportunity” for minority
voters within the meaning of Section 2. Indeed,
significant evidentiary gaps regarding the nature and
extent of H.B. 2023’s alleged impact on minority voters
foreclose plaintiffs’ claim.
Plaintiffs did not provide any quantitative evidence
regarding the number or percentage of Arizona voters
who had relied on third-party ballot collectors prior to
H.B. 2023’s passage. Nor did they offer any evidence
quantifying or estimating how many African-American,
Hispanic, or Native-American voters in Arizona
previously had used third-party ballot collectors to
return their ballots. Plaintiffs also failed to present
testimony from any individual minority voter showing
“that H.B. 2023’s limitations on who may collect an
early ballot would make it significantly more difficult
to vote.” E.R. 63. Plaintiffs did not offer any such
evidence even though H.B. 2023 had been in effect for

App. 570
two statewide elections (both the 2016 presidential
primary and general election) prior to trial.
This evidentiary failure is particularly notable
because the organizational plaintiffs in this case should
have been well-positioned to provide such evidence
given their professed reliance on ballot collectors preH.B. 2023. E.R. 16, 22, 62. While not automatically
fatal, these evidentiary gaps are significant as nearly
all successful Section 2 vote denial or abridgement
claims will incorporate some kind of analysis of how
many people are affected by the challenged practice
and whether and to what degree minority voters are
affected more than non-minority voters. See, e.g.,
Veasey, 830 F.3d at 244 (“courts regularly utilize
statistical analyses to discern whether a law has a
discriminatory impact”).
Instead of providing direct evidence of H.B. 2023’s
adverse effect on minority voters, plaintiffs relied on
“two general categories of circumstantial evidence”
regarding racially disparate use of ballot collectors.
E.R. 58. First, plaintiffs offered testimony from
“lawmakers, elections officials, and community
advocates” that ballot collection tended to be used more
by “communities that lack easy access to secure,
outgoing mail services”—namely, “the elderly,
homebound, and disabled; the poor; those who lack
reliable transportation; those who work multiple jobs
or lack childcare; and less educated voters who are
unfamiliar with or more intimidated by the voting
process.” E.R. 58-59. Plaintiffs then offered data
showing that such “socioeconomic circumstances are
disproportionately reflected in minority communities.”

App. 571
E.R. 59. Second, plaintiffs offered evidence showing
that “ballot collection ha[d] become a larger part of the
Democratic Party’s [get-out-the-vote] strategy,” with a
particular focus on minority voters, who “in Arizona
tend to vote for Democratic candidates.” E.R. 62.
The court credited both categories of circumstantial
evidence in finding that “prior to H.B. 2023’s
enactment minorities generally were more likely than
non-minorities to return their early ballots with the
assistance of third parties.” E.R. 62. The court further
found, however, that “[a]lthough there are significant
socioeconomic disparities between minorities and nonminorities in Arizona,” such disparities “are an
imprecise proxy for disparities in ballot collection use.”
E.R. 62-63. Indeed, “anecdotal estimates from
individual ballot collectors indicate that a relatively
small number of voters have used ballot collection
services in past elections” and that “even among
socioeconomically disadvantaged voters, most do not
use ballot collection services.” E.R. 63.
Ultimately, the court found that plaintiffs could not
prove an unlawful burden merely by showing a racial
disparity of an uncertain degree and by showing that
H.B. 2023 “makes it slightly more difficult or
inconvenient for a small, yet unquantified subset of
voters to return their early ballots.” E.R. 63.

App. 572
b. The Only Permissible Conclusion On This
Record Is That H.B. 2023 Does Not Impose A
Disproportionate And Material Burden That
Results In Less Opportunity For Minority
Voters
Assuming the correctness and completeness of the
district court’s factual findings, its holding that
plaintiffs failed to show that H.B. 2023 imposes a
cognizable burden was the only conclusion it could have
reached. Nor could plaintiffs have shown a
“disproportionate and material” burden given: (a) the
weaknesses in their evidence regarding a racial
disparity in the use of third-party ballot collectors; and
(b) the absence of evidence showing that H.B. 2023’s
ban on unlimited third-party ballot collection
materially affects minority voters’ access to the ballot
box, especially where certain excepted third-persons
still can return their completed ballots.
In the first place, plaintiffs failed to prove that any
burden H.B. 2023 imposes on minority voters is
“disproportionate” to the burden it imposes on other
voters. To be sure, plaintiffs are not required as a
matter of law to offer precise quantitative evidence that
a challenged practice—here, a previously available
voting mechanism that now is prohibited—affects a
higher percentage of minority voters in order to show
that the practice imposes a disproportionate and
material burden on such voters. Nor do relatively small
numbers of affected voters automatically preclude
Section 2 liability. But plaintiffs’ evidence of H.B.
2023’s effects on minority voters was insubstantial and
of limited probative value.

App. 573
Arguably the strongest evidence of a racially
disparate impact came from an expert report by Dr.
Jonathan Rodden, who recounted that, outside of
Maricopa and Pima counties, “around 86 percent of
non-Hispanic whites have home mail service,” but “only
80 percent of Hispanics do, and only 18 percent of
Native Americans have such access.” E.R. 8. But the
court reasonably found that “mail access is an
imprecise proxy for determining the number and
demographics of voters who use or rely on ballot
collection services.” E.R. 8. “Simply because a voter
lacks home mail access does not necessarily mean that
she uses or relies on a ballot collector to vote, let alone
a ballot collector who does not fall into one of H.B.
2023’s exceptions.” E.R. 8. Plaintiffs failed to offer
sufficient evidence showing the degree to which
minority communities that lack home mail service
actually relied on ballot collectors who are not excepted
under H.B. 2023.
Nor did plaintiffs offer testimony from a single
minority voter explaining that he or she relied on ballot
collectors because of the lack of home mail service.
Testimony from individual minority voters explaining
how and why H.B. 2023’s restrictions would make it
more difficult for them to vote was not required as a
matter of law. Yet the absence of such testimony may
reasonably cause a court to give less weight to other,
more attenuated evidence regarding the presence and
magnitude of a racially discriminatory impact. See
Gonzalez, 677 F.3d at 406-407 (affirming the district
court’s rejection of a Section 2 challenge where there
was no evidence that the voting practice resulted in
any disparate impact).

App. 574
Plaintiffs’ failure to offer probative evidence
regarding the degree of racial disparity in the use of
third-party ballot collectors is all the more significant
given their failure to show that any burden that H.B.
2023 imposes is material. Arizona law provides many
remaining avenues to cast a valid ballot, including an
early ballot. Over the course of a 27-day period, voters
may return their ballot, postage free, by taking it to “a
mail box, post office, early ballot drop box, any polling
place or vote center[,] * * * or an authorized election
official’s office, either personally or with the assistance
of” an election official, postal worker, or statutorily
authorized family member, household member, or
caregiver. E.R. 23. On election day itself, Arizona
requires that employers provide employees sufficient
time to vote, irrespective of their ability to vote an
early ballot. Ariz. Rev. Stat. Ann. § 16-402 (2018). And
voters who are ill or who have a disability may request
in-person assistance from county officials to vote at
their home. Ariz. Rev. Stat. Ann. § 16-549 (2018).
Given the existence of these many options for returning
a ballot, and the marked absence of evidence showing
that these options were insufficient to address the
needs of any minority voters adversely affected by H.B.
2023, the only permissible conclusion is to reject
plaintiffs’ Section 2 claim.
2. The Record Fails To Show That Arizona’s
Longstanding In-Precinct Voting Requirement
Imposes A Disproportionate And Material
Burden On Minority Voters
In their challenge to Arizona’s treatment of out-ofprecinct provisional ballots, plaintiffs showed both the

App. 575
number of voters affected in recent elections and a
disproportionate likelihood that minority voters would
cast an OOP ballot that would not be counted. E.R. 6465. Notwithstanding this evidence, the district court
held that plaintiffs failed to prove an unlawful burden.
The court reached this conclusion for two reasons.
First, it stated that plaintiffs “ha[d] not shown that
Arizona’s policy to not count OOP ballots causes
minorities to show up to vote at the wrong precinct at
rates higher than their non-minority counterparts.”
E.R. 67. Second, it stated that because “OOP ballots
account for such a small fraction of votes cast
statewide,” plaintiffs cannot show that racial
disparities in OOP voting “are practically significant
enough to work a meaningful inequality in the
opportunities of minority voters as compared to nonminority voters.” E.R. 67. Given the record before the
district court, this Court should affirm the decision
rejecting plaintiffs’ OOP Section 2 claim but on
alternative legal grounds.
a. Plaintiffs’ Challenge To Arizona’s
Restrictions On OOP Voting Does Not Fail
Merely Because The Restriction Itself Does
Not Cause The Racial Disparity Or Affects
Only A Small Number Of Voters
The district court’s analysis went astray in
presuming that plaintiffs must show that the
challenged law itself causes an underlying racial
disparity that contributes to the practice’s
disproportionate effect. E.R. 67 (faulting plaintiffs for
failing to show that Arizona’s OOP policy “causes
minorities to show up to vote at the wrong precinct”).

App. 576
Such a circular requirement makes little practical
sense. Plaintiffs challenging a voter identification law
under Section 2, for example, have never been required
to show that the law itself causes minority voters to
possess specific forms of ID at lower rates (e.g., that the
law causes minority voters to possess fewer driver’s
licenses). Likewise, poll taxes did not adversely affect
minority voters by causing them not to have sufficient
money to pay the tax.
Rather, in both instances, any adverse effect on
relative voting opportunities depended on preexisting
socioeconomic disparities that, taken together with the
challenged practice’s enforcement, caused racial
disparities in the voting system. See Gingles, 478 U.S.
at 47 (“essence” of a Section 2 claim is that challenged
practice “interacts with social and historical conditions”
attributable to race discrimination “to cause an
inequality” in voting opportunities). Indeed, the court
here found as much: “OOP voting is concentrated in
relatively dense precincts that are disproportionately
populated with renters and those who move
frequently,” both groups that are disproportionately
composed of minorities, who in turn “have
disproportionately higher rates of residential mobility”
and are “more likely to need to renew their voter
registration and reeducate themselves about their new
voting locations.” E.R. 66. But as in this case, the mere
existence of a racial disparity (even one rooted in
disparate socioeconomic circumstances) is not
synonymous with a disproportionate and material
burden on the right to vote. Cf. Ortiz, 28 F.3d at 312316.

App. 577
Likewise, the district court’s reasoning was not
correct to the extent that it suggested that plaintiffs’
Section 2 claim would fail solely because of the small
number of voters affected. E.R. 67. The panel majority
below repeated this error while ultimately reaching the
correct conclusion. The majority reasoned that the
“small” number of voters affected means that the
burden imposed could not impact the minority group’s
ability to “elect representatives of their choice.” DNC,
904 F.3d at 716. While a small number of affected
voters may bear on whether the burden imposed is
material or “on account of race or color,” the panel’s
reasoning implies that Section 2 can be violated only if
the challenged practice adversely affects a sufficiently
large number of minority voters so as to potentially
influence an election outcome. Id. at 717, 730.
That is not a proper reading of the statute. Section 2
prohibits any “standard, practice, or procedure” that
“results in a denial or abridgement of the right of any
citizen of the United States to vote on account of race
or color.” 52 U.S.C. 10301(a) (emphasis added); see also
Frank v. Walker, 819 F.3d 384, 386 (7th Cir. 2016)
(Frank II) (“The right to vote is personal and is not
defeated by the fact that 99% of other people can secure
the necessary credentials easily.”). Section 2 safeguards
a personal right to equal participation opportunities. A
poll worker turning away a single voter because of her
race plainly results in “less opportunity * * * to
participate in the political process and to elect
representatives of [her] choice.” 52 U.S.C. 10301(b). As
the Supreme Court explained in Chisom, “any
abridgment of the opportunity of members of a
protected class to participate in the political process

App. 578
inevitably impairs their ability to influence the
outcome of an election.” 501 U.S. at 397. A more
tailored remedy may be appropriate, however, where a
Section 2 results violation impacts only a limited
number of voters.
b. The Only Permissible Conclusion On This
Record Is That Arizona’s In-Precinct Voting
Requirement Does Not Impose A
Disproportionate And Material Burden On
Minority Voters
Applying the proper legal framework, under the
“intensely local” and “functional” analysis of a
jurisdiction’s electoral scheme required by Section 2,
plaintiffs did not show that Arizona’s long-standing ban
on counting OOP ballots imposes a disproportionate
and material burden on minority voters’ equal access to
the political process. Gingles, 478 U.S. at 45, 79
(citations omitted). Plaintiffs failed to prove that the
current system imposes significant travel burdens, or
that there are systemic problems in providing the
correct polling place information to minority voters.
E.R. 45. Arizona has enforced its precinct rule for
decades (E.R. 14), but the percentage of voters
potentially affected by this rule has continued to
decline both because of the use of vote centers and the
dramatically increased reliance on mail ballots.
Accordingly, the percentage of voters actually affected
by the ban on counting OOP ballots has continued to
decline (0.64% of all votes cast in the 2008 general
election were uncounted OOP ballots, as compared to
only 0.15% in the 2016 general election). E.R. 40. In
light of these facts, and further taking into account

App. 579
Arizona’s expansive in-person early voting period,
plaintiffs have not proven that Arizona’s OOP rules
constitute a disproportionate and material burden on
minority voters’ access to the polls.
Context matters under Section 2 of the VRA. With
different surrounding facts, a similar or newly enacted
restriction on counting OOP ballots could yield a
different result. See North Carolina State Conf. of the
NAACP v. McCrory, 831 F.3d 204, 217 (4th Cir. 2016).
However, on this record, Arizona’s in-precinct voting
requirement is an unremarkable, decades-old
component of the State’s framework of electoral rules
organizing how and where Arizona voters may cast a
ballot. Plaintiffs did not prove that complying with this
requirement is materially burdensome for any group of
voters, including the State’s minority voters. They
therefore failed to prove that this requirement results
in “less opportunity” for minority voters.
CONCLUSION
This Court should affirm the district court’s
rejection of the Section 2 results claims.
Respectfully submitted,
ERIC S. DREIBAND
Assistant Attorney General
JOHN M. GORE
Principal Deputy
Assistant Attorney General
GREGORY B. FRIEL
Deputy Assistant Attorney General

App. 580

s/______________________________
THOMAS E. CHANDLER
ERIN H. FLYNN
Attorneys
Department of Justice
CRD – Appellate Section
Ben Franklin Station
P.O. Box 14403
Washington, D.C. 20044-4403
(202) 307-3192
[Certificates of Compliance and Service Omitted in
this Appendix]

App. 581

APPENDIX H
No. 18-15845
IN THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DEMOCRATIC NATIONAL COMMITTEE, et al.,
Plaintiffs-Appellants,
v.
KATIE HOBBS, in her official capacity as Arizona
Secretary of State;
MARK BRNOVICH, in his official capacity as
Arizona Attorney General,
Defendants-Appellees,
and
ARIZONA REPUBLICAN PARTY, et al.,
Intervenor Defendants-Appellees.
On Appeal from the United States District Court for
the District of Arizona, No. CV-16-01065 (Rayes, J.)
DEFENDANT-APPELLEE ARIZONA
ATTORNEY GENERAL MARK BRNOVICH’S
MOTION TO TAKE JUDICIAL NOTICE

App. 582
Mark Brnovich
Attorney General
Andrew G. Pappas
Deputy Solicitor General
2005 North Central Avenue
Phoenix, AZ 85004-1592
(602) 542-3333
Attorneys for Defendant-Appellee
Arizona Attorney General Mark Brnovich
Defendant-Appellee Attorney General Mark
Brnovich respectfully moves for judicial notice of the
North Carolina State Board of Elections’ March 13,
2019 Order in In re Investigation of Election
Regularities Affecting Counties Within the 9th
Congressional District, attached as Exhibit A. Counsel
for Plaintiffs-Appellants has indicated that they take
no position on this motion.
Rule 201 of the Federal Rules of Evidence provides
that “[t]he court may judicially notice a fact that is not
subject to reasonable dispute because it … can be
accurately and readily determined from sources whose
accuracy cannot reasonably be questioned.”
Fed. R. Evid. 201(b)(2). Among other things, this Court
may take judicial notice of the decisions of
administrative bodies, Small v. Avanti Health Sys.,
LLC, 661 F.3d 1180, 1186 (9th Cir. 2011), as well as
“proceedings in other courts, both within and without
the federal judicial system, if those proceedings have a
direct relation to the matters at issue,” United States ex
rel. Robinson Rancheria Citizens Council v. Borneo,
Inc., 971 F.2d 244, 248 (9th Cir. 1992). Further,
documents that “are publicly available on

App. 583
[a] … government website” may be judicially noticed
where “neither party disputes the authenticity of the
website nor the accuracy of the information.” Kater v.
Churchill Downs, Inc., 886 F.3d 784, 788 n.3 (9th Cir.
2018).
The North Carolina State Board of Elections (State
Board) is “an independent regulatory and quasi-judicial
agency.” N.C. Gen. Stat. § 163A-5(a). On March 13,
2019, “[a]fter receiving testimony and other evidence
submitted over a four-day hearing, and after reviewing
written submissions and hearing arguments from the
parties, and having weighted the representations of
agency staff,” the State Board entered its findings,
conclusions, and orders in In re Investigation of
Election Regularities Affecting Counties Within the 9th
Congressional District. Ex. A at 1. That Order is
publicly available on the State Board’s website. See
https://bit.ly/2u5JcNt.
Based on “substantial evidence” of an “absentee
ballot scheme and other irregularities,” the State Board
“unanimously conclude[d] that the 2018 General
Election for North Carolina’s 9th Congressional
District was corrupted by fraud, improprieties, and
irregularities so pervasive that its results [were]
tainted as the fruit of an operation manifestly unfair to
the voters and corrosive to our system of representative
government.” Ex. A at 2. The State Board found
“overwhelming evidence” of “a coordinated, unlawful,
and substantially resourced absentee ballot scheme” in
which McCrae Dowless, a paid campaign operative,
“hired workers he paid in cash to collect absentee
request forms, to collect absentee ballots, and to falsify

App. 584
absentee ballot witness certifications,” among other
things. Id. at 9, ¶ 19; id. at 12, ¶ 36. The Order details
the illegal ballot-collection scheme that Dowless
orchestrated, see id. at 18–24, ¶¶ 58–78, including the
“various practices” he and his workers used “to avoid
detection by election officials,” id. at 20–21, ¶¶ 65–68.
The Board concluded that this “coordinated, unlawful,
and well-funded absentee ballot scheme … perpetrated
fraud and corruption upon the election,” “taint[ing] [its]
results … and cast[ing] doubt on its fairness.” Id. at
43–44, ¶¶ 151, 153. As a consequence, the Board
unanimously ordered a new election. Id. at 45.
The State Board’s Order is relevant here, where
Plaintiffs-Appellants have challenged H.B. 2023—an
Arizona law that aims to prevent early ballot fraud and
strengthen public confidence in elections by allowing
voters to entrust caregivers, family members,
household members, mail carriers, or election officials
to return their early ballots, but not other,
unauthorized third parties.
The State Board’s Order is a decision of a quasijudicial administrative body; it is publicly available on
the Board’s website; and it is relevant to this case. The
Court should take judicial notice of the Order.

App. 585
Date: March 14, 2019
s/____________________________
Mark Brnovich
Attorney General
Andrew G. Pappas
Deputy Solicitor General
2005 North Central Avenue
Phoenix, AZ 85004-1592
(602) 542-3333
Attorneys for Defendant-Appellee
Arizona Attorney General
Mark Brnovich
[Certificate of Service Omitted in this Appendix]

App. 586
EXHIBIT A
STATE OF NORTH CAROLINA
BEFORE THE STATE BOARD OF ELECTIONS
COUNTY OF WAKE
[Filed March 13, 2019]
____________________________________
IN THE MATTER OF:
)
INVESTIGATION OF ELECTION
)
IRREGULARITIES AFFECTING
)
COUNTIES WITHIN THE 9TH
)
CONGRESSIONAL DISTRICT
)
___________________________________ )
ORDER
THIS MATTER CAME BEFORE THE STATE BOARD
OF ELECTIONS (“State Board”) upon the State
Board’s own motion at a public evidentiary hearing
held February 18, 2019 through February 21, 2019 in
the manner prescribed by a Notice of Hearing and
Amended Order of Proceedings issued February 4,
2019. At the evidentiary hearing, congressional
candidate Jeff Scott appeared pro se; congressional
candidate Dan McCready appeared through counsel,
Marc E. Elias (admitted pro hac vice), Jonathan Berkon
(admitted pro hac vice), and John R. Wallace;
congressional candidate Dr. Mark E. Harris appeared
and was represented by counsel David B. Freedman,
Dudley A. Witt, Alex C. Dale, and Christopher S.
Edwards; judicial candidate Vanessa Burton appeared
and was represented by Sabra J. Faires and William R.
Gilkeson, Jr.; and judicial candidate Jack Moody

App. 587
appeared and was represented by Timothy R. Haga.
The Mark Harris for Congress Committee was
represented by John E. Branch, III. Additional
candidates were provided notice of the evidentiary
hearing, but did not appear.
After receiving testimony and other evidence submitted
over a four-day hearing, and after reviewing written
submissions and hearing arguments from the parties,
and having weighted the representations of agency
staff, the State Board finds, concludes and orders the
following:
I. INTRODUCTION
A new election is the gravest remedy available to
this State agency that has, for a century, supervised
elections meant to ensure “[a]ll political power is vested
in and derived from the people; all government of right
originates from the people, is founded upon their will
only, and is instituted solely for the good of the whole.”
N.C. CONST. art. I, § 2.
And yet, the substantial record before the State
Board of Elections in this case lead this Board to
unanimously conclude that the 2018 General Election
for North Carolina’s 9th Congressional District was
corrupted by fraud, improprieties, and irregularities so
pervasive that its results are tainted as the fruit of an
operation manifestly unfair to the voters and corrosive
to our system of representative government. A new
election is necessary not only in the congressional
contest, but also in two local contests caught in the long
shadow of uncertainty caused by absentee ballot fraud
funded principally by the Mark Harris for Congress

App. 588
Committee. Tampering, obstruction and disguise have
obscured the precise number of votes either unlawfully
counted or excluded, but substantial evidence supports
our conclusion that the absentee ballot scheme and
other irregularities cast doubt on the outcome of each
contest subject to this Order.
II. PROCEDURAL HISTORY
1.
In the November 6, 2018 General Election,
North Carolina’s Ninth Congressional District (“CD-9”)
spanned eight counties along the State’s central
southern border. Moving west to east, CD-9 included a
portion of Mecklenburg County; all of Union, Anson,
Richmond, Scotland, and Robeson Counties; and
substantial parts of Cumberland and Bladen Counties.
In that election, the candidates seeking to represent
CD-9 in the 116th Congress were Republican nominee
Mark Harris, Democratic nominee Dan McCready, and
Libertarian nominee Jeff Scott.
2.
After counties canvassed the votes, Harris led
McCready by an apparent margin of 905 votes, which
constituted slightly more than one-quarter of one
percent of all ballots tallied in that contest.
3.
The number of returned absentee by mail
ballots far exceeded the margin between Harris and
McCready, with more 10,500 tallied districtwide.
4.
On November 27, 2018, the date designated
by statute for canvass of federal, judicial and
multicounty contests, the State Board of Elections and
Ethics Enforcement unanimously declined to canvass
the 2018 General Election for CD-9 after a briefing
from agency investigators and counsel in closed

App. 589
session. The State Board of Elections and Ethics
Enforcement — the predecessor to the present State
Board of Elections — recessed its canvass meeting for
three days to allow agency staff time to review
investigatory information. Following additional
briefings from agency investigators and staff, that
Board on November 30, 2018, again declined to canvass
results for CD-9, citing “claims of numerous
irregularities and concerted fraudulent activities
related to absentee by-mail ballots and potentially
other matters in Congressional District 9.” The Board
voted 7-2 to hold an evidentiary hearing “pursuant to
its authority under G.S. §§ 163A-1180 and 163A-1181
to assure that the election is determined without taint
of fraud or corruption and without irregularities that
may have changed the result of an election” and to stay
the issuance of certificates of elections in three other
contests in which the apparent outcome could have
been reversed by returned or non-returned absentee by
mail ballots in Bladen and Robeson counties: Seat 2 on
the District Court in Judicial District 16B, Bladen
County Commissioner District 3, and Bladen Soil and
Water Conservation District Supervisor.
5.
On December 1, 2018, the Board, through
Chair J. Anthony Penry, issued subpoenas to various
entities, including the Mark Harris for Congress
Committee (“Harris Committee”). After Mr. Penry
resigned, Governor Roy Cooper appointed Joshua D.
Malcolm as Chair on December 3, 2018.
6.
On December 3, 2018, noting the compelling
need for public disclosure in the stay of certification,
Chair Malcolm instructed the State Board’s executive

App. 590
director to “undertake a review of materials that may
be produced on a rolling basis in a manner reasonably
calculated to serve the public interest without
compromising the investigation.” The State Board
began posting materials through a website portal that
provided public access to thousands of pages of
evidentiary documents, investigative reports, and
election records, including a substantial number of
records regarding alleged absentee ballot fraud in
Bladen County referred to state and federal
prosecutors after the 2016 General Election. The
referral was made by the State Board at a public
hearing in December 2016 subsequent to a staff
investigation.
7.
On December 17, 2018, Chair Malcolm issued
an Order of Proceedings that prescribed procedures for
the evidentiary hearing, established a briefing
schedule, and noticed a hearing date of January 11,
2019, among other things.
8.
In the fall of 2018, a three-judge panel of the
Superior Court of Wake County held that creating the
State Board of Elections and Ethics Enforcement
violated the constitutional separation of powers, but
acted on December 11, 2018, to allow that Board to
remain in place until noon on December 28, 2018. See
Order Extending Stay, Cooper v. Berger et al., 18 CVS
3348 (N.C. Super. Ct. Wake County, December 11,
2018).
9.
On December 27, 2018, the General Assembly
enacted Session Law 2018-146, establishing a State
Board of Elections composed of five gubernatorial
appointees. The enactment included a provision

App. 591
directing that the new State Board would be appointed
effective January 31, 2019.
10.
At noon on December 28, 2018, the State
Board of Elections and Ethics Enforcement was
dissolved by Court order, and Governor Cooper
transmitted a letter to chairs of the North Carolina
Democratic Party and the Republican Party of North
Carolina requesting their recommendations for interim
members to avoid a month in which the Board would
lack seated members. See Letter from the Office of the
Governor to State Democratic Party Chair Wayne
Goodwin and State Republican Party Chair Robin
Hayes (Dec. 28, 2019). Appointment of an interim State
Board would have allowed for the evidentiary hearing
to proceed as scheduled on January 11, 2019.
11.
On December 30, 2019, however, the State
Republican Party notified the Governor of its intent to
initiate legal action to block any interim appointments
made to the State Board, contending that the Board
must remain vacant until January 31, 2019. See Letter
from John M. Lewis, State Republican Party’s General
Counsel, to William C. McKinney, Office of the
Governor’s General Counsel (Dec. 30, 2019).
12.
On January 3, 2019, citing the absence of a
seated State Board, candidate Mark Harris initiated
legal proceedings to compel the issuance of a certificate
of election. See Petition for Writ of Mandamus and
Appeal from the Failure of the State Board to Act,
Harris v. Bipartisan State Board of Elections and
Ethics Enforcement, 19 CVS 0025 (N.C. Super. Ct.
Wake County).

App. 592
13.
On January 11, 2019, the United States
House of Representatives’ Committee on House
Administration, by and through its Chair, Zoe Lofgren,
transmitted a letter to the State Board’s executive
director, stressing the Committee’s duty under Clause
1(k) of House Rule X to review the election returns and
qualification of each member and specifying that a
state’s “certificate is not ultimately determinative of
the House’s course of action as . . . the final arbiter of
who is the rightful claimant to its seats.” See Letter
from Rep. Zoe Lofgren, Chair of the Committee on
House Administration, to Kim Westbrook Strach,
Executive Director of the State Board of Elections
(Jan. 11, 2019).
14.
On January 22, 2019, Senior Resident
Superior Court Judge Paul C. Ridgeway held a hearing
on the Petition for Mandamus and the Appeal in
Harris. Following arguments by the parties, Judge
Ridgeway ruled in open court that the State Board of
Elections and Ethics Enforcement possessed statutory
authority to initiate proceedings necessary to ensure
the election was without fraud or corruption; that the
Board had acted within its lawful authority to delay
certification during the pendency of those proceedings;
and that Harris had failed to establish any clear legal
right to certification before the Board concluded its
review. The Court, therefore, denied the Petition and
the Appeal. See Order, Harris, 19 CVS 0025 (N.C.
Super. Ct. Wake County, January 25, 2019).
15.
On January 31, 2019, Governor Cooper
appointed all members of the new State Board of
Elections, who held an organizational meeting that

App. 593
afternoon to select Robert B. Cordle to serve as Chair
and Dr. Stella E. Anderson to serve as Secretary.
16.
On February 4, 2019, Chair Cordle issued a
Notice of Hearing and Amended Order of Proceedings
that prescribed the procedures and evidentiary
standards that would govern the hearing announced for
February 18, 2019. The Order also established a
process by which affected candidates could request to
compel the attendance of individuals who they may
wish to call as witnesses. On February 8, 2019, Chair
Cordle granted all requests for witness subpoenas and
issued additional investigative subpoenas to a selection
of entities, including the Harris Committee, requiring
productions identical to those required under
subpoenas issued by the predecessor State Board of
Elections and Ethics Enforcement.
17.
The Board held a public evidentiary hearing
between February 18 and February 21, 2019, in the
courtroom of the North Carolina State Bar in Raleigh.
18.
At the end of the hearing, the Board voted
unanimously to order a new election for CD-9, Bladen
County Commissioner District 3, and Bladen Soil and
Water Conservation District Supervisor. The Board
continued its hearing as to Seat 2 on the District Court
in Judicial District 16B to allow agency staff additional
time to review a number of factors distinctively
relevant to that contest, and a separate Order will be
entered as to that matter. The Board further allowed
affected candidates to submit proposed findings of fact
and conclusions of law by February 27, 2019.

App. 594
II. FINDINGS OF FACT
A. In the months after the State Board declined
to certify a winner in the contest for CD-9, and
before the Board held its evidentiary hearing,
the Board staff conducted a investigation into
the irregularities and improprieties affecting
elections in certain counties within that
congressional district.
19.
The Board employs an executive director, inhouse investigations team, data analysts, and counsel
who carry out the work of Board investigations. During
their investigation into election irregularities affecting
counties within CD-9, Board staff uncovered
overwhelming evidence that a coordinated, unlawful,
and substantially resourced absentee ballot scheme
operated during the 2018 General Election in Bladen
and Robeson Counties.
20.
In the absence of seated Board members,
between December 28, 2018, and January 31, 2019,
agency staff continued their collection and review of
communications, financial records, and other
documents produced under more than a dozen
subpoenas.
21.
As part of the Board staff’s thorough review,
Board investigators attempted to interview 401 voters,
successfully interviewed 142 voters, and also
interviewed 30 subjects and other witnesses.
22.
Subpoenas issued by the predecessor Board
and by the present State Board yielded records in
excess of one hundred thousand pages, including

App. 595
communications, financial information and phone
records.
23.
Three distinct categories of irregularities
occurred in Bladen and Robeson Counties during the
2018 General Election: (1) absentee by mail
irregularities in Bladen and Robeson Counties;
(2) disclosure of early voting results in Bladen County;
and (3) a lack of office security in the Bladen County
Board of Elections Office (“Bladen CBE”).
24.
The absentee by mail irregularities were
enabled by a well-funded and highly organized criminal
operation, coordinated by Leslie McCrae Dowless Jr.
and others, and funded principally by the Harris
Committee through its consulting firm Red Dome
Group. Bladen County Sheriff James McVicker and
other candidates also paid Dowless.
B. The number of absentee ballots in some
manner affected by the operation run by
Dowless, exceeded the apparent margin
between Harris and McCready based on
unofficial results.
25.
After the 2018 General Election, districtwide,
the apparent results of CD-9 were as follows: Harris
139,246, McCready 138,341, and Scott 5,130.
Accordingly, Harris led by a margin of 905 votes, or
0.3% of the total number of votes tallied.
26.
Districtwide, the apparent absentee by mail
votes were as follows: Harris 4,027, McCready 6,471,
and Scott 153.

App. 596
27.
In Bladen County, where Dowless and his
workers were found to have concentrated their activity,
the apparent absentee by mail votes were as follows:
Harris 420, McCready 258 , and Scott 6.
28.
In Robeson County, where Dowless and his
workers were also active, the apparent absentee by
mail votes were as follows: Harris 259, McCready 403,
and Scott 18.
29.
In the 2018 General Election, Bladen CBE
received 1,369 requests for absentee by mail ballots
purportedly submitted by or on behalf of voters
residing in the portion of Bladen County within CD-9.
Some portion of these requests were fraudulently
submitted under forged signatures, including a
deceased voter. Bladen CBE sent absentee by mail
ballots to 1,323 voters and did not send absentee by
mail ballots to 46 voters for whom or by whom request
forms were purportedly submitted.
30.
Of the 1,323 absentee by mail ballots sent to
Bladen County voters within CD-9, 728 (55.03%) were
returned, and 595 (44.97%) were not returned.
31.
In the 2018 General Election, the Robeson
County Board of Elections (“Robeson CBE”) received
2,321 requests for absentee by mail ballots purportedly
submitted by or on behalf of voters in Robeson County,
the entirety of which is located within CD-9. Robeson
CBE sent absentee by mail ballots to 2,269 voters and
did not send absentee by mail ballots to 52 voters for
whom or by whom request forms were purportedly
submitted.

App. 597
32.
Of the 2,269 absentee by mail ballots sent to
Robeson County voters, 776 (34.20%) ballots were
returned, and 1,493 (65.80%) were not returned.
C. Board Investigators found significant
absentee by mail irregularities in Bladen and
Robeson Counties.
33.
In April 2017, Harris personally hired
McCrae Dowless to conduct an absentee ballot
operation leading up to and during the 2018 elections.
34.
In June 2017, Harris hired the consulting
firm Red Dome Group. Thereafter, McCrae Dowless
was paid by Harris Committee through Red Dome. Red
Dome would bill the Harris Committee for these
expenses.
35.
Other candidates and organizations,
including but not limited to Bladen County Sheriff
candidate James McVicker, paid Dowless for absentee
ballot operations during the 2018 elections.
36.
Dowless hired workers he paid in cash to
collect absentee request forms, to collect absentee
ballots, and to falsify absentee ballot witness
certifications.
37.
Initially, Dowless told workers he would pay
them $150.00 per 50 absentee ballot request forms
collected and $125.00 per 50 absentee ballots collected,
but he also sometimes paid other amounts per ballot or
a flat weekly rate.
38.
Dowless’s absentee ballot operation was
arranged into two phases: (1) the collection of absentee

App. 598
by mail request forms; and (2) the collection of absentee
ballots.
1. Phase One of Dowless’s operation involved
paying individuals to collect and submit
absentee by mail request forms, some of which
were fraudulent.
39.
In addition to using blank forms to solicit
voters to request to vote absentee by mail, Dowless and
his workers prepared request forms utilizing forms
obtained from previous elections to “pre-fill” the form
so that workers could return to those voters and have
the voters sign the request form. The pre-filled section
would sometimes include voters’ Social Security
numbers, driver’s license numbers, and dates of birth.
40.
“Phase One” of Dowless’s operation was
arranged into four known components. First, Dowless’s
workers obtained absentee by mail request forms from
voters. Second, Dowless’s workers returned absentee by
mail request forms to Dowless for payment. Third,
Dowless would photocopy and retain copies of all
absentee by mail request forms for later use in
subsequent elections or for other purposes. Fourth,
Dowless or his workers would deliver absentee by mail
request forms to the appropriate CBE Office.
41.
In the 2018 General Election, at least 788
absentee by mail request forms in Bladen County were
submitted by McCrae Dowless or his workers.
42.
In the 2018 General Election, at least 231
absentee by mail request forms in Robeson County
were submitted by McCrae Dowless’s workers, though
an email suggests the number may have been at least

App. 599
449. The records logs maintained by Robeson CBE did
not appear complete, so a correct count could not be
made. In the 2018 General Election, county boards of
elections were not required by law or rule to maintain
logs of absentee request forms.
43.
Red Dome Group principal Andy Yates
testified that Dowless called him regularly to provide
updates on the number of absentee by mail requests he
had collected, and that another Red Dome contractor
provided Dowless lists of voters who had been sent
ballots.
44.
On September 24, 2018, at 10:10:25 a.m.,
Andy Yates emailed Beth Harris the following:
Of the absentees that have been sent out in
Robeson so far, after reviewing them with
McCrare [sic], we believe that 181 of them are
from his list. They have more yet to turn into the
BofE in Robeson. McCrae’s team has generated
a total of 449 requests in Robeson and will be
generating more.
Ex. 30.
45.
Lisa Britt worked for Dowless during the
2018 General Election. She testified that Dowless’s
operation included efforts to “pre-fill” absentee by mail
request forms based on information previously obtained
and retained by Dowless, who developed the practice of
saving photocopies of absentee by mail request forms
that he and his workers collected during past elections.
Absentee by mail request forms were copied at an office
used by Dowless and his workers. Copies were
maintained without redactions, such that Dowless

App. 600
possessed sensitive voter data, including voters’ Social
Security numbers, driver’s license numbers, dates of
birth, and signatures. Lola Wooten previously worked
in an absentee ballot operation distinct from the
operation conducted by Dowless. However, Wooten and
Dowless communicated frequently by phone during the
2018 general election and Britt, along with others,
assisted and/or observed Wooten making photocopies of
absentee by mail request forms brought by Wooten to
Dowless’s Office.
46.
Because Dowless maintained photocopies of
completed absentee by mail request forms from prior
elections—including voters’ signatures and other
information used to verify the authenticity of a
request—Dowless possessed the capability to submit
forged absentee by mail request forms without voters’
knowledge and without detection by elections officials.
47.
Dowless’s workers were deployed primarily in
Bladen and Robeson Counties, though additional
activities were carried out in other counties.
48.
Dowless paid Britt and other workers based
on the number of voters for whom they secured
absentee by mail request forms: for every 50 request
forms, the amount was between $150.00 and $175.00,
plus additional money for gas and food, Britt testified.
We find her testimony credible.
49.
Dowless would pay Britt and other workers
in cash once they had submitted 50 absentee by mail
request forms to him.
50.
Harris testified he was aware that Dowless
paid his workers based on the number of absentee by

App. 601
mail request forms each worker collected and returned
to Dowless. Harris explained that his Committee would
pay Dowless around $4 or $4.50 per request form.
Harris further testified that he had asked Dowless
during their initial meeting, “‘don’t you pay [your
workers] hourly?’ [to which Dowless responded], ‘[n]o,
if you pay people hourly down here they’ll just sit under
a tree.” We find Harris’ testimony on this issue
credible.
51.
Andy Yates testified, and the Board finds it
credible, that he was aware Dowless “wouldn’t always
turn [absentee by mail request forms] in as soon as he
got them.” There is substantial evidence that Dowless
engaged in the practice of collecting then withholding
absentee by mail request forms, submitting them to the
elections office at times strategically advantageous to
his ballot operation. Dowless would track which ballots
had been mailed by elections officials using publicly
available data.
52.
Some portion of the absentee by mail request
forms submitted by Dowless and his workers were
forged. Britt admitted that she had completed the top
portion of an absentee by mail request form submitted
on behalf of a deceased individual, James Spurgeon
Shipman. Britt denied having forged Shipman’s
purported signature at the bottom of the request form,
which was signed months after Shipman had died, and
Britt claimed not to know who had forged Shipman’s
signature on the bottom of the form.
53.
Dowless and his workers engaged in a
systematic effort to avoid detection of their unlawful
activities.

App. 602
54.
Britt forged the signature of her mother,
Sandra Dowless, on a number of witness certifications
on the absentee by mail container envelopes. Dowless
told Britt that she had witnessed too many absentee by
mail container envelopes under her signature, and
Britt began forging her mother’s signature.
55.
Dowless and his workers discussed and
enacted strategies designed to avoid raising any “red
flags” with elections officials. Dowless was aware that
Britt was forging Sandra Dowless’s signature at the
time the forgeries occurred.
56.
During the general election, some voters
discovered that absentee by mail request forms were
submitted on their behalf, but without their knowledge,
consent, or signature, to the Bladen CBE. At least two
of these forms were submitted by Dowless employee
Jessica Dowless along with other forms she was
directed to deliver by Dowless.
57.
In October 2018, the State Board of Elections
Office sent a mailing to every voter who had requested
an absentee ballot in Bladen County for the general
election. The letter informed voters of their rights and
warned voters that ballot collection efforts were
unlawful. The mailing stated elections officials would
never come to a voter’s home to collect their absentee
by mail ballot. Of the letters sent, 184 were returned as
undeliverable. It is unknown whether some portion of
the 184 associated absentee by mail requests may have
been fraudulent or undeliverable due to hurricane
damage.

App. 603
2. Phase Two of Dowless’s operation involved
paying workers to collect absentee by mail
ballots, some of which were unsealed and
unvoted, and deliver then to Dowless.
58.
Dowless and his workers sought and obtained
information from local county board of elections staff to
determine when individual voters had been sent
absentee by mail ballots in response to their request
forms, so that Dowless or his workers could return to
voters’ homes shortly after absentee by mail ballots
were received.
59.
Some absentee by mail ballots unlawfully
collected by Dowless and his workers were not properly
witnessed by two witnesses or a notary public.
Dowless’s workers would sign the witness certification
when they had not witnessed the voter mark his or her
ballot in their presence.
60.
Dowless and his workers collected at least
some of the absentee by mail ballots unsealed and
unvoted.
61.
After Dowless’s workers collected absentee by
mail ballots from voters, they would deliver the
absentee by mail ballots to Dowless in order to collect
their payment in cash.
62.
Dowless frequently instructed his workers to
falsely sign absentee by mail ballot container envelopes
as witnesses, even though they had not witnessed the
voter mark the ballot in their presence. During the
2018 General Election, the Witness’ Certification
section printed on the absentee return envelope reads
as follows:

App. 604
I certify that: • I am at least 18 years old • I am
not disqualified from witnessing the ballot as
described in the WARNING on the flap of this
envelope • The Voter marked the enclosed ballot
in my presence, or caused it to be marked in the
Voter’s presence according to his/her instruction
• The Voter signed this Absentee Application
and Certificate, or caused it to be signed • I
respected the secrecy of the ballot and the
Voter’s privacy, unless I assisted the Voter at
his/her request
The following was printed on the flap of the absentee
ballot envelope in the 2018 General election:
“Fraudulently or Falsely completing this form is a
Class I felony under Chapter 163 of the N.C. General
Statutes.”
63.
In some cases, Dowless’s workers
fraudulently voted blank or incomplete absentee by
mail ballots at Dowless’s home or in his office.
Kimberly Robinson testified that she turned over her
unmarked ballot to Lisa Britt and Ginger Eason,
workers paid by Dowless. We find her testimony
credible.
64.
In some cases, ballots that had been collected
unsealed and unvoted were returned to the county
board of elections bearing fraudulent witness
signatures and were accepted and counted.
65.
Dowless and his workers engaged in various
practices to avoid detection by election officials. Those
practices included: (1) delivering small batches of
ballots to the post office; (2) ensuring that ballots were

App. 605
mailed from a post office that was geographically close
to where the voter lived; (3) ensuring that witnesses
signed and dated absentee by mail container envelopes
with the same date as the voter; (4) ensuring that
witnesses signed in the same color ink as the voter,
which included tracing over existing signatures to
ensure conformity; (5) ensuring that stamps were not
placed in such a way as to raise a red flag for local
elections administrators; (6) taking some collected
ballots back to the voter for hand-delivery to the local
Board of Elections; and (7) limiting the number of
times a witness’s signature appeared on the ballot; and
(8) forging witness signatures on ballot envelopes.
66.
From past experience, Dowless considered
certain practices to be “red flags” that could trigger
suspicion by elections officials. Dowless was careful to
keep an arms’ length distance from certain actions he
directed his workers to do, such as falsely witnessing
ballots, filling out ballots, and tracing over signatures
of witnesses to match the ink color of the voter.
Dowless had publicly made false statements to conceal
his ballot collection activities by denying he “ever
touched a ballot” or instructed any of his workers to
collect. Ex. 35. Both Mark Harris and Andy Yates
testified that Dowless specifically told that neither he
nor his workers ever collected ballots. Lisa Britt and
Kelly Hendrix both testified that ballot collection was
a part of Phase Two as directed by Dowless.
67.
Lisa Britt testified, and we find it credible,
that Dowless once scolded her for placing stamps on
absentee by mail container envelopes in an
idiosyncratic way that might alert local elections

App. 606
officials to Dowless’s unlawful operation (i.e. affixing
the stamp upside-down). Britt understood Dowless’s
warning to mean that placing the stamps in a
particular way might alert elections officials that
someone was unlawfully handling and mailing
absentee by mail ballots on behalf of voters.
68.
In order to avoid detection of Dowless’s
operation, Britt and Dowless’s other workers would
sign the witness certifications on absentee by mail
container envelopes using the same color ink that the
voter had used, and copying the same date that
appeared next to the voter’s signature, even if the
witness certification was completed on some other date.
Britt testified, and we find it credible, that the strategy
was instituted to “throw off the elections board.” At
times when a certification was signed in a different
color ink than the voter’s, Dowless’s workers would, at
his direction, trace over the witness signature and date
using ink similar in color to the ink used by the voter.
69.
Britt explained the ballot collection and
witnessing process as follows. If a voter did not have
the witnesses for the ballot, the workers would take the
ballots back to Dowless. They were paid to collect the
ballots, but were not paid as much for collecting ballots
as for request forms.
70.
Britt testified regarding her payment
arrangement with Dowless for the collection of
absentee by mail ballots. She said she believed they
had been paid $125 for 50 ballots, and that she worked
about two or three weeks picking up ballots at that
rate. Once they realized it was harder to convince
voters to turn over their absentee by mail ballots than

App. 607
request forms, they were just paid a flat weekly rate of
about $200 per week. We find her testimony credible.
71.
Ginger Eason and Cheryl Kinlaw similarly
admitted in videotaped interviews that they were paid
by Dowless to push votes for Harris, and to return
collected ballots to Dowless, who had stacks of ballots
on his desk throughout the 2018 General Election.
Exs. 103, 104.
72.
Britt testified the workers were sent back out
to voters’ homes once their ballots came back in the
mail, to explain to the voters, that if the ballot wasn’t
correctly witnessed by two voters that the board of
elections would reject and the vote would not count. If
the voter had two witnesses available when she
arrived, the voter would use his or her two witnesses.
But in the event that they didn’t have someone
available to witness their signature on the ballot
container envelope, the workers would explain to the
voter they could witness it for the voter, or have it
witnessed and mail it for the voter. We find her
testimony credible.
73.
Britt claimed that she did not fill in or vote
any of the absentee by mail ballots that she personally
collected, but she admitted, and we find, that she had
filled in races on ballots that were collected by
Dowless’s other workers.
74.
Affected voter Kimberly Robinson’s testimony
corroborated Britt’s admission that Dowless and his
associates had collected unsealed and unvoted absentee
by mail ballots. Robinson testified that, after she
received an absentee by mail ballot in the mail in the

App. 608
fall of 2018, Britt and Ginger Eason came to her home
in a van and took her unsealed, unvoted ballot.
Robinson explained that she signed the ballot container
envelope, and that Ginger Eason signed the ballot
container envelope as a witness in front of her, but that
no one signed as the second witness. Robinson
explained that she gave Britt and Eason her blank
absentee by mail ballot because “McCrae usually
helped me out,” by voting her ballot, since she “didn’t
know who to vote for” or “much about politics.” We find
her testimony credible.
75.
Multiple affiants and other witnesses
similarly reported that Dowless and his associates
collected or attempted to collect absentee by mail
ballots, including unsealed and/or unvoted ballots. See
Ex. 107 (C. Eason Aff.); Ex. 10 (D. Montgomery Aff.);
Ex. 8 (E. Shipman Aff.); Ex. 9 (E. Shipman Suppl. Aff.);
Ex. 84 (press reports of statements by affected voters
Kirby Wright and Doris Hammonds).
76.
We find that Dowless and his workers
collected absentee ballots in violation of North Carolina
law.
77.
We find that Dowless and/or his workers
marked the ballots of other individuals in violation of
North Carolina and federal law.
78.
Other absentee by mail ballots voted in the
General Election were otherwise unlawful. For
example, Lisa Britt, who testified that she currently is
and was at all relevant times on probation for a felony
offense involving the sale of “pills” and was therefore
ineligible to vote, voted in the November 2018 General

App. 609
Election. Britt claimed that Dowless told her that,
because her probation was not out of Bladen County,
that she was still eligible to vote in Bladen County.
79.
Dowless appeared at the evidentiary hearing
on this matter but refused to testify when called as a
witness by the State Board’s staff. Through counsel,
Dowless stated that he would not testify unless granted
immunity in the manner allowed under Chapter 163.
The State Board declined to grant immunity, and
Dowless did not testify. As provided in its Amended
Order of Proceedings, the State Board may draw, and
does now draw, an adverse inference from Dowless’s
refusal to testify or to be interviewed by the State
Board’s investigators throughout the duration of its
investigation. Dowless’s refusal to testify supports our
findings otherwise supported by other testimony heard
by Dowless on February 18, 2019, including that
Dowless or those working at his direction engaged in
unlawful activities during the 2018 General Election,
including witness tampering and intimidation,
absentee ballot harvesting, forgery, and a scheme to
obstruct the conduct of the 2018 General Election.
D. Harris personally hired McCrae Dowless to
conduct an absentee ballot operation leading
up to and during the 2018 elections.
80.
Prior to hiring Dowless to work for his 2018
campaign, Mark Harris was aware of the absentee by
mail voting results in Bladen County in the 2016
Republican Primary Election. In Bladen County during
the 2016 Republican Primary Election, Todd Johnson
received 221 absentee by mail votes, Mark Harris

App. 610
received 4 absentee by mail votes, and incumbent
Robert Pittenger received 1 absentee by mail vote.
81.
In an email bearing the subject line
“Anomalous Voting in Bladen County” sent to Mark
Harris and Beth Harris on June 7, 2016, John Harris,
their son, explained why the available data from the
2016 Republican Primary led him to conclude that
“absentee by mail votes look very strange.” See Ex. 53.
John Harris’s email pointed out to Mark Harris and
Beth Harris three anomalies in Bladen absentee mail
voting. First, Todd Johnson received a significantly
disproportionate share of absentee by mail votes in
comparison to Johnson’s share of one-stop and Election
Day votes. Second, Bladen County featured an
unusually high number of absentee by mail votes
overall—approximately 22% of all absentee by mail
votes cast in CD-9, compared to only 2% of Election
Day and one-stop votes cast in CD-9. Third, there was
a disproportionately large share of African American
voters among Bladen County absentee by mail voters
relative to other counties. See id.
82.
In an interview conducted after the Board
had declined to certify the CD-9 election, Mark Harris
stated that he learned that Dowless conducted Todd
Johnson’s absentee mail ballot program in Bladen
County a couple weeks after the June 6, 2016
Republican primary election from a friend, Judge
Marion Warren. Harris stated that according to Judge
Warren, “McCrae was a guy from Bladen County. He
was a good old boy that knew Bladen County politics,
that he, you know, did things right, and that he knew

App. 611
election law as better -- better than just about anybody
he knew of.” Ex. 38, Tr. 3:7-3:11.
83.
On March 8, 2017, Mark Harris sent a text
message to former Judge Marion Warren. The text
message followed up on a previous conversation
regarding a proposed trip to Bladen County during
which Judge Warren would connect Mark Harris to the
key people that could help him carry that part of the
county in a future U.S. House CD-9 race. Mark Harris
specifically referenced McCrae Dowless in this text
message, describing him as “the guy whose absentee
ballot project for Johnson could have put me in the U.S.
House this term, had I known, and he had been helping
us.” Ex. 61.
84.
On April 6, 2017, Mark Harris met Dowless
at Bladen County Commissioner Ray Britt’s furniture
store in Bladen County and discussed Dowless’s
absentee ballot program.
85.
Prior to hiring Dowless, Mark Harris was
warned by his son that Dowless may have engaged in
the unlawful collection of ballots during the 2016
Republican primary election.
86.
On April 6, 2017 or April 7, 2017, Mark
Harris and Beth Harris spoke with John Harris over
the telephone about Dowless’s absentee ballot program,
at which time John Harris stated his concerns about
Dowless to Mark Harris, including that Dowless had
engaged in collecting ballots in 2016 and John Harris
testified that his general sense that Dowless was “kind
of a shady character.” John Harris also reminded Mark
Harris about the analysis that John Harris had set

App. 612
forth in his June 7, 2016, email regarding absentee
ballot results for Johnson in Bladen County in 2016,
including that ballots had popped up in “batches,”
strongly suggesting that Dowless and his affiliates
were collecting bundles of ballots and mailing them en
masse.
87.
John Harris testified that McCrae Dowless
told Mark Harris that he never touched absentee
ballots, but that John Harris did not believe Dowless
because the numbers did not add up and relayed this
information to Mark Harris during the April 6, 2017 or
April 7, 2017 phone call. We find this testimony
credible.
88.
On April 7, 2017, John Harris, Mark Harris
and Beth Harris exchanged a series of emails following
the April 6, 2017 or April 7, 2017 phone call between
the three regarding Dowless. In those emails, John
Harris specifically informed Mark Harris and Beth
Harris that he was “fairly certain” Dowless’s operation
was involved in illegal activities, namely “that they
collect the completed absentee ballots and mail them
all at once.” John Harris provided the text of and
citation to the relevant North Carolina law that makes
such practice illegal. Ex. 55. John Harris’s conclusion
was based, at least in part, on evidence in public voting
data showing that ballots had been returned in batches
to the Bladen County Board of Elections office, leading
John Harris to believe that Dowless and his affiliates
had been mailing stacks of ballots at a time. See id.
89.
Mark Harris was aware that Dowless had a
prior criminal conviction before he hired Dowless. He

App. 613
denied knowledge of any convictions related to perjury
or fraud.
90.
Mark Harris hired Dowless on or around
April 20, 2017.
91.
John Harris provided credible testimony that
Dowless offered his father, Mark Harris, the choice
between “a gold plan, a bronze plan, and a silver plan,”
with the different plans being tethered to the amount
of people that Dowless would be able to employ or put
“on the ground.”
92.
On April 20, 2017, Mark Harris wrote a check
for $450.00, drawn on Harris’s personal checking
account, and made payable to the terminated North
Carolina independent expenditure political committee
Patriots for Progress. Ex. 60. Mark Harris testified that
Dowless directed him to write a check to Patriots for
Progress in order to retain Dowless’s services. We find
his testimony on this issue credible.
93.
On May 4, 2017, Mark Harris wrote a second
check for $2,890.00, drawn on Harris’s personal
checking account, and made payable to Patriots for
Progress. See Ex. 60. Mark Harris testified that the
second check to Patriots for Progress was to fund startup costs for Dowless’s operation, including workers and
office space. We find his testimony on this issue
credible.

App. 614
E. Dowless’s Operation was Well-Funded. The
Harris Committee Funded Dowless’s
Operation Through Payments to Red Dome.
94.
Andy Yates testified that he and Red Dome
officially started with the Harris Committee at the
beginning of July 2017, but that Dowless had already
been hired by the Harris campaign began earlier in
2017 in that Harris and Dowless had already agreed
upon Dowless’s fees. We find this testimony credible.
95.
Beginning in July 2017, all fees and
payments to Dowless were made through Red Dome.
96.
During both the primary and the general
election, Red Dome submitted invoices to the Harris
Committee and was reimbursed for payments made to
Dowless.
97.
All members of the Harris Committee’s staff,
except for Mark and Beth Harris, were paid by the
Harris Committee through Red Dome.
98.
In total, the Harris Committee paid Red
Dome $525,088.95 between August 1, 2017, and
November 26, 2018. Ex. 142.
99.
For the 2018 General Election, the Harris
Committee paid Red Dome $289,980.50 between May 3,
2018, and November 26, 2018. See id.
100. Andy Yates testified, and we find it credible,
that as of the date of his testimony, the Harris
Committee still had outstanding invoices from Red
Dome that were unpaid or partially unpaid, which
totaled approximately $51,515.50. See Ex. 28 at 24

App. 615
(Yates testified that $11,000 was still owed on this
partially paid invoice); id. at 27 ($7,881.50); id. at 28
($32,634.00).
101. In total, Red Dome paid Dowless $131,375.57
between July 3, 2017, and November 7, 2018.
See Board’s Preview of Evidence at slide 15.
102. For the 2018 General Election, Red Dome
paid Dowless $83,693.57 between June 8, 2018, and
November 7, 2018. Id.
103. Approximately $15,000 of the $131,375.57
that was paid to Dowless by Red Dome was for work
performed by Dowless for other clients of Red Dome.
104. Yates testified the Harris Committee paid
Dowless a flat fee of $1,625 per month for the general
election, plus additional sums to fund payments made
to Dowless’s workers and other expenses Dowless
incurred on behalf of the Harris Committee. This was
an increase from the $1200 per month that the Harris
Committee paid Dowless for the primary election. The
total sum paid by the Harris Camapign to Dowless
exceeded the sum paid to other significant individuals,
including the campaign manager.
105. Additional sums paid to Dowless were based
on verbal representations made by Dowless of his
expenses.
106. Red Dome and the Harris Committee relied
on Dowless’s representations of his expenses and took
Dowless’s verbal representations at face value.

App. 616
107. Andy Yates testified that no documentation
was required of Dowless for payment of his expenses or
for proof of activities regarding his absentee ballot
program, and no documents were sent or received by
Red Dome to verify Dowless’s activity.
108. In addition to the absentee ballot activities
already described, Dowless paid individuals to put out
and take up yard signs and to work at local festivals
and parades. He also paid individuals to work the polls
in Bladen, Robeson and Cumberland Counties during
early voting, on the day of the primary, and on the day
of the general election. An unknown portion of the
payments from Red Dome to Dowless funded this
activity. Red Dome also paid and/or reimbursed
Dowless for the cost of office space, as well as
associated costs for utilities, internet, office supplies,
office staff and paper copies or office copier expenses.
109. John Harris testified that he spoke with Andy
Yates about general concerns that John Harris had
about Mark Harris’s decision to hire Dowless, including
that Dowless was a “shady character.” John Harris also
testified that he did not describe his concerns regarding
Dowless to Yates in as stark of terms as he had
described his concerns about Dowless to Mark Harris.
We find his testimony credible.
110. Andy Yates was aware that Dowless had a
prior criminal conviction before he began making
payments to Dowless. He denied knowledge of any
convictions related to perjury or fraud.
111. Between July 3, 2017, and November 7, 2018,
Bladen County Sheriff Jim McVicker paid Dowless

App. 617
$5,000 for what is alleged to have been get-out-the-vote
activity. See Board’s Preview of Evidence at slide 16.
112. The McVicker Committee also contracted
with Red Dome for services related to phone services,
robocalls, and ring-less voicemail. In total, McVicker
paid Red Dome a total of $8,000 in the 2018 election
cycle.
F. The Harris Committee failed to comply fully
with subpoenas lawfully issued by this State
Board and its predecessor.
113. The Harris Committee failed to comply fully
with subpoenas issued by the State Board of Elections
and Ethics Enforcement on December 1, 2018, and
identical subpoenas by the State Board of Elections on
February 6, 2019, despite repeated invitations to
supplement its production.
114. Each subpoena was identical in scope, and
required production of “emails, text messages” and
other records in the possession of the Harris
Committee regarding absentee voting efforts and
Dowless, among other items. The covered period ran
from January 2016 through December 1, 2018.
115. On December 4, 2018, agency counsel
assisted the Harris Committee, at the Committee’s
request, by suggesting preliminary search terms, but
counsel “emphasized . . . that the initial list of search
terms would not, and could not, limit the scope of the
subpoena.” Ex. 56.
116. The Harris Committee, through counsel,
initially produced certain records running from July

App. 618
2017 forward. On January 15, 2019, agency counsel
transmitted correspondence challenging the legal basis
on which the Harris Committee refused to produce
records dated before July 2017. Id. On February 8,
2019, the Harris Committee supplemented its
production with additional responsive records that
predated July 2017.
117. On February 17, 2019, agency counsel
requested written confirmation that the Committee
had “provided any documents related to absentee ballot
activity, Dowless, or planning related to future
absentee ballot activities, dated on or after March 1,
2017,” and cited the subpoena. Id. The Harris
Committee, through its counsel John Branch,
confirmed the same:
[T]his will confirm that we produced all
responsive, non-objectionable (per the attorneyclient privilege, the attorney work product
doctrine, or the spousal privilege) documents
related to absentee ballot activity, Dowless, or
planning related to future absentee ballot
activities from March 1, 2017 to December 1,
2018 which we found using the agreed-to
methods of searching for the documents (i.e. the
State Board’s queries) and the quality control
efforts we undertook to make sure, to the best
extent we reasonably could, that all responsive
documents were found.
Id.

App. 619
118. At no time before the evidentiary hearing,
however, did the Committee produce responsive
communications between John Harris and Mark Harris
regarding the nature and legality of Dowless’s
operation (Exs. 54 and 55) or communications between
Mark Harris and Judge Marion Warren in which
Harris sought to secure a connection to “the guy whose
absentee ballot project . . . could have put me in the US
House this term, had I known, and he had been helping
us” (Ex. 61). Indeed, the Committee only attempted to
supplement its production to include communications
with John Harris after it became clear that John would
testify, and mere minutes before the State called John
as its witness.
119. Late in the evening after John Harris
testified, the Committee supplemented its production
with more than 800 pages, including communications
with Judge Warren (Ex. 61).
120. Among other reasons cited for the
Committee’s failure to make a complete production,
counsel John Branch indicates that the Committee had
operated under a mistaken understanding of its
obligations under the subpoenas. We find the
explanation unpersuasive, as the productions were
clearly responsive. The Harris Committee failed to
comply fully with the lawful subpoenas by this Board,
and that such non-compliance contributes to
cumulative doubt cast on the congressional election.
121. This Board cannot allow parties or their
counsel to behave in this manner, and the Board will
take further action as it deems appropriate separate
from this Order.

App. 620
G. Expert Findings
122. Dr. Stephen Ansolabehere, a professor of
Government at Harvard University, explained in his
report that patterns of absentee by mail voting in the
2018 General Election in Bladen and Robeson Counties
differed significantly from the remainder of CD-9 and
from elsewhere in the State. See Ex. 73. We find this
information credible.
123. Dr. Michael Herron, a professor of
Government at Dartmouth University, explained in his
report that Harris’s mail-in absentee support in Bladen
County was greater than the absentee by mail support
for any other comparable Congressional candidate in
any general election since 2012 in both North Carolina
and three comparable states. See Ex. 74 at 26-28,
27 t.8. We find this information credible.
124. We find Dr. Stephen Ansolabehere credible in
his conclusion that the rates at which voters who
requested absentee by mail ballots in Bladen and
Robeson counties but did not return their absentee
ballots are statistical outliers compared to CD-9 and
the rest of the state. Elsewhere in CD-9, of voters who
requested an absentee ballot, 10% did not vote at all.
But in Bladen County, 337 voters requested an
absentee ballot but did not vote at all (approximately
26% of people who requested absentee ballots). In
Robeson County, 832 voters requested an absentee
ballot but did not vote at all (approximately 36% of
people who requested absentee ballots). These were the
two highest rates of nonvoting in both CD9 and the
state as a whole. See Ex. 73, at 63.

App. 621
125. We also find Dr. Stephen Ansolabehere
credible in his conclusion that both frequent voters and
occasional voters in Bladen and Robeson had much
higher non-return rates than similar voters elsewhere
in the state. Elsewhere in CD-9, 9.7% of frequent voters
(i.e. voters who voted in more than four of the last six
elections) did not return their absentee ballots or
otherwise vote. Elsewhere in CD-9, brand new voters
who requested an absentee ballot are a little bit less
likely to vote than experienced voters: about 14%.
However, in Bladen and Robeson Counties in CD-9,
41.7% of frequent voters did not return their absentee
ballots or otherwise vote. A similarly high proportion of
new voters (48%) did not return their absentee ballots
or otherwise vote. Ex. 73, at 67, 67 t.7. We find this
information credible.
H. Dowless Engaged in Efforts to Obstruct the
Board’s Investigation and Tamper with
Witnesses.
126. Efforts were made to obstruct the Board’s
investigation and the testimony to be provided at the
hearing.
127. Lisa Britt testified that Dowless blindsided
her with a videotaped interview with WBTV reporter
Nick Ochsner, which was first aired on or around
December 12, 2018. Britt claimed that when she
arrived at Dowless’s house after work one afternoon,
Dowless told her that a friend of his that he had spoken
with a few times was coming to take a videotaped
statement from Britt regarding the allegations that
Dowless and his workers had been collecting ballots.
Britt testified that what she said in that interview with

App. 622
Ochsner was not truthful, and it was revealed during
the hearing that Britt had previously provided
contradictory statements to Board Investigator, Joan
Fleming, by the time the interview was filmed. We find
her testimony credible.
128. Lisa Britt further testified that on or around
February 14, 2019, just one week before the hearing,
Dowless asked her to come to his residence where he
provided her a slip of paper coaching her on how she
should testify at the hearing. Britt took a picture of the
slip of paper and provided that picture by text to Board
Investigator, Joan Fleming. That text message, which
was moved into evidence, reads:
I can tell you that I haven’t done anything wrong
in the election and McCrae Dowless has never
told me to do anything wrong, and to my
knowledge he has never done anything wrong,
but I am taking the 5th Amendment because I
don’t have an attorney and I feel like you will try
to trip me up. I am taking the 5th.
Ex. 7. We find her testimony credible, and Britt later
produced the original copy of the slip of paper.
129. Britt testified that there was also a meeting
at Dowless’s house sometime after reports began
circulating that Dowless was involved in the absentee
by mail irregularities in CD-9, and after the Board
declined to certify the results of the CD-9 race, during
which Dowless told a group of his workers, including
Britt, that, “as long as we stick together, we will be
fine.” We find Britt’s testimony credible. At the same

App. 623
meeting, Dowless stated that there were no films or
videos of their activities.
I. Bladen County Early Voting Results Were
Improperly Tabulated on November 3, 2018
130. Bladen County one-stop early voting results
were improperly and unlawfully tabulated at 1:44 p.m.
on November 3, 2018. See Ex. 18.
131. The physical tape that was printed when
early voting results were tabulated displayed early
voting results for United States House District 9,
Bladen County Commissioner District 3 and Bladen
Soil and Water Conservation District Supervisor.
See Ex. 18.
132. Early voting judges Michele Maultsby, Coy
Mitchell Edwards and Agnes Willis signed the tape on
November 3, 2018. See Ex. 18.
133. Michele Maultsby, Coy Mitchell Edwards and
Agnes Willis testified that they were unaware that it is
unlawful to tabulate early voting results before
Election Day, stating that they had been incorrectly
trained to always tabulate results at the end of early
voting. We find their testimony credible.
134. Coy Mitchell Edwards and Agnes Willis
viewed early voting results for Bladen County Sheriff
on November 3, 2018.
135. At least four other first shift poll workers
were present at the one-stop site when results were
tabulated and had access to early voting results for
United States House District 9, Bladen County

App. 624
Commissioner District 3 and Bladen Soil and Water
Conservation District Supervisor. See Ex. 19
136. Testimony at hearing described a meeting
held between the early voting worker, Agnes Willis,
and the director of elections in Bladen CBE, Cynthia
Shaw, in which Director Shaw inquired how the early
voting results had gotten out into the community.
Testimony indicated that the conversation occurred
when the early voting worker returned the early voting
equipment to the Bladen CBE office shortly after early
voting ended on Saturday, November 3, 2019.
137. During the last day of one-stop early voting
in the 2018 Primary Election, and before early voting
results could be lawfully tabulated, Dowless
represented that Harris had “988 of the votes in
Bladen.” Ex. 70. The final sum of absentee by mail
votes and one-stop votes canvassed by the Bladen CBE
was 889 votes for Harris.
J. Bladen County Board of Elections Office
Security Concerns
138. The Bladen County Board of Elections shares
office space with the Bladen County Veterans Affairs
Administration. Non-elections personnel had access to
Board of Elections office space. Ex. 65.
139. The room in the Bladen County Board of
Elections office where the results tabulation computer
is located is directly across a common hallway from an
office occupied by Veterans Affairs staff. See Ex. 65.
140. A photo taken by a county board member and
sent to investigators on November 6, 2018, shows that

App. 625
the key to the ballot room, which is labeled with a
keychain marked “Ballot Rm,” hung on a wall in an
area of the Board of Elections Office accessible to nonelections personnel. The photo was sent by text
message with the message: “Same spot they have
always been.” Ex. 63.
141. Another picture of those same keys, which
was taken by a Board investigator on November 29,
2018, shows the keys hung on the same wall Ex. 64.
142. A photo taken by Board investigators shows
the ballot room left open, with the keys to the room left
unattended in the door. Ex. 66.
143. The Bladen County Board of Elections
unanimously voted to update security by resolution
passed on June 12, 2018, but the Board’s request for
funding was inexplicably denied by the Bladen County
Board of Commissioners and no updates were made.
See Ex. 68.
144. In October of 2018 the United States
Department of Homeland Security conducted a review
of the physical security at the Bladen County Board of
Elections office in 2018 and provided a list of options to
mitigate existing vulnerabilities, increase resilience
and implement protective measures. See Ex. 67.

App. 626
K. Fraud, improprieties, and irregularities
occurred to such an extent that they taint
the results and cast doubt on the fairness
of contests held for Congressional District 9,
Bladen Soil and Water Conservation District
Supervisor, and Bladen County
Commissioner, District 3 in the 2018 General
Election.
145. The fraud, improprieties, and irregularities
identified in Paragraphs 1 through 144, supra, operate
cumulatively under the unique circumstances of this
case to taint the results and cast doubt on the fairness
of contests held for Congressional District 9, Bladen
Soil and Water Conservation District Supervisor, and
Bladen County Commissioner, District 3 in the 2018
General Election.
146. Indeed, Harris himself testified as follows
near the conclusion of the State Board’s evidentiary
hearing on this matter:
Through the testimony I have listened to over
the past three days, I believe a new election
should be called. It has become clear to me that
the public’s confidence in the Ninth District seat
[in the] general election has been undermined to
an extent that a new election is warranted.
We find his assessment of public confidence credible.
III. CONCLUSIONS OF LAW
147. Sufficient notice of the evidentiary hearing
and of other procedural rights was provided to all
candidates who competed for election to the U.S.

App. 627
Representative for North Carolina’s Ninth
Congressional District; Seat 2 on the District Court in
Judicial District 16B; Bladen County Commissioner
District 3; and the Bladen Soil and Water Conservation
District Supervisor. All candidates were afforded due
process and the opportunity to present and crossexamine witnesses at the evidentiary hearing.
148. The State Board has general supervisory
authority over the primaries and elections in the State
and the authority to promulgate reasonable rules and
regulations for the conduct of such primaries and
elections as it may deem advisable. G.S. § 163A-741(a).
This includes the authority to “investigate when
necessary or advisable, the administration of election
laws, frauds and irregularities in elections in any
county municipality or special district.” G.S. § 163A741(d).
149. The State Board has the authority to “initiate
and consider complaints on its own motion” and “take
any other action necessary to assure that an election is
determined without taint of fraud or corruption and
without irregularities that may have changed the
result of an election.” G.S. § 163A-1180.
150. That authority includes the power to order a
new election when: (1) ineligible voters sufficient in
number to change the outcome of the election were
allowed to vote in the election, and it is not possible
from examination of the official ballots to determine
how those ineligible voters voted and to correct the
totals; (2) eligible voters sufficient in number to change
the outcome of the election were improperly prevented
from voting; (3) other irregularities affected a sufficient

App. 628
number of votes to change the outcome of the election;
or (4) irregularities or improprieties occurred to such
an extent that they taint the results of the entire
election and cast doubt on its fairness. G.S. § 163A1181(a).
151. The findings of fact set forth above reflect
numerous irregularities that occurred in the
November 6, 2018, general election in Bladen and
Robeson Counties, and many of those irregularities
occurred as a result of a coordinated, unlawful, and
well-funded absentee ballot scheme operated by
McCrae Dowless on behalf of Mark Harris. The scheme
perpetrated fraud and corruption upon the election and
denied the voters in affected contests “the opportunity
to participate in a free and fair election . . . the purity
and validity of said election being suspect and
doubtful.” See Appeal of Judicial Review by Republican
Candidates for Election in Clay Cty., 45 N.C. App. 556,
569 (1980) (hereinafter Clay County) (affirming State
Board’s order of a new election after absentee ballots
were illegally collected, certain ballots showed evidence
of having not been sealed, vote buying occurred, and
other administrative misconduct occurred).
152. It is neither required nor possible for the
State Board to determine the precise number of ballots
affected in circumstances such as this. See Clay
County, 45 N.C. App. at 573 (holding that the State
Board would have been “derelict” had it failed to call
for a new election when there was no showing that the
violations that occurred were sufficient to change the
outcome of the election but “a cloud of suspicion ha[d]

App. 629
been cast on all the absentee ballots cast in the
election”).
153. As set out in the Findings of Fact, and in
light of the unique circumstances set forth therein,
including the pervasive, wrongful, and fraudulent
scheme undertaken by Dowless and his workers on
behalf of Mark Harris and the Harris Committee, this
Board concludes unanimously that irregularities or
improprieties occurred to such an extent that they taint
the results of the entire election and cast doubt on its
fairness.
It is, therefore, ORDERED:
A new election shall be conducted in Congressional
District 9 under the following schedule:
a. Primary election: May 14, 2019;
b. Second primary (if necessary): September 10,
2019;
c. General election (if no second primary):
September 10, 2019; and
d. General election (if second primary): November
5, 2019.
And a new general election for Bladen Soil and Water
Conservation District Supervisor and for Bladen
County Commissioner, District 3, shall be held on
May 14, 2019 as indicated above.

App. 630
This the 13th day of March, 2019.
s/______________________
Robert B. Cordle
Chair
[Certificate of Service Omitted for this Appendix]

App. 631

APPENDIX I
ARIZONA ELECTION
PROCEDURES MANUAL
June 2014
Excerpts pp.185-186
Verification of Provisional Ballots
Time for Verification
Verify all provisional ballots for proper registration
within 10 calendar days after a general election that
includes an election for a federal office and within five
business days for all other elections.
The provisional ballot shall be counted if:
• the registration of the voter is verified and the
voter is eligible to vote in the precinct, and
• the voter’s signature does not appear on any
other signature roster for that election, and
• there is no record that the voter voted early for
that election.
If a signature roster or early ballot information
indicates that the person already voted in that election
the provisional ballot for that person shall:
• remain unopened,
• not be counted, and

App. 632
• be retained in the same manner as voted ballots.
The ballot shall remain unopened and shall not be
counted if:
• the voter is not registered to vote, or
• the voter is in the wrong precinct/voting area, or
• the voter has
identification, or

not

produced

sufficient

• the voter’s signature does not match the
signature on his/her voter registration form, or
• the voter voted their early ballot.
The County Recorder’s office shall create a provisional
ballot record for the voter that contains the following
information:
• provisional ballot receipt number
• name of voter
• precinct where provisional ballot was voted
• provisional ballot status
• provisional ballot status reason
• address (optional)
• date of birth (optional)
• political party (optional)
This information will be used for online verification of
a voter’s provisional ballot. All provisional ballots for
the election must be processed before posting this data

App. 633
on the Internet. The information shall be available to
the public online for one month after posting.
Rejection Reason Code
The rejection reason code is determined at the County
Recorder’s office. The rejection reasons are:
• not registered
• no ballot in envelope
• registered after 29-day cut-off
• no signature
• insufficient/illegible information
• signature does not match
• wrong party
• outside jurisdiction ballot
• voter challenge upheld
• voted in wrong precinct
• voted and returned an early ballot
• proper identification not provided by deadline
• administrative error
• not eligible
• other (please specify)
[ARS § 16-584(E)]

App. 634
Excerpts p.221
Additional Reporting
In addition to the general election canvass, the county
shall submit additional reports to the Secretary of
State at the time they are certifying their general
election results. Each report shall include statistics for
the federal primary and general elections. The reports
are the Provisional Ballot Reporting, Accessibility
Report, Voter Education Report, and Poll Worker
Training Report.
Provisional Ballot Reporting
With respect to the voter registration of each county,
the following information will be collected to measure
compliance performance and reported to the Secretary
of State (see Provisional Ballot Report on pg. 368):
• The number of provisional ballots in each
precinct
• The number of voters in each precinct
• The number of provisional ballots that were
verified and counted in each precinct
• The number of provisional ballots not counted in
each precinct and the reason for not counting,
such as:
1. Not registered
2. Wrong precinct
3. Not eligible to vote

App. 635
• Whether the uniform procedures were followed
for determining whether a provisional ballot is
counted or not counted

App. 636

APPENDIX J
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-15845
D.C. No. 2:16-cv-01065-DLR
District of Arizona, Phoenix
[Filed February 11, 2020]
______________________________________
THE DEMOCRATIC NATIONAL
)
COMMITTEE; et al.,
)
)
Plaintiffs-Appellants,
)
)
v.
)
)
KATIE HOBBS, in her official capacity )
as Secretary of State of Arizona;
)
MARK BRNOVICH, Attorney General, )
in his official capacity as
)
Arizona Attorney General,
)
)
Defendants-Appellees,
)
)
THE ARIZONA REPUBLICAN PARTY; )
et al.,
)
)
Intervenor-Defendants-Appellees.
)
______________________________________ )

App. 637
ORDER
Before: THOMAS, Chief Judge, and O’SCANNLAIN,
W. FLETCHER, BERZON, RAWLINSON, CLIFTON,
BYBEE, CALLAHAN, MURGUIA, WATFORD and
OWENS, Circuit Judges.
Defendant-Appellee Arizona Attorney General Mark
Brnovich’s motion to stay the issuance of this Court’s
mandate pending application for writ of certiorari (Dkt.
124), filed January 31, 2020, is GRANTED. Fed. R.
App. P. 41(b).
The mandate is stayed for a period not to exceed 90
days pending the filing of the petition for writ of
certiorari in the Supreme Court. Should DefendantAppellee file for a writ of certiorari, the stay shall
continue until final disposition by the Supreme Court.

App. 638

APPENDIX K
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-15845
D.C. No. 2:16-cv-01065-DLR
District of Arizona, Phoenix
[Filed April 9, 2020]
______________________________________
THE DEMOCRATIC NATIONAL
)
COMMITTEE; et al.,
)
)
Plaintiffs-Appellants,
)
)
v.
)
)
KATIE HOBBS, in her official capacity )
as Secretary of State of Arizona;
)
MARK BRNOVICH, Attorney General, )
in his official capacity as
)
Arizona Attorney General,
)
)
Defendants-Appellees,
)
)
THE ARIZONA REPUBLICAN PARTY; )
et al.,
)
)
Intervenor-Defendants-Appellees.
)
______________________________________ )

App. 639
STATE OF ARIZONA,

)
)
Intervenor-Pending.
)
______________________________________ )
ORDER
Before: THOMAS, Chief Judge, and O’SCANNLAIN,
W. FLETCHER, BERZON, RAWLINSON, CLIFTON,
BYBEE, CALLAHAN, MURGUIA, WATFORD and
OWENS, Circuit Judges.
The State of Arizona’s motion to intervene [D.E.
128] is GRANTED.
Judge Owens dissents from this order.

